<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                    LEGISLATIVE BRANCH APPROPRIATIONS
                                 FOR 2020

_______________________________________________________________________

                                 HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION
                                 ________

                    SUBCOMMITTEE ON LEGISLATIVE BRANCH

                         TIM RYAN, Ohio, Chairman

  C. A. DUTCH RUPPERSBERGER, Maryland      JAIME HERRERA BEUTLER, Washington
  KATHERINE M. CLARK, Massachusetts        DAN NEWHOUSE, Washington
  ED CASE, Hawaii


  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

                 David Reich, Sue Quantius, and Faye Cobb
                            Subcommittee Staff

                                  _____

                                  PART 2

                   FISCAL YEAR 2020 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS
                         
                         

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                 

                                 _____

          Printed for the use of the Committee on Appropriations
          
          

                    U.S. GOVERNMENT PUBLISHING OFFICE
     
  36-866                      WASHINGTON : 2019
                            



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, OhioKAY GRANGER, Texas          KAY GRANGER, Texas
  PETER J. VISCLOSKY, Indiana                   HAROLD ROGERS, Kentucky
  JOSE E. SERRANO, New York                     ROBERT B. ADERHOLT, Alabama
  ROSA L. DeLAURO, Connecticut                  MICHAEL K. SIMPSON, Idaho
  DAVID E. PRICE, North Carolina                JOHN R. CARTER, Texas
  LUCILLE ROYBAL-ALLARD, California             KEN CALVERT, California
  SANFORD D. BISHOP, Jr., Georgia               TOM COLE, Oklahoma
  BARBARA LEE, California                       MARIO DIAZ-BALART, Florida
  BETTY McCOLLUM, Minnesota                     TOM GRAVES, Georgia
  TIM RYAN, Ohio                                STEVE WOMACK, Arkansas
  C. A. DUTCH RUPPERSBERGER, Maryland           JEFF FORTENBERRY, Nebraska
  DEBBIE WASSERMAN SCHULTZ, Florida             CHUCK FLEISCHMANN, Tennessee
  HENRY CUELLAR, TexasJ                         JAIME HERRERA BEUTLER, Washington
  CHELLIE PINGREE, Maine                        DAVID P. JOYCE, Ohio
  MIKE QUIGLEY, Illinois                        ANDY HARRIS, Maryland
  DEREK KILMER, Washington                      MARTHA ROBY, Alabama
  MATT CARTWRIGHT, Pennsylvania                 MARK E. AMODEI, Nevada
  GRACE MENG, New York                          CHRIS STEWART, Utah
  MARK POCAN, Wisconsin                         STEVEN M. PALAZZO, Mississippi
  KATHERINE M. CLARK, Massachusetts             DAN NEWHOUSE, Washington
  PETE AGUILAR, California                      JOHN R. MOOLENAAR, Michigan
  LOIS FRANKEL, Florida                         JOHN H. RUTHERFORD, Florida
  CHERI BUSTOS, Illinois                        WILL HURD, Texas
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii
 
 
                 Shalanda Young, Clerk and Staff Director

                                   (ii)




                            C O N T E N T S

                               __________

                               Testimony

                                                                   Page
Office of Congressional Workplace Rights.........................     1
Open World Leadership Center.....................................    39
Architect of the Capitol.........................................    57
Congressional Budget Office......................................    93
Government Accountability Office.................................   123
Government Publishing Office.....................................   203
Library of Congress..............................................   249
U.S. House of Representatives....................................   297
U.S. Capitol Police..............................................   425
Members' Day.....................................................   469
Testimony of Interested Individuals and Organizations............   505

                                 (iii)


               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2020

                              ----------                            


                                        Thursday, February 7, 2019.

                OFFICE OF CONGRESSIONAL WORKPLACE RIGHTS

                                WITNESS

SUSAN TSUI GRUNDMANN, EXECUTIVE DIRECTOR, OFFICE OF CONGRESSIONAL 
    WORKPLACE RIGHTS

                   Opening Statement of Chairman Ryan

    Mr. Ryan. Welcome, everyone. We are going to call the 
committee to order. I am pleased to welcome everyone to our 
first legislative branch hearing for the fiscal year 2020. 
There are lots of new faces here--four new subcommittee members 
as well as the new majority professional staff. We even have a 
new name for one of the agencies appearing today. A special 
welcome to our new ranking member: Ms. Herrera Beutler.
    Let me quickly introduce our subcommittee staff to the 
members. On our side, we have David Reich as our clerk, and Sue 
Quantius and Faye Cobb. They are absolutely terrific and bring 
a ton of experience to this committee in helping their new 
rookie chairman. And also Jenny Panone, who continues on the 
subcommittee as minority clerk. We worked very well with her 
last year under Chairman Yoder.
    Though this committee is small in size, it has very 
important responsibilities in trying to provide Congress with 
the resources it needs to properly and independently perform 
its legislative functions and to make its work accessible to 
the people we represent. We also should remember that several 
of our agencies, such as the Library of Congress and the GPO, 
provide important services to the Nation as a whole as well as 
to the legislative branch. Our bill even supports some unusual 
functions for the legislature--the U.S. Copyright Office and 
Library Services for the Blind.
    This morning, our first hearing will be with the Office of 
Congressional Workplace Rights, formerly called the Office of 
Compliance. After that is concluded, we will have our second 
hearing with the Open World Leadership Center.
    One bit of housekeeping: I intend to follow what is pretty 
standard procedure in Appropriations subcommittees for 
questioning witnesses. For those members present at the 
beginning of the hearing, I will recognize members for 
questions in order of seniority, alternating between majority 
and minority. For those members who arrive after the hearing 
has started, I will recognize them in order of arrival, 
alternating between majority and minority. This order will 
continue through all rounds of questioning. I will try hard to 
observe the 5-minute rule for questions and answers. I know 
there are always conflicting Appropriations hearings, and I 
understand that members may have to come and go, but we are 
lucky that the legislative branch budgets come to us 
unencumbered by OMB review, and we already have requests in 
hand for most of our agencies. We may be able to nearly finish 
our fiscal year 2020 budget hearings before the President 
submits his budget for the executive branch.
    So let's get started. We are pleased to welcome today Ms. 
Susan Tsui Grundmann, the executive director of the Office of 
Congressional Workplace Rights.
    Ms. Grundmann, it is fitting that we begin with OCWR 
because it is integral to the high priority Congress has placed 
on the effective protection of workplace rights and its passage 
of the Congressional Accountability Reform Act last December. 
We know that it has been quite an active period for you since 
you testified here last year. At that time, Congress was 
considering the reform legislation, and last year's hearing 
moved away from budget questions and into opinions about how 
the reform legislation should be changed.
    Now that the legislation is enacted with an effective date 
in June 2019, I hope we can get back to a more budget-oriented 
session, which, of course, will include discussions of the 
resources your office needs to implement the new law.
    Before we start, I will turn to our ranking member, Ms. 
Herrera Beutler, for any opening comments you may wish to make.

          Opening Statement of Ranking Member Herrera Beutler

    Ms. Herrera Beutler. Thank you, Chairman.
    Thank you so much for recognizing me. I am looking forward 
to joining the subcommittee as ranking member. Congratulations 
on being selected as chair. Everyone that I have heard who has 
had the opportunity to work with you has spoken very highly of 
you. I am looking forward to it.
    Thank you for your graciousness this morning. Everyone, 
when I have mentioned to people, are like, ``He's a good Member 
to work with.'' So I am looking forward to this.
    And to the subcommittee, honestly, I feel like this is 
probably a good way to get my feet wet, so to speak, in 
something that is really focused on the institution and on 
preserving and protecting and promoting it in many different 
ways. So I think it will give me a good look at some of the 
activities and functions that make up our first branch of 
government: the legislative branch.
    Although, from what I have learned now, we are the smallest 
subcommittee, we are still very critical in that if we don't do 
our job, the other 11 committees can't do their jobs. So, as we 
start consideration of fiscal year 2020 budget request, I look 
forward to working with you in putting together a bill that 
adequately addresses the needs of our agencies so they can 
carry out their respective missions while at the same time 
balancing this with being good stewards of the fiscal taxpayer 
budget.
    Welcome, Ms. Grundmann, I look forward to hearing from you. 
I see your budget request is the same as it was enacted in 
2019. And I am looking forward to hearing from you on your 
office's work to implement the Congressional Accountability 
Reform Act, which was signed into law this last December and 
which our chairman already alluded to.
    So, with that, I yield back. Thank you, Mr. Chairman.
    Mr. Ryan. Very good, so now I would like to yield to the 
chairwoman of the full committee, Mrs. Lowey.

                 Opening Statement of Chairwoman Lowey

    The Chairwoman. Thank you. Sometimes I feel like I need 
roller skates going from one place to another.
    Good morning. And I would like to thank Chairman Ryan and 
Ranking Member Herrera Beutler for holding this hearing. It is 
a pleasure to welcome Executive Director Susan Grundmann of the 
Office of Congressional Workplace Rights before the 
subcommittee.
    The success of Members of the House and Senate depends on 
the staff in Washington and in our districts. When we met last 
year, revelations of harassment and discrimination shocked the 
country and highlighted inadequacies in congressional staff 
protections. Substantial legislative changes to the 
Congressional Accountability Act were only the first step 
toward remedying the institutional damage inflicted during 
years of grossly insufficient and often nonexistent staff 
protections.
    The OCWR is now tasked with implementing these reforms in a 
way that celebrates the increased diversity on Capitol Hill, 
promotes safety, and ensures everyone in the legislative branch 
community can complete their duties free from fear of 
discrimination and harassment. It falls to this subcommittee to 
ensure that OCWR has the resources to meet this need. I am 
pleased the fiscal year 2019 spending bill included $6.332 
million, a $1.3 million increase from the previous year, to 
cover the costs associated with recent reforms. However, this 
subcommittee will need to once again commit an adequate level 
of funding to ensure the OCWR can carry out its new 
responsibilities and increase services and protections for 
victims.
    Executive Director Grundmann, I eagerly await your 
testimony regarding the implementation of the CAA Reform Act 
and major changes to the OCWR after 2 years of troubling 
disclosures of harassment and assault across the country and, 
sadly, right here in this Congress. So thank you very much.
    Thank you, Mr. Chairman.
    Mr. Ryan. Thank you, Madam Chairwoman.
    Ms. Grundmann, you have the floor.

                   Testimony of Susan Tsui Grundmann

    Ms. Grundmann. Thank you, and good morning, Chairman Ryan, 
Ranking Member Herrera Beutler. On behalf of the newly formed 
Office of Congressional Workplace Rights, formerly known as the 
Office of Compliance, thank you for this opportunity to discuss 
our 2020 budget justification and request.
    Today is day 48 on our march towards implementation of the 
CAA Reform Act, which takes full effect on June 19th. Now 
remember that date because everybody in our office thinks about 
that day every single day of the year so far. And while many 
things have changed for us, a number of things remain the same, 
such as the labor and employment laws that apply to the 
legislative branch, such as the 180-day statute of limitations 
to file a claim under the CAA, such as the enforcement of the 
occupational safety and health laws, the ADA public 
accessibility rules, and the Federal Service Labor-Management 
Relations statute, and, perhaps most important, what remains 
the same is the independent nonpartisan nature of our office.
    What has changed is just about everything else. Beginning 
with that new name, which really does better reflect our 
mission and our purpose. Our jurisdiction has been expanded to 
include new employing offices, like the Helsinki Commission, 
and additional categories of employees, such as unpaid staff, 
and that is detailees, fellows, and interns. So our caseload 
could go up.
    Our ADR process, administrative dispute resolution process, 
no longer includes mandatory counseling, the mandatory cooling-
off period, or mandatory mediation, although mediation remains 
as an option. A new step in our process has been inserted which 
calls for preliminary review by a hearing officer within the 
first 30 days of the filing of the claim.
    All employing offices have new posting and training 
requirements. We have new reporting requirements, four or five 
by our count. And Members of Congress and employing offices 
must reimburse the Treasury account for certain types of awards 
and settlements.
    During the last year, including the last 48 days, we have 
accomplished a great deal. We moved forward with the e-filing 
system required in the Reform Act. We moved forward with, 
actually, fiscal year 2018 dollars. This system will be secure 
and will allow parties to have access to it during the pendency 
of the procedures. We are currently making modifications in our 
case management system to reflect the changes in the process 
brought by the Reform Act.
    We began discussions with contractors for the climate 
survey, the first ever climate survey in the legislative 
branch. We have identified statutory changes which require 
action and have inhouse teams with timelines and deadlines, the 
most significant of which is the promulgation of procedural 
rules to reflect changes in the CAA, such as that initial 30-
day preliminary review.
    We actually have a single individual in our office whose 
primary task is to track every team, note every benchmark, and 
to ensure that we adhere to every deadline. He is actually here 
with us today. I would like to introduce you to him. His name 
is Alex Ruvinsky. We are conducting brown bags with all our 
stakeholders on the changes we foresee. We are developing a new 
training module to reflect those changes, and actually other 
legislative branch offices are reaching out to us to use that 
module and require the employees to take this training so that 
they can fulfill their training requirements under the Reform 
Act.
    We have met with CHA and Senate Rules and will continue to 
do so. I have meetings scheduled with the House Ethics 
Committee and the Senate Ethics Committee. And we have a new 
logo and have secured a new domain name, and that is ocwr.gov.
    And if I may, I would like to take you through the changes 
in the Reform Act. It is in your materials, and you will see 
the flowcharts.
    There are actually three variations to this process, and 
let me go through the one generally that applies to most 
employing offices. One step back. Counseling, under the current 
system, which is still in effect, can last up to 30 days 
currently. Mediation, which is mandatory, must last up to 30 
days currently. The so-called cooling-off period must last 30 
days. All of that is gone under the new system. The process now 
begins with intake. And where the employee comes into our 
office, we record their claim. We give them notice of rights, 
and we immediately notify the employing office and its 
designated representative. At that point, the employee is free 
to go to district court within 90 days. So, without the 
cooling-off period, the mandatory mediation, immediately to 
court.
    The next step is entirely new, and that is the preliminary 
review I was telling you about and that occurs within the first 
30 days of the filing of the claim. It is before a hearing 
officer and actually will result in a report, a seven-point 
report which discusses a number of things: whether the employee 
is a covered employee, whether the named office is actually an 
employing office, whether the claim is timely filed within the 
180 days, whether the employee has stated a claim for which 
relief can be granted under the CAA. The hearing officer will 
also note factual and legal issues raised in the claim and 
identify the relief sought. And, finally, the hearing officer 
will note the potential for settlement.
    If the employee is not a covered employee or has not stated 
a claim for which relief can be granted, then the employee must 
go directly to district court; they will have no further 
recourse in our process. If, however, the employee is covered 
and has stated a claim for which relief can be granted, they 
may stay in our process, and the remainder of our adjudication 
process is pretty much the same as it currently is.


             new administrative dispute resolution process


    Members of Congress----
    Mr. Ryan. So let's just open it up at this point.
    Ms. Grundmann. Sure, okay.
    Mr. Ryan. I think it is really important that, this 
committee especially, we really understand this----
    Ms. Grundmann. Okay.
    Mr. Ryan [continuing]. Indepth. So initial process: notice 
to the employee's office. So someone comes in, and then you 
say, ``Okay.''
    Ms. Grundmann. Yes.
    Mr. Ryan. Call the chief of staff of the Member.
    Ms. Grundmann. We would notify--let me go one step further 
because Members of Congress actually have a distinct process at 
three junctures. First, initially at intake, not only would we 
notify OHEC immediately, we would also notify the Member and 
tell them primarily that they have the right to intervene along 
with the fact that they may be financially liable for any 
settlement or award that comes out of the Treasury fund.
    The second part that is distinct for Members of Congress is 
during the preliminary review. At the close of the preliminary 
review, the report that the hearing officer generates will go 
directly to the appropriate Ethics Committee.
    And, finally, upon final disposition of the case and final 
disposition includes a settlement or an award, the Ethics 
Committee will be entitled to the records of that case. So it 
is different for the Members of Congress.
    Mr. Ryan. So preliminary report, 30 days. There is a seven-
point plan--seven issues that you will cover, including relief 
and kind of procedural stuff, like timeliness and stuff and all 
that. And when you said the employee is not covered----
    Ms. Grundmann. If the employee----
    Mr. Ryan. What does that mean?
    Ms. Grundmann. What that means is if the employee fails 
that seven-point review--not a covered employee, not an 
employing office, not timely, failure to state a claim--the 
only option the employee has at that point is to go to district 
court.
    Mr. Newhouse. Civil action.
    Ms. Grundmann. Civil action, exactly.
    We know you have many questions. We hope to answer as many 
questions as we possibly can with the understanding that some 
of these answers are yet to unfold as we develop our procedural 
rules which will be out for notice and comment in April. Thank 
you for the privilege of your attention. And I look forward to 
answering your questions.
    [The prepared statement and biography of Susan Tsui 
Grundmann follow:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                            hearing process


    Mr. Ryan. Great. So I am going to have you just kind of 
quickly go through, you said the administrative proceeding. Can 
you talk to us a little bit about how that goes down?
    Ms. Grundmann. Sure, you mean the hearing process itself?
    Mr. Ryan. Yeah.
    Ms. Grundmann. It begins with the filing of a claim, a 
complaint. There are----
    Mr. Ryan. So they are covered.
    Ms. Grundmann. They are covered. They are in our process. A 
hearing officer will be appointed for the case almost 
immediately. That hearing officer will be in touch with the 
parties, talk about any preconference issues, set hearing 
dates. There is discovery under our process. There are motions 
as well. And the employee is entitled to a decision, under the 
new statute, within I believe 90 days of the close of the 
record.


                      representation for employee


    Mr. Ryan. So who is representing--who is speaking on behalf 
of the employee at this point? Do they have it to get an 
attorney that represents them?
    Ms. Grundmann. Great question. In the House, the employee 
is entitled to an employee advocate. And that is under the CAO 
branch. The employee is also entitled to either a designated 
representative or a private attorney, or they can proceed pro 
se. And the new reform bill brings into light a confidential 
advisor. And that person is actually defined by statute, and 
for the first time, the confidential advisor will actively work 
with the employee to develop the claim that will be filed.
    Mr. Ryan. And who is that? They work for you?
    Ms. Grundmann. That person has not been hired yet.
    Mr. Ryan. Okay.
    Ms. Grundmann. But yes, the role is actually defined by 
statute. And that person could be an employee of our office, 
could be somebody that the executive director designates for 
the sole purpose of getting them through the first part of the 
proceedings.
    Now let's talk a little more about the confidential advisor 
because it is a crucial role, and it is defined by statute. He 
or she can advise the employee on a privileged and confidential 
basis. He or she will also talk specifically about rights and 
protections under the CAA, the value of obtaining either an 
attorney or a designated representative as opposed to 
proceeding pro se, tell the employee that the employee has the 
ability also to go to the Ethics Committee, and there is 
nothing in our process that bars the employee from going 
directly to the Ethics Committee.
    There are limitations on the confidential advisor, and this 
is also baked into the statute. The confidential advisor cannot 
appear in any proceedings before OCWR. The confidential advisor 
cannot serve as a mediator in OCWR. And if the employee has a 
designated representative or an attorney, the confidential 
advisor cannot be that designated representative but can offer 
general assistance to the representative.


                           employee advocate


    Mr. Ryan. How is the confidential advisor different than 
the employee advocate?
    Ms. Grundmann. The employee advocate is actually paid for; 
it is free to the employee. The employee advocate will 
represent the employee during a House proceeding.
    Mr. Ryan. Who is that? Is that in your office?
    Ms. Grundmann. It is not in our office. It is a separate 
office. It is housed under the Chief Administrative Officer. 
And it is a much more extensive representation. And I believe--
I am not sure of this--that the employee advocate can actually 
accompany the employee to court.
    Mr. Newhouse. Could you repeat that, who pays for that?
    Ms. Grundmann. Okay. The confidential advisor is in our 
budget.
    Mr. Newhouse. Okay.
    Ms. Grundmann. The Office of Employee Advocacy, they call 
themselves OOEA, they are housed in the Chief Administrative 
Officer's Office, CAO.
    Ms. Herrera Beutler. OOEA?
    Ms. Grundmann. There are a lot of O's in our world. If I 
may, let me distinguish our O from all the other O's around. We 
are the only nonpartisan independent adjudicator that can 
provide a final disposition to a claim. We do not represent 
employees, but we can give them final resolution, and no other 
office does it in the legislative branch.
    Mr. Ryan. I yield 5 minutes to the gentlelady.


                       permanent record retention


    Ms. Herrera Beutler. A couple of questions. One of the 
things in terms of the substantial changes includes that you 
are tasked with I believe creating a program to permanently 
retain records of investigations, medications, hearings, and 
other proceedings. You are going to keep permanent records of 
medications----
    Ms. Grundmann. Not medications. I think it is mediations.
    Ms. Herrera Beutler. Okay. I had medications. I was, like, 
that seems a little inappropriate to me. I don't think it is 
anybody's business, so a little typo.
    Ms. Grundmann. But the medication could be part of the 
mediation so----
    Ms. Herrera Beutler. As long as the House is not keeping 
records of employees' medications, I am cool with that. Fast 
forward. That was the first one.


                 member reimbursement of treasury fund


    What happens if a Member leaves and doesn't reimburse? 
Because what I am understanding from this is you are paying 
upfront.
    Ms. Grundmann. Right.
    Ms. Herrera Beutler. And then what if they just leave?
    Ms. Grundmann. It is very, very well thought out. The good 
news is that we are not in the collections process. As you say, 
we pay the money out through the Treasury fund, and then the 
matter is turned over to the administrative branch of the 
House, so this is the appropriate Chamber. And there is a 
period of time allotted to the Member--let me answer your--I am 
going the long way around.
    Ms. Herrera Beutler. That is fine.
    Ms. Grundmann. Bear with me--there is a period of time 
whereby the Member can voluntarily repay it. I think it is 90 
days. Afterwards, the garnishment starts. Now if you are not a 
Member anymore, that is not an issue because there is language 
in the legislation that talks about garnishment of non-Federal 
wages, garnishment of Social Security, garnishment of TSP, so 
there are lots of avenues to get the money back.
    Ms. Herrera Beutler. And is any of this retroactive?
    Ms. Grundmann. The provision on reimbursement to the 
Treasury fund from Members of Congress has already started. So 
that started on December 1st. It is not retroactive beyond 
December 1st, but it started as of December 1st. That is one of 
few provisions of the Reform Act that actually implemented 
immediately.


                      budget to implement changes


    Ms. Herrera Beutler. Last year, an additional $1.3 million 
was provided in anticipation of this? But your budget didn't 
request an increase for fiscal year 2020. So is that amount 
sufficient to implement all the changes, or are there going to 
be additional costs down the road?
    Ms. Grundmann. Well, that is a great question, and let me 
answer it in a number of ways. First of all, we think we got it 
right. And we have in there the 1 million carryover from 2019 
going into 2020. We have asked for the same thing in 2020 going 
into 2021. We did anticipate a number of changes just seeing 
the similarities between the two bills, between the House and 
the Senate. But we didn't actually see the legislation itself 
until pretty much the same time you guys saw it. So there were 
a number of things that were new to us. But this is a new day 
and a new territory and new challenges.
    We have never adjudicated a case with a preliminary review. 
We know what the numbers look like currently. We don't know how 
many preliminary reviews there will be. We don't know how long 
it is going to take. It has got to take less than 30 days; that 
much we know. We also know that it has to be a hearing officer 
that conducts that review. And hearing officers are 
specifically defined in the CAA. They have to be retired judges 
or adjudicators that are versed in employment type cases. And 
they are paid on an hourly rate.
    So one final note: When the Reform Act implements in June, 
we will only have 3 months of data under the new system. We 
won't have a full year of data until the end of 2020 and that 
full year review is really important to spot trends: Are people 
filing less in the summer? Are they filing more at certain 
points in time?
    Our numbers are up this year for 2018--even in the 
beginning of 2019, we have half of----


                  library of congress employee claims


    So the numbers are up, and we do have the Library of 
Congress. They are about half of our numbers now.
    Ms. Herrera Beutler. But they were just added, correct?
    Ms. Grundmann. They were just added. And it is interesting 
because we have only had them for 6 months under the last 
fiscal year. And during that 6 months, they accounted for about 
18 percent of our docket in that 6 months.
    This year, just going from October 1st to today, they are a 
little less than half the docket already.
    Ms. Herrera Beutler. Things that need to be dealt with 
apparently.
    Ms. Grundmann. The Library of Congress. Yes, that they are 
now under our system. They come under our jurisdiction in March 
with the omnibus, and they have been filing claims.
    The Chairwoman. Oh, so you say they are half of the claims?
    Ms. Herrera Beutler. Half of last year's.
    Mr. Ryan. How many? What are the raw numbers?
    Ms. Grundmann. I can't give you a raw number in 2018.
    Ms. Herrera Beutler. I think you have a number of 
settlements.
    Ms. Grundmann. Those are aggregate.
    The Chairwoman. Oh.
    Ms. Grundmann. Let me be clear: The Library of Congress' 
dispute system still exists, so they have an EEO system. The 
Library employees are given an option either to come to us or 
choose the Library's process. We have talked to the Library 
when they first came under our jurisdiction in March. And their 
numbers are pretty similar to ours. I mean they get about 40, 
60 cases a year.
    The Chairwoman. Forty to 60 cases?
    Ms. Herrera Beutler. That is a lot.
    Ms. Grundmann. With five going through mediation. We get 
somewhere between 40 to 60 cases a year. Last year, we had over 
70 cases, which was pretty high.
    And that included the Library for 6 months.
    The Chairwoman. We are really shocked that there are over 
70 cases. Are you free to compartmentalize the cases? 
Obviously, no names, but what categories do they fall in?
    Ms. Grundmann. The vast bulk of our cases involve 
discrimination.
    The Chairwoman. Oh, okay.
    Ms. Grundmann. There are some labor cases. There are other 
types. There are FLSA, Fair Labor Standards, cases. We have a 
number of unions in the legislative branch, so we do see some 
activity there. But the majority of our cases are 
discrimination.


                           employee advocate


    The Chairwoman. I see. Now how many employee advocates are 
there?
    Ms. Grundmann. Let me see if I can answer your question in 
a different way. There is----
    The Chairwoman. I mean, 5, 10, 15, 2.
    Ms. Grundmann. I don't know the numbers. I don't know how 
many there are.
    The Chairwoman. Approximate.
    Ms. Grundmann. You mean that will represent an employee?
    The Chairwoman. Yes.
    Ms. Grundmann. There is an office that actually represents 
employees in the House. I think they have a director, and they 
may have two staff attorneys at this point.
    The Chairwoman. So my question is about the employee 
advocate, let's--that employee advocate may decide this person 
is guilty. Do they have an obligation to represent them? And I 
would think a Member or employee, whoever they are, wouldn't 
want an employee advocate that believes they are guilty. So I 
guess they have a right to get an outside attorney.
    Ms. Grundmann. True, absolutely, but--and this is a 
question better directed to the Chief Administrative Officer, 
but it is my understanding that--okay, we are still under the 
old system at this point--that the employee advocate would 
still have to represent the employee. Now under the new 
system----
    The Chairwoman. Wait. You are saying they would still have 
to represent the employee.
    Ms. Grundmann. Yes.
    The Chairwoman. But the employee may not want that person.
    Ms. Grundmann. Absolutely.
    The Chairwoman. So they have the right to get an outside 
counsel?
    Ms. Grundmann. Always.
    The Chairwoman. And pay for counsel themselves?
    Ms. Grundmann. Yes.
    The Chairwoman. And the employee advocate is free of 
charge.
    Ms. Grundmann. Yes.
    The Chairwoman. So sometimes when things are free of 
charge, that is exactly what they are worth. But I am just 
curious, do most of these cases use the employee advocate?
    Ms. Grundmann. I do not know if--I do not know that. Most 
of the cases--I don't know if we have actually seen the 
employee advocate in our system yet. And the employee--the 
office OOEA--OOEA--stood up I believe last fall. So they are 
fairly new to this community.
    The Chairwoman. So maybe we have to get to know them. I 
guess I am wondering if a person knows they are guilty and the 
employee advocate knows they are guilty, is that employee 
advocate required to still represent them as lawyers do?
    Ms. Grundmann. I think you should direct that question, 
with all due respect, to that office.


                   filing under the new system timing


    The Chairwoman. I get it. So, if an incident occurs today 
prior to full implementation, can victims wait to have their 
cases processed under the new regulations?
    Ms. Grundmann. Yes. The only thing the law requires is that 
the claim be filed within 180 days of the violation--of the 
alleged violation. So we are day 48. So, if the incident 
occurred today, they could file under the current system 
immediately within the next 4 months or so or under the new 
system and wait until June.
    Mr. Newhouse. They could file today.
    Ms. Grundmann. They can file today.
    Mr. Newhouse. For the new system.
    Ms. Grundmann. They cannot file today for the new system. 
If they file today, they are in the old system. Now the old 
system does have mandatory mediation on certain types of 
things. The new system has--the primary change, other than the 
mandatory nature of certain processes, is that preliminary 
review that occurs within the first 30 days. And, again, 
bringing this back, that preliminary review, if the employee 
loses that review, that seven-point review--actually it is 
four: timeliness, covered employee, employing office, failure 
to state a claim--if they lose that review, they cannot stay in 
our process under the new system. They have to go to court.


                notification of workplace rights posters


    The Chairwoman. Now we know there are 101 new 
Representatives. Have the new House offices received the same 
posters? And is the OCWR doing anything to confirm that all 
offices have properly displayed this information?
    Ms. Grundmann. With respect to the posters, the new 
legislation actually puts new requirements in that poster. And 
that poster does not need to be up--the new poster does not 
need to be up until June. Under resolution 724, which is from 
the last Congress, which I still believe is a standing rule, 
you must post a poster. And we have gone out, and we will be 
happy to deliver them. When the House resolution passed 1 year 
ago, 2 years ago, CHA actually picked up about 250 posters of 
ours and started handing them out.


                        family medical leave act


    The Chairwoman. The other thing I wonder about, this is to 
the chairman too, do you deal with issues such as paid medical 
leave?
    Ms. Grundmann. Yes. FMLA.
    The Chairwoman. I was shocked to learn--I give a very 
generous, 3 months paid medical leave. And I realized some of 
the offices don't do that. So I guess it is not consistent. Is 
that correct?
    Ms. Grundmann. Can I respond to that?
    Mr. Ryan. Yes.
    Ms. Grundmann. Every Member's office is a separate office 
in Congress. There is no one office, like the Architect of the 
Capitol is a single entity; the Capitol Police is a single 
entity. There are 535 different employing offices in Congress.
    The Chairwoman. So there is no consistent timeline.
    Ms. Grundmann. I do not know if there is consistency, but 
there is no requirement.
    The Chairwoman. No, there isn't. I just discovered it. 
There is no requirement across the Federal Government.
    Ms. Clark. That is crazy.
    The Chairwoman. I mean, I have been giving 3 month's family 
medical leave forever, but some offices don't. You don't?
    Ms. Herrera Beutler. We had to just go around and survey 
colleagues to try to figure out, how do we do this? And we just 
pulled it together. We do give leave and maternity, but there 
was no standard. We literally just started asking Members how 
they did it, and we pulled together what we felt was the best 
practices, and we consulted an outside organization to try to 
put together something, but there is no template.
    The Chairwoman. No, this is not true confessions. I don't 
want anybody to----
    Ms. Herrera Beutler. What I mean is that not everybody does 
it. There was no help. It wasn't like, ``Oh, this is the way to 
do it.'' You just have to make it happen if you believe in it.
    The Chairwoman. In fact, I was surprised talking to a 
Senator whose daughter worked for another Federal agency, they 
didn't get any paid family leave. So that is something we may 
want to talk about because I am not sure what the standard is, 
but I have always felt that 3 months is fair, but that is not 
consistent across the government.
    Ms. Grundmann. Let me tell you how we would review a claim 
like that.
    The Chairwoman. Is anyone responsible for that or no?
    Ms. Grundmann. It wouldn't be us because, again, we are 
neutral. We don't represent you. You do have representation. 
You have the Office of House Employee Advocacy--no, sorry. I 
got my O's mixed up. The House Employment Counsel will 
represent management, will represent you in a hearing. We would 
look at a claim of that nature. We would review the policy in 
your office, not across the legislative branch--in your office.
    Ms. Herrera Beutler. I think we may have used that.
    Mr. Ryan. So you gave it to one person and maybe didn't do 
it for someone else.
    Ms. Grundmann. No, we don't disseminate any boilerplate 
language, but if there was a claim in your office, we would 
review the policy in your office.
    Mr. Ryan. Right.
    The Chairwoman. But if there is no standard, each office 
does their own thing.
    Mr. Ryan. If I am understanding you correctly, so, in my 
office, if I gave it to two people, I gave paid leave to two 
people, and then someone else came along and I said no, then 
you would review it within the context of how I handled my 
office previously.
    Ms. Grundmann. Your office only, not anybody else's office.
    One of the things that we can do is we do provide training. 
It is not mandatory in the House, our type of training. And we 
can come and talk to you about good practices and best 
practices in terms of policies as well. Just let me make clear 
that FMLA--we have talked a little bit about this--FMLA is the 
floor. Nothing precludes you from giving more than what FMLA 
gives you.
    The Chairwoman. Thank you, Mr. Chairman.


                notification of workplace rights posters


    Mr. Ryan. All right.
    Mr. Newhouse, 5 minutes.
    Mr. Newhouse. Five minutes.
    Well, thank you for being here with us. This is an 
important thing; everybody has a stake in it. Like Mrs. Lowey 
said, we are not doing true confessions here--for the benefit 
of all of my colleagues, can you make sure that all of those 
posters have been distributed?
    Ms. Grundmann. We can, but bear in mind that you will have 
the old posters and not the new posters.
    Mr. Newhouse. As long as we are----
    Ms. Grundmann. No problem.


                       clarification of training


    Mr. Newhouse. So my questioning is I think pertinent to 
you. All of the training stuff that we as House Members have 
had to go through and all of the staff, that is your thing, 
right?
    Ms. Grundmann. That is not our thing.
    Mr. Newhouse. Oh, it is not?
    Ms. Grundmann. Yes. CHA actually created guidelines as to 
who qualifies for certification purposes, and the entity that 
is providing the certification training is actually a private 
contractor. Now we offer the training for free, but it doesn't 
qualify for the certification.
    Mr. Newhouse. You just took all my ammunition away because 
I was going to bring up the fact that, personally, I guess we 
checked the box on the training, but I just didn't really see a 
whole lot of value in it, and I didn't talk to anybody who came 
out of there thinking, ``Oh, great, I feel much better about 
this.''
    ``I feel much better about this.'' And my staff, I have to 
tell you the truth, if this is the right venue, we had to spend 
a ton of money to send people for training across the State, 
and I thought it was a waste of time.
    Ms. Grundmann. Well, we do it for free.
    Mr. Newhouse. To get there and put them up in hotels and 
all that.
    Ms. Grundmann. Well, we are certainly partial to our 
training, one, because we know our process and we think we know 
our new process.
    Mr. Newhouse. Must have been the contractor training that 
we received.
    Ms. Grundmann. No doubt.
    Mr. Newhouse. So that is not you----
    Ms. Grundmann. Well, actually we do provide training, and 
we think we have the best training because we have lived and 
worked amongst you for 23, going on 24 years, and you have paid 
for it already. But we provide not just the mere letter of the 
law in terms of, like, discrimination or harassment. We go one 
step further: we talk about best practices. We have bystander 
intervention training, which is not mandatory, but we will 
offer it to you. We will come to your offices. We will go to 
your district offices. We also offer unconscious bias training. 
A number of chiefs of staffs have already attended it. It is 
interactive; it is an in-person training. There is a module on 
our website for bystanders as well. We talked about I think 
something we have learned over the last year and a half or so, 
is that the culture has to change, and you can no longer talk 
about a mere legal definition to change the culture. You have 
to educate on the underlying biases, practices, and bad 
behavior that could lead to a hostile work environment, that 
could create discrimination. So you have got to go over and 
above. We can do it for you.
    Mr. Newhouse. Okay. Well, in light of the fact that we have 
got between 40 and 70 cases per year.
    Ms. Grundmann. Those are not House cases. Those are cases 
overall from the legislative branch, to be clear.
    Mr. Newhouse. Oh, not just Member offices.
    Ms. Grundmann. Right. Member offices, you are our largest 
stakeholder. You are half the community that we serve. So, in 
relative numbers, it is not that much. Clearly the other 
employing offices have more cases before us.
    Mr. Newhouse. But the fact that, within the whole 
institution, there are that many complaints----
    Ms. Grundmann. In the legislative branch, yes.
    Mr. Newhouse. Whether theyare all legitimate or successful, 
it points out the fact that we need to make sure that the 
training that is in place is actually getting the message to 
people, right?
    Ms. Grundmann. I could not agree with you more.
    Mr. Newhouse. So I would just throw my 2 cents in that I 
don't--at least from my experience, we are not there yet. It 
should be more than just checking a box so we can tell the 
public, ``Hey, we are doing this.'' We actually should try to 
get to the root of the culture and change that needs to happen.
    Ms. Grundmann. We have these modules ready. We are ready to 
deliver them to you. It is an interactive module too.
    Mr. Newhouse. Good. This is critically important. 
Everybody, all of us are certainly interested in this, wanting 
to get it right. I don't think that, reading through the things 
and listening to what you are saying, that there is a 
presumption one way or another. You guys are completely 
neutral, right?
    Ms. Grundmann. Absolutely. Independent, third party 
neutral. Only one in the legislative branch.
    Mr. Newhouse. So there is no presumption of innocence or 
guilt?
    Ms. Grundmann. Well, not guilt so much, but there are 
burdens of proof that are part of the law, and that is 
available for anybody to see, but there is no presumption of 
anything; you are correct.
    Mr. Newhouse. Okay. Are my 5 minutes up already?
    Mr. Ryan. I have to take a stand every now and again.
    Mr. Newhouse. It has to be with me?
    I appreciate you being here and discussing this.
    Mr. Ryan. Ms. Clark.
    Ms. Clark. Thank you. And congratulations, Mr. Chairman and 
Ranking Member Herrera Beutler.
    Thank you all for the best view. It is pretty fantastic, 
and I am just delighted to be here.


                      contract for house training


    And thank you, many of my questions were in line with Mr. 
Newhouse's questions that we would like to reduce your numbers 
for this whole system, and that starts with good training. And 
I think we have found consistently with our staff talking to 
other staff, other Members, that the unique power imbalance in 
Members' offices is not addressed and the fact that a Member's 
staff who potentially may have a claim against a Member then 
imperils everyone else's job and livelihood if their claim is 
successful is such a unique dynamic that doesn't really exist 
anywhere else. So who does that contract for that training? 
Where does that fall?
    Ms. Grundmann. I believe the contract for the training that 
is the required training is Franklin Covey.
    Ms. Clark. But who contracts with them?
    Ms. Grundmann. CAO. Some of the dynamics that you are 
talking about are actually part of our training, which is how 
do you deal with that power dynamic between the Member and the 
intern because an intern will be covered under the new law--or 
a senior staff. I mean, there is a tension. And your offices 
are relatively small. So, I mean, we talk about those dynamics, 
and we actually talk about, how do you address these things?
    In previous training sessions, we have--and it works best 
when the Member is present. And the Member will stand up and 
say: Look, if any of this happens to you, you contact me 
directly.
    And that is leading by example.
    Ms. Clark. Okay, well, we will look into your training. It 
is really having sat through one of the required trainings, and 
it was like you pick two--a sentence, and then you start your 
next sentence with the last word in that sentence. And I wonder 
how does this help us understand the power dynamics in our 
office and what is acceptable and what is a mystery? But you 
are the wrong person to take that up with.
    Mr. Ryan. May I ask, how much did we pay for the Franklin 
Covey?
    Ms. Grundmann. Oh, I have no idea. Wrong person to ask.
    Mr. Ryan. Okay.


                      ocwr providing this training


    Ms. Clark. Would you ever want responsibility for that 
training?
    Ms. Grundmann. Absolutely.
    Ms. Clark. Okay. And would you have the capacity. Since you 
have these training modules, would you have the capacity to do 
that? I mean, I would think you would need more funding.
    Ms. Grundmann. Absolutely more FTE. Just a case in point, 
let's go back to November of 2017 when all of this started.
    Our deputy executive director trained about 500 people in a 
couple of weeks, and she did it not with 500 people in one 
room; she did it in ones and twos and threes in individual 
offices. And it does work better in that setting because then 
you have a conversation going with the staff.
    Ms. Clark. Do you know how it came to be the required 
training came down through the CAO or how that----
    Ms. Grundmann. You should ask the CAO, but that was their 
guidelines that CHA had to put out in terms of who could 
qualify and what should be in the training. That was not our 
determination.
    Ms. Clark. Okay, thank you.


               notification to member of claim in office


    Just a few questions. In the new process, I know that there 
is Member of Congress notification when it is a claim against 
the Member. But when it is not, if that was from someone in a 
Member's office against someone else, is there any notification 
for the Member of things they should be aware of in their 
office. I know it would be very unusual that you would be 
totally unaware, but it can happen. Or is that not----
    Ms. Grundmann. I do not believe that there is a legal duty 
in the statute to notify the Member if it is a member of the 
Member's staff. What would happen is the Office of House 
Employment Counsel would be notified, along with the employing 
office. So whoever you have designated in your office would be 
notified of a claim.
    Ms. Clark. So there would be some feedback.
    Ms. Grundmann. Maybe you have designated yourself to be 
notified of any claim filed.


             new administrative dispute resolution process


    Ms. Clark. All right. And with the administrative 
proceedings, how are you developing the rules of procedure?
    Ms. Grundmann. Oh my goodness. We actually have a whole 
team for that. That is the biggest, heaviest lift we have.
    Ms. Clark. I would think so.
    Ms. Grundmann. Those rules are being written as we are 
sitting at this table right now. They will be going to our 
board of directors at the end of this month for their review. 
They will be going out for public notice and comment in April. 
It is a 30-day comment period, and then that will give us time 
to absorb the comments after the comment period closes and 
reform the rules to the comments we received. The final rules 
themselves absolutely have to be posted before June 19th.


                              budget needs


    Ms. Clark. Okay. That is great. And with you asking for no 
increase in your funding, and I realize that it has 
significantly grown since fiscal year 2017. But you think you 
are able to do that?
    Ms. Grundmann. We think we can, but we don't know what we 
don't know. We do not know what kind of burden preliminary 
review will give us. It is fairly extensive, and it is 30 days, 
and it is with a hearing officer. The statute is very clear.
    Ms. Clark. How many hearing officers are you anticipating 
you will need?
    Ms. Grundmann. We currently have six. They are appointed on 
a random or rotational basis. They are contractors, so they 
work and are paid by the hour. They are not employees on staff. 
The statute actually allows the executive director to designate 
a member of staff for a hearing officer. And it makes sense on 
some ends, so I think the question has come our way: Why don't 
you have a hearing officer on staff? Because the statute also 
requires that the appointment be on a random or rotational 
basis. And if we have a full-time staff hearing officer, it is 
neither random and it is never rotational.
    Ms. Clark. Thank you very much.


                      remote access to proceedings


    Mr. Ryan. To follow up on that, do you treat an issue that 
happens in a congressional district, like in a State, then 
contract with a retired judge there, or does this just all move 
to Washington?
    Ms. Grundmann. We use FMCS, and they actually provide us 
the mediators. And it would go to the employee.
    Mr. Ryan. What does FMCS stand for?
    Ms. Grundmann. The Federal Mediation Services Conciliation 
panel, and they are the folks that give us the names. They have 
mediators nationwide. But yes, the employee is not going to be 
dragged here to D.C. for something like that.


                            salary increases


    Ms. Clark. One more question. About salary increases, I 
think you had 1.9 percent, but we have recently passed the 2.6, 
so would you need an adjustment if you were able to----
    Ms. Grundmann. It is hard to say no to something like that.
    Ms. Clark. Okay.


                       clarification of training


    Mr. Ryan. Mr. Ruppersberger.
    Mr. Ruppersberger. The first thing I want to say before I 
get to you: Mr. Chairman, do you remember we came in on the 
same class, and we came in on the Appropriations Committee at 
the same time. And Leg Branch was one of my first 
subcommittees. I was a former county executive. And I think our 
mission here really is managing the operations of the House and 
these issues, the police, and all these areas that we deal 
with. So it is a very important committee, and it really helps 
us run every day. Now getting to where you are, you are in a 
very unique position. I have looked at your bio, and you have a 
lot of experience. And yet you are starting up basically based 
on the Congressional Accountability Act, and the climate has 
changed, and there are a lot of issues that are there. So you 
are not really going to know exactly where your budget is going 
to be and what you are going to have. And I am really glad you 
have the ability to have subcontractors who can help you, and 
that is part of what you need to do.
    I think one of the most important things we have to deal 
with on the issues you deal with is that it starts in our 
offices. And the training there and the fact that we have 
communication with all employees, including interns, and then 
have the ability for anyone at any time to go to someone else--
it could be a Member or designate a chief of staff or a 
legislative director so someone could feel comfortable. And I 
think one of the most important things if you set those 
standards is to try to stop a situation before it gets to the 
next level, and I think that is where it is important. And that 
is where the training comes in.
    And I think the training was pretty well that my staff went 
through. We all went through it. Are there things based on what 
you know now that you would change in the training? What is 
happening there as far as the training, or do you think it is 
pretty good?
    Ms. Grundmann. Well, your certification training is not our 
training. It is that of a private contractor. Our training goes 
over and above that, which is we talk about the underlying 
practices that can lead to an environment that is hostile, that 
is discriminatory. And we open up a line of communication in 
the staff so they could talk about how they would handle 
something like that. Perhaps you have a staffer that is not the 
target of the activity but an observer, a bystander. What 
should the bystander do? The bystander should have a number of 
options: talk to the employee, talk to the harasser, talk to 
their supervisor. So there are other ways of dealing with it so 
you can nip this bad behavior in the bud.


                            vision of agency


    Mr. Ruppersberger. Your staff helped my staff. We had 
constituents that would call and wanted the names of the 
Members where money was paid out, and based on you helping us 
and working with us, we were able to answer the questions 
appropriately. I think the laws are going to be changed. There 
is going to be more transparency and openness, but the 
important thing too is the balance. When you are dealing with 
these issues, you have someone who files a complaint, who knows 
whether it is true or not. There is a process to go through. 
But where do you see your mission changing as this law has 
changed and the culture has changed on sexual harassment and 
issues like that?
    Ms. Grundmann. Well, our vision is actually I think far 
more reaching than our mission. Our vision really is a 
legislative community that is free of discrimination and 
harassment, and free from occupational health and safety, and 
accessible to the public. It is a zero-complaint year; that is 
what we are looking for. Can we get there? We can't stop people 
from filing, but again this goes back to changing the behavior 
and changing the culture, and you have to have this 
conversation. And we want to be able to have this conversation 
with you one on one in a group in a larger setting, however it 
works for you.


                   cybersecurity and confidentiality


    Mr. Ruppersberger. I think it is important. I do a lot of 
cybersecurity, and you are always going to have files on 
whatever you do. And a lot of these files are confidential. And 
by the way, it is just not about Members; a lot of victims 
don't want anything to go out there either. You need 
confidentiality. So you have to deal with these issues of 
privacy and how you handle them, but once you have files, they 
could be hacked, so to speak, which could be used by bad people 
and bad guys to leverage or do whatever they want with one 
individual or wherever we go. Have you talked to the CAO or 
whatever about protecting the privacy of your classified or 
confidential files?
    Ms. Grundmann. We actually sit on the IT cybersecurity work 
group.
    Mr. Ruppersberger. Okay.
    Ms. Grundmann. We have a seat on it. So there is a cross 
conversation going across a legislative branch with other risk 
managers, other cybersecurity experts. We are working in tandem 
with them. We are undergoing a GAO cybersecurity audit that is 
required under the new legislation. We are looking forward to 
the results that will come out.


                         future projected needs


    Mr. Ruppersberger. And the final thing: We are 
appropriators, and we ask a lot of policy questions, and we are 
learning in this hearing about where you are in the process, 
your challenges for the future because it is an ongoing 
process. From an appropriations point of view, you have already 
stated you have an increase from last year. As appropriators, 
where do you see you going? What do you think you might need 
more in the future, especially as it relates to not only your 
staff but the private contractors and the judges?
    Ms. Grundmann. That is a great point. Again, we were 
talking about not knowing what we don't know right now. What we 
do know is that we can expect cases to go up because we have 
more employing offices under the new Reform Act. We have a 
larger class of potential claimants, including unpaid staff. I 
don't know how many people are interns or fellows or detailees 
on Capitol Hill, but they are now covered under the act. So the 
scope has been expanded for us to cover. And even with the 
Library coming in, that has brought new claims and put a 
different stress on our system.


                       library of congress claims


    Mr. Ruppersberger. I wanted to ask you about the Library, 
how many people work at the Library of Congress?
    Ms. Grundmann. I don't know.
    Mr. Ruppersberger. Anybody have a clue?
    Mr. Ruvinsky. It is between 3,000 and 4,000.
    Mr. Ruppersberger. Really? I did not realize that at all. 
That is why, because of that amount of people. Now is there a 
reason why those claims--are you talking with the Librarian? We 
are going to be doing her budget too in this committee. What is 
happening that you might look at from your perspective to work 
with the leadership there to see what is going on?
    Ms. Grundmann. Well, I think what we can do, and I think 
the Library has reached out to us in particular to fill their 
training requirement needs. There is, under the new 
legislation, a requirement that every employing office develop 
and implement a training and education program for their 
employees. We are working toward making our program part of--to 
fulfill their training needs.
    Mr. Ruppersberger. Are there more discrimination, sexual 
harassment cases? What is the scope of it?
    Ms. Grundmann. The scope, overall, the bulk of the cases 
are discrimination based on race and color. The second class 
category of cases that we see more frequently than anything 
else is discrimination based on gender. And gender includes 
harassment.
    Mr. Ruppersberger. Harassment. You are talking about the 
Library of Congress.
    Ms. Grundmann. Yes.
    Mr. Ruppersberger. How about on the other side, your 
regular cases----
    Ms. Grundmann. Well, I am talking about legislative branch 
overall.
    Mr. Ruppersberger. So the trend that you see in the Library 
is also the same trend in whatever you do, or is the Library a 
little different?
    Ms. Grundmann. I don't think we looked into that depth in 
terms of spotting trends for individual employing offices. We 
certainly have not been required to do so. There is some value 
in having this conversation. But clearly the larger the 
employer is, the greater the possibility of having claims.


                           change in culture


    Mr. Ruppersberger. Would you say, finally, my final 
question, that it really starts in our offices to develop a 
communication, a system, a system for reporting and including 
the interns--sometimes we have interns 2 or 3 months, and they 
move on. And I think that is a focus that we--especially it 
could be the Member or the chief of staff or the legislative 
director, but the employees who might be working with younger 
interns, and I think that is important too. We need to focus on 
that issue too.
    Ms. Grundmann. I think you nailed it.
    Mr. Ruppersberger. Okay, good.


                       clarification of training


    Mr. Ryan. I just have one or two quick questions, and I 
think Mr. Ruppersberger just touched upon it. What are we 
doing, what are you doing, and what can we help you do as far 
as really trying to understand? We did this training in the 
Library of Congress, and we are still having problems. And how 
do we get the feedback that, you know, it is not working? They 
used Franklin Covey. And where you are doing your work, it is 
working; and where they are doing their work, it is not 
working, so we are going to move on from them and go to someone 
else. What is the feedback loop?
    Ms. Grundmann. Let me step back, Franklin Covey only does 
training for the House, not for the Library of Congress. So 
each employing office, Architect of the Capitol, Capitol 
Police, has their own, I would presume, training program, as we 
do. They have to report to CHA and Senate Rules in June as to 
what that program is. So you will actually see what the 
individual programs are.


                             climate survey


    But this, though, in particular was very informative 
because it gives me an opportunity to talk about the climate 
survey, and this is the first climate survey that you will have 
legislative-wide. That survey will be--it is, again, defined by 
statute, will be voluntary in nature, and must be confidential 
and anonymous. And the survey has to tell the respondent ``this 
is confidential, this is anonymous'' throughout the survey. The 
statute also requires that we have specific questions on 
attitudes toward sexual harassment. So, for the first time, you 
will actually have the temperature taken, so to speak.
    Mr. Ryan. For every employee.
    Ms. Grundmann. It is voluntary, but it is part of our 
communication plan to get out to all the employing offices, 
starting from the leadership and drilling down and encouraging 
them to take this type of survey. Now the results are going to 
be given to CHA, Senate Rules, and the Committees on Homeland 
Security and Government Affairs. We are in the process of 
developing that survey right now. I will tell you we talked 
about the biggest lift was the procedure rules. This is the 
second biggest lift. And this is coming sometime in the first 
quarter, first, second quarter of fiscal year 2020. Lots of 
questions we need answers to: How long the survey is? Do we 
have open-ended questions? I mean, we have been encouraged to 
do that. But certainly in developing this survey, the statute 
does require that we work with these committees.
    Mr. Ryan. And you can let us know when you are ready to 
release the survey because I think we can send a joint Dear 
Colleague, and I think the House Administration should send a 
joint just to make sure everyone--encouraging everyone to fill 
this out so we can get that kind of feedback that we need.
    Ms. Grundmann. Right. And the more people that respond, the 
more accurate the survey will be.


                            customer survey


    Mr. Ryan. Right. One last question, with regard to the 
hearing officer and the process that the employee would have to 
go through so they get an employee advocate or they get a 
confidential adviser, whatever that case may be, and then they 
go through the hearing process, and then there is a report, and 
onward we go; do you have anything in place to talk to the 
employee after they go through that process, so again we can 
say, ``Okay, how did this go?''
    Ms. Grundmann. Customer survey.
    Mr. Ryan. Customer survey, get as much feedback as we 
possibly can from the employee so that we know how to maybe 
adjust or deal with employee advocates, making sure if a woman 
comes in or a person of color comes in, we want to make sure we 
are giving them the best service possible and the best skilled 
and equipped person to advocate for that.
    Ms. Grundmann. So, as we are designing the system, the time 
to ask for this is now. And I think we can definitely have that 
as an element of the after, the lookback, so to speak.
    Mr. Ryan. I think that is really important: do a debrief.
    Ms. Grundmann. Debrief. It will obviously depend on 
everybody participating afterwards. Some people do; some don't.
    Mr. Ryan. Great. Well, this was a great hearing. Thank you.
    Thank you so much and your entire team, especially your ace 
in the hole from Youngstown, Ohio.
    The committee is adjourned.
    [Questions submitted for the record follow:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    

                                        Thursday, February 7, 2019.

                      OPEN WORLD LEADERSHIP CENTER

                                WITNESS

JANE SARGUS, EXECUTIVE DIRECTOR, OPEN WORLD LEADERSHIP CENTER

                   Opening Statement of Chairman Ryan

    Mr. Ryan. I call this hearing to order.
    Thank you, Ms. Sargus, for being here today. We appreciate 
it. And your entourage. You are like a President of a country 
here with all this.
    Although the budget for Open World Center is small as 
compared to the rest of our legislative branch agencies, it has 
had a real impact in showcasing U.S. values and democratic 
institutions in an area of the world where Russian officials 
stand firmly against our Nation's democratic principles. It 
does so by facilitating visits to the United States by 
legislators and other government officials from Russia, 
Ukraine, and other countries to meet with our colleagues here.
    I understand the Center uses the strength and expertise of 
local volunteer organizations and cost-sharing in grant 
proposals to maximize savings. This is a benefit to the 
taxpayer, visiting countries and local communities. A win-win 
for everyone involved.
    We are thankful for the leadership of the Center, its 
staff, and the many volunteers across America who have worked 
hard to ensure the success of Open World.
    My own State of Ohio is the sixth-most-visited State, 
having hosted over 1,200 Eurasian visitors. I look forward to 
your testimony today and working with you to continue to 
building global relationships.
    I was telling the staff earlier today, over my career I 
have done a lot of traveling, and I just think the interfacing 
of legislatures and legislators is essential to having these 
deep relationships that we need. Presidents come and go, and a 
lot of times the seniority in our legislative bodies is really 
essential to deepen the relationship between the countries.
    So I am thankful for all of your work and your great and 
well-dressed team that you have over there. We have to look 
into the budget. You are paying these guys a lot of money. They 
look very sharp, well-dressed.
    But, with that, we are happy to hear your remarks.
    Oh. Let me first yield to the ranking member, Ms. Herrera 
Beutler.

          Opening Statement of Ranking Member Herrera Beutler

    Ms. Herrera Beutler. Welcome. It is a pleasure to have you, 
Ms. Sargus. I look forward to hearing your testimony and 
learning more about the Center and how it supports changes in 
other countries by inviting developing leaders to observe our 
democracy and our free enterprise system in the U.S.
    When I get to questions, I am obviously interested in 
hearing about the activities that you participate throughout 
the U.S. and including my district. We are not the sixth-most-
visited, but, as I was looking through, we do get our share.

                   Chairman Ryan Outlines Proceedings

    Mr. Ryan. Thank you, Ms. Herrera Beutler.
    Without objection, Ms. Sargus, your written testimony will 
be made part of the record. With this in mind, please summarize 
your statement and highlight your efforts of the past year to 
the committee. After your statement, we will move to questions 
and answers.
    So please begin.

                    Opening Statement of Jane Sargus

    Ms. Sargus. Thank you. Thank you for welcoming our 
delegation of the Members of Parliament of Serbia. We are 
delighted that they are part of this process today. It 
illustrates, actually, the real work of Open World, and having 
them here with me is encouraging. And I hope that you will have 
a chance to speak with them for a moment. I don't know that 
they will stay the whole time, though. So we will see.
    Mr. Ryan. We will try to keep it brief.

          OPEN WORLD LEADERSHIP CENTER FY 2020 BUDGET REQUEST

    Ms. Sargus. Chairman Ryan, Ranking Member Herrera Beutler, 
and members of the subcommittee, thank you for this opportunity 
to present testimony on the Open World Leadership Center's 
budget request for fiscal year 2020.
    In this request, the Center is asking for $5.8 million, an 
increase of $200,000, or 3.6 percent, over the 2019 enacted 
appropriation. Open World has been at the current enacted level 
since fiscal year 2016. The increased funds are needed mostly 
for program costs, especially airfare, accommodations, and 
other logistical expenses.

             OVERVIEW OF THE OPEN WORLD LEADERSHIP PROGRAM

    The Center conducts a one-of-a-kind, peer-to-peer exchange 
program that has hosted more than 28,000 emerging leaders from 
Russia, Ukraine, and other post-Soviet and transitional states 
since 1999. In 2018, more than 140 of our participants were 
either members of parliament, parliamentary staff, or regional 
or local legislators. By the end of this year, we will have 
hosted our 20,000th Russian participant.
    As a legislative branch agency, the Center is well-placed 
to provide critical support to Congress in its foreign affairs 
oversight responsibilities. Indeed, this placement is the 
leading component of the success of the Open World program in 
these strategically important countries.
    Providing programs for informed citizens and, in turn, for 
more informed legislators is universally a good thing. And we 
do this in a critical region of the world where knowledge-based 
democracies with transparency and accountable governance are 
not traditions.
    On the program side, Open World has an American hosting 
network of service clubs, local NGOs, and community colleges, 
as well as thousands of volunteer host families. In 2018, these 
host families lived in nearly 120 congressional districts in 48 
States and contributed nearly $2 million in in-kind 
contributions.
    Coupled with an increasing number of U.S. embassies working 
directly with Open World and other cost-sharing partners, this 
keeps the per-person cost of an Open World delegate at about 
$9,000--far below the standard executive branch rate of $20,000 
per person.
    Open World's young leaders stay in private homes in 
American communities across the country. They discuss topical 
issues of mutual interest and experience firsthand the 
functioning of our democratic institutions. They talk with 
their counterparts during the professional program and go back 
to their countries with high praise for that and for their 
American host families. This is how the Open World program 
nurtures civil society that develops not only from the top down 
but from the ground up and the periphery in.
    Each year, there are new American civic organizations, such 
as Friendship Force, Rotary, Sister Cities, or other clubs, 
joining the Open World network. And because of this network, 
these future leaders from Eurasia form positive views of the 
United States, which, in turn, influence attitudes in their 
home countries.
    The most important work we do, however, is to showcase the 
American system of governance, particularly the legislative 
process.

                     IMPACT ON FOREIGN LEGISLATORS

    Did you know that the Americans with Disabilities Act has 
impacted communities far beyond our borders? Last year, a 
delegation from Azerbaijan with three disabled participants 
went to Reno, Nevada, to examine how that law could be 
replicated in their country.
    That the GI Bill and other veteran-related legislation 
inspired the Ukrainian Parliament to establish the Ministry of 
Veteran Affairs last year? An Open World delegation hosted in 
Maryville, Tennessee, is taking the lead to help craft legal 
and legislative language addressing these needs.
    That the Freedom of Information Act leaves an indelible 
impression on the Russian journalists that come on the Open 
World program? When a state journalist from Foreign Minister 
Sergey Lavrov's press pool expresses a favorable impression of 
the Voice of America, acknowledging its independence no less, 
we have just made an inroad in countering disinformation.
    For the United States Congress, the Open World Leadership 
Center is a resource. Our delegations are ready and willing to 
provide on-the-ground, unfiltered information about events and 
developments in their countries.
    Open World is an asset. Our parliamentary program is 
unmatched in the legislative branch. When your counterparts in 
Open World countries meet with you, you are getting direct and 
firsthand information. This, in turn, becomes the basis for a 
more informed foreign policy.
    Open World is an investment. Bringing delegations of rising 
leaders to meet with their counterparts here creates a global 
network of partners united in a common goal: to endow 
democracies in transition with the basic ingredients of 
accountable governance and transparency in a civil society.
    The Open World program is your toolkit for supporting 
democracies in transition--a toolkit that creates opportunities 
for Open World participants to experience how legislative 
action is the change agent their governments may need; a 
toolkit that allows America's constituents to engage personally 
in strengthening civil society in other countries. In these 
countries that do not have a tradition of open debate or 
legitimate opportunities to propose alternatives for their 
government, our participants see how the legislative process 
can empower them to be that agent for change.
    Most importantly, though, the Open World program is an 
effective one precisely because it is in the legislative 
branch. In today's geopolitical environment, legislative 
diplomacy emerges as a unique but no less powerful tool for 
engaging governments in critical regions of the world.
    There are good examples of Open World success stories 
itemized in the justification. This unique program continues to 
succeed in a shifting landscape, where it has achieved a 
special status in the successor states of the former Soviet 
Union and elsewhere.
    On behalf of all of us at the Open World Leadership Center, 
I thank this subcommittee for its interest in and support of 
the Open World Leadership Center.
    [The prepared statement and biography of Jane Sargus 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Ryan. Thank you.
    We will open it up for questions. I will yield to my 
ranking member, Ms. Herrera Beutler, for 5 minutes.

                            HOST COMMUNITIES

    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    Well, from the research we have found, you have hosted 12 
programs over the years in my neck of the woods, in Washington 
State. And I believe Members of Parliament from Tajikistan and 
regional economic specialists from Ukraine are visiting our 
area, at least, this year.
    Ms. Sargus. Yes.
    Ms. Herrera Beutler. I just wanted to hear what types of 
district events you participate in and how you determine what 
districts you choose.
    Ms. Sargus. So Open World seeks to get geographic diversity 
when we issue grants to national organizations. So when we work 
with a national grantee, we say, can you get into 50 States, or 
how many States can you get into?
    National grantees have their own hosting network, and so 
they reach out to the different States and seek their 
solicitation to see if they would be willing to participate in 
an Open World program.
    Ms. Herrera Beutler. So a national grantee is someone here 
in the States who is receiving?
    Ms. Sargus. Well, it could be Rotary International.
    Ms. Herrera Beutler. Okay.
    Ms. Sargus. And Rotary International is a good example 
because they have clubs in every State.
    Ms. Herrera Beutler. Okay.
    Ms. Sargus. And I would like to give a shout-out to Rotary 
because they are a wonderful partner, and they are largely 
responsible for creating a network of clubs in Russia. They 
increased the size and number----
    Ms. Herrera Beutler. Really.
    Ms. Sargus [continuing]. Of clubs in Russia. Yes. 
Everything has abated a bit, but from 1999, in the beginning, 
Rotary was very important in working in Russia.
    And we still have clubs in the United States who nominate 
for the program because of the sister partnership.
    Ms. Herrera Beutler. Okay.
    Ms. Sargus. Yes. So when the grantee selects a host 
organization, that host organization creates opportunities for 
a professional program. And the delegation will visit--it could 
be the State Treasurer's office, depending on the theme. It 
could be a hospital administrator if it is on a medical theme. 
So they choose meetings and professional contacts with people 
involved in that particular theme of travel.
    Ms. Herrera Beutler. Got it.
    Ms. Sargus. The Rotary would be a good example because of 
the entrepreneurship and business development connection.

                          CANDIDATE SELECTION

    Ms. Herrera Beutler. I was hoping you could explain to me 
how a delegation is formed. Like, is it self-selecting, or are 
you looking--how does that work?
    Ms. Sargus. So delegates are not self-nominated.
    Ms. Herrera Beutler. Okay.
    Ms. Sargus. There is no self-nomination. In each of our 
countries, we work with the U.S. embassy there as well as 
having on-the-ground nominating organizations. And then, of 
course, on this side, we would have Rotary or Friendship Force 
who would also be able to help with that, and Sister City 
organizations.
    Mostly, though, the nominations come through the embassy 
from nominating organizations in that country--trusted, solid 
organizations that we can use, especially in Russia.
    Ms. Herrera Beutler. I was going to say, because I think it 
was 2016, there were, with regard to funds made available for 
support for Russian participants--obviously we want their 
participation, but I saw that we put in a pretty specific set 
of criteria for how those are chosen.
    Is that pretty typical for this program? Or were we just 
kind of looking at this case, saying, this is kind of our 
mission here, so we are going to put a few sideboards on this?
    Ms. Sargus. I would say that it was a reflection of the 
time. And we still do not bring officials from the central 
government. And that was the language that was in there. And it 
is a reflection of the times.
    But we really look for the emerging leader, the young 
person. Most of our delegates are 35 years and under or, you 
know, in their 20s. And they have demonstrated the ability to 
change minds or to lead groups or to create consensus. That is 
an emerging leader, and that is the person that comes over here 
and meets their counterpart in the United States. And they form 
bonds, they form ideas for projects, and they often continue 
them.
    Ms. Herrera Beutler. Very good.
    Well, with that, I yield back, Mr. Chair.
    Mr. Ryan. Mr. Ruppersberger.
    Mr. Ruppersberger. Well, again, I am back on this committee 
after a period of time, but years ago, that is when I got to 
know Open World. And I don't know if he is still involved, but 
Judge Dick Bennett, U.S. district court judge, is a very good 
friend of mine, and he was always advocating--in fact, he did 
go to Russia, I think----
    Ms. Sargus. Yes, he did.

                           VETTING CANDIDATES

    Mr. Ruppersberger [continuing]. And meeting with the other 
judges.
    You know, the chairman and I are both on the Defense 
Appropriations Committee. And we spend billions of dollars in 
defense and nuclear and Russia, China, cybersecurity, all those 
issues. But this is a program that, really, we invest in what 
you are doing--and you have been doing it for 20 years, I 
think--that really can make a difference down the road.
    Now, we know that China has a culture--they are 
communists--they are to be looked at when they are here and 
they are not going to be able to make a lot of changes. But the 
subtle relationships--it is about relationships--and trust that 
might develop. There could be a way, when some of these people 
might be in leadership or have input to make a difference in 
this world, that we--it is really a dangerous world right now.
    So I think it is a really good program. You know, the 
numbers are pretty good; 28,000 I think you are talking about.
    Ms. Sargus. Yes.
    Mr. Ruppersberger. And that is very good.
    I want to ask you, because Russia and the Chinese--I know 
we are always dealing with issues in my intelligence 
background. When you have people coming over, I assume some of 
these people are going to be spies. I mean, it is just natural 
that they are going to try to get people to these other 
countries.
    Do you see that? How do you deal with it? And, you know, if 
they are, it doesn't make any difference, because you are 
exposing them to a free world. So could you address that?
    Ms. Sargus. That is a great question. You know----
    Mr. Ryan. Do we have to go into closed session for this 
answer?
    I never thought I would say that in a Leg Branch hearing.
    Ms. Sargus. Sure.
    That is a great question. All of the Russian delegates are 
vetted by the embassy, the U.S. embassy. The visas are issued 
in Russia. So that process is pretty well-established and 
pretty safe.
    Yes, I suppose somebody could be. I couldn't tell you if we 
had a spy or not. I will not know that.
    But I know that we take care with the vetting. It is 
matching the background with the theme of the program and in 
the career development of that person. Are they in the right 
place? Are they an emerging leader? And that gets vetted by the 
embassy. And we trust our U.S. embassy on this matter.

                          THEMES FOR PROGRAMS

    Mr. Ruppersberger. Let me ask you this too. There are 
certain major threats that we have in our country. One of the 
most serious, other than nuclear weapons, is probably cyber. 
And we know Russia is very aggressive in our country and China 
and other countries.
    Do you ever, as part of a curriculum or educating, letting 
your people work with our people, about the issue of 
cybersecurity and how it is important to the world that we 
understand we need standards in that area? Is there any type of 
format for those type of discussions--and it doesn't have to be 
cyber. It can be something else that is really important to the 
world.
    Ms. Sargus. Well, we have programs with Russian 
journalists. And----
    Mr. Ruppersberger. Yes, and I noticed that. I wanted to ask 
you about the Russian journalists, because that is major.
    Ms. Sargus. Yes.
    Mr. Ruppersberger. And I think you just started that.
    Ms. Sargus. It is a very powerful statement to a Russian 
journalist to come to the U.S. and especially spend--actually, 
they spend a third day in Washington, because of the Newseum, 
because of the Voice of America. It is an important part of 
their orientation. But often they go to a host city that has a 
major newspaper or a radio station.
    So they are meeting their counterparts, and they are 
talking about the issues in a unusually frank and open way. 
They are very, very confident and capable of saying what is 
wrong with the situation or what is right with the situation. 
There doesn't seem to be much fear of having the wrong opinion.
    So everybody gets educated, both ways. We learn a little 
bit from them; they learn a bit from us. But, generally, the 
journalists from Russia that come to the United States on our 
program go away deeply impressed.
    Mr. Ruppersberger. They probably want to stay. But 
notwithstanding that----
    Ms. Sargus. Possibly.
    Mr. Ruppersberger [continuing]. In closing, I support your 
program. I think it is important that we move forward. I think 
we get something out of it in this very dangerous world. And a 
lot of it is about networking and relationships, in the end----
    Ms. Sargus. Yes.
    Mr. Ruppersberger [continuing]. And learning a little bit 
about our country and what they have to deal with. And, 
hopefully, around the world, it does make a difference, 
compared to, again, what you and I do on Defense Approps--
billions of dollars that we are spending to protect our 
national security all over the world. And yet this is not a 
lot, but it hopefully will make a difference.
    When I was a county executive, there was a program called 
Ultra program. And we helped fund it--had to do with Northern 
Ireland and Southern Ireland, in the same type of format that 
you had, where they brought them together. And it really 
started to work. Over a period of time, you could see it. And 
they would come to the United States, but getting the North and 
South together.
    Ms. Sargus. I think that one thing that we keep in mind 
when we are hosting Russians, there will eventually be a post-
Putin era.
    Mr. Ruppersberger. Uh-huh. Yes.
    Ms. Sargus. And if you have 20,000----
    Mr. Ryan. Don't tell Vladimir Putin that, okay?
    Mr. Ruppersberger. Yeah.
    Ms. Sargus. And, in that time, we will have already hosted 
20,000-plus young Russian rising leaders who are moving into 
important positions and influential positions and policymaking 
positions. And that will matter in future relationships.
    Mr. Ruppersberger. Yes. It will.
    Ms. Sargus. We have 20,000 friends in Russia who are going 
to be important down the road.
    Mr. Ruppersberger. Do you stay in touch with them at all?
    Ms. Sargus. Oh, yes, we do. We received a grant last year 
from an anonymous donor who wants us to promote and grow our 
alumni program, especially in Russia and Ukraine. And Russia 
has the 20,000----
    Mr. Ruppersberger. That is very important, I think.
    Ms. Sargus. Yes, exactly. So we are going to work hard on 
that part of program. Ukraine is a much easier place to work 
in, obviously, but mostly it will be in Russia.
    Mr. Ruppersberger. Good.
    I yield back.

                      DEVELOPMENT AND FUNDRAISING

    Mr. Ryan. This is, obviously, critically important work 
that you are doing. And, you know, I have been on and off with 
this committee and just disappointed at the budget over the 
past few years and what has happened. I actually think these 
are the programs we need to really be investing in. And you 
just articulated why it is so important over the long haul. And 
we get very shortsighted sometimes in this body and in this 
country, not really recognizing these seeds that we used to 
plant all the time around the world that helped us win the Cold 
War. We have forgotten those very lessons.
    So I am not sitting here promising we are going to get that 
budget back up to where it was in 2009 or 2010, so don't get 
too disappointed in me, but the opportunities are here for us 
to grow this program.
    And so I just have a couple of quick questions.
    One, you mentioned financial contributions from the 
outside, which you are legally allowed to partner and take.
    Ms. Sargus. Yes.
    Mr. Ryan. How is that going? And are you attracting more 
private donations?
    Ms. Sargus. We are so-so in our ability to raise private 
money. We don't have the in-house capacity, to be honest. None 
of us are development officers. We are only six people in the 
agency. We are good at talking and asking, and we do submit 
proposals, and we will continue to do that.
    Where we have more success is, in applying at a budget 
review, with the Department of State for funds that are 
available. But that is also an unknown quantity of money. So I 
can ask for $4 million and I might see $50,000 in a given year. 
And I don't know until well into the fiscal year what that 
amount might be, so it makes budget execution a particular 
challenge.
    But we manage. And I have gotten used to the way Open World 
operates. Open World is a trust fund. It is different than the 
other agencies that you will talk to. And as a trust fund, that 
means that we have more fluid beginning dates and end dates of 
obligations, because it is essentially no-year money. It is 
appropriated once a year, and then it goes into a trust fund, 
which means I can spend it over time.
    Mr. Ryan. Have you explored the opportunities of building 
out the fundraising arm of your organization?
    Ms. Sargus. Well, we did hire for a 10-month period an 
outside person who gave us a roadmap. And as I said, we do 
apply for grants. We have gotten grants. And the grants are 
usually for specific purposes, such as the alumni program, 
which is really an important part of having an exchange program 
and continuing with that follow-up. So we will continue to work 
on that, and we will continue to work on fundraising.
    Mr. Ryan. And what is the cost-share? You may have 
mentioned this. But, like, with the Kiwanis, you have them come 
to Boardman, Ohio, and you are working with the local Kiwanis. 
They put you up in housing, but is there any cost-share there--
--
    Ms. Sargus. There is. I mean, they----
    Mr. Ryan [continuing]. Other than, like, an in-kind type of 
contribution?
    Ms. Sargus. Absolutely. Breakfast. It is the kitchen-table 
diplomacy. You sit at the kitchen table with people who are 
future leaders of countries and you have your coffee or your 
tea together. And most dinners are spent together. The lunches 
are working lunches.
    But the contribution is that home stay, including the 
meals, but it is also sharing the culture and sharing family 
time and going to a local baseball game or a hockey game, which 
is--it is funny. Those kinds of things really matter, and they 
are part of that bonding process.

                                 POLAND

    Mr. Ryan. One last question. I know the world is obviously 
changing a lot, and there are always conversations about 
expanding operations to include other countries. I know there 
is an interest that I share with a Member of expanding to 
Poland. Can you talk just a little bit about that?
    Ms. Sargus. Yes. We have been in conversation, and, 
actually, we had a meeting with a staff member from the 
Congresswoman's office, and Open World is ready to jump in and 
launch a program.
    The process that we are going to do, we will be bringing 
this up at the board meeting, which is February 28. Your office 
has notification of that because you are ex officio member of 
the board of trustees.
    Mr. Ryan. I have heard that. I am excited about that.
    Ms. Sargus. Yes. And it will be in the Library of Congress, 
and details will be coming. And so that will be a topic of 
discussion. And we are ready to do that program, and the board 
will hear the arguments for it.
    And it is followed by a 90-day notification to the 
subcommittees, both chambers.
    Mr. Ryan. Okay. Terrific.
    Ms. Sargus. To add a country, we have to notify, a 90-day 
notification.
    Mr. Ryan. Okay.
    Well, thank you so much. And thanks again to your team and 
our special guests from Serbia. Thank you for being here. I 
hope this is a great experience for you. I hope you get some 
good breakfasts in America. And if you are in Ohio, I recommend 
Bob Evans. They have very good pancakes.
    And, again, thank you. And I would like to continue this 
conversation offline around the fundraising piece.
    Ms. Sargus. Okay.
    Mr. Ryan. I think that can be important. There is a lot of 
money floating around the world and around the country today, 
and if we can figure out how to supplement some of this, we can 
get you expanded to where you need to be.
    Ms. Sargus. Yes. We are happy to do it. We are happy to 
have that conversation. We will reach out to your office----
    Mr. Ryan. Okay.
    Ms. Sargus [continuing]. To make that appointment.
    And yours, too, if you are interested.
    Mr. Ryan. Terrific.
    Go ahead.
    Ms. Herrera Beutler. I would add to that, I have done 
development for a small nonprofit, and I realize no one ever 
wants to pay for maintenance and operations. There are 
different things you are never going to be able to sell the 
ticket for. But it is worth investing, if nothing else, because 
then you are going to have people coming in and taking, you can 
kind of supplant funds.
    Ms. Sargus. Right.
    Ms. Herrera Beutler. You can cover certain things. And with 
the uncertainty that you have experienced with the budgeting, 
it just helps, it just adds. It is worth having someone--you 
make what you bring in. So you need to get somebody young and 
hungry.
    Ms. Sargus. Yes. Sure.
    Mr. Ryan. And even if it is part of their portfolio with 
something else that they are doing, they may open you up to all 
kinds of connections. So, anyway----
    Ms. Sargus. Sure. Well, thank you.
    Mr. Ryan [continuing]. We will spare our Serbian friends 
the inside discussion here, but thank you so much for all your 
work.
    Ms. Sargus. Thank you.
    Mr. Ryan. We really appreciate it, and it is critically 
important.
    Ms. Sargus. I wanted to say something, that Phil Kiko, the 
Chief Administrative Officer, is one of most important people 
that our delegations speak to. I just wanted to let you all 
know that. He is a font of information that is practically 
unmatched in the leg branch. He is wonderful to the groups, and 
they love talking to him. He is so great.
    Mr. Ryan. Thank you.
    Ms. Sargus. So I just wanted you all to know that.
    Mr. Ryan. Thank you. Yeah, Phil is a great guy.
    Ms. Sargus. Thank you.
    Mr. Ryan. Thank you so much.
    [Questions submitted for the record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    

                                        Tuesday, February 26, 2019.

                        ARCHITECT OF THE CAPITOL

                                WITNESS

CHRISTINE A. MERDON, ACTING ARCHITECT OF THE CAPITOL

                   Opening Statement of Chairman Ryan

    Mr. Ryan. All right. Let's call this hearing to order.
    This is the fiscal year 2020 budget hearing for the 
Architect of the Capitol. I am pleased to gavel this hearing to 
order.
    And We will have two hearings this morning: first the 
Architect of the Capitol, then followed by the Congressional 
Budget Office.
    We welcome Ms. Christine Merdon, the Acting Architect of 
the Capitol, along with her team in the back against the wall.
    Ms. Merdon, this is your first time testifying before the 
subcommittee. You are pinch-hitting after the resignation of 
Steven Ayers last November. But we know that you have had a 
distinguished tenure at the AOC and before that were involved 
in several projects near and dear to our hearts in Washington, 
like the Martin Luther King Memorial and the Nats baseball 
stadium--two really cool projects.
    With all the scaffolding and cranes around the Capitol 
complex, I am sure we will find lots to talk about today.
    I have to note that your budget request is a sizable 
increase of $98 million or 13.3 percent. We know that the 
increase is driven by several large project commitments, and we 
have to hope that we will get a generous enough 302(b) 
allocation to address them.
    Just to remind our members, we are luckier than the other 
Appropriations subcommittees. We can begin our budget hearings 
because we have received the leg branch requests, while the 
executive branch budgets have been delayed more than a month.
    Ms. Merdon, before I ask you to summarize your written 
statement, I will ask our ranking member, Ms. Herrera Beutler, 
if she has any opening remarks she would like to make.

          Opening Statement of Ranking Member Herrera Beutler

    Ms. Herrera Beutler. I do. Thank you, Mr. Chairman.
    Welcome, Ms. Merdon. As was mentioned, this is your first 
time before the Legislative Branch Subcommittee in your current 
role as Acting Architect of the Capitol. Congratulations.
    Ms. Merdon. Thank you.
    Ms. Herrera Beutler. While maintaining day-to-day services 
and operations, which include welcoming 3-million-plus visitors 
to the Capitol Visitor Center and Botanic Gardens, the AOC has 
a busy year with some major projects, including stone 
restoration, co-generation development at the Capitol Power 
Plant, the ongoing Cannon renewal and Rayburn garage 
renovation--and we just cheer you on in that--the completion of 
the first phase of the House childcare expansion, which is very 
exciting, as well as numerous other projects and maintenance 
work.
    And on top of all of that, recently you played a major role 
in the moving of hundreds of Member, committee and leadership 
offices, impacting the staff and all of us through the 
congressional transition.
    So I look forward to learning more about the operations and 
projects of the Architect of the Capitol and participating in 
some site visits around campus.
    Thank you.
    Mr. Ryan. Thank you.
    The floor is yours.

                     Testimony of Christine Merdon

    Ms. Merdon. Thank you.
    I would first like to thank all of you for meeting with me 
in advance of the hearing. I know your schedules are extremely 
busy, but you took time to meet with me, and I greatly 
appreciate that so I could introduce myself and you could learn 
a little bit about me and the agency.
    So good morning, Chairman Ryan, Ranking Member Herrera 
Beutler. Thank you for the opportunity to present the Architect 
of the Capitol's fiscal year 2020 budget.
    Many of you are new to the subcommittee, as I am new as 
Acting Architect of the Capitol, but I am not new to 
understanding the needs and the responsibilities of this 
agency. Serving 8 years as the Chief Operating Officer provided 
me the opportunity to work with a very talented team. We have 
achieved many successes, including the Capitol Dome restoration 
and, most recently, getting significant progress on the Cannon 
Building renewal.
    Our request of $832 million prioritizes people, projects 
and preservation to ensure that we can complete our mission. We 
are honored to be trusted stewards of the most iconic buildings 
in the Nation: the House and the Senate buildings, Library of 
Congress, Supreme Court, Botanic Gardens and the Capitol. Many 
visit the U.S. Capitol because it is the symbol of democracy 
throughout the world.
    Nearly everything you encounter on the Capitol campus is 
preserved and maintained by the AOC. From the incredible 
architecture that inspires you, to the floors you walk on, to 
the lights that brighten your way, there is an entire world of 
unseen IT and security infrastructure that allows you to do the 
Nation's work in safety and comfort.
    Each year, we are asked to do more. Our footprint is 
expanding. Our responsibilities and complexity of our work and 
security requirements are increasing. Our people work behind 
the scenes to help the agency meet the mission every day. In 
the past, the AOC has strategically prioritized Capitol budget 
increases to maintain and improve our facilities, but this has 
been at the expense of our operational support needs. To meet 
the current and growing requirements, we must have the right 
resources.
    We request additional staff to successfully meet our 
project and operational needs. This includes project managers, 
safety and fire professionals and contracting officers. Today, 
for example, a Federal contracting officer executes 100 
contract actions a year; our contracting officers at the AOC 
execute 200 actions a year.
    The AOC has more than 2,000 employees. To attract and 
retain specialized talent in a competitive market, we need 
human resource professionals.
    Our team, as well as our inspector general, confirmed that 
cybersecurity is our highest risk. We hold sensitive 
information; we must safeguard it. However, our IT funding is 
one of the lowest in the Federal Government--3 percent of our 
budget compared to the Federal average of 11 percent. Our staff 
works around the clock, but our IT support is not available 
after 5:00 and on weekends.
    We have had many project successes over the last year, 
including the co-generation project, funded through a public-
private partnership and now yielding significant energy 
savings.
    The Capitol Power Plant generates steam and chilled water 
throughout the campus through miles of tunnels. We must keep 
this critical infrastructure safe and reliable. Additional 
security screening is essential to close a critical gap. We 
must keep threats outside of the building.
    We are in a race against time to maintain our 
infrastructure. Stone from this building can crumble in your 
hand. Therefore, it is important to prevent the deterioration 
of historic fabric. We are requesting $60 million in projects 
to ensure major campus landmarks are enjoyed by future 
generations. Preservation is a part of our heritage. The 
buildings, fine art, botanic assets--their value is priceless.
    So, during the Dome restoration, our project team used 
AOC's original drawings from 1855 as a resource to complete the 
project. We have requested preservation resources to continue 
our work.
    Chairman Ryan, last year, you noted a concern of us 
prioritizing projects over people. We know we must invest in 
people we need to carry out our project and preservation 
mission. With your help, we will continue to be stewards of our 
Nation's living history.
    So that concludes my remarks. I look forward to hearing 
your questions today.
    [The prepared statement and biography of Christine A. 
Merdon follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                  CAPITAL CONSTRUCTION AND OPERATIONS

    Mr. Ryan. Thank you so much. We appreciate it.
    As I said, I will take the first volley here.
    You are asking for: $25 million increase for the Capitol 
Building, $28 million for the Power Plant, $53 million more for 
the Library of Congress. Also requested is a substantial 
increase in the Capital Construction and Operations, which is 
akin to your headquarters program management account.
    Can you explain to the committee why the Capital 
Construction and Operations account requires $25 million more, 
which is a 24-percent increase?
    Ms. Merdon. Thank you for that question.
    Many of you know the Architect of the Capitol has several 
jurisdictions, 10 appropriations, 9 jurisdictions, including 
the House Office Buildings, the Senate Office Buildings, the 
Library of Congress.
    Our central staff supports all of these jurisdictions by 
being a central location for human resources, for IT, safety, 
fire, and environmental protection, project managers.
    So the Cannon, which is one of the largest projects we have 
ever done in the history of the AOC, project managers for that 
project support that project.
    So, over time, our line-item construction projects have 
increased, our footprint has increased with the O'Neill and 
also with the Union Square. We need people to support those 
initiatives and those efforts.
    So the project increases, the project work to be done 
behind the scenes, there is a lot of work by contracting 
officers and many others to support that. So we are rightsizing 
our organization to accommodate our growing needs and 
responsibilities.
    Mr. Ryan. So how many people work now, and how many would 
you be able to hire if you got the full $25 million?
    Ms. Merdon. We are hoping to hire 35 more people in CCO, 12 
projects managers. Right now, we are understaffed in project 
management. And the project managers are the heart of what 
makes us deliver our projects on time.
    We also have a need for seven contracting officers. You 
know, as I mentioned in my opening statement, we do almost 
twice as much in contract awards as the rest of the Federal 
Government, so our contracting officers are working very hard. 
And if you don't have enough contracting officers, the contract 
actions take longer to do, and then it accumulates additional 
cost.
    Mr. Ryan. So I am going to play dumb. So you need 12 more 
projects managers, you need 7 more contracting officers, and 
additional money to get those projects done.
    So you are saying, if you get all of the requests that you 
asked for, that that particular account would handle the 
management side of basically all of the increases that you are 
asking for?
    Ms. Merdon. It would handle the management side.
    We also would be able to hire people. You know, working in 
Washington, D.C., almost my entire career, it is a very 
competitive market. And making sure that we are the best agency 
that people can come to, and we reach far and wide for the 
talent that comes here. Everybody here is very specialized. So 
it is project managers, IT professionals, HR professionals, 
safety and fire protection, general counsel, you know, a couple 
more attorneys in there----

                    LINE ITEM CONSTRUCTION PROJECTS

    Mr. Ryan. Can you go through exactly what would be done to 
the Capitol, what would be done to the Power Plant, what would 
be done to the Library of Congress in more detail?
    Ms. Merdon. Sure.
    The Capitol Building, you can see the construction that is 
occurring on the House side. A big portion of that is to--I 
think it is about $22 million--to continue the project. You 
know, the project will continue until the inauguration, but 
after the inauguration, we will begin with the west side, with 
this side right over here, for the stone restoration.
    That also includes funds for the inauguration, $7 million 
for the inauguration. And it also includes funds for electrical 
distribution. That is one of the unseen things, is the 
electrical distribution that is critical to maintain the 
operations of this building.
    At the Capitol Power Plant, we have four projects that are 
specifically tied to our utility tunnels. The Capitol Power 
Plant generates steam and chilled water for this campus as well 
as Union Station, Folger Library, the Thurgood Marshall 
Building.
    So we need--there are 2 miles of tunnels where these steam 
and chilled water lines run through. In 2006, we had a citation 
from the Office of Compliance because we were not maintaining 
those tunnels. There was crumbling concrete, there was 
asbestos, there was heat stress. We actually corrected that in 
2016, but we need that money to continue to maintain the steam 
and chilled water lines. They are kind of the veins and 
arteries of the campus, if you will.
    Also, on the cooling side, our refrigeration plant 
revitalization, that is a multiphase project. We are requesting 
funds for that. Some of the equipment in the refrigeration is 
over 35 years old. It has gone past its useful life. This is 
actually to replace that over time, to put chillers in those 
spaces over time.
    At the Library of Congress, we have the copper roof that 
requires replacement at the James Madison. There is also the 
stained glass restoration project that is a multiphase project 
over four phases. We are requesting funds for that.
    The Madison Building, we are also requesting roof repair 
projects because on the roof there is a terrace on the sixth 
floor of the Madison that leaks into the spaces below, and that 
is where the collections are stored.
    So all of these are critical projects. All of these are 
projects that are not nice-to-haves, they are absolutely need-
to-haves to keep things functioning.
    Mr. Ryan. I will stop there.
    Ms. Herrera Beutler.

                             CYBERSECURITY

    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    I wanted to ask about the cybersecurity; you were just 
explaining to the chairman the needs behind some of the 
requests. I think about different businesses in my district, 
when they have some of these major capitol maintenance-type 
projects, it is not the fun stuff, it is not the sexy stuff.
    But even as you are asking for it, you know, you are 
talking about the copper dome or you are talking about 
protecting where the collections are housed in the LOC, or the 
stained glass, those are things that at least, you know, the 
general public sees.
    The cybersecurity piece nobody sees. And it is probably 
more costly.
    I would like to hear what you have done to protect your 
networks and improve cybersecurity. And I would like you to 
maybe elucidate the threat a little bit so that it is easier 
for us to, I think, chew on the cost.
    Ms. Merdon. Sure.
    Ms. Herrera Beutler. Thank you.
    Ms. Merdon. So the agency undergoes a risk assessment every 
year to determine the agency risk. It is called enterprise risk 
management. So we determined that cybersecurity is our biggest 
threat, the biggest risk for the agency. In addition, we have 
our own inspector general, and they also determined that 
cybersecurity is our biggest risk for the agency.
    So we have large systems at the Capitol Power Plant that 
have steam and chilled water. There is natural gas that comes 
in there. And we just last year, with your assistance and the 
funding, we hired an industrial security officer to maintain 
that. So we have to continue to maintain that.
    But some of the other risk--you know, we have millions of 
events every year that bad actors are coming in trying to look 
at our systems. And we are the holders of plans, we are the 
holders of information about the campus and how the campus 
functions.
    So we are concerned about access to that. And so we have 
been concerned about it for a while, so we have done things to 
prevent people from attacking us----
    Ms. Herrera Beutler. Can I ask, because you said there are 
bad actors who look to take our information, sensitive systems 
and functions.
    Ms. Merdon. Plans.
    Ms. Herrera Beutler. Can you be more specific?
    Ms. Merdon. Sure. Each building has plans, design plans, 
that show the building structure as well as the electrical, the 
water, and the other systems for the building, as well as the 
plans around campus. So we have access to the plans, and we 
have access to, also, things like inauguration plans too.
    Ms. Herrera Beutler. And so, with those sensitive plans, 
you have seen--when you say bad actors, like, online--can you 
talk about some of that more specifically?
    Ms. Merdon. In a higher way.
    Ms. Herrera Beutler. Yes.
    Ms. Merdon. So we monitor the people who are trying to 
actively get into our internet system, our systems, and we 
receive over millions of events every year. We actually have a 
screen where you can actually see that happening from other 
countries.
    So we take this very seriously, and we were the first on 
the Hill to implement a two-factor authentication. So, when I 
log into my computer, I put in a PIN, also a thumb drive. I 
need two pieces to actually activate my computer.
    We work very closely with the Legislative Branch 
Cybersecurity Working Group. All of our employees, 100 percent, 
receive training annually on cybersecurity so they understand, 
if somebody is trying to social engineer you to do something to 
give them access, they know what to look for. And we test 
people on that annually.
    But what we are trying to protect is the systems that 
provide support to the Capitol and the information that we 
hold. We have been here for over 200 years, and we actually are 
our own archives. We don't send documents to the National 
Archives. We maintain our own archives, older drawings as well 
as newer plans. All the plans for the Member offices are done 
on our computers----
    Ms. Herrera Beutler. And this includes all of our email, 
right, the support----
    Ms. Merdon. Our email.
    Ms. Herrera Beutler. Just yours.
    Ms. Merdon. Correct.
    Mr. Ryan. Mr. Ruppersberger.
    Mr. Ruppersberger. First, I want to ask you a very 
important question. Where did you go to college?
    Ms. Merdon. That is the most important question I think I 
will be asked today. The University of Maryland, proudly.
    Mr. Ruppersberger. That is great. So you are a Terp.
    Ms. Merdon. I am a Maryland Terrapin.
    Mr. Ruppersberger. So you hear the phrase ``fear the 
turtle.''
    Ms. Merdon. The phrase is ``fear the turtle.'' Thank you, 
sir.
    Mr. Ruppersberger. Very good.
    You know, one of the issues that I want to get focused on--
because I do specialize in a lot of this--is cyber. I represent 
NSA that does a lot of that work.
    And, from your perspective, what do you see as your mission 
as it relates to cyber? Making sure that you don't get the 
attacks so that they can really shut down our systems? Is that 
basically your focus and your mission?
    Ms. Merdon. That is one of them. We want to make sure that 
nobody can attack our mission.
    And one thing with the Capitol Power Plant, we have it air-
gapped, meaning it is not on the internet. But we need to make 
sure that nobody tries to access it in other ways. But it is 
air-gapped.
    But, also, the many plans and specifications, the office 
locations of many of the Members that we have here, and any of 
the security features that we have on campus--we are 
responsible for doing the build-out of, many of the security 
features--and making sure that we can protect those.

                      AOC CYBERSECURITY PERSONNEL

    Mr. Ruppersberger. So how many people do you have on staff 
to do cyber things?
    Ms. Merdon. We have a staff in our organization at the 
CIO--I can provide you the exact number. I don't know the exact 
number off our head, but it is probably a dozen or so that are 
focused on our internet security specifically.
    [The following information was provided by the witness 
after the hearing:]

    AOC currently has eight personnel who focus on cyber 
defense. Unfortunately, this leaves us one-deep in some 
critical roles--leaving us exposed when personnel are sick or 
on leave. For that reason, our FY 20 budget request includes 
support for three additional personnel. In addition to these 
onsite personnel, AOC has a contract with an industry leading 
managed security service provider that provides 24x7x365 
monitoring, threat detection and security analysis.

    But I think our challenge is many of our employees are now 
using, you know, smartphones as a tool just as they use a 
hammer and a drill. And if you go to our projects, you will see 
them not carrying around blueprints anymore; they will have an 
iPad around their neck so they can see the plans right there.
    Mr. Ruppersberger. Well, I think it is the future of where 
we are going. For instance, last year, pursuant to our Commerce 
Department, China has stolen over $600 billion. So they are 
everywhere. Russia--I mean, you have it all over. And we are 
really far behind.
    And I know your IT budget, was cut because of 
sequestration, which is one----
    Ms. Merdon. Yes.
    Mr. Ruppersberger[continuing]. Of the most serious problems 
we have dealt with here. It was stupid to do that, but we did. 
And, you know, you were cut 32 percent. So you had to 
prioritize, and you put it into the infrastructure instead of 
digital, but now you are going to hopefully catch up.
    Who are you working with, though? I mean, there are so many 
people out there, people who know about what cyber is, but 
nobody really focuses a lot where it needs to go. Are you 
working with our police department here? I know they hopefully 
will be working with other law enforcement.
    I am just trying to get a hold of what you really do, what 
you need, and what your mission is in cyber. And then where do 
you get support if you need it?
    Ms. Merdon. Sure. So our mission in cyber is to protect the 
information----
    Mr. Ruppersberger. By the way, let me ask one more quick 
question, too, before you get into that.
    Ms. Merdon. Sure.
    Mr. Ruppersberger. What countries--you were talking about 
certain countries were attacking us?
    Ms. Merdon. You know, if we are to look at who is coming 
after us, I have seen the screen, and they are the usual 
suspects Russia and China and some from Africa too, where you 
can see they are coming in and trying to get into our systems.
    Mr. Ruppersberger. Okay. All right.
    Ms. Merdon. Our mission is to protect the Capitol, the 
infrastructure, and all the plans that we see. And as people 
are using the systems more, folks are using the systems, we 
need to get smarter and better, because it is becoming more 
robust.
    We are working with the Cybersecurity Working Group, so we 
work with the House CIO, the Senate CIO, and all the other CIOs 
across campus. And I know we have an organization----
    Mr. Ruppersberger. All under dot-gov, right?
    Ms. Merdon. Yeah, all under dot-gov. These are our partner 
agencies. And, of course, I sit on the Capitol Police Board, 
and we work closely with the Capitol Police Board if there is a 
need to reach out if we see something not working.
    We do hire contractors who come in and work with us on the 
cybersecurity initiatives.
    Mr. Ruppersberger. Okay.
    I think we really have to focus on this. There are several 
of us on this committee and other committees who have really 
focused on that. And I think it is almost impossible that we 
don't get attacked, and trying to deal with it and finding out 
where it is, because there is so much of it out there all over 
the world.
    And, you know, our NSA is as good as Russia. China, they 
are not as sophisticated as we are and Russia, but they are 
volume. And they are constantly trying to learn and find out 
what we have so they can do better. Like, our space system, as 
an example, they are even with us in space now, they are 
putting a lot of money in it, because they have all of our 
programs and we didn't even know it.

                       INFRASTRUCTURE MAINTENANCE

    The other thing I do want to say, when you are dealing with 
infrastructure, it seems to me that if you don't handle a 
maintenance problem which could cost $100,000, then that 
maintenance problem becomes a $1 million problem. So I am sure 
that part of your focus and your engineers are focusing on 
taking care of those maintenance problems that are high 
necessity. We always have to deal with those. Do you agree?
    Ms. Merdon. Thank you for recognizing that, because we 
always try to keep things at the smallest level before it 
becomes a big problem. But sometimes--I know appropriations and 
resources are tight in these times--we are not able to get to 
it immediately. But I firmly agree, preventive maintenance is 
much better than deferred maintenance.
    Mr. Ruppersberger. Thank you.
    Mr. Ryan. Thank you, Mr. Ruppersberger.
    He is our resident expert on cyber and has been working on 
it a long time, so we rely on his opinion a lot around here.
    Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman.
    I won't ask you any tough questions like where you went to 
school because I know that you wouldn't have the right answer.
    Ms. Merdon. University of Maryland.

                       CONGRESSIONAL OFFICE MOVES

    Mr. Newhouse. Ms. Merdon, welcome, and thank you for being 
here this morning. Thanks for bringing so many of your fine 
team with you, too. Certainly, we appreciate the hard work you 
have in front of you and that you accomplish in helping to 
preserve--I often tell people we work in a living museum. And 
it has to be not only a tremendous honor to work here, for all 
of us, but a lot of responsibility in keeping things up. So we 
appreciate that.
    And I know, this last transition, you had almost a record 
number of offices to move, or close to it, right?
    Ms. Merdon. A record number in 40 years, yes.
    Mr. Newhouse. Yeah. And so, you know, that is a big job.
    As we have talked--and thank you for coming to my office 
prior to the hearing--we had a few issues in our transitional 
moving, which maybe--we are an isolated case, I am sure. But we 
had a great experience with a lot of the work from your team.
    But it seemed like that some of the things that--and we 
talked about this. We had different groups of people coming in, 
maybe, to do something that had already been accomplished, or 
maybe it was the wrong team. And so it just seemed like there 
were some communication issues.
    Could you go over some of the things that you have been 
able to do or are planning to do to try to address some of 
those issues so that we have the right people in the right 
place at the right time to be more efficient?
    Ms. Merdon. Sure. Thank you once again for meeting with me, 
and thank you for sharing any of your concerns that you had in 
your office. I am glad we are able to work those for you.
    You know, as you had noted, we did have a record number of 
moves, I think 278 moves, the most in the last 40 years. We 
also, in December and January, turned over the first phase of 
the Cannon and also completed the Rayburn garage, as well as 
turned over the daycare center. So the House of Representatives 
was very busy this year. And thank you for all your support on 
that.
    And I know the House Superintendent, who is here with me 
today, works very hard to coordinate all those issues with our 
partners--the CAO, the Capitol Police, or any of those. So our 
House Superintendent is looking at ways to better coordinate 
and communicate on those. And I know we are following up on 
your issues.

                             CANNON RENEWAL

    Mr. Newhouse. Okay. Appreciate that.
    You brought up Cannon. The first phase is complete?
    Ms. Merdon. Correct.
    Mr. Newhouse. You also mentioned, too, or visited earlier, 
now that Members are moving into the recently renovated parts, 
some issues have been expressed to us and other people we know 
about some of the lack of built-in storage, the lack of space 
for some of the necessary equipment that they need.
    I just wondered how that is being addressed and if you are 
using some of that input for future plans for the rest of the 
building.
    Ms. Merdon. Yeah, you are correct, we did finish the first 
phase.
    For the committee, there are five phases of the Cannon, and 
we completed the first phase, which was the infrastructure, the 
initial phase, in 2016. And, this year, we have completed the 
first phase at the end of the year.
    Mr. Ayers, the previous Architect, did comment last year 
that phase one is the most difficult phase of the entire 
project. It is the longest, physically. It has the Cannon 
rotunda, the Caucus Room, two hearing rooms, the food servery. 
And it is also going to be the one where we are going to have 
our lessons learned, we are going to find out where things 
actually exist. You know, you recognize that we actually raised 
the roof on the Cannon because there is a fifth floor now, and 
we had a lot of lessons learned from that.
    And I know our staff is working with the 31 chiefs of staff 
that moved in there. We had 31 Members move in there. And we 
understand, when you build a building, you know, you have your 
one punch list, but then there is another punch list when 
people move in, because that creates a different dynamic, with 
heating and lighting. And we are reaching out to learn more 
about what the occupants think about how the space is working.
    Mr. Newhouse. Okay. Good. Good.

                            CONTINGENCY FUND

    With all the things you have going on, you have a lot of 
planned expenses, planned projects. Could you talk about your 
contingency fund if there is something unexpected that comes 
up? Do you have something like that?
    Ms. Merdon. Well, each project has a contingency, and we 
do--I can say we do 10 to 20 percent, but it is actually a very 
educated number. We do a risk analysis on each project's 
contingency based on the difficulty of the project. So it could 
be a simple project that has 5-percent contingency or the 
Cannon or others which had--I think the Dome had a 20-percent 
contingency.
    But, also, each of the jurisdictions have a minor 
construction fund available to them for emergent projects and--
--
    Mr. Newhouse. Unplanned things. Yeah.
    Ms. Merdon. Exactly.
    Mr. Newhouse. Okay.

                         PRESIDING INAUGURATION

    You mentioned the stage, the platform for the inauguration. 
Could you tell us how much that costs to construct every--and 
then tear down?
    Ms. Merdon. This year, we are requesting $7 million. And 
the construction and the teardown is included in that.
    So we start planning that the day after the last 
inauguration. We do----
    Mr. Newhouse. So you are assuming it will be on the west 
side all the time now?
    Ms. Merdon. Yes. I think Reagan may have had the first one; 
we made the switch about that time.
    But we take the plans, we say what can we do better, what 
worked and what didn't work or what technology is changing or 
what security aspects are changing after the last inauguration. 
So right now we are getting to approach finishing up the 
design.
    And in September of 2020 we will begin the construction of 
the stands. So about 3 months before the end of the year we 
begin the stand construction. So it is quite an endeavor.
    Mr. Newhouse. Yeah. Yeah. I don't know what the question 
is--or what the answer is. It just seems like some streamlining 
of that whole thing so we don't have to recreate the wheel 
every 4 years.

                         CPP TUNNEL MAINTENANCE

    But, anyway, the other thing I was thinking as you were 
talking, you talked about the tunnels and the maintenance and 
the citation that you received by--who was it?
    Ms. Merdon. Office of Compliance in 2006.
    Mr. Newhouse. And then you mentioned that you satisfied 
that citation in 2016, 10 years later.
    Ms. Merdon. Uh-huh.
    Mr. Newhouse. So just expand on that.
    Ms. Merdon. So, you know, we were cited in 2006. We have 
over 2 miles of tunnel, so I think identifying all the issues, 
doing the design, bringing a contractor in, and----
    Mr. Newhouse. Oh, wow. It is a 10-year process, huh?
    Ms. Merdon. Right. And also having to maintain operations 
the entire time. So we had to take it out not all in one time 
but in parts and pieces.
    And, you know, some of it was asbestos, and asbestos is 
very time-intensive to remove. Some of it was heat stress and 
concrete repairs. And it is not like you are going into an open 
room like this; you are working behind very difficult systems 
and pipes all the way.
    So it took quite a while to do because of all the 
difficulty to identify all the problems, design a solution, and 
ultimately remediate it.
    Mr. Newhouse. All of those tunnels, they are original? They 
are part of the original campus? Or are they----
    Ms. Merdon. You know, some of them are very old, but we 
have some tunnels--the CVC tunnels are fairly recent, only 10 
years old. So they are different ages. The Cannon tunnel is 
probably one of our oldest.
    Mr. Newhouse. Yeah. It is just fascinating. There is a ton 
of stuff around here that you just don't see and people don't 
realize.
    Ms. Merdon. Exactly. It is all the unseen that takes a lot 
of time and attention to keep the campus safe, warm----
    Mr. Newhouse. Okay. Well, thank you. Again, thank you for 
being here, and----
    Ms. Merdon. Thank you, sir.
    Mr. Newhouse [continuing]. I appreciate your input.
    Thank you, Mr. Chairman.

                             CANNON RENEWAL

    Mr. Ryan. Thank you, Mr. Newhouse.
    I wanted to dig in here a little bit on a couple of these 
issues.
    What would your assessment be of the Cannon project at this 
point? I know you expressed several challenges that you faced 
with storage and so on and so forth. I had a couple Members 
grab me about privacy within the office space--I don't know if 
the chief of staff had mentioned that to you--or maybe 
conversations can be heard. I heard it from two or three 
people. I didn't go up to check it out myself.
    But what would your assessment be of the project so far? 
And do we have any red flags that have popped up?
    Ms. Merdon. This is the first I have heard about the 
conversations. We will make sure we address that.
    So, as I mentioned, this is the one where we have our most 
lessons learned. So, currently, we are taking the lessons 
learned on the phase one and doing an assessment of the cost, 
looking at where is going to cost more and where we may have 
some efficiencies, and also holding the contractor accountable.
    But we have to take those lessons learned and apply them to 
phases two, three and four, and, once again, looking for 
efficiencies. So the project team right now is doing that 
assessment.
    One thing to remember, the Cannon is a very large project, 
and each of the five phases is larger than the dome, as far as 
size. So it takes time for our team to work through the complex 
issues and to finalize a number or what the bottom line is. So 
I would like to come back to the committee in springtime to 
provide you with a number of the cost to complete. We are 
working very hard to keep it at the original number, the 752.7, 
but we are assessing what we learned on the first phase.
    Mr. Ryan. Okay.
    The GAO talks a lot about redesign and issues around 
redesign once construction has begun. Can you talk a little bit 
about that?
    Ms. Merdon. Certainly.
    This project is a renovation project. Prior to coming to 
the Architect of the Capitol, I had spent a number of years in 
the industry. And typical with this type of project, you do run 
into a lot of unforeseen conditions once you start tearing down 
walls or lifting the roof. So there was a lot of redesign, 
because we found conditions that weren't as we thought on the 
original plans that we had, and we had to redesign to 
accommodate the conditions as they were built. So working 
through that.

                           CANNON CAUCUS ROOM

    Mr. Ryan. The Cannon Caucus Room, is that part of your 
comments just then?
    Ms. Merdon. Yeah, the Cannon Caucus Room, some of the 
issues--there was a desire to make some changes on installing a 
dais and some of the audio-visual equipment too. And so we are 
doing the redesign on that, and it should be open by the 
beginning of next year.
    Mr. Ryan. So how does that happen? I mean, you think you 
are going to redesign the Cannon and you are talking about the 
dais. Wasn't that thought about beforehand, that that had to be 
part of a redesign?
    Ms. Merdon. It was. I think the issue with that is the 
design for the Caucus Room was done several years ago, and 
there may be new people who came in who had a different desire 
based on current needs and requirements. And we made those 
adjustments--are making those adjustments.
    Mr. Ryan. Okay. So when you talk about lessons learned, 
that would be a good example, correct?
    Ms. Merdon. Absolutely. And one of the things that we did 
on phase two is--it is kind of a two-phase--we actually have 
been meeting with our stakeholders and the others, like the CAO 
in the House, probably starting 2 months ago to review the 
drawings to see if there are any changes earlier on, prior to 
starting construction, and a more rigorous change management 
process.

                        FUTURE BUILDING RENEWALS

    Mr. Ryan. Okay. Good.
    So we are talking about Cannon, and we also have Longworth 
and Rayburn waiting in the wings. Last year, we had a hearing 
where your predecessor indicated that it was going to be around 
several billion dollars to do the Longworth and Rayburn. And 
that is obviously a huge challenge for us, with the small 
budget that we get here in the Legislative Branch 
Appropriations.
    So how are you planning to manage these projects? And do 
you have any ideas around some creative financing? We are going 
to talk about this later in our next hearing, but I would be 
interested in, given your broad experience on these projects, 
is there any creative financing that we can come up with here 
to help us expedite some of these projects and pay for them and 
get them moving? Because, obviously, they get more expensive as 
time goes on.
    Ms. Merdon. Absolutely.
    Mr. Ryan. And coming up with some way to make these early 
investments to get these things done, I think, would be 
beneficial to the taxpayer in the long run.
    Ms. Merdon. Absolutely. We utilized a public-private 
partnership with the co-generation, and the cost savings is 
going to be the energy savings on that.
    So the Longworth and the Rayburn are both rated, I 
believe----

                  ENERGY SAVINGS PERFORMANCE CONTRACTS

    Mr. Ryan. Can you talk--and I don't mean to interrupt you. 
Can you talk to me about that?
    Ms. Merdon. The Cogen? Yes.
    Mr. Ryan. That public-private partnership----
    Ms. Merdon. Certainly.
    Mr. Ryan [continuing]. What did that look like?
    Ms. Merdon. So the Department of Energy gives authority to 
agencies to do energy savings performance contracts. Those are 
changing the lighting and the heat and the ventilation. And we 
have done that at the House and the Senate, the Capitol, and we 
are doing it at the Library of Congress, where those things are 
installed, energy savings are installed, but the government 
pays the contractor or the financier back with the energy 
savings over a period of time. And we have been very 
successful.
    Department of Energy also has the utility savings contract 
vehicle. That is for larger projects. And we use that authority 
and that vehicle to engage with Washington Gas to do the design 
and the construction and the financing of the Power Plant.
    So we are achieving significant energy savings from the 
Cogeneration, and it just started producing energy and steam 
and power at the end of last year. So that is about a 20-year 
payback period on that.
    So those are authorities that we have. To do, I think, what 
you are asking for, we would need authority too. We had the 
authority in legislation when they built the Thurgood Marshall 
Building. It is a court building, but a developer came in and 
built that, and we pay the lease costs, and it will become ours 
in 2024. So those are opportunities, different examples of how 
that can be done.
    Mr. Ryan. Department of Transportation, is that a lease 
too?
    Ms. Merdon. I am not familiar with that building.
    Mr. Ryan. All right. I was just wondering.
    So the Cogeneration at the DOE and the utility piece 
sound--I mean, there is obviously--so the energy savings pays 
for----
    Ms. Merdon. Pays that back.
    Mr. Ryan. Who put the money in up front? Department of 
Energy?
    Ms. Merdon. No. It was Washington Gas, their financial----
    Mr. Ryan. Oh, Washington Gas. Okay.
    Ms. Merdon. Yeah. You know, the only money----
    Mr. Ryan. So it was like a PACE program, a PACE kind of 
program?
    Ms. Merdon. Exactly.
    Mr. Ryan. Okay.
    Ms. Merdon. Exactly. And the appropriations were provided 
for the management team. You know, we needed to have project 
managers and our own financial consultants and engineers to 
oversee Washington Gas, and that was appropriated money. But 
the project was paid for and financed by Washington Gas.
    Mr. Ryan. That would probably be harder to do, or we would 
just have to do it differently, with the buildings that we are 
talking about renovating here, right?
    Ms. Merdon. Right. We would have a----
    Mr. Ryan. Because it is not a Power Plant; it is an office 
building.
    Ms. Merdon. Correct. You may have to do a lease cost back, 
you know, where they would provide a financing for the upgrade 
of the building and then, you know, Congress would have to pay 
a lease, similar to what was being done at the Thurgood 
Marshall Building.
    Mr. Ryan. I would like to get some information on that----
    Ms. Merdon. Sure.
    Mr. Ryan [continuing]. If that is okay----
    Ms. Merdon. Yeah.
    Mr. Ryan [continuing]. The Thurgood Marshall Building.
    Ms. Merdon. Uh-huh.
    [The information follows:] 
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Ryan. So, anyway, the billions of dollars in Longworth 
and Rayburn, how do you plan on managing that beast?

                        FUTURE BUILDING RENEWALS

    Ms. Merdon. It is a big effort. And we have engaged a blue-
ribbon panel recently, who are bringing industry experts, and 
they are going to come and assist us, providing some guidance 
and some insight on how to do that.
    So that is a recent development, and, with that, we can 
start planning which building has to be done first. I know the 
Rayburn is in poorer condition than the Longworth is. But 
helping us determine the priorities, taking a look at some 
financing strategies or some funding strategies.
    Mr. Ryan. What is the timeline on those projects, projected 
at this point, which is----
    Ms. Merdon. So the Cannon will be in 2024. And we don't 
anticipate being completed with those two until 2030s or 2040s, 
quite a while away.
    Mr. Ryan. Okay. So Brady Ryan may be the Congressman, I 
think, at that point. He is 4 now.
    Ms. Merdon. Could be.

                            ENERGY REDUCTION

    Mr. Ryan. I just have one final question on the energy 
savings. And that is of great interest to the committee because 
of what has already been done. What other strategies do we have 
moving forward with Cannon, with Longworth, with Rayburn, any 
other projects you have, around energy savings?
    Ms. Merdon. So the Energy Savings and Security Act of 2009 
required a 30-percent savings by 2015. And in 2015 we made a 
decision that the AOC will have energy savings of 2 percent a 
year, up to a 50 percent by--I believe it is 2025.
    So the Cogen is a big part of that. We actually achieved 
the 30 percent, and we are at 42-percent energy savings by 
bringing the Cogen on line.
    But we are not done yet. We are doing an energy savings 
contract at the Library. So that is changing metering systems. 
You know, being able to measure what you are doing is a big 
part of saving it, so installing meters, better controls of 
HVAC, replacing old equipment to more reliable equipment. We 
did install, a couple years ago, solar panels on top of the 
Hart roof, so that is one technology that has some payback but 
I know is evolving over time. You know, we are using natural 
gas at the Capitol Power Plant instead of oil.
    So I think we have done quite a bit and will continue to do 
more. And we are also looking at ways to save water, use our 
water more efficiently, because that is a cost to us, so 
looking at ways to do that.

                              GREEN ROOFS

    Mr. Ryan. How about on the roofs, the roofing? I know 
that--a lot of gardens on the roof and that kind of thing. Are 
you exploring any of those?
    Ms. Merdon. So there is a green roof on the Hart, and there 
is a green roof on the O'Neill. And we are looking at----
    Mr. Ryan. That is grass?
    Ms. Merdon. Different type of materials besides grass----
    Mr. Ryan. Okay.
    Ms. Merdon [continuing]. You know, just a little hardier--
--
    Mr. Ryan. Yeah.
    Ms. Merdon [continuing]. Can take the sun a little bit 
more. And we are looking for opportunities in the Cannon, too, 
in the courtyard----
    Mr. Ryan. Okay.
    Ms. Merdon [continuing]. To make it more of a green space.
    Mr. Ryan. So the material on the Hart Building, is that 
better than the grass and the dirt and stuff that I have seen 
on a lot of buildings in some of the bigger cities?
    Ms. Merdon. We can provide you with a picture and some 
information, but I think it is sedum. It is a grass that is a 
little hardier. And I think with the Hart they also wanted some 
color variations too.
    Mr. Ryan. Oh, it is grass? Forgive me. I have never been on 
the roof of the Hart Building.
    Ms. Merdon. Ground cover, different types of ground cover.
    Mr. Ryan. Yeah.
    Ms. Merdon. We can provide you that information.
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Ryan. I mean, can you turn it into a place where people 
could go and----
    Ms. Merdon. I think it is not that accessible.
    Mr. Ryan. Okay. Yeah.
    Ms. Merdon. I think that is the challenge; it is not an 
accessible roof.
    Mr. Ryan. Okay.
    Well, great. Well, thank you and to your entire team. We 
know how much effort you put into your budget and trying to get 
it right before you come to this committee, so we are very 
thankful for all of your efforts. We appreciate you. It is 
important work.
    I mean, I think Mr. Newhouse captured it by saying a lot of 
people don't really understand. They come here to visit, and we 
come here to work, and we walk around, busy, and you all make 
it work for us. So we really appreciate it.
    And we are going to try to be as supportive as we can, 
given the constraints that we have here and all the demands 
that we have here, one of which we will hear very soon in the 
next hearing that we have.
    So thank you so much.
    Ms. Merdon. Thank you for your support.
    [The following questions were submitted to be answered in 
the record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                        Tuesday, February 26, 2019.

                      CONGRESSIONAL BUDGET OFFICE

                                WITNESS

DR. KEITH HALL, DIRECTOR, CONGRESSIONAL BUDGET OFFICE

                   Opening Statement of Chairman Ryan

    Mr. Ryan. All right. We are going to call the hearing to 
order.
    Welcome. This is our second hearing this morning, as you 
know. We are going to be discussing the Congressional Budget 
Office and its appropriations request.
    CBO has become so much a part of this institution that we 
may take it for granted, but we should remember what a key role 
CBO plays in helping Congress effectively exercise the power of 
the purse assigned to us by the United States Constitution.
    Before CBO was established in 1975, Congress largely 
depended on the executive branch for budget and economic 
analysis and for estimates of the cost of proposed legislation. 
With CBO, Congress has its own independent source of cost 
estimates for legislation, assessments of the President's 
budget proposals, and projections of the future path of 
spending, revenue, and deficits. We need to protect and 
strengthen that capacity.
    The CBO budget request we are discussing today calls for a 
$2.8 million, 5.6 percent increase above fiscal year 2019. 
Virtually all of that is for personnel costs. In addition to 
covering normal pay raises, the requested increase would allow 
continued modest growth in staffing levels to help keep up with 
CBO's heavy workload, strengthen analytic capacity in key 
areas, such as healthcare, and continue efforts to make CBO's 
work as transparent as possible.
    This subcommittee has highlighted the need for transparency 
in CBO's estimates and analysis, and I believe CBO shares that 
objective. For example, in recent years CBO has been making 
more underlying data and details of its economic and budget 
protections publicly available. It has been publishing more 
information about its models and methods and more analyses of 
the accuracy of previous projections.
    These all are welcome developments, and I expect we will be 
hearing more today about future plans in this area.
    I should note that the Appropriations committees are the 
source of some of CBO's heavy workload. We need CBO's help in 
making sure our bills add up to what they are supposed to, and 
we need CBO cost estimates at each stage of legislative action. 
I am told that our committee gets great support from the people 
at CBO who do appropriations scorekeeping, including work on 
nights and weekends and on short notice. We appreciate that, 
and I am certain other committees similarly appreciate the 
people at CBO and the work they do.
    Our witness today is Dr. Keith Hall, who was appointed CBO 
Director in 2015. Previously, Dr. Hall has held a number of 
other positions in government and economics, including as chief 
economist at the International Trade Commission and at the 
Department of Commerce, and as head of the Bureau of Labor 
Statistics. He holds a Ph.D. in economics from Purdue 
University. As an Ohio guy, we won't hold that against you.
    Before Dr. Hall testifies, I want to first say thank you. 
This is my 17th year here, and CBO in modern debates has been 
tossed into the middle of the pit, and unnecessarily so. But 
even when there are disagreements, I think what you have done 
in the past few years to open it up and have a level of 
transparency has been extremely helpful in the process.
    Not that you won't take political arrows. We are all living 
in D.C. in 2019. But I want to personally say thank you for 
that. I think it is an important step, and I look forward to 
hearing your remarks here.
    But before we go to you, I want to turn to my ranking 
member for her opportunity to make an opening statement, Ms. 
Herrera Beutler.

          Opening Statement of Ranking Member Herrera Beutler

    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    And I, too, want to welcome you, Dr. Hall, and look forward 
to hearing your testimony.
    The CBO has been a part of a lot of my legislative work 
since I got here. This is my fifth term. So I look forward to 
getting a chance to sit down and hear your testimony about 
needs that you have and hearing a little bit about what goes 
into your cost estimates.
    And I know that you are requesting an increase this year 
for additional staff. I know that in the previous years you 
have been focused on being responsive to Member requests and 
making sure that you are able to get through analysis quickly.
    And so I welcome you. I have questions for you about 
probably some issues that you are going to be familiar with, 
and look forward to hearing more about how we can help you as 
you serve the institution.
    Mr. Ryan. Thank you.

                      Testimony of Dr. Keith Hall

    Dr. Hall. Chairman Ryan, Ranking Member Herrera Beutler, 
and members of the subcommittee, thank you for the opportunity 
to present the Congressional Budget Office's budget request, 
and thank you also for your longstanding support of CBO. That 
support has allowed us to provide budgetary and economic 
analysis that is timely, thoughtful, and nonpartisan as the 
Congress addresses issues of critical importance.
    The primary purpose of my testimony this morning is to 
request an appropriation of $53.6 million for 2020. That amount 
is an increase of $2.8 million, or 5.6 percent, from the amount 
provided in 2019. The increase is largely aimed at 
accomplishing two main goals.
    The first goal is bolstering responsiveness and 
transparency. Last year, the Congress increased CBO's budget to 
put in place a multiyear plan to increase our capacity to make 
its work as transparent and responsive as possible. As a 
result, we are increasing staffing in high-demand areas, such 
as analyses of healthcare and immigration. In addition, we are 
continuing to hire analysts to expand our use of team 
approaches, in which work on large and complicated projects is 
shared.
    In 2020, we propose hiring additional staff who would 
increase our expertise and modeling capability in several 
areas. CBO's goal is to have more staff with overlapping skills 
within and across teams. In some cases, those skills will 
consist of expertise related to particular programs, such as 
transportation. In other cases, they will be more technical, 
such as the ability to design simulation models. Increasing the 
number of staff with overlapping skills will allow us to be 
more nimble when responding to requests for information.
    Building on the strong foundation we have established over 
many years, and with added resources, CBO will undertake many 
different activities to make its analysis transparent. For 
example, during the next two years, we will:
    <bullet> Testify about our projections and analytical 
methods and will work to resolve issues raised by the Congress;
    <bullet> Publish more overviews and documentation of some 
of our major models and more detailed information, including 
computer code, about key aspects of those models;
    <bullet> Release data in many forms, including an 
interactive product to help users obtain information about our 
estimates of the distribution of household income;
    <bullet> Use a new format for our cost estimates to 
highlight key parameters as well as information needed by the 
Congress for budget enforcement procedures;
    <bullet> Continue to evaluate previous estimates, when 
possible, in order to improve future ones;
    <bullet> Publish several reports about uncertainty in our 
estimates;
    <bullet> Experiment with creating visual summaries of some 
of our major reports, as we did in our most recent budget 
outlook report; and
    <bullet> Interact daily with Congress to explain our 
estimates and obtain feedback and continue to regularly obtain 
advice from outside experts.
    The second goal is to continue our high volume of output.
    In 2018, we published more than 900 formal cost estimates; 
we completed cost estimates for nearly all bills before a floor 
vote occurs. We also provided the Appropriations committees 
with numerous summaries and account-level tabulations for 
appropriation bills; provided technical assistance to 
congressional staff as they developed thousands of legislative 
proposals and amendments; and published many reports about the 
budget, the economy, and related issues.
    Those reports included our assessment of the 10-year budget 
and economic outlook, a report on the long-term budget outlook, 
an analysis of the President's budget, a 300-page report 
describing more than 100 options for reducing the Federal 
deficit, monthly budget reviews, and a variety of analytic 
reports that examined particular Federal spending programs, 
aspects of the Tax Code, and budgetary and economic challenges. 
Most of those reports were written at the request of the 
Chairman or Ranking Member of a committee or subcommittee or at 
the request of the leadership of either party in the House or 
Senate.
    But we know that Members would like us to do even more. So 
to achieve our two goals--to continue a high level of output 
and bolster responsiveness and transparency--CBO requests an 
increase of $2.8 million.
    About $1.5 million--a little more than half of the proposed 
increase--would go toward funding for a full year 14 additional 
staff members that we will be hiring during fiscal year 2019, 
as well as 6 additional hires in the fiscal year 2020. That 
would boost our total FTEs from 255 planned for this year to 
264 next year. The other $1.3 million would cover a small 
increase in our employees' average salary and benefits to 
provide merit-based pay raises and keep pace with inflation.
    With your support, we look forward to continuing to provide 
timely and high-quality analysis to the Congress.
    I am happy to take your questions.
    [The prepared statement of Dr. Hall follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
                          WORKLOAD CHALLENGES

    Mr. Ryan. Thank you, sir.
    I believe you guys shrank a bit earlier in the decade, and 
I know you are trying to rebuild, and that is part of the 
request.
    What was the distribution of the workload when you guys 
were squeezed? We hear these stories of weekends and nights and 
all of that to try to get things done, and we are very 
appreciative of that. Can you tell us how you dealt with that?
    Dr. Hall. Sure.
    We always have a problem with peak load issues. A topic 
becomes hot, a bill becomes active, and we only have so many 
experts we can throw in on it. So lots of times folks have to 
expect to work over the weekend and et cetera.
    The thing we try really hard to do, and I think we do this 
very well, is sort of do our due diligence. We take the time to 
think something through, we talk to experts, and et cetera. And 
sometimes that can be frustrating for folks that are waiting 
for us and it can push our work over weekends, but we are sure 
to do that.
    And now that we are trying to be more transparent and more 
clear in our writing, the writing up of things, that, again, 
takes more time. And we can anticipate some of it. We are 
trying to add people in certain areas.
    The past year or 2 our healthcare team has just been 
working flat out and had way more workload than we could 
possibly do. And those folks, it is unusual to give them the 
weekend off at times.
    Mr. Ryan. Wow.
    Dr. Hall. But we deal with it, we try our best to 
anticipate, and that is part of what we are trying to do now.
    Mr. Ryan. Are these straight salary people, so they come in 
and work, they are not getting any overtime?
    Dr. Hall. That is right. That is right.
    Mr. Ryan. I didn't even need you to answer. I saw 
everybody's face, everyone's expression behind you. They are 
not good poker players, I will tell you that.
    Ms. Herrera Beutler.

                  WHEN ARE COST ESTIMATES MADE PUBLIC?

    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    In response to your comments about being responsive, I 
wanted to ask a question about H.R. 1, and this is something 
that I have had several colleagues weigh in with me on and ask.
    It was introduced on the first day of this Congress, which 
was about 7 weeks ago, and has 227 cosponsors, and the Speaker 
has publicly stated her intention to schedule a floor vote on 
this legislation later this month. I think it is being marked 
up this afternoon.
    And you were sent a letter by Ranking Members Davis and 
Womack last week that in part read, quote: All Members of the 
House are very familiar with elections law, procedures, and 
regulations. Members on both sides are obviously interested and 
concerned about this encompassing legislation and what it could 
mean for their individual districts and States, from the six-
to-one taxpayer donation matching system to the My Voice 
Voucher Pilot Program. There are numerous provisions identified 
that could easily have long-term implications.
    So my questions are: When is CBO going to release a formal 
cost estimate of H.R. 1? And has your team shared with Congress 
a preliminary cost estimate for H.R. 1, just given the 
implications here?
    Dr. Hall. Sure. I do think we are going to be able to meet 
demand and have things ready for the vote. That was the topic 
we were working on this last weekend, as a matter of fact. We 
have spent a lot of time on it.
    One of our challenges almost always is, and it is with this 
bill, is the language changes.
    Ms. Herrera Beutler. As it is going.
    Dr. Hall. As it is going along. We really spend more of our 
time sort of with informal discussions and talk about changing 
language, which I guess I will call technical assistance, and 
we have done quite a lot of that, even if we don't have a 
formal estimate yet.
    And so getting the language sort of finally nailed down and 
narrowed down is sort of always a challenge for us in getting 
that done, and I think we should be able to do that.
    Ms. Herrera Beutler. When you say informal conversations, 
who have you had those conversations with?
    Dr. Hall. I don't know offhand. It is almost always--it is 
the committee of jurisdiction, the committee or the leadership 
that is drafting the language. I don't know off the top of my 
head.
    Ms. Herrera Beutler. So the ranking members on the 
committees of jurisdiction, have they been privy to some of 
these? Have you been able to informally brief an update?
    Dr. Hall. Right. Yeah, a lot of that depends upon the 
committee staff, whether they want us to work confidentially or 
not because it is sort of work product. So a great deal of our 
work is done confidentially.
    And we have a practice of once specific legislative 
language, it all becomes public, and we make all our estimates 
after that public. And once we get the formal language and get 
a formal estimate, we will be sure that we get the information 
around and tell folks.
    We have probably had some real conversations back and forth 
with the committee majority as they craft the language, though.
    Ms. Herrera Beutler. And I understand there is a 
sensitivity to if I am working on legislation with my leg 
staff, you want to get it as ready for primetime as you can 
before you release it out to the public.
    Dr. Hall. Sure.
    Ms. Herrera Beutler. I completely understand the need for 
discretion.
    I think my concern is that when you are asking for help 
with manpower to do these enormous herculean tasks, this has 
obviously been probably going on for 7 weeks, I don't doubt 
that you picked it up 2 weeks ago and were like, ``Oh, this is 
huge. We have to work over the weekend.'' I am sure your team 
has been dedicating a lot of time to this.
    It is hard then to come back and think, well, so you are 
saying on one hand you want to be responsive and you want to be 
helpful, but if we aren't going to have any information about 
this until it is being marked up, you can imagine why CBO gets 
put into the middle of political fights, to be totally frank, 
right?
    Dr. Hall. Right.
    Ms. Herrera Beutler. Because it kind of feels like, well, 
this is all taxpayer money.
    Dr. Hall. Right. Well, we are somewhat at the mercy of 
Congress, you know.
    If we are doing work for a committee and they ask us to do 
it confidentially, we do it confidentially, but with the 
understanding that if language becomes public, we can't do 
that.
    So we are trying our best to create a level playing field 
while at the same time doing a lot of confidential work, and 
that is what I get phone calls about sometimes.
    Ms. Herrera Beutler. So can I ask--and this will probably 
be my last before the chairman moves on.
    Mr. Ryan. Take your time.
    Ms. Herrera Beutler. With that, so the language itself and 
the proposals, they are public. That is where I think I am a 
little hung up. It is not private information that someone 
waited to release. This has been part of press releases. It has 
been part of talking points. It has been heralded as a 
political shift, right, which is the prerogative of any 
majority. That is not what I am debating.
    What my question is, is once those proposals have been made 
public, as you just said, why then isn't it open to all Members 
of Congress in terms of the financial estimate? That is my 
issue.
    Dr. Hall. Sure. And it is a matter of specificity. We have 
to make a judgment as to whether the language that is public is 
specific enough and really is what we are working on, and then 
we make that sort of pivot.
    So lots of times you will hear discussions of aspects of a 
bill that are being considered, but they don't make it into the 
final language, and so we aren't necessarily even----
    Ms. Herrera Beutler. Which means you can't obviously 
provide a full, comprehensive, formal review. I understand 
that. But I think that would also give you the opportunity to 
have informal conversations over major titles that you know 
have been released, that are publicly available, that are not 
being kept confidential.
    I can flip open and go through, like, seven titles, and 
probably all of it won't be in there, but I can tell you, there 
are probably some pieces that have been part of talking points 
at press conferences that are going to stay in there.
    And I would ask that you would consider that once it has 
been made public, by whoever is sponsoring it, I am not asking 
you to do something inappropriate that you are at least having 
those informal conversations with the ranking members as well. 
I think that would be my request.
    Dr. Hall. Okay. Yeah. Well, we will see what we can do. But 
we are still, like I say, sort of caught in between a little 
bit.
    And I get calls from Members who are upset about not 
knowing what we are working on or why we can't pivot to their 
work because we are busy. We can't even tell you what we are 
busy on.
    So I have heard this before, and I would love a way out of 
the trap, sort of.
    Ms. Herrera Beutler. Well, I think it is a good precedent 
to say, if whoever it is is going to talk about it and put it 
in open source, and if it is something that taxpayer dollars 
are being funded for you to do, then I think it does behoove 
you to be open with the Members of Congress who ask you about 
it. I don't think you then have the opportunity to gatekeep 
that.
    You can say, this may end up in it, it may not, when 
someone says, ``Hey, this is open source, this has been brought 
forward.'' In terms of transparency, I can see why that would 
frustrate someone.
    Dr. Hall. Sure.
    Ms. Herrera Beutler. To say, well, people are using it in 
press conferences, can't you provide at least the information 
you have? I mean, I am sure to date you have information about 
it. You can say, ``Well, full disclaimer, this might not end up 
in the final bill, but I will give you what I got.'' Does that 
make sense?
    Dr. Hall. It does, but it is a little bit of a danger to us 
to have us----
    Ms. Herrera Beutler. It is.
    Dr. Hall [continuing]. Quoted back on a number that we have 
changed----
    Ms. Herrera Beutler. Yes.
    Dr. Hall [continuing]. In the middle of the process. And 
parts of bills interact with each other in unexpected ways 
sometimes. So it is not always----
    Ms. Herrera Beutler. I am familiar.
    Dr. Hall. But I understand your concern, and we will 
continue to try to do what we can to create a level playing 
field and talk about our estimates when we can.
    Ms. Herrera Beutler. All right.

                      HOW CBO PRIORITIZES ITS WORK

    Mr. Ryan. Is this a straight chronological, ``We got this 
request on this date and we start moving on it,'' versus the 
Speaker of the House is prioritizing, this bill is H.R. 1? Does 
that trump--to continue with my card playing references here--
does that trump the chronological request?
    Dr. Hall. Well, it kind of does. We set our priorities. We 
talk to the committees of jurisdiction and ask them, ``Well, 
what should we be spending our time on?'' And so we do let them 
do that, and sometimes they do change priorities in the middle 
and that sort of thing.
    And to be honest, it is hard to just sort of say, we get a 
bill and we start working on it, because we could be talking 
for years about pieces of this legislation and talking about 
how we view this and that. So we have a sort of foundation of 
work over time.
    That is part of why I emphasize that so much of our time 
probably--more of our time is probably spent with this sort of 
informal technical assistance just talking than it is on the 
formal estimates where we get that language and here it is 
final and that sort of thing.

                          STAFFING STRATEGIES

    Mr. Ryan. Around campaign finance, how many people do you 
have working on that? It seems to me you are talking about 
healthcare, you are talking about immigration, you are talking 
about the economy, you are talking about taxes. I can't imagine 
you have many people----
    Dr. Hall. Well, we will have a team. I would guess it is at 
least three or four main people. But one of the things that we 
do is we have assistants who help. And then we have a review 
process where things get touched by a lot of people to make 
sure we are being objective, we have been complete.
    So the number is probably larger who will touch that 
eventually on its way out. And everything passes by my desk as 
well. So if you think about even something fairly simple, a lot 
of people wind up having some impact on it.
    But we can't, as I am sure you know, we can't just sort of 
create expertise. We have got to have those people there. And 
it takes our analysts a couple of years to become really expert 
in their areas.
    And so this is part of what we are trying to do, we are 
trying to create more overlap, so rather than get caught with 
one person carrying all the weight on something, we have 
several people who are helping and we have some assistance.
    Mr. Ryan. In that regard, let me ask one quick question 
before I go to Mr. Newhouse. With the budget request, who would 
you hire with regard to topics? Do you know?
    Dr. Hall. Yeah. We try to have a broad range of topics. 
Eighty percent of our folks have advanced degrees. So our 
budget analysts typically have master's degrees in public 
policy. And we will bring them in, for example, somebody fresh 
out of school, and they will specialize in an area and learn 
the legislation, learn who to talk to, that sort of thing.
    But we have 80 budget analysts covering the entire 
waterfront. So it seems like a lot of people, but when you 
consider all the topics, it is not a lot.
    And we just try to anticipate. We have to have everything 
covered because we never know what is going to happen. But if 
we anticipate there will be more things on immigration, we 
might try to add some.
    Mr. Ryan. So you are just adding bodies, not necessarily 
saying, ``Okay, of the full-time employees, we want 25 percent 
to go to healthcare.'' You just want bodies and then you will 
figure out where they go based on what the demands are.
    Dr. Hall. Right. Well, that would be true for budget 
analysts, yes. We also have a large number of Ph.D. economists 
who have an expertise that is not so fungible. So we will have 
areas that are covered, and they will be helping out with 
developing the modeling and doing some of the----
    Mr. Ryan. And that is part of the request?
    Dr. Hall. Yes.
    Mr. Ryan. Okay.
    Mr. Newhouse. I like your gray hair, by the way, just for 
the record.
    Mr. Newhouse. It wasn't always this color.
    Mr. Ryan. I know. I know the story.
    Mr. Newhouse. I am still trying to get my head around you 
being here 17 years. You started when you were 12, obviously.
    Mr. Ryan. Pretty close.

                       TRANSPARENCY AND ACCURACY

    Mr. Newhouse. Well, welcome, Dr. Hall. Appreciate you being 
here and bringing your team with you to talk about your budget 
needs for the year.
    CBO is one of those organizations, if the numbers come out 
with something that you are in favor of, everybody loves them; 
if they don't, well, maybe the opposite could be true. So it is 
a tough position to be in. I think you guys are in the position 
of--I think, you tell me if I am wrong--just calling balls and 
strikes, right? It is a very impartial place to be. So take my 
questions in that light. I want to help you improve that.
    You talked about transparency. I appreciate your efforts 
there, and maybe we can talk more about those things to improve 
transparency so Members feel as though everything is available 
to them when they need it and all those things.
    I would like to know a little bit more about some of the 
specific reasons, the models that are used in decisionmaking, 
what that process is like, would it not be a factor when you 
analyze a bill.
    And let me give you an example of what I am trying to get 
to. And the chairman said you have been thrown into the pit, 
and that is absolutely accurate, you are at the center of a lot 
of the arguments.
    When you analyzed the House version of the American Health 
Care Act last year, your estimate included people who would be 
willing to choose to forego the coverage that they were 
mandated to purchase under the Affordable Care Act even if they 
couldn't afford it.
    In the total number of people who would lose insurance 
under the new bill, it also included individuals on Medicaid 
that would voluntarily leave the free coverage that they were 
receiving due to the repeal of the individual mandate. So the 
bottom line is, and I am sure you know, your study deduced that 
the healthcare bill would cause 23 million fewer people to have 
health insurance, including that number 14 million who would 
not buy the insurance if the government stopped fining them for 
it.
    Since the repeal of the individual mandate in the Tax Cuts 
and Jobs Act, the Centers for Medicare and Medicaid Services 
released their own estimate for insurance coverage reduction: 
Not 23 million, it was 2.5 million people in 2019. Of those, 
the majority are expected to be somewhat younger and healthier 
than those who retain coverage.
    So this is, obviously, a drastically different number than 
your original estimate. And on top of that it comes after an 
overestimated number of individuals who would sign up for 
coverage under the Affordable Care Act in the first place.
    So given all of that and the unique role that you have of 
just calling balls and strikes, but you can influence, through 
what your work is, policymaking, it is certainly important that 
the numbers are reliable.
    So I would like to just ask about that, some of the reasons 
specific models were used, what led to the analysis to be, I 
guess you could characterize being so inaccurate, and what 
steps are you taking to ensure that going forward that models 
are going to be more accurate so that we can all have 
confidence and all feel that we are getting a fair shake here.
    Dr. Hall. Sure.
    Well, first of all, there is a little bit of an apples-and-
oranges comparison because our 23 million was over a 10-year 
period, and a lot of that change in coverage came from Medicaid 
expansion ending. So it wasn't just the mandate.
    Also, a few things. We were working on a 2017 baseline. The 
Budget Committee asked to use that instead of the more recent 
baseline. So there is a fiction already going on a little bit 
because we were using a little bit of an old baseline.
    We fundamentally differ, I think, from the CMS in thinking 
that the mandate affects Medicaid enrollment. We think the 
mandate does encourage people to look for coverage and then 
they discover that they are eligible for Medicaid where they 
didn't know before. So we do fundamentally differ with them on 
that. They don't seem to see much of a Medicaid impact.
    I could go on a bit about our differences in estimates, but 
keep in mind the mandate penalty has been gone for only 2 
months. So we are going to see this year exactly how many 
people do drop coverage now that the mandate penalty is gone. 
So in terms of our accuracy, well, we will see how that works 
out.
    Mr. Newhouse. The jury is still out, you are thinking?
    Dr. Hall. The jury is still out, and it will take a while 
to get that data in.
    We have changed our thinking on it a little bit. We did 
lower our estimate of the effects of the mandate at some point.
    The modeling that we have done has been--let's make one 
important distinction. We do use models, but the most important 
thing is our analysts. We have people who think this through 
very carefully, they talk to people, et cetera. The model is 
just sort of one tool that they use. So we are not just all 
dependent upon the model. But that is something that we pay 
attention to.
    For what it is worth, we have just finished updating the 
healthcare model, first time since it has been created. The 
model we have been using is something called HISIM. We have got 
something now that we are calling HISIM 2.0. It is just now 
online. So we will see what sort of difference that makes.
    I think certainly the new modeling will make us more 
flexible and more able to do different estimates faster going 
forward.
    But you are right, projecting stuff, we have differed with 
other folks. We have been more or less accurate over times with 
this.
    Part of the issue certainly with the mandate, to be honest, 
is things change, and a lot of things change, publicity 
changed, the news changed, and that affects people's view of 
things, and their willingness to go and sign up for healthcare 
changes, and we can't always predict that.
    But we don't want to be wrong on things. We do assess how 
we are doing and try to correct things. We do it every year. We 
adjust our baseline. So we take it seriously when we are off, 
and we do try to correct it. We have been adjusting our 
healthcare estimates all along.

                   DIFFICULTIES IN MAKING PROJECTIONS

    Mr. Newhouse. What would you say to some that have been 
critical of the CBO, even going as far as to say that they 
should no longer exist?
    Mr. Ryan. Keep your language clean when you answer that, 
okay.
    Dr. Hall. Well, I will just say, projecting things is hard, 
right. Projecting the future is hard. As much as we can, we do 
it in an objective, nonbiased fashion. I think we are very good 
at it on the whole. There are instances when sometimes 
projecting things is very hard, and when it is hard we are not 
as accurate.
    I think healthcare, the ACA was very hard. It was something 
new. Other things are less hard. I think we do as well or 
better than anybody in a lot of things. I certainly don't think 
we have done a bad job on the healthcare, but I do think that 
has been a really tough lift to forecast that accurately, 
because there are just so many things that make it complicated. 
This is part of why transparency is important to us.
    Mr. Newhouse. Yeah, that is sort of what it kind of boils 
down to. So that we understand the processes you are using and 
maybe even understand the weaknesses and the strengths of those 
processes so we know where to have more or less confidence in 
the outcomes.
    Dr. Hall. Yeah. And we have done reports, we have done a 
few presentations at CRS about exactly how we estimate 
healthcare and do our healthcare estimates. We have done that 
for staff a couple times, at least once, maybe twice.
    So we are going to try to keep doing that work. We are 
going to try to communicate about uncertainty. When we say 23 
million there is a lot of uncertainty in that. And that is just 
our best estimate. It could be higher. It could be lower. We 
try to communicate that.
    But that is a challenge for us. And to use a terminology, 
it is not just a matter of unknowns, there is unknown unknowns 
sometimes in your forecasting. And we don't get to beg off. We 
don't get to say, ``Oh, that is too hard.'' We try to give you 
our best estimate and try our best to communicate about it.
    Mr. Newhouse. But you footnote that, too.
    Dr. Hall. Yes.
    Mr. Newhouse. Kind of recognizing the unknown unknowns, 
right?
    Dr. Hall. Right. Now I would say, one of the things that we 
did, which really should be noticed, is we have redone our 
healthcare model. We have made probably a dozen presentations 
to experts on our model as we are developing it. So there are 
now a lot of people who understand exactly what our new model 
does, how it works. We have had input from a lot of people. So 
this has been a very transparent process in arriving at a model 
which will be a tool for future things.
    But this is sort of the challenge of dealing with an 
uncertain future, trying to be more transparent about it and 
taking the time to do that.
    I can tell you, for example, when we did the healthcare, 
the ACA estimates, we would have been working on a new model if 
we hadn't been working on those estimates. We had all hands on 
board working on those estimates. So it has delayed things 
because we have been busy doing the work as opposed to setting 
aside and redoing the modeling. So it is this balance that is a 
challenging thing.
    Mr. Newhouse. That sounds like the lumberjack that doesn't 
have time to stop and sharpen his saw.
    Dr. Hall. Yeah, yeah, I think that is a fair analogy. That 
is right.
    And we have probably, what, 40 people in total who deal 
with healthcare, but that is a lot of topics in healthcare, and 
we are working all out. We do our best to actually talk to 
outside experts and get their views on things.
    Mr. Newhouse. Well, obviously, there is a lot of interest 
in having confidence in the CBO numbers. And I think that 
transparency, people understanding the processes you are using 
and, like I said, maybe understanding more the relative 
strength or the confidence that you have in particular 
predictions would be helpful, too.
    Dr. Hall. Right. And we are looking for input.
    When we talk about transparency, we are doing a lot of 
things in transparency. We like to know what works and what 
doesn't work, what Congress finds helpful and not so helpful. 
That is part of what we are doing. We are trying to make 
business decisions about which axes to sharpen and that sort of 
thing as well. But it is a process. We don't crave the 
attention on this.
    Mr. Newhouse. It is inherent in your job, I am afraid.
    Dr. Hall. It is inherent in our job. And we know we do work 
that Congress relies on and it is important work. So we are 
looking for whatever help we can get in helping us focus on 
what we should be doing.
    Mr. Newhouse. All right. Good. Thank you.
    Thank you, Mr. Chairman.
    Mr. Ryan. You got it.

                  FEASIBILITY IN SHARING SUPPORT DATA

    Along those lines, there is a bill that would require CBO 
to publish all the data, models, computations, assumptions used 
in preparing each cost estimated issue and do so in a way that 
would allow outside experts to replicate the cost estimate. Is 
this feasible?
    Dr. Hall. It just isn't, unfortunately. We have taken a 
track where transparency is a lot of things. We understand some 
of the focus on the modeling, but that is just one aspect of 
transparency.
    And one of the problems is analysts do the work. We are not 
slaves to the modeling. So there is only so much help models 
can give.
    But second is, we have lots of models. If we had to put up 
every model we used--we have got 200-plus models--we would have 
almost no time for anything else. So it is a matter of 
priorities, which is sort of why we have taken this track of 
rather than focusing just on the models, we are focusing on a 
number of things and trying to make good business decisions 
about which things will be more useful to Congress.
    Not to say we are not producing some code from our models, 
it is the models that are used a lot and that we will likely 
use again in the future. We are trying to focus on that sort of 
thing.
    And then another aspect of this bill which would be really 
a concern for us, we use all sorts of confidential data. We are 
calling up people. Sometimes it is even business confidential 
data. And if we made that public every time, we would have real 
problems getting the data in the future. So we have lots of 
constraints on something like this.
    You know, I agree, I have always agreed with the idea that 
transparency is important. We want to be more transparent. We 
just want to do it, like I say, with some smart business 
decisions. This feels a little like being overregulated if you 
are a company where it is going, in my mind, too far with the 
modeling and not enough in some of the other aspects.

                   ESTIMATING SAVINGS FROM PREVENTION

    Mr. Ryan. One of the issues that came up earlier was the 
healthcare bill. And I remember back when we did the Affordable 
Care Act one of the issues was the inability to project cost 
savings around prevention.
    Dr. Hall. Right.
    Mr. Ryan. That was a pretty frustrating time. You know, we 
are going to have more screenings, we are going to have more 
birth control, we are going to have more this, we are going to 
have more that. And, obviously, an ounce of prevention is worth 
a pound of cure, but we couldn't find that information out. Can 
you tell us why?
    Dr. Hall. Well, first of all, the easy part, or the easier 
part, is knowing how much the government is going to spend on 
it. We can get that down. The part about how much is saved from 
prevention, we do try to take that into account.
    What gets frustrating is we look at research, we look at 
evidence, we don't want to just assume that. And so when we do 
an estimate, we really do try to make an estimate of the net 
cost. So we do try to take into account the effects of 
prevention, that sort of thing.
    One of the frustrations, I think, for people is a lot of 
things seem like they would save more money than they do. You 
can treat a lot of people, and for the ones that the treatment 
works on, there are savings, but you are treating a lot of 
people. So the cost is still there. So we have to net all that 
out.
    And we are constantly looking for evidence. If we get some 
good evidence, some research that is relevant and shows some 
savings, we will take that into an account.
    I think part of it as well is we can take the savings from 
prevention into account, and it still doesn't mean that 
something pays for itself. That is a pretty tall order, for 
something to actually pay for itself even if it does have some 
savings involved.
    One example I can think of, it was a while back, that 
something actually paid for itself was some anti-smoking stuff. 
That actually paid for itself because of the prevention. But 
there are very few other things we have encountered since then 
where the prevention has such an impact that it outweighs the 
spending cost to the Federal Government.
    Mr. Ryan. So you are doing screenings, but you are doing 
screenings for everybody.
    Dr. Hall. Yes.
    Mr. Ryan. And maybe a lot of those people weren't going to 
get anything anyway.
    Dr. Hall. Right.
    Mr. Ryan. And you are catching it for a certain cohort once 
you are able to----
    Dr. Hall. That is exactly right. That is almost always an 
aspect of trying to take this into account. If treatment helped 
somebody with opioids, for that person really there can be a 
lot of savings. But what percentage of the people get reached 
by that, we have to take that into account, and that gets to be 
a hard lift sometimes.
    Mr. Ryan. So you do have the information. You just can't 
really project the savings.
    Dr. Hall. We try to.
    Mr. Ryan. If this particular treatment works, you know.
    Dr. Hall. Right. But our starting point has to be, yeah, it 
works for how many people versus how many are treated. So we do 
look at that and try to take that into account.
    One of the things, I think, that can be frustrating a 
little bit, too: So much medical research is helpful but it 
isn't always directly applicable to our issues.
    We have actually now done a few things which I really think 
we should continue to do more of. We put out blogs now talking 
about where we could use some more research that would help us 
take this stuff into account.
    We did one on obesity a few years ago, for example. We talk 
about what the evidence is and why we aren't able to give more 
credit towards programs that help with that. And the idea is to 
try to encourage research. And we like to hear about research. 
If there is some research that you think we should take into 
account, we will listen and talk to those folks and see what 
we----
    Mr. Ryan. I don't want to jump ahead of H.R. 1, but I do 
have a couple of requests. I mean, one that I think is coming 
more and more online is the adverse childhood experiences and 
how these ACEs have a significant impact on long-term health, 
addiction, all of the anti-social behavior.
    Dr. Hall. Right.
    Mr. Ryan. And I think we have got to get our arms around 
that because it is going to take some early investments to try 
to prevent some of that. So we may be coming at you with that.

                CREATIVE FINANCING FOR CAPITAL PROJECTS

    Last question I have, that we talked about a little bit 
with the Architect of the Capitol, is trying to find ways to 
fund the legislative branch, especially the bricks-and-mortar 
projects, with some level of creative financing. We had a 
couple of examples around cogeneration with the power plant and 
more of a PACE program where you get some upfront money from 
the gas company to put in the retrofits and all of that and 
then you yield the savings in the long run.
    I don't know if you have any ideas on how we would be able 
to creatively finance some of these. Renovating the Longworth 
Building is going to be over a billion. The Rayburn renovation 
is going to be over a billion dollars. The longer we wait, the 
more it is going to be.
    Dr. Hall. Right.
    Mr. Ryan. I don't know if you have any ideas. I am just 
kind of tapping into your expertise here. Or if you have any 
money, I mean.
    Dr. Hall. I didn't expect that.
    Mr. Ryan. You know, I am not going to let you just ask me 
for money. We are going to ask you for money.
    Dr. Hall. Well, the budget generally is done on a cash 
basis, and there are some things we do on an accrual basis, 
credit programs we do that way. But for the most part it is a 
cash basis.
    And when something like what you are talking about, if 
there is a commitment, even though the government may be 
renting something, if there is a commitment to rent it, we have 
to treat that as a commitment. So when we do a budget estimate 
that all gets wrapped into the cost. So it doesn't necessarily 
look all that different with the different creative financing 
things.
    But we can certainly talk to you a little bit, if you like.
    Mr. Ryan. We could get the money upfront, right. We could 
get the project. That is what I am concerned about, is getting 
these projects done and then, fine, paying rent, lease, 
whatever, down the line. I don't know how you do that with the 
Rayburn Building.
    Dr. Hall. Right. No, I mean, in our cost estimate we would 
reflect that, we would reflect it. You know, when we do an 
estimate we do it over 10 years, so we would characterize the 
upfront money. We would talk about it on a cash basis, when the 
money goes out, that sort of thing.
    As to whether that winds up saving money or not, I don't 
know.
    Mr. Ryan. Yeah. Well, I mean, my estimate--well, I don't 
know if it would or not, but it would get the projects done. I 
would think it would save money in the long run because if we 
wait, the longer we wait, the more expensive everything is, 
labor, material, all of that.
    Is there anything in the budget--this will be the last 
question. This is a very elementary question. We, the Federal 
Government, owns all of this property. We own these buildings. 
They are the Federal Government's property.
    Dr. Hall. Right.
    Mr. Ryan. The Capitol, Longworth, Rayburn, Ford, all of 
these. But there is no--we don't get any--I mean, is it just 
general assets? Are they counted as assets into the Federal 
Government? Is that part of what we borrow off of in general?
    Dr. Hall. Yeah, you can do it that way, that is right. If 
you just own them, since they don't have that much of an impact 
on the budget, because there is no cash going in or out.
    Mr. Ryan. Right. But if I had a house I owned, I would get 
home equity, and I would go out and borrow money and redo my 
house or add something on. But, I mean, we can't do that, 
right? I mean, if we sold the Longworth Building to a 
developer, what would they pay for that property?
    Dr. Hall. Right.
    Mr. Ryan. I am exploring this with you. I don't have an 
answer. But I would imagine it would be a lot of money.
    Dr. Hall. Right. And that would have budgetary impacts, and 
we would make an assessment of the incoming money when that 
happens on a cash basis.
    I don't know, we don't do it, but there are probably some 
estimates out there about the value of what the government 
owns.
    Mr. Ryan. I mean, we probably wouldn't look as poor as we 
are now or the deficits wouldn't look as bad or the debt 
wouldn't look as bad if we took into account the assets of the 
Federal Government.
    I am just trying to understand if that is even counted. 
Does that even factor into our own budget or the long-term debt 
of the country?
    Dr. Hall. No, it doesn't really play into what we do.
    Now, one of the things that we do when we talk about the 
debt and the deficit, we do it as a share of GDP to put context 
in it, right, because GDP gives you some idea of the ability of 
the economy to generate income that the government could rely 
on. We do that and we try to put that into context and not just 
talk about the raw numbers.
    But we don't do a lot of talking about the value of the 
assets of the Federal Government until they are sold.
    Mr. Ryan. Yeah. I am glad there is no press in here saying 
the Congressman wants to sell--the chairman wants to sell off 
all the assets. We will be cleaning that one up.
    Mr. Newhouse. It is already tweeted.
    Mr. Ryan. You tweeted that out. There you go. I thought you 
were my friend.
    You are never getting 30 minutes to ask questions again, I 
am just going to tell you.
    Well, we appreciate you and your team. Thanks for coming up 
and showing up here. And we will take a very close look at your 
request. We have got a lot of demands this year, and your 
requests are part of the challenges we have got to struggle 
with.
    But we do want to say thanks to you and your team. And 
please let everybody know that at HQ we are very thankful for 
all their work and we rely on you.
    And I just think, lastly, that this whole idea of having a 
strong legislative branch that is independent from the 
executive is essential for us, and you are a big part of that.
    So happy to yield.
    Ms. Herrera Beutler. And I don't want to extend the 
hearing. But I may want to connect with someone further. In the 
last number of months I have gotten a lot of different 
information about modeling, like you use a lot of different 
models and analysts use it. I don't know that our answer can be 
back to the public, well, they use a lot of different models so 
then we can't make it open, open and transparent. That doesn't 
sell.
    Dr. Hall. Right.

                       MAKING CBO METHODS PUBLIC

    Ms. Herrera Beutler. So there probably will continue to be 
more interest in that. And the bill that the Chairman mentioned 
I have a lot of interest in as well.
    And to that, we talked a lot about healthcare, the economic 
outputs and where we are at, and the projections I am seeing 
out of CBO based on--and they are revised slightly. But if you 
look backward and then you look forward you have underestimated 
economic growth at times, right? And so we are seeing with the 
big piece of legislation that passed 2 years ago, the tax cuts 
bill.
    I am just curious, as you are putting out updated 
forecasts, because I assume you are, because GDP is continuing 
to grow, incomes are continuing to grow, the revenue forecast 
is changing, while it is a delicate dance for you and it is not 
a perfect science, the more that you can make your methods 
public, the more we are going to be able to trust and rely on 
the hard work that I know your smart folks are putting into 
this.
    You know, part of my challenge is I get into an issue and 
there are so many different competing. So the economy is 
growing or it is not growing? It is hard to even answer that. 
And we are reliant upon CBO to give us good information. And 
then when you have another, even a quasi-government 
organization contradicting that, you guys are the economists, 
you said the Ph.D. economic forecasters.
    So it is really, I think, for the future of this 
organization to continue to do and serve your mission, you are 
going to have to find a way to become more transparent. It is 
going to have to be demonstrated. It just will, I think.
    And so that is one of the things that as you are asking for 
budgets to grow, we want to provide that because we want you to 
do your work.
    Dr. Hall. Let me just say, we do a fair amount of self-
assessment, how have we done, how accurate we were last year. 
And I can say, maybe it is worth mentioning, our budget outlook 
we just produced, 10-year, in there we tell you exactly why we 
have changed our forecast, how much of it was economics, how 
much of it was new legislation. We give an economic forecast, 
we tell you what everybody else is forecasting as well. So we 
put it right into context.
    So we try very hard to be transparent, and a lot of that is 
sort of buried in the report.
    Ms. Herrera Beutler. It is, and it is really fun to read 
through there with a highlighter trying to find it.
    Dr. Hall. But we are always willing to come and talk about 
this.
    Ms. Herrera Beutler. Great.
    Dr. Hall. I have never turned down an offer to come talk 
with a Member.
    Ms. Herrera Beutler. Right.
    Dr. Hall. And we will come and talk about everything if you 
like.
    Ms. Herrera Beutler. Wonderful. Well, I appreciate it.
    And I thank you, Chairman.
    Mr. Newhouse. Mr. Chairman?
    Mr. Ryan. Yes, Mr. Chairman. Yes, sir.
    Mr. Newhouse. Do I have 30 minutes like----
    Mr. Ryan. You have got 30 seconds.
    Mr. Newhouse. I just wanted to follow up. Dr. Hall said he 
would be willing to come and talk to any Member at any time.
    Dr. Hall. Absolutely.
    Mr. Newhouse. I would like to talk to you more about the 
use or the non-use of dynamic scoring. I have got an article in 
front of me about the President's budget last year, and it 
makes some assumptions on the economic growth due to tax 
changes whereas CBO doesn't necessarily take those into 
account.
    So it comes up with different outcomes, and so I would like 
to have a longer conversation about that if we could.
    Ms. Herrera Beutler. I would like to.
    Dr. Hall. Sure.
    Mr. Newhouse. But also in your testimony, one of the topics 
is analyzing the accuracy of the CBO's estimates. You are 
coming out with some reports analyzing your hits and misses 
apparently. I am certainly interested in seeing that, and I 
think that would be interesting for a lot of people to see.
    Mr. Ryan. I am happy to adjourn this hearing.
    [The following questions were submitted to be answered for 
the record:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                      Wednesday, February 27, 2019.

                    GOVERNMENT ACCOUNTABILITY OFFICE

                                WITNESS

GENE L. DODARO, COMPTROLLER GENERAL OF THE UNITED STATES

                   Opening Statement of Chairman Ryan

    Mr. Ryan. The committee is in order.
    Today we have two hearings. First is the GAO, and the 
second is the Government Publishing Office.
    We are pleased to welcome Mr. Gene Dodaro, the esteemed 
Comptroller General of the United States, along with his team 
to testify on the fiscal year 2020 budget request for the 
Government Accountability Office.
    Congress needs your agency's neutral expertise these days 
more than ever. With the complexity of Federal programs and tax 
policy threatening to overwhelm Congress's capacity to perform 
adequate oversight, we know we sometimes overtax you with our 
constant requests for reports, but GAO and the agency IGs are 
really our principal source of analysis that are needed for 
responsible policymaking.
    Your budget request is an ambitious $58 million increase or 
almost 10 percent above your fiscal year 2019 level. We will 
have to hope that we receive a healthy enough 302(b) allocation 
to be able to address it.
    Mr. Dodaro, before we ask you to proceed with the summary 
of your written statement, I would like to ask our ranking 
member, Ms. Herrera Beutler, if she has any opening remarks she 
would like to make.

          Opening Statement of Ranking Member Herrera Beutler

    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    And I would also like to welcome our distinguished guest. I 
am excited to hear exactly what the Comptroller General of the 
United States does. I have seen some information, but I am 
interested in hearing this.
    The GAO often--I have, myself, cited it as a watchdog in 
many a hearing. We all do. We rely on what you do. And I think 
what most of the public doesn't understand, you are tasked with 
investigating how well or how inefficiently we do our jobs. I 
mean, I feel like you are a very critical piece of what we do.
    I have seen estimates from your office that say, for every 
dollar invested, $124 of potential savings government-wide is 
identified, which totaled over $75.1 billion in fiscal year 
2018 alone.
    So your budget request is $647.6 million, with a 9.78-
percent increase over last year's enacted. So we should see $80 
billion in savings to the government, at least, based on the 
numbers I was just looking at, will we see that $80 billion in 
savings to the government based on that request?
    And I look forward to hearing from you.
    Thank you, Mr. Chair.
    Mr. Ryan. The floor is yours, sir.

                        Testimony of Gene Dodaro

    Mr. Dodaro. Thank you very much, Mr. Chairman.
    Good morning to you, Ranking Member Herrera Beutler.
    Good morning, Congressman Ruppersberger, Congressman 
Newhouse. Good to see you again, everyone.
    I appreciate the support that this committee has given us. 
And I believe that we have provided a great return on that 
investment. For the last 5 years, the GAO has returned over 
$100 for every dollar invested in GAO. The last couple years, 
as you cited, Ms. Herrera Beutler, it was over $124 for every 
dollar invested in GAO.
    So we provide, on a consistent basis, a sound return of 
financial benefits to the government. But, beyond that, we also 
produce other benefits for the government in public safety, 
national security, and other areas, since our scope is the 
entire breadth of the Federal Government's operations.
    Last year, for example, based on our work, Congress gave 
legislative direction to VA to improve its appeals process and 
to retrofit facilities for women veterans who are in need. DOD 
was directed to come up with a plan to improve military 
readiness. I have been very concerned about military readiness. 
GAO is required to monitor DOD's execution of that plan over 
the next 5 years. Military readiness will be a big part of our 
activities over this period of time.
    Also, I was pleased that the Congress, based in part on our 
work, passed the Disaster Response Reform Act, which allows for 
more funds to be used for mitigation and resilience building 
ahead of time, which is, we believe, a prudent way for the 
Congress to go.
    We have also pointed out a wide range of other things that 
need attention. For example, VA needs to improve its suicide 
prevention efforts. We have made recommendations there. States 
need more guidance on how to deal with substance abuse-affected 
infants, and, based on our work, we have encouraged that.
    We also have done work that helped the Congress pass 
legislation on elder abuse; to collect more data so the 
government could come up with better prevention strategies in 
the future to deal with elder abuse. Based on our work, 
Congress directed ONDCP to come up with better measures to 
gauge progress in addressing the opioid epidemic.
    So our work touches everything from defense to healthcare.
    GAO is asking for an increase for FY2020 to $647.6 million. 
We believe that this will enable us to meet the highest-
priority needs of the Congress. We continue to serve over 90 
percent of the standing committees of the Congress and most of 
the subcommittees. We get, on average, about 800 requests a 
year from the Congress.
    We tackle them by priority, what is in statute or 
conference or committee reports are priority one. Requests from 
committee chairs and ranking members, same treatment, are 
priority two. Priority three is requests from individual 
Members of Congress, but we haven't had enough resources to do 
that for about 15 years. Presently, in order to get access to 
our services, it needs to be a committee, at a minimum, or 
something in statute. I would like to do more, but we just 
don't have the resources.
    I meet on a regular basis with all the committee chairs and 
ranking members to try to help set priorities for their 
requests and to make sure we are focused on their priorities. I 
have a clear sense of what they are, and they understand what 
the tradeoffs are if they want something different, if an 
emerging issue comes up for example.

                         FY 2020 BUDGET REQUEST

    There are four areas that we are increasing our resources 
but I believe need even more resources in FY 2020.
    First, is science and technology issues. This is something 
that we have been working on for a while now. We have just 
created a new team to give it more prominence, to deal with 
science, technology assessments, and technical assistance to 
the Congress.

                         SCIENCE AND TECHNOLOGY

    Science and technology is evolving so fast that I think 
Congress needs more help and more assistance understanding the 
ethical, legal, and regulatory aspects of science and 
technology issues, whether you are talking about artificial 
intelligence, blockchain, quantum computing, brain 
augmentation, or a wide range of other issues.
    We have the capacity to do this, and we are building more 
capacity to help the Congress in that regard.

                             CYBERSECURITY

    Second, cybersecurity continues to be a huge risk. We 
labeled this a high-risk area across the entire Federal 
Government in 1997; we have been warning people for a while. We 
have added critical infrastructure protection beyond the 
Federal Government systems and there needs to be more effort 
there.
    We have also encouraged the Congress to pass a 
comprehensive privacy legislation framework for the private 
sector. Currently, only healthcare and credit reporting 
agencies are covered. There is really no framework for 
information reselling or other issues in this area.

                                DEFENSE

    Third is defense. Congress continues to make huge 
investments in the defense area, and we want to make sure that 
we are on top of that. We get dozens of mandates every year in 
the defense authorization and appropriation bills for work 
requesting GAO's assistance, and so we spend a lot of time on 
that.

                               HEALTHCARE

    Fourth is healthcare. Healthcare costs, aside from interest 
on the debt, are the fastest-growing portion of the Federal 
Government. You know, about a trillion dollars was spent this 
past year on Medicare and Medicaid alone. Both medicare and 
medicaid have been on our high-risk area for a number of years.
    The Congress needs to address this issue on payment 
policies and try to come up with reductions in healthcare 
expenditures because it is really not on a sustainable long-
term path.
    I can talk more about the number of beneficiaries in Q&A. I 
don't want to use up all the time. I could talk for an hour on 
healthcare alone. The number of beneficiaries are growing 
exponentially as our population ages. Right now, there are only 
2.8 people working for every one retired person in the United 
States. We are going to where it is going to be two people 
working for every one retired person in the United States. The 
models that we have for Social Security and for Medicare 
indicate that we aren't going to be on a sustainable financial 
path without attention from and reform by the Congress.
    This is leading to a long-term unsustainable fiscal path 
for the Federal Government. As the auditors of the Federal 
Government's financial statements. I have been saying for years 
that this is on an unsustainable long-term path.

                       INTEREST ON NATIONAL DEBT

    The interest on the debt just in the last 2 years alone has 
grown $120 billion. We are talking over $360 billion this year. 
By 2029, within 10 years, interest on the debt alone, CBO 
estimates, could be $928 billion.
    We would be knocking on the door of a trillion dollars a 
year just to pay the interest to service the debt. By then, 
Medicare and Medicaid each will be a trillion dollars by 
themselves. So that is $3 trillion. Social Security right now, 
this year, hit a trillion dollars in spending.
    Before you fund anything else in the Federal Government, 
interest on the debt, healthcare, and Social Security is going 
to be $4 trillion, just as an opening bid on those issues.
    Ms. Herrera Beutler. Four trillion?
    Mr. Dodaro. Four trillion. Each one will be close to or at 
a trillion dollars by that point in time. The Medicaid portion 
includes State as well as Federal money.

                                STAFFING

    At GAO, we take our job very seriously.
    We are also rated as the best place to work in the Federal 
Government. We are rated number one across Federal Government 
for our commitment to diversity and inclusion. We have 
tremendous, dedicated, talented people.
    We have no problem hiring people. I spend a lot of time 
going around to colleges and universities, and we have a 
national recruiting program, and so we have no problem getting 
top-tier talent in the Federal Government.
    Mr. Ruppersberger. Do you think you would consider running 
for President with all that?
    Mr. Dodaro. No. I like my current----
    Ms. Herrera Beutler. He said he liked his job.
    Mr. Dodaro. I love my job.
    I am here to ask for your continued support. I believe we 
will provide a great return on investment.

                    OFFICE OF TECHNOLOGY ASSESSMENT

    I know there has been a debate in the past about whether to 
reinstate OTA, Office of Technology Assessment, or provide more 
resources to GAO. I am here to assure you that we are prepared, 
if you decide to go that way, to handle those additional 
responsibilities.
    We have been doing technology assessments since 2002. We 
have built the capability to do that at GAO and to do more work 
in that area. I am very much looking forward, it is a high 
priority for me. I believe we need to have more science 
capabilities and technical capabilities.
    Congress asked us to look at the new Columbia-class nuclear 
submarine. I need people that understand that technology. The 
Federal Government is spending over $300 billion to refurbish 
our nuclear arsenal. I need people who understand how to do 
that, particularly sophisticated computer modeling.
    As Congressman Newhouse knows, the disposal of radioactive 
waste, is complicated and we do a lot of work in Hanford. We 
have a site there we do so much work. Healthcare, is another 
area we are doing work on antibiotic-resistance bacteria and 
other vaccines that need to be done.
    This is an area where GAO has been and will continue to 
grow to meet our full range of services, but we can also meet 
the technology assessment and technical assistance to the 
Congress.
    We have a plan due to the Congress next month that was 
required by this committee last year, a plan on how to expand 
our technology and assessment work in the future. We will be 
submitting that plan on time next month and look forward to 
your consideration.
    I know you will give careful consideration to our budget 
request, and I thank you for that. I am prepared to answer 
whatever questions you may have.
    [The prepared statement and biography of Gene L. Dodaro 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Ryan. I just want to say thank you to you. From our 
meetings in my office and the hearings I have been here with 
you, I just want to say thanks. It is unbelievable, your team 
and your ability to communicate to us what we need to do. And 
when we are looking at the trajectory of the country, with the 
spending and the programs that need to be reformed and updated, 
you are really providing the roadmap for us. So we appreciate 
that.
    I am going to yield to my colleague here. I know she may 
have to step out at some point early, so I want to give her an 
opportunity to ask some of the first few questions.
    And take as much time as you need.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. I appreciate 
that.
    Well, you know, I could listen to you talk about healthcare 
for an hour. I would love to dig deeper. And so I will ask a 
few questions along that route and along the debt service and 
kind of some of the debt issues that we are looking at.
    But I would ask that you would come in and spend some time 
with me in my office to go over those a little bit more in 
detail so I can not belabor--you know, I ask a lot of 
questions.
    Mr. Ryan. I am down for it too. I will come to the meeting.
    Ms. Herrera Beutler. I just think it would be very, very 
helpful. And that is ultimately--you know, some of these other 
things that I think are critical I think you laid out very 
well. I was sitting here going, science and technology, like, 
what does he do there? And then you give us a couple examples; 
okay, that makes sense.
    But I think in terms of just overall fiscal policy for us, 
I would like to talk a little bit about the tax bill, I would 
like to talk about CBO and assessments. And I saw their 2029 
projection with regard to debt service. I had some questions 
there that I am sure you can answer. And then, in addition, the 
Medicare, Medicaid, and Social Security pieces.
    So I just wanted to put that on there, that I would like to 
do that, so someone back there, I am sure, is writing it down.
    Mr. Ryan. I think all of them did at the same time. Very 
good team. And they are all happy. Look at them.
    Ms. Herrera Beutler. So, with that, I did want to ask, 
along the lines of disaster funding--another small topic. 
Fourteen million was provided to GAO in the hurricane 
supplemental to help prevent fraud, waste, and abuse and to 
evaluate overall Federal response and recovery efforts.
    And, obviously, our rating, our grade on how well we have 
responded to some of these disasters is still very much in 
question.
    So I am curious what the status of GAO's work on the 2017 
disasters is, and what can you share with us so far?

                            DISASTER FUNDING

    Mr. Dodaro. I would be happy to.
    We, so far, have issued eight reports on the disaster-
related assistance that was provided for 2017, both the 
hurricanes as well as the wildfires in California.
    We have issued reports on the Federal Government's initial 
response to affected areas. We have issued a followup report on 
Puerto Rico in particular and some of the challenges the island 
faces. Just 2 days ago, we issued a similar report on the 
Virgin Islands in terms of its status as well.
    We have issued a number of reports on contracting for 
assistance. First, there are a lot of advance contracts that 
are to be used by the Federal Government to help move quickly 
in those areas, so you wouldn't have to put things out for bid. 
You have contractors already lined up. There are improvements 
that they could make. We made nine recommendations in these 
areas.
    We are looking at the post-contracting areas for disaster 
assistance. We will have a report coming out soon with 10 
additional recommendations to improve contracting. It addresses 
how the Federal Government uses the money, whether it is used 
in a wise manner in the contracting area and meets all the 
requirements.
    We have over 25 other audits already underway because there 
is a long tail to disaster recovery. There is the initial 
response, but recovery takes many years, as you know. Sandy 
just finished up not that long ago.
    We are looking at the electricity power grid in Puerto 
Rico, and the housing issues, particularly in Texas, in the 
area where they were hit. And we are looking at the Small 
Business Administration and what they have been doing to help 
small businesses. There is a wide range of other audits.
    So far, we have used $5.6 million of the $14 million. We 
expect that we will use the remainder of that by the end of 
next year.
    Ms. Herrera Beutler. So fiscal 2019?
    Mr. Dodaro. Fiscal 2019. [Correction: Fiscal 2020]
    Ms. Herrera Beutler. Okay.
    Mr. Dodaro. But we are well on our way in that area. And we 
are happy to take on additional responsibilities to look at the 
2018 disasters as well, both Florence and Michael. Because they 
were different types of issues, will have different types of 
effects. We have done a lot of work in Disaster Response and 
Recovery.
    We have on our high-risk list a related issue, which is 
limiting the Federal Government's exposure by better managing 
climate change risk. I put that on in 2013. We have encouraged 
the government to do more in terms of mitigation and resilience 
building up front, because many of these things could be 
avoided.
    Our report this year on initial governments' response 
showed that Florida was better positioned than anybody else.
    Ms. Herrera Beutler. That would make sense.
    Mr. Dodaro. Because they had worked to change building 
codes and standards. Whereas you had Puerto Rico on the other 
end of spectrum that wasn't prepared at all.
    Ms. Herrera Beutler. Well, I am reading the history on 
Katrina. I was watching something on Florida's preparedness and 
just the different planning, to say nothing of Puerto Rico.
    So when you mentioned the climate change piece, though, I 
wanted to ask about mitigation with regard to forest management 
and if that is a piece of what you are looking at.
    Because I live in the West, I am actually downstream of 
that nuclear power plant, so very interested in that as well. 
But our Federal forests and what happened in California, in 
Paradise, and then what we see as possibly happening in and 
around just even my region. And we see with regard to the 
difference between State lands, DNR lands, private lands----
    Mr. Dodaro. Right.
    Ms. Herrera Beutler [continuing]. And Federal lands. I have 
had Fish and Wildlife and Chief Forester, everybody from the 
Feds has come out and walked through those three different 
landscapes in the same area, and you just know that we are ripe 
for a horrible disaster. And I am curious about that piece.

                           FOREST MANAGEMENT

    Mr. Dodaro. We have done work in the past on the controlled 
burns and trying to get rid of the underbrush. I am not sure 
whether we are currently----
    Ms. Herrera Beutler. Selective harvest?
    Mr. Dodaro [continuing]. Focused on that. But we will go--
go back and make sure we are focused on that area.
    Ms. Herrera Beutler. I just think, if you are talking 
about, we live and breathe it and it is a part of our heritage, 
we want to protect it, climate change isn't the only piece. It 
would be silly to think it was. You recognize that, once man 
has touched a forest, it is never going to go back.
    Mr. Dodaro. Right.
    Ms. Herrera Beutler. So then there is a responsibility for 
a healthy ecosystem. And you really can see the difference in 
the three.
    Mr. Dodaro. Right.
    Ms. Herrera Beutler. So I would be curious to hear, too, 
what your team is doing in that area, especially with kind of 
your look at the climate piece.
    Mr. Dodaro. We are looking at forest management.
    Ms. Herrera Beutler. That might also be another area where 
we could talk about.
    Mr. Dodaro. So, when we get together----
    Ms. Herrera Beutler. Yes.
    Mr. Dodaro [continuing]. We will talk about specifically 
what we are doing.
    Ms. Herrera Beutler. Great.
    Mr. Dodaro. The one thing I want to mention--you mentioned 
the debt thing. Just one thing----
    Ms. Herrera Beutler. Oh, yes.
    Mr. Dodaro [continuing]. I wanted to put on your radar 
screen.
    Ms. Herrera Beutler. I am sure we could talk about that for 
a while.

                              DEBT CEILING

    Mr. Dodaro. The debt ceiling suspension period is off this 
Saturday. This means the Treasury Department, as of March 2nd, 
will not have enough money to pay the Federal Government's 
bills on time unless it goes to what they call extraordinary 
measures--which have, unfortunately, become all too ordinary.
    Ms. Herrera Beutler. It is true.
    Mr. Dodaro. They borrow against the government's pension 
systems, and there are other measures they could take. CBO 
estimates that, through these extraordinary measures, they will 
have enough money to last maybe until the end of this fiscal 
year in September. I urge Congress to take action.
    I have also made recommendations that Congress change how 
the debt ceiling works. Right now, it does nothing to control 
the debt. When Congress may not raise it on time, the markets 
get nervous. They demand an additional premium, and it costs 
more in interest to borrow money during a period of time. The 
markets now are distorted because they are avoiding purchasing 
securities that might expire during a potential impasse period. 
It is affecting liquidity in the secondary market. So there is 
nothing to like----
    Ms. Herrera Beutler. It helps no one.
    Mr. Dodaro. It helps no one in this process. I have made 
some recommendations on different ways that that could be dealt 
with over time. I am very concerned that any actions never do 
anything to affect the full faith and credit of the Federal 
Government.
    Ms. Herrera Beutler. Thanks. We could talk about that 
forever.
    Mr. Dodaro. Yes.
    Ms. Herrera Beutler. Thank you, Chairman.
    Mr. Dodaro. One approach is that the Congress could use the 
budget resolution process to raise the debt ceiling.
    Right now, the budget resolution process is mostly focused 
on the annual appropriation figures. Two-thirds of the Federal 
Government spending right now is on automatic pilot on Social 
Security and Medicare. The congressional budget resolution 
process ought to consider all the revenues coming in, just as 
you do in your family, you figure out what are your expenses, 
what your revenues are and how much you would have to borrow. 
That could be number one option.
    Number two option could be that authority be given to the 
executive branch to notify Congress that it needs to borrow 
more money to raise the ceiling and Congress could disapprove 
it. In other words, Congress wouldn't have to proactively act 
unless they disapproved that process.
    Third would be to give the President the authority, because 
Congress is appropriating the money. Right now, the debt 
ceiling only deals with paying bills that Congress has already 
appropriated. It is an after-the-fact measure. You could just 
say, okay, Congress, in deciding appropriations, it decides by 
de facto how much the government would have to borrow, and 
authorize the executive branch to borrow that amount of money.
    Mr. Ruppersberger. Do you have a paper on that?
    Mr. Dodaro. Yeah, I have a report.
    Mr. Ruppersberger. Could you send it to us?
    Mr. Dodaro. Yes. I will send it to all of you.
    Mr. Ruppersberger. Okay. Good.
    [The information follows:]

    This link will take you to GAO's most recent work on the 
Nation's fiscal health, https://www.gao.gov/
americas_fiscal_future. We will be issuing an update to this 
report in April and will provide a copy when it is completed.

    Mr. Dodaro. We have been working with some Member offices 
on proposals to deal with that, and I would be happy to talk to 
you about it.
    Mr. Ruppersberger. All right.
    The two areas I want to get into are the technology policy, 
and then I know you had--a couple years ago, you had an issue 
with the intelligence community being involved. And, you know, 
I have been involved with intelligence my whole career here. 
And, you know, intelligence community is very sensitive about 
their classified issues, and they don't want anyone else being 
involved. And your issue is trying to find a way to manage it 
and make sure it works better.
    But I will get into that second.
    Mr. Dodaro. Okay.
    Mr. Ruppersberger. I want to get into this first. You know, 
Congress can use help to better understand a lot of the 
emerging tech policy, like privacy, cybersecurity, new space 
threat, hypersonic weapons. These are some of the current 
projects.
    And you have the newly formed Science, Technology 
Assessment, and Analytics team.

                         SCIENCE AND TECHNOLOGY

    Mr. Dodaro. Yes, that is under me, but I also have an 
Information Technology and Cybersecurity team. There are two 
teams to deal with the issues you are talking about.
    Mr. Ruppersberger. Okay. Well, how is that working at this 
point?
    Mr. Dodaro. I think it is working very well.
    Mr. Ruppersberger. What are you doing, then, with that?
    Mr. Dodaro. We are doing a lot of work. We just issued 
technology assessments on artificial intelligence. We have done 
technology assessments on sustainable chemistry, detecting 
explosive devices on passenger rail----
    Mr. Ruppersberger. The biological----
    Mr. Dodaro. Yes, biological technical issues we have the 
capacity to do this. I have a lot of people with science 
skills. I hired our first chief scientist in 2008. I have been 
building this capacity for about 10 years now.
    We have a standing contract with the National Academy of 
Sciences, so we use a lot of their experts to help in peer 
reviews and other activities as well.
    In my prepared testimony, there is a list of all the 
technology assessments that we have done and technology 
assessments that we have underway. We also use these people to 
look at a lot of different issues.
    You mentioned hypersonic weapons. That is on our radar 
screen. So a lot of the defense work we do----
    Mr. Ruppersberger. My issue----
    Mr. Dodaro. Yes.
    Mr. Ruppersberger. Like, hypersonic I have been focusing on 
for years.
    Mr. Dodaro. Okay.
    Mr. Ruppersberger. It is a very dangerous situation for us.
    Mr. Dodaro. I agree.
    Mr. Ruppersberger. And due to sequestration, we are behind 
Russia and China. And there is an offense and defense.
    Mr. Dodaro. The same thing on artificial intelligence.
    Mr. Ruppersberger. Exactly.
    And I actually represent NSA, so I deal with a lot of that.
    And they are pretty good. But, on the other hand, you get 
into the other side that has a lot of issues in Homeland 
Security. You know, they don't have enough people, they don't 
have the expertise, and they have a mission which is really 
big. But I don't want to get into all that. I want to get into 
the issue of our plan efforts. You know, your testimony talked 
about over the next 2 years you have plan efforts, to include: 
assessing the Federal Government's efforts to establish and 
implement a comprehensive national cyber strategy; to evaluate 
government-wide initiatives to implement continuous diagnostic 
and monitoring capabilities; and establish effective risk 
management processes at the Federal agencies.
    Your testimony mentions the GAO's continued focus on the 
public-private-partnership model. Could you go into more detail 
on this model?
    Mr. Dodaro. Yes.
    Mr. Ruppersberger. And there needs to be, I think, an 
emphasis on the importance of a clear and concise best-practice 
guide for Federal agencies. And will this assessment include 
the technologies used by Federal agencies who deal with 
sensitive information?
    Mr. Dodaro. Yes.
    Mr. Ruppersberger. And you can throw in there too, I mean, 
our dot-gov, we are a long way off. You have some departments 
that are good, others that aren't. There hasn't been any--may 
be trying, but ability to pull that together to protect 
ourselves.
    Mr. Dodaro. Yes I testified before Congress last summer on 
all these issues. I will----
    Mr. Ruppersberger. What committee was it?
    Mr. Dodaro [continuing]. Be happy to provide my testimony. 
It was the House Oversight and Reform Committee.
    Mr. Ruppersberger. Okay.
    Mr. Dodaro. Congressman Hurd had held the hearing. And 
Connolly had been involved, as well as Congressman Meadows, and 
Representative Kelly. It was a joint hearing of two 
subcommittees.
    Mr. Ruppersberger. Okay.
    Mr. Dodaro. And so I will be happy to provide that.
    [The information follows:]

    This is a link to the 2018 testimony before Subcommittees 
on Government Operations and Information Technology, Committee 
on Oversight and Government Reform that Gene mentioned. 
Subsequently, we issued a report that provides greater details 
on the issue, High-Risk Series: Urgent Actions Are Needed to 
Address Cybersecurity Challenges Facing the Nation, GAO-18-622, 
Sep 6, 2018.

    Mr. Dodaro. But on the partnership issue, the issue is that 
the private sector has most of the computer resources, as you 
know, for critical infrastructure protection. Right now, there 
are standards out there, but they are all voluntary. The 
Federal Government really doesn't have a good idea on how 
implementation has gone of those standards, whether you are 
talking about the electricity grid--we have done work on that--
financial markets, the election systems, telecommunications. 
There are 16 different critical infrastructure sectors. Our 
view is the Federal Government needs to know more about the 
status of implementation of cybersecurity best practices in the 
private sector in those sectors.
    In some areas, the Federal Government has regulatory 
authorities, like in the nuclear area as well, but in many it 
doesn't. It is relying on the dialogue with the private sector.
    The Federal Government itself has not acted with a sense of 
urgency commensurate with the threat. I have encouraged them to 
move faster. We made, in the last 10 years, 3,000 
recommendations. Almost 700 of them are open. We issue more 
regularly.
    This is still a problem at virtually every Federal agency 
across the government, in terms of protecting the systems 
there. On a national level--we need a national and global 
cybersecurity strategy.
    Mr. Ruppersberger. We will probably be dead and buried 
before that happens on the global side.
    Mr. Dodaro. We need some cyber diplomacy. There are no 
international norms in this area. This is an area that is 
really very, very problematic.
    On the privacy side, our privacy law was passed in 1974. 
There was the E-Government Act in 2002. We are way out of date 
in terms of protecting privacy. We have had recommendations 
since 2013 for the Congress to pass a consumer privacy 
framework for the private-sector area as well.
    Mr. Ruppersberger. We are going to have a second round, 
right?
    Mr. Ryan. Yes.
    Mr. Ruppersberger. All right.
    Well, I would like you to get that information to me.
    Mr. Dodaro. Sure.
    Mr. Ruppersberger. The other thing, in my opinion, I 
believe just like we are focusing on prioritizing space, we 
need to prioritize cyber. And I would hope that we could have, 
like, a special combatant command or something where you focus 
strictly on cyber offense and defense. So if you have any 
information on that----
    Mr. Dodaro. Okay.
    Yes, we just issued a report not long ago about the lack of 
attention that DOD has been giving the cyber issue in the 
development of weapons systems.
    Mr. Ruppersberger. If you can get that to me.
    [The information follows:]

    Earlier this week, we also issued a report on DOD weapons 
systems, Weapon System Sustainment: DOD Needs to Better Capture 
and Report Software Sustainment Costs, GAO-19-173, Feb 25, 
2019.

    Mr. Dodaro. Yes. You will have all that today.
    Mr. Ryan. Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman.
    Mr. Dodaro, thanks for being here with us. Thanks for 
bringing your crack team with you.

                             NUCLEAR WASTE

    I do want to compliment you on the work that you did on the 
Department of Energy's efforts in the cleanup of nuclear waste. 
I think that that is going to help us make sure that we are 
spending taxpayer dollars wisely. That is a huge commitment of 
the Federal Government. And I think shining the light that you 
have on that will be helpful to not only get the cleanup done 
but as efficiently as possible. So thanks. You guys came in and 
helped explain that to me. And that is maybe not the message I 
wanted to hear, but we have to face the reality of what we are 
doing.
    I am going to ask kind of a question that I should know--
you know, this is my third term in Congress--and I don't. But 
you alluded to the fact that you work with committee chairs and 
ranking members; you don't have time for Member requests.

                              GAO PLANNING

    And so I got to thinking, well, you are our watchdog in a 
lot of things we do as a government. And I am assuming that it 
is very intentional, the things that you look into, that you 
assign to your staff. But how does that happen? Do you guys sit 
down in the morning over a cup of coffee at the table and say, 
what are we going to look into today? Or is it by request only 
from committees? How does all that happen?
    Mr. Dodaro. Yes.
    Mr. Newhouse. How do we intentionally look into things? And 
how do you prioritize?
    And with that, you talked about the enormity of all the 
things that you are doing. Your to-do list isn't empty, I am 
sure. There has to be a backlog here. And maybe talk about how 
this request or increase in your budget will help along those 
lines.
    Mr. Dodaro. Okay.
    Well, first, in terms of planning, deciding what we do, we 
do a 5-year strategic plan for serving the Congress and the 
country. We get input from a lot of the congressional 
committees. I have outside advisers. We have experts in the 
GAO, so we put that together. The last one we did was February 
of last year, 2018, through----
    Mr. Newhouse. A 5-year plan.
    Mr. Dodaro. A 5-year plan, strategic plan, for serving the 
Congress and the country.
    Then we work with all the committees on this issue.
    On average over the last 5 years, there have been about 800 
requests. About----
    Mr. Newhouse. From the committees?
    Mr. Dodaro. From the entire Congress.
    Mr. Newhouse. Oh, Members----
    Mr. Dodaro. Yes, Members--well, there are some Member 
request. Others come in the form of laws--``GAO shall do 
this''--committee conference reports. That is priority one.
    Priority two are requests from committee chairs and ranking 
members. We treat both the same. We are a nonpartisan 
organization. Those are our two priorities.
    Then the third, I mentioned is individual Member requests, 
but those, we don't have resources to do. Many of them get a 
committee to sponsor their request, so they get resolved.
    Of the roughly 800 we receive a year, I would say about 75 
percent of them are already contemplated in our strategic plan 
for serving the Congress.
    I believe the vast majority of what we do, is a shared 
agenda. Congress thinks it is important--they have either put 
it in law or a committee conference report or sent a request in 
from a committee--and we think it is important as well.

                  USING COMPTROLLER GENERAL AUTHORITY

    Mr. Newhouse. So would you analyze things without the 
request of Congress?
    Mr. Dodaro. Yes.
    Mr. Newhouse. You do.
    Mr. Dodaro. Yes. I do have authority to investigate 
anything on my own.
    Mr. Newhouse. I see.
    Mr. Dodaro. I use this selectively. The work we have done 
on the debt ceiling, I did that on our own authority. That is 
about maybe 5 percent of our resources every year, on average.
    Areas on the high-risk area, like cybersecurity, I did that 
on our own when we first put it on the list. Now it is 
requested every year.

                       FANNIE MAE AND FREDDIE MAC

    I authorized a study on the problem in housing finance with 
Fannie Mae and Freddie Mac, which are still under Federal 
conservatorship 10 years after the global financial crisis. All 
the risk now in the housing finance area has moved to the 
Federal Government. Two-thirds of all individual mortgages now 
are either directly or indirectly supported by the Federal 
Government. You know, Ginnie Mae's portfolio has grown over $2 
trillion. The Federal Housing Administration's portfolio has 
increased. This is a big problem, and Congress needs to solve 
this problem.

                          RETIREMENT SECURITY

    Those are just two examples. We did one on retirement 
security. I think we have a looming problem with retirement 
security given the changes not only in the government programs 
but also the private-sector dimension and individuals' own 
savings accounts.

                         DEPARTMENT OF DEFENSE

    We did a special one on DOD. We listed out their top 
priorities. I was very concerned, as I mentioned earlier about 
readiness issues and cyber issues at DOD.
    Mr. Newhouse. That was under your own volition?
    Mr. Dodaro. Yes. That was on our own volition.
    So I selectively pick things that I either think need to be 
reviewed. Many of the issues span the various committees' 
jurisdictions. Or I know nobody is going to ask us to look 
into, because it is a hot-button issue and I think needs to be 
dealt with.
    So I think we get the top priorities of the Congress, but 
we could do more with resources. Until the mid-1990s, we had up 
to 5,300 people at the GAO. We were downsized about 40 percent 
during that period of time, along with many other parts of 
government, but particularly the legislative support agencies 
for the Congress. That is when the Office of Technology 
Assessment was defunded, during that period of time.
    We used to be able to handle 1,000, sometimes 1,200 
requests from the Congress in a year. We can scale up if the 
Congress decides they want to invest in us. We can provide much 
more assistance, and we are capable of doing that if----
    Mr. Newhouse. It sounds like I should get in the queue 
soon.

                              GAO STAFFING

    Mr. Dodaro. There is a queue in some areas. Those are the 
ones I am trying to increase. Healthcare in particular. 
Everybody is interested in healthcare and DOD issues in 
particular.
    Cyber, and science and technology are becoming ubiquitous 
issues in almost every Federal department and agency. Whether 
we are talking about protecting electronic healthcare records, 
it has become an integral issue. These things are coming up.
    The only time we say no to a request is if we don't have 
the authority to do the work. In most cases, we will say, if 
you are priority one or two, we will accept it, but we might 
have to wait 4 months before we can start it. That is the way 
the queue works.
    Mr. Newhouse. Okay.

                        EFFECTS OF SEQUESTRATION

    Mr. Dodaro. So we eventually get to everything that is a 
priority one or priority two request.
    This happened when the sequester hit back in 2013. We lost 
15 percent of our authorized staff during that sequester 
because of the government-wide cut. Now, I didn't lay off 
anybody. I didn't furlough anybody. We adjusted, I made 
changes, but we couldn't replace people that left during that 
period of time. We now are creeping back up the last few years 
during that period of time.
    To compensate, I went around to all the committee chairs 
and ranking members, and I said: I am not going to sacrifice 
quality of our work. What we need to do is agree on your top 
priorities. We can't get to everything. This process has worked 
very effectively.
    Mr. Newhouse. Okay.
    Mr. Dodaro. I think we are there but we can obviously do 
more with more resources. I could have had a bigger request to 
submit, but I understand, as the auditor of the government's 
financial statements, what kind of fiscal position we are in. I 
want to be prudent in submitting the request, which I think I 
have been.

                      CONGRESSIONAL MODERNIZATION

    Mr. Newhouse. So I am part of a special committee to 
modernize the Congress. And I can anticipate that we might be 
wanting to work together with you. Is that something that you 
have the bandwidth to do currently? It would be helpful, I 
would think.
    Mr. Dodaro. Absolutely, we could deal with you.

                             CYBERSECURITY

    Mr. Newhouse. A lot of those things that you talked about, 
you know, the cybersecurity and technology and all the 
different things that we need to be looking at and more.
    Mr. Dodaro. We are looking at the request from the 
Appropriations Committee on cybersecurity for the new Office of 
Congressional Workplace Rights, for example. We have done work 
within the legislative branch as well.

                        CONGRESSIONAL OVERSIGHT

    One of the real challenges for you and your committee in 
that regard is that the Congress has put itself in an 
increasingly disadvantaged position in providing oversight over 
the executive branch. Congress has reduced its own staff. It 
also has reduced staff of the legislative support agencies.
    In testimony before this committee over the years, I have 
always said that I think that this is a mistake, to keep 
reducing resources. Even at its height, the legislative branch 
is so out-personed compared to the executive branch, it is hard 
to conduct oversight.
    Issues are happening more rapidly now in the development of 
science and technology, in particular cybersecurity threats, 
global issues, and other matters, that the Congress right now 
needs to really look at modernizing itself. Also look at what 
capabilities are really required in order to exercise the 
oversight contemplated by the Constitution.
    I would be happy to talk about any aspect of what you are 
doing.
    Mr. Newhouse. Okay. I appreciate that.
    Mr. Dodaro. It is vitally important to our country that 
Congress look at these issues, and I would be happy to do 
whatever I can to support it.
    Mr. Newhouse. Okay. Yeah, I appreciate that.
    And I would just second the request for information that 
you are going to send to other offices----
    Mr. Dodaro. Okay.
    Mr. Newhouse [continuing]. About our debt and the budget 
process. I would be very interested in that.
    Mr. Dodaro. I would be happy to do that. We will get a 
package around to everybody on the committee.
    Mr. Newhouse. Very good. All right. Thank you.
    Mr. Ryan. I would recommend, too, if you want to go down a 
rabbit hole, go on their website. The reports cover a lot of 
ground. I mean, the scope of the work is incredible, and the 
detail is incredible. So you can get lost just reading reports 
about what is inside his brain.
    It got so bad that when I read the reports I hear them in 
your voice.
    Ed Case.
    Mr. Case. Thank you very much.
    I just wanted to follow up on my colleague's line of 
questioning. And there are two parts to the question.
    First of all, you say that you do have the authority to be 
proactive in terms of initiating reviews, that you primarily 
use that discretion for debt and the budget ceiling--which, by 
the way, I completely agree with your exercising discretion in 
that department. But you are mostly reactive to requests.
    So the question there is, what would you want somebody from 
Congress to ask you to do? What is on your list that you want 
somebody to prioritize?
    And let me back on to that question by asking--you made a 
comment right at the very end there about Congress increasingly 
deferring to the executive branch. And I think many of us have 
been concerned about that.
    I recall being in a briefing with several of my colleagues 
by CRS on a major issue. I think it was healthcare, if I am not 
mistaken. This was a couple of months ago. And there was a key 
set of assumptions in the briefing. And so somebody asked the 
obvious question, where did those assumptions come from? And 
they said, they came from the administration. And that person 
said, well, how do you know those assumptions are correct? And 
CRS said, we don't. We are taking the administration's word for 
it. We don't have the capability to independently----
    Mr. Dodaro. Yes.
    Mr. Case [continuing]. Independently verify those 
assumptions, but it made me think, are we in government 
deferring too much to the executive branch?
    And I say this on a nonpartisan basis. It is just our job 
to check and balance them, right? They could be----
    Mr. Dodaro. Yes.
    Mr. Case [continuing]. The best people in the world; we 
would still want to look over their shoulders.
    So, big-picture question, what do you think we should be 
looking at, whether anybody has asked you or not?
    And related, where do you think in the areas of the 
executive branch, basic assumptions that policy is being built 
on, where are those areas that we should be looking more 
closely at?

                    AREAS FOR CONGRESS TO GUIDE GAO

    Mr. Dodaro. Yes. There are a couple things. First, I don't 
want to leave the impression that we are reactive to most 
requests. Most of the requests, of the 800, three-quarters of 
them are things we suggested to Congress. The committees asked 
us----
    Mr. Case. Well, I was trying to be polite. I assumed you 
had a way of suggesting----
    Mr. Dodaro. We do. Maybe I was too nuanced in my 
explanation.
    Mr. Case. Okay.
    Mr. Dodaro. On those, we say, "We think this is important," 
they agree, and so then they request it.
    So most of the big-ticket items that I think Congress 
should be looking at we are looking at. Then I fill in the gaps 
with our own authority.

                               HEALTHCARE

    In terms of areas that need more scrutiny and looking at 
assumptions, there are several I would point to. One is the 
healthcare issue. I increased our actuarial support at GAO, so 
I have now three actuaries, including a chief actuary. Many of 
the assumptions in terms of the actuarial assumptions that the 
government is making need more scrutiny, whether it is in the 
healthcare area, or whether it is in the pension area, which 
includes VA. They made a big mistake in their actuarial 
assumptions that we caught through our financial audits.

                             NUCLEAR WASTE

    I think the other area is in the assumptions on what to do 
with all this radioactive waste that is stored. The Federal 
Government doesn't have a final disposal site at this point in 
time. It is growing. The environmental liability was added to 
our high-risk list in 2017. It is almost half a trillion 
dollars right now. And this is understated. Nobody really knows 
what the full cost of mitigating, both at the Energy Department 
and DOD, really is. So much more needs to be done in that area.

                       PENSION BENEFIT GUARANTEE

    Much more needs to be done in the pension benefit guarantee 
area. In fact, in that area, the multi-employer portion of that 
program is going to be potentially insolvent--a high degree of 
likelihood it will be insolvent by 2025-2026 period of time.

                         QUESTIONING ASSUMPTION

    Mr. Case. These are policy judgments to be made. I am kind 
of going----
    Mr. Dodaro. Yes.
    Mr. Case [continuing]. One level down----
    Mr. Dodaro. Okay.
    Mr. Case [continuing]. And saying, do you think we have 
questions or legitimate reasons to go after the assumptions on 
which those policy judgments are being made?
    Mr. Dodaro. Yes.
    Mr. Case. Nuclear waste or----
    Mr. Dodaro. Right.
    Mr. Case [continuing]. Pollution, I think you have already 
said, actuarially, I think you have said, we need to look at 
some of those actuarial assumptions.
    Mr. Dodaro. Yes. There is no question about it. I can give 
you a long list of those things for the record. If you talk to 
our guys back at the GAO, they would give you a long list of 
all these things that need to be looked at at that sub-tier 
level. And it would span most of the departments and agencies 
in the Federal Government.
    Mr. Case. Okay.

                             NATIONAL DEBT

    Mr. Dodaro. I think, the other issue you mentioned was 
debt. We are at $22 trillion now. We are going to be close to 
adding a trillion a year and then go over a trillion a year for 
the next 10 years. What are the assumptions about who is going 
to lend us the money and at what rate and what mix of bills, 
the type of debt instruments that should be used--and how we 
should go about paying down the debt at some point in time. 
There is no plan right now to pay down the debt.
    Mr. Case. Is that a pending study on your part?
    Mr. Dodaro. No, we are not currently looking at this. We 
are planning to look more on the debt management issue.
    Mr. Case. Okay.
    Mr. Dodaro. I have that on the agenda.

                            CHEMICAL SAFETY

    The other area we need to look more at the assumptions is 
at EPA. There are a lot of assumptions about the safety of 
chemicals that are without a lot of made scientific 
underpinning. They are way behind in doing the scientific 
studies.
    Congress has given them new authority now to get more 
information from the chemical industry than they had before. 
Before, they had to prove something was bad that was on the 
market as opposed to pre-approve it beforehand.
    They make a lot of assumptions that I think should be 
looked at with a lot more scrutiny, because they have a lot of 
safety implications for the American public, both short-term 
and long-term. Some of these issues you can't turn around 
overnight. This is another area that comes to mind.
    Mr. Case. Thank you.
    One more, or do you want me to----
    Mr. Ryan. Go ahead.

                            GAO RECRUITMENT

    Mr. Case. So I am going to switch gears to recruitment. 
Because your biggest request is $33 million for 100 FTEs, which 
is $330,000 per, which I assume is a standard unit of FTE 
salary and benefits, so those folks would be at Federal wage 
classifications, or congressional wage.
    Mr. Dodaro. Yes.
    Mr. Case. And I guess my question there is, although it is 
really good news that you are very highly sought after as a 
place to be employed, we are talking about AI, machine 
learning, cyberspace. I was just at DOD the other day, and they 
said one of their toughest challenges is recruitment in these 
exact areas, because there is an incredibly high demand for 
incredibly highly specialized people that can command a high 
salary.
    Somebody can want to work for you really badly, but if they 
are offered twice that or more in the private sector, how do 
you handle that? Are you able to recruit at the very top 
expertise, given that we need the top expertise to be able to 
exercise our oversight function, or is there something 
different we should be looking at?
    Mr. Dodaro. I don't have any problem with that. I was at 
Carnegie Mellon University; I was at Arizona State recently; 
the University of Maryland, they have quantum computing. I 
brought some of their professors in to meet with our people. We 
just hired 30 cybersecurity people. Now, they are not all 
experienced people, but they are educated in cybersecurity, 
part of the cybersecurity corps.
    What I sell about GAO is the importance of our mission and 
the ability to make a difference, a good work-life balance and 
a good place to work. It is a learning environment. You have to 
sell these things. I go out personally and I do a lot of 
selling about GAO and about the importance of working with us.
    I also use search firms to hire more senior talent in 
certain areas. I hired our Chief Scientist from the 
intelligence community, using this vehicle. We are looking now 
for data science people and engineers. We have engineers, we 
have chemists, we have physical scientists and people who have 
nuclear engineering backgrounds.
    I look for people also who work in the private sector who 
might get paid more money but they are not as satisfied, in 
some cases----
    Mr. Case. Right.
    Mr. Dodaro [continuing]. With the type of work that they 
do, so I target those people.
    I don't need huge numbers, but I need the right people. If 
you market yourself properly and you target people who are 
likely to want to do public service, to work in a good, 
professional, nonpartisan environment, that is a big part of 
what we stress.
    Mr. Case. I get that. I am sure that is your number-one 
concern, to include the quality of the workplace, and that 
comes through loud and clear in your testimony.
    But I just realistically am asking you the question, do you 
have the expertise? And I am not so much thinking about the 
recent Carnegie Mellon grad, although those are important 
folks, but maybe the person 15 years out----
    Mr. Dodaro. Yes.
    Mr. Case [continuing]. Who is, you know, really at the top 
of their game. Because I don't know what the Carnegie Mellon 
people do or don't know in their first couple of years.
    Mr. Dodaro. We have those people, too, at GAO. I am not 
Pollyannaish about it. I have all these people, but to 
supplement what we are able to do in that area, I have a 
standing contract with the National Academy of Sciences. If I 
want to look at nuclear waste disposal. NAS will put a panel 
together of the top experts in the country. And sometimes they 
will even go abroad and bring people in.
    So we have access and use all these technical resources----
    Mr. Case. I see. So outside.
    Mr. Dodaro. Outside help. We use that on all our technology 
work. We have access to all the top people in whatever field we 
are looking at----
    Mr. Case. Okay.
    Mr. Dodaro [continuing]. Through this means, to augment our 
own staff at the GAO. This is a very important component.
    Mr. Case. I should have asked whether you do that. Thank 
you.
    Mr. Dodaro. You're welcome.
    Mr. Ryan. Thank you, sir.
    Just a couple of quick questions.

                 PLAN TO INCREASE CERTAIN CAPABILITIES

    We know you were directed by the CRS to contract for the 
National Academy of Public Administration study.
    Mr. Dodaro. CRS was.
    Mr. Ryan. CRS was. And then they were going to get the 
report and then--but the report is not in yet.
    Mr. Dodaro. Yes.
    Mr. Ryan. And you guys are moving forward. So the question 
I have is----
    Mr. Dodaro. Okay.
    Mr. Ryan [continuing]. Without the report in hand yet--
because that is, what, end of the year?
    Mr. Dodaro. I don't know when it--the CRS one is in the 
fall, but----
    Mr. Ryan. So that is going to come in the fall. You are 
kind of talking about moving forward.
    Mr. Dodaro. Right.
    Mr. Ryan. Can you just talk to us a little bit about what 
the complications are with moving forward without that report 
in hand?
    Mr. Dodaro. Yes. First of all, I am moving forward with the 
resources Congress gave us last year. We are increasing--our 
Information Technology and Cybersecurity team from 140 to 175 
people by the end of this year. We also will have 70 people in 
the Science, Technology Assessments, and Analytics area. I 
eventually want to grow that to somewhere between 100 and 140 
people as well, down the road.
    While Congress asked CRS to do this study of what 
congressional needs were, it also required us to make our team 
more prominent and to submit a plan to increase our 
capabilities. Our plan is due to be submitted to you and the 
committee next month. You will have our plan too.
    My belief is, regardless of what you decide on whatever the 
study CRS produces through NAPA, we need to do this at GAO 
regardless, to provide proper service to the Congress. Now, we 
can go further, but what I am building to right now we need----
    Mr. Ryan. Anyway.
    Mr. Dodaro [continuing]. Anyway.
    Mr. Ryan. Okay.

                       INTELLIGENCE DATA SHARING

    We heard last year from public witnesses who urged the 
subcommittee to pass legislation to force the national 
intelligence agencies--I know Mr. Ruppersberger kind of touched 
on this--to share their data with you.
    And we would like to ask you about that issue. You 
confirmed that your access was improving a bit but that you 
really needed Congress to pass legislation requiring the 
intelligence agencies to cooperate.
    So we have tried this once before, in the intelligence 
authorization bill a few years ago, but backed down due to 
White House pressure. I am assuming there will be White House 
pressure again. Do you have any hope of a different outcome if 
we try to pass it?
    Mr. Dodaro. Yes. Well, a couple things.
    One, I believe we already have the statutory authority to 
do the work in the intelligence communities. What we need is 
the support from the Intelligence Committees and the 
cooperation of the intelligence community.
    Now, that has been steadily improving since the directive 
came out a few years ago. I worked with General Clapper and his 
team to produce that directive. I have met with Director Coats; 
we are moving forward.
    We are looking at contracting issues right now in the 
intelligence community, onboarding of staff in the intelligence 
community, and whistleblower complaints in the intelligence 
community and how they handle them, among other issues.
    So we are getting more support from the Intelligence 
Committees. I think that is key to us moving forward in the 
area. Is work there as smooth as it is in other parts of the 
Federal Government? No. It takes more time. They don't have as 
much experience working with us as other departments and 
agencies of the Federal Government. We are getting in a rhythm 
with them.
    I could always use more support from the Congress in that 
area, but I don't think we need statutory authority. We just 
need support from the committees and the Intelligence 
Committees.
    We have more difficulty if the requests come from non-
Intelligence Committees.
    Mr. Ryan. Yeah.
    Mr. Dodaro. If we get it from the intelligence communities, 
generally we can work it out. In some cases, it takes longer to 
do that, to work out the issues with them. I would welcome 
whatever additional support----
    Mr. Ryan. We should have a conversation about that. I know 
Mr. Ruppersberger and I both sit on the Defense Subcommittee of 
Appropriations, and there may be an opportunity for us to at 
least have that conversation.
    Mr. Dodaro. Okay.
    Mr. Ryan. I look at your reports and I see the work that 
that you are doing and I hear your testimony and your team's 
analysis of all of this generally and in particular and just 
think, with regard to the intelligence community, how valuable 
it would be for us to have your eyeballs on that. It think it 
would be very, very helpful.
    Mr. Dodaro. I think we could do more, particularly in the 
management area and the investments that are made in that area 
and whether there is good return on the investments in all 
cases.
    Part of the resource request we have this year is to help 
get our people the necessary classification and clearances to 
be able to work in that area and increase the number of people. 
If we move in that area, a lot of technical people that I have 
also will need to help, depending on the scope of the request.
    Mr. Ryan. Yeah.
    A few more questions.

                          MODERNIZING CONGRESS

    I know you talked about modernizing--or Mr. Newhouse talked 
about modernizing Congress. And I have been of the thought for 
some time now that the institution of Congress is not keeping 
up. You look at what is happening in the private sector with 
information flows and just the speed of things happening, and 
then you look at Congress.
    And it was designed to be a slower process. That was just 
inherent in the Constitution. Six years in the Senate, 2 years 
in the House; you know, the initial reaction from the public 
versus the slower, longer view of the Senate. And an executive 
that should be limited in their capacity to do things. And yet 
that design is not keeping up when you talk about cyber and AI 
and being economically competitive with what China is able to 
do and focus on.
    And even the way our schedules are set up, to come here 3 
days a week. And I am glad you brought up the fact that staff 
has been cut--committee staff, Members' staff, pay, the whole 
nine yards.
    And do you have any recommendations, not just with that, 
but you also mentioned cross-jurisdictions and how difficult it 
is, one, to just get a committee to develop some level of 
expertise, let alone three committees that may have, as you 
know, cross-jurisdiction. Do you have any initial 
recommendations?
    Mr. Dodaro. First, I think the effort to look at this issue 
and to look at modernization is a good effort that is long 
overdue. I think it is encouraging that you would do that.
    With regard to jurisdictions, I would note, many of the 
high-risk areas we are putting on the list in the most recent 
years are ones that involve multiple agencies in the Federal 
Government and would therefore also cross committee 
jurisdictions. I think that the Congress needs to look at 
having more flexibility in dealing with major issues that cross 
committee jurisdictions. Right now, there is not an easy way 
that I see to deal with that.
    The other thing is I think the Budget Committees have even 
too narrow jurisdiction over the budget side of things. Because 
you have the revenue functions in the different committee, then 
you have expenditures.
    So I think there is a need to look at what are the major 
issues and how Congress can deal with the major issues that 
cross committee jurisdictions. Sometimes we won't get asked to 
look at an issue that everybody agrees is important but it is 
not in anyone's particular area.
    I did a study, one that I did on my own authority. I was 
concerned about children in poverty. One in five children in 
the United States is in poverty, and what is the Federal 
Government doing holistically. It crosses all the committee 
jurisdictions. I got a little pushback on doing that study, and 
it was because of jurisdictional concerns that somebody had. Of 
all the issues I study, how could somebody complain that I am 
looking at children. It is important.
    I think that, if you really want to deal with the big 
issues, Congress is going to have to be more flexible.
    The same problems in the executive branch, because they 
have trouble, part of what we do at GAO is look at the fact 
that executive branch agencies that should be working together 
aren't working together very well. This has been a steady 
stream of work for us in those areas.
    This problem in the executive branch sometimes gets 
mirrored in the committee structure in the Congress, and it 
prevents our government from being fully responsive in those 
areas. You need to develop the expertise in the individual 
areas, but you also need to have something in addition that 
would supplement that for big-ticket items that cross 
jurisdictions.

                         KEY GUIDING PRINCIPLES

    Mr. Ryan. So you have a lot of detail in all of these 
reports, and each sector or each topic has multiple 
complexities that you have dug into.
    Help us understand, from a big-picture viewpoint, a 
principle or two that you have pulled out of all of this work 
that you have done to help us maybe think about what we do 
differently, not just on this committee but as we all go off 
into our other committees. Are there a couple principles that 
we need to start thinking about with regard to how we manage 
this bureaucracy?
    I mean, I am just so concerned generally about our 
inability to deal with the challenges at hand. I mean, it is 
cyber, it is China, it is weapons systems, it is 5G, it is 
diabetes, it is 51 percent of our kids in public schools live 
in poverty, and all the adverse childhood experiences. And we 
just seem incapable of pulling together a strategy that all 
feeds into solving these problems.
    And I don't know many people in government right now that 
have the breadth of knowledge that you have. Can you enlighten 
us and----
    Mr. Dodaro. Yes.
    Mr. Ryan [continuing]. Say a couple things that you would 
want us to know?
    Mr. Dodaro. Yes.
    Mr. Ryan. You have 30 seconds to do it.
    Mr. Dodaro. I can do it.
    Mr. Ryan. We are still Members of Congress. Give us the top 
line here.
    Mr. Dodaro. Well, the first thing----
    Mr. Ryan. Take your time, because I would be very 
interested.
    Mr. Dodaro. Well, the first thing I would say, the most 
difficult part of my job is getting someone either in the 
executive branch or the Congress to focus on a problem before 
it comes to a crisis proportion, to plan ahead. We are not very 
good as a government in doing strategic planning and thinking 
about things that are going to happen.
    It has been clear for a couple of decades that we are going 
to have this fiscal problem because it is driven by 
demographics in the country, but yet we haven't done anything 
to really deal with that problem. We could have taken action a 
long time ago that would have been less painful than what it is 
going to take at this time.
    The Federal Government's ability, both executive and 
legislative branches, to identify emerging issues and to put in 
place actions to prevent these things from occurring is in need 
of change. That mindset doesn't exist as much as it needs to 
exist.
    It is further exacerbated by constant turnover. In my job, 
I have already met with four different VA Secretaries for 
example. There is a lot of turnover there in the executive 
branch, there is a lot of turnover in the Congress too, but 
there is no institutional way to do planning.
    That is why GAO really becomes the default for the Federal 
Government because they have the long-range view, the 
continuity of time, with the 15-year appointment for 
Comptroller Generals. I am only the eighth in about a hundred 
years. And so----
    Mr. Ryan. How many more years do you have left?
    Mr. Dodaro. I have 7.
    Mr. Ryan. That is not a bad gig, my goodness gracious.
    Mr. Dodaro. Yes.
    Mr. Ryan. Why don't you propose that, Newhouse? Fifteen-
year terms for Congress.
    Mr. Newhouse. I will get right on that.
    Mr. Dodaro. That is one thing.
    The second thing is I don't believe there is enough 
engagement with congressional oversight over the executive 
branch agencies on a sustained basis as there needs to be.

                             HIGH RISK LIST

    I will be testifying next week on an update on our high-
risk list, which we do at the beginning of each new Congress, 
and we are going to take a couple areas off the high-risk list. 
Invariably, it has been due to congressional help in forcing 
the agencies to implement our recommendations, and staying with 
these issues over time to deal with them. We only put the 
biggest-risk on the list, and they are not easy to solve. So it 
takes some time and persistent effort.
    Wherever we see big progress, congressional intervention 
usually is the key. It doesn't happen on a consistent basis 
across all these areas. There needs to be more dialogue. It can 
involve not just hearings but followup with agency officials 
later, more detailed legislative directions to the agencies.
    Congress, in the appropriation bill that just passed 
recently, the larger one that covered agencies, gave some 
direction to the three areas on our high-risk list, for the 
first time. That is 3 out of 35. It is NASA, DOD, and DOE. That 
is helpful, for Congress to do this.
    These two things, are the most important. One is long-range 
view. It doesn't have to be real long-range. I am talking about 
within 5- to 10-year horizons.
    A lot of these things you can see coming. Earlier I raised 
cybersecurity as a high-risk area in 1997 across the Federal 
Government. It was the first time I ever said anything across 
the Federal Government is high-risk. I am still having trouble 
getting people's attention to cybersecurity 20-some years 
later. That is just one example of the type of difficulty.
    So strategic view, mid-, long-term on these issues and then 
more diligent and rigorous oversight would be my two top 
recommendations.
    Mr. Ryan. Well, thank you. We are going to have to wrap it 
up, but I appreciate your time.
    Mr. Dodaro. Thank you.
    Mr. Ryan. Thank you for your leadership. Thanks to the 
happy warriors behind you and all their good work. Please let 
everybody know how much we appreciate it.
    Ms. Herrera Beutler. They do seem happy.
    Mr. Ryan. Yeah. I mean, when you have an Italian American 
leading the charge, they are going to be happy and well-fed, 
right?
    Mr. Dodaro. This is true.
    Mr. Ryan. The hearing is adjourned. Thank you.
    [The following questions were submitted to be answered for 
the record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                      Wednesday, February 27, 2019.

                      GOVERNMENT PUBLISHING OFFICE

                                WITNESS

HERBERT H. JACKSON, JR., ACTING DEPUTY DIRECTOR, U.S. GOVERNMENT 
    PUBLISHING OFFICE

                   Opening Statement of Chairman Ryan

    Mr. Ryan. We are now ready to begin our second hearing of 
the morning where we will hear from the Government Publishing 
Office about the budget request. Until 5 years ago, this 
organization was known as the Government Printing Office, 
reflecting its historic mission of communicating information 
through the printed word. As technology for disseminating 
information has changed from ink on paper to digital media and 
online access, GPO's role has changed as well and, hence, the 
name change.
    There will be a continuing role for printed material in the 
conduct of government business, and GPO will therefore be doing 
printing for a long time to come. But GPO is now distributing 
more and more information by digital means, such as through its 
upgraded and steadily growing website now called govinfo.
    Whatever the format, GPO's fundamental function is making 
information about the operations of government, particularly 
the Congress, readily available to the public. That is a 
crucial function in a democracy.
    GPO's appropriations request for 2020 is $117 million, the 
same as its appropriation for 2019, and substantially less than 
it received 10 years ago. This is a case where technological 
advances have produced real cost savings as typesetting and 
printing processes have become more efficient, and as the rise 
of electronic documents have greatly reduced the volume of 
printed material produced.
    Here to tell us about GPO's budget request and its work is 
Herb Jackson, the acting deputy director. Mr. Jackson is 
representing GPO today because the position of GPO director is 
currently vacant. He has more than three decades of experience 
at GPO, including service in various management, procurement 
and administrative positions.
    Before we hear from Mr. Jackson, I will yield to our 
ranking member, Ms. Herrera Beutler.

          Opening Statement of Ranking Member Herrera Beutler

    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    I want to say welcome to Mr. Jackson, who is both acting 
deputy director and chief administrative officer at the GPO; 
GPO's important mission of keeping us informed, keeping America 
informed really. And you do that by providing permanent access 
to the Federal Government information at no charge to the 
public through your Federal Depository Library Program, which 
partners with over 1,140 libraries nationwide and govinfo. They 
produce and distribute products for services for all three 
branches of the Federal Government, including U.S. Passports, 
which I did not realize, and official publications of Congress 
and the White House. And you operate distribution centers to 
fill orders for government publications.
    I would like to recognize the Government Publishing Office 
for receiving your 22nd consecutive clean audit opinion, that 
is no small feat, and made possible in large part by the 
outstanding work of GPO's finance team, which is under the 
leadership of Bill.
    Boesch. The current acting CFO, who has been a dedicated 
public servant at GPO for a very long time. Thank you, Mr. 
Chairman. I look forward to hearing GPO's testimony.
    Mr. Ryan. Thank you.
    The floor is yours, sir.

                   Testimony of Herbert Jackson, Jr.

    Mr. Jackson. Thank you, Mr. Chairman.
    Chairman Ryan, Ranking Member Herrera Beutler, and members 
of this subcommittee, thank you for inviting me here today to 
discuss GPO's appropriations request for fiscal year 2020.
    With me at the table today are Lyle Green, who is our 
managing director for GPO's official journals of government; 
Bill Boesch, who you have met, who is our acting chief 
financial officer; and Ric Davis, who is our acting chief of 
staff and chief technology officer.
    I have been at the GPO for 38 years and have served since 
July of last year as the acting deputy director. It is these 
gentlemen, along with John Crawford, seated behind me, who will 
form the nucleus of GPO's leadership following my pending 
retirement on March 31 of this year.
    Mr. Ryan. What?
    Mr. Jackson. I can think of no finer team of professionals 
to lead GPO while we await the confirmation of a new agency 
director. I am confident that the GPO will be in good hands.
    As you know, GPO is responsible for publishing 
congressional publications and for making them known to the 
public. Our mission derives from the requirement in Article I, 
paragraph 5 of the Constitution which says: Each House of 
Congress shall keep a journal of its proceedings and from time 
to time publish the same.
    The Government Printing Office, as we were named until 
December 2014, was established to carry out that publishing 
mission on Congress' behalf. For most of our history, we did 
this by printing and distributing congressional publications. 
However, for the past quarter century, we have deployed digital 
technologies to carry out our mission. As a result, we are now 
named the Government Publishing Office, where printing is just 
one of the many publishing technologies we employ.
    Today, for the House and Senate, we produce congressional 
documents, the daily Congressional Record, bills, reports, 
hearings, committee prints, and other documents in digital and 
print, providing official information to the forms and formats 
that Congress needs to carry out its constitutional legislative 
mission, while providing public access to these documents 
nationwide.
    Our use of modern publishing technologies has significantly 
reduced the cost of GPO's operations. Computerized typesetting, 
for example, and related technologies have cut the cost of 
congressional printing by more than 73 percent since 1980. In 
addition to reducing the cost of disseminating congressional 
products and other government information, digitization has 
dramatically expanded our ability to provide public access to 
these important materials. Last year, our online services 
provided access to more than 2.5 million items. The service 
averaged more than 31 million document retrievals a month.
    It has also enabled us to scale down our workforce. Today, 
the GPO employs approximately 1,690 men and women across the 
country, compared to over 6,400 men and women that the agency 
employed when I first started in 1980. I am very proud that we 
were able to achieve this streamlining through natural 
attrition and by dramatically enhancing our productivity 
through diligent management and prudent investments in 
information technology.
    As a result, our total appropriations request of $117 
million for fiscal year 2020 is the same as last year's 
request, and is tied for the lowest overall number in the past 
16 years. That request consists of three distinct component 
accounts. Our congressional publishing account, where we are 
requesting $79 million for fiscal 2020. Funding for this 
account has been flat since fiscal year 2014. For the public 
information programs of the superintendent of documents, we are 
asking for $31,296,000, to expand our efforts to bring more 
digital products into the Federal Depository Library Program, 
which averages approximately three libraries per congressional 
district nationwide. Our business operations revolving fund 
account, we are seeking $6,704,000, to continue development of 
our online system called govinfo and to pay for necessary 
cybersecurity measures.
    The investments that this committee--this subcommittee has 
made in govinfo are paying rich dividends for the American 
people. Just this past year, we were able to retire our older 
website called FDsys as the more modern and dynamic govinfo was 
brought fully online. Less than 1 month after FDsys was 
officially retired, govinfo recorded a significant 
accomplishment by securing ISO trustworthy digital repository 
certification, becoming the first organization in the United 
States and just the second organization in the entire world to 
achieve this distinction.
    We also enjoyed several other milestones this year, which 
marked the tenth anniversary of our secure production facility 
in Stennis, Mississippi. And GPO has produced more than 21 
million secure identification credentials for the Department of 
Homeland Security and other Federal agencies.
    As someone who has worked at the GPO for many years, I have 
witnessed, as you might imagine, a remarkable transition into 
the digital age. And I am extremely proud to report, as you 
have indicated, that once again for the 22nd consecutive year, 
GPO has earned a clean or unmodified opinion on its finances by 
the independent outside auditors who perform our annual audit. 
And as you have stated already, that is attributed directly to 
the work that Bill Boesch and his team does.
    Before I conclude, Mr. Chairman, I want to say what an 
honor it has been for me to work at GPO alongside such 
committed public servants like those joining me here at the 
table, those seated behind me, those located at our 
headquarters office in D.C., those in our regional offices, and 
those in our other facilities across the country.
    For 38 years, I have been proud to serve with some of the 
most dedicated employees in the Federal Government. Regardless 
of the demands of the legislative schedule and regardless of 
the conditions under which they have to work, whether there is 
inclement weather or a government shutdown, the men and women 
of the GPO will be there to support you in carrying out your 
mission.
    So, Mr. Chairman and Ranking Member Herrera Beutler and 
other members of the committee, thank you for inviting me to 
testify today, and I am happy to answer your questions at this 
time.
    [The prepared statement of Herbert H. Jackson, Jr. 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Ryan. Thank you, Mr. Jackson. Appreciate your years of 
service, and congratulations on your retirement. I am sure you 
have a calendar up in your office with a red pen----
    Mr. Jackson. Yes, sir.
    Mr. Ryan. I am sure that is exciting. Thank you.
    Ms. Herrera Beutler, any questions?
    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    This past year--so we talked a little bit about some of the 
accomplishments, and I too want to commend you on your years of 
service. Must feel good to be almost done, right?
    Mr. Jackson. Yes, ma'am.
    Ms. Herrera Beutler. I wanted to bring up a couple of areas 
where I see that there could be improvement and ask you about 
it.
    Mr. Jackson. Yes, ma'am.

                             CYBERSECURITY

    Ms. Herrera Beutler. The first one has to do with 
cybersecurity. So February 4 of this year an article was 
published on nextgov.com, titled ``GPO Has No Disaster Recovery 
Plan for Its Tech, Watchdog Says.'' And obviously, we just 
finished a hearing about the need for a taxpayer watchdog.
    The article goes on to summarize some of the IT findings 
outside auditors KPMG observed. And it goes on to say that the 
number of IT issues were first identified a number of them in 
2011, including GPO's unpreparedness and emergency planning and 
for IT--in terms of access control.
    So it is now 2019, and I want to understand why these 
issues haven't been resolved, and give you a chance to speak.
    Mr. Jackson. I will start and then I will ask our chief 
technology officer to chime in.
    The issues have been resolved, and the account management 
procedures will be provided to the IG by the 15th of March of 
this year. GPO is now tracking separate accounts, so accounts 
can be closed as soon as they are reported. For example, HR 
accounts when employees leave, one of the citings was that 
there was no way of knowing that that employee left because 
their information was still in the system. There is a new 
tracking system, I understand, now that is in place that will 
help alleviate that issue.
    Another automated control is now to place--automatically 
disable inactive accounts, so that when people leave and the 
account, for example, has not been used for a number of days or 
so, it will automatically disable.
    Ric, do you want to add to that?
    Mr. Davis. Thank you, Herb.
    As Herb mentioned, I am the chief technology officer at 
GPO. The IT infrastructure falls under our chief information 
officer. We recently brought on board a chief information 
officer in the past year or so, who by the way has a very, very 
strong background in IT security, which is helping us 
tremendously.
    To add to what Herb mentioned about access controls which 
are being addressed, I also want to note that there is an IT 
contingency plan that is being developed by our new CIO that 
will be completed by the 15th. But prior to that, there are 
detailed procedures that have been in operation apart from a 
plan that guides us on failover to a COOP site as well as 
security measures.
    So while I believe that report was very factually accurate 
to a degree, I think it left out some details about procedural 
controls that are in place. We do monthly testing, we do 
failover and failback, and we do a lot of tabletop exercises as 
well. In addition, we do a lot of COOP activities also with 
congressional offices that have been performed successfully. So 
we can definitely do things better in this regard, but I think 
we are doing some things very well right now.
    Ms. Herrera Beutler. I think that was part of my concern 
was the need for a carefully documented contingency plan. The 
contingency plan I think is the bigger issue. Yes, I also think 
making sure that you are closing accounts and revoking security 
clearances so that former employees have access on the outside. 
So I think that is critical.
    Mr. Davis. Yes ma'am.
    Ms. Herrera Beutler. But I will look forward to seeing that 
March 15 contingency plan.
    Mr. Jackson. Yes. And we can make sure that you get a copy 
of that contingency plan as soon as it is released.
    Ms. Herrera Beutler. That would be great.
    Mr. Jackson. Ric and I met recently with the CIO, and he 
assured us that we would have that plan then, and we will make 
certain that you get it.

                            CENSUS CONTRACT

    Ms. Herrera Beutler. One more question. In the last year, 
GPO had entered into a contract to procure printing contracts 
for the Census with a company who went bankrupt, forcing the 
government to spend $5 million to end a contract, so that we 
could move on to a more financially stable vendor.
    I just want to hear what the learning curve was, what plans 
are in place that can help avoid a $5 million problem.
    Mr. Jackson. That $5.5 million settlement was an agreement 
between Justice, Census, and the vendor to get the vendor out 
of that contract.
    Yes, there were a number of things that should have 
happened that possibly didn't happen. One, we could have done a 
better job with what we would call a preaward survey in terms 
of looking at the financials of that particular company. The 
company was doing business for GPO and was successful in all of 
its dealings with us. However, when it came time for this 
particular award, some of those things were not fact checked. 
What we have done----
    Ms. Herrera Beutler. Meaning someone who was in the process 
of overseeing the account, letting the award, didn't do their 
due diligence?
    Mr. Jackson. The due diligence was not done.
    Ms. Herrera Beutler. And double-check the financials of 
someone.
    Mr. Jackson. Exactly, correct. But there are some other 
things that I think are prudent to this as well to ensure that 
that doesn't happen again. One, we have revised our contract 
review board policies in terms of contracts of this magnitude 
need to go through a certain process of review so that there 
will be a senior person that reviews those contracts, that 
legal will have a review of those contracts prior to an award 
being made.
    Since that time, once we terminated that contract or the 
contract was terminated, we began to----
    Mr. Ryan. Go ahead, finish up.
    Mr. Jackson. What we did was we took the time to work with 
Census. We let a new contract, award has been made of the new 
contract, and RR Donnelley is working well with us now.
    Ms. Herrera Beutler. Good. Thank you, Mr. Chairman.
    Mr. Ryan. Thank you. We are going to be adhering to the 5-
minute rule too, so, Mr. Case, you are up.

                    FUNDING SOURCES AND PUBLIC USAGE

    Mr. Case. A couple of questions all going back to the 
general theme of general public usage of GPO, what are the 
trend lines on general public usage. So to get to that, I am 
trying to track the money here. So you have got this 
appropriation accounting for somewhere around 13 percent, which 
is to Congress, of your total budget. So if you were to look at 
your total budget, that usage comes from obviously Congress, 
you have general public usage of your publications and you have 
agencies of government. I mean, do you have a figure of that 
total budget, how much of that is spent on actual agencies 
versus direct congressional usage, congressional needs versus 
how much is the general public out there actually, accessing?
    Mr. Jackson. Bill was saying that that is about 86 percent. 
Approximately 14 percent of our revenues are appropriated. The 
86 percent that Bill is referencing is earned from reimbursable 
work for agencies and sales to the public.
    Mr. Boesch. That 86 percent is used for the purchased 
printing that we buy on behalf of the executive agencies and 
also for the sale of passports and other smart card type 
documents, 86 percent of our revenue approximately.
    Mr. Case. Okay. That is bigger than I thought. So the 
general public usage is 86 percent. But that includes passports 
also, right? So that is huge, right? I mean, most people have 
to get a passport--or half of the people get a passport.
    Okay. What about just general public access to your digital 
product, to your publications? What are the trend lines in 
terms of the general public usage? Let's say a standard citizen 
out there that wants to know something, and they know to go to 
your site and they know to access it; what is happening there? 
Is the trend line up, down? What are you doing to facilitate 
it?
    Mr. Jackson. You are referencing govinfo, our system of 
record?
    Mr. Case. Yes.
    Mr. Jackson. Yes. Ric, do you want to take it?
    Mr. Davis. So I have had the good fortune of being around 
since we originally launched GPO access back in 1993, so I have 
seen GPO access transform to the Federal Digital System to now 
govinfo. So we started out literally making three government 
publications available online, and now we have hundreds and 
hundreds in different collections. We are averaging, as Herb 
mentioned, about 31 million retrievals of information a month. 
Those are not hits; those are actually downloads of discrete 
units of content.
    Mr. Case. How does that measure in terms of the trend line 
over time? Is it going up or down?
    Mr. Davis. It is going up significantly.
    Mr. Case. People are getting to it and they are accessing 
it?
    Mr. Davis. People are getting to it. And our goal right now 
is to add more content, particularly more historical content. 
So we have tons of day-forward information but working through 
the superintendent of documents and making use of that salaries 
and expenses appropriation. We are also working with Congress 
as well as library partners to digitize more historical content 
and enhance that collection.
    Mr. Case. Okay. And then does the congressional 
appropriation itself, which is what we are talking about today, 
does that--do you allocate that in your own internal purposes? 
Do you allocate that to general public usage versus 
congressional usage? Do you slice it that way? Or is that just 
all Congress?
    Mr. Boesch. The information that we publish on behalf of 
the Congress is funded by the congressional appropriation, and 
then the data will be transferred over. For example, the 
library programs will ride the congressional work and then the 
S and E appropriation or the public information program 
appropriation will reimburse the revolving fund for that. So 
Congress is only paying for Congress', and other users pay a 
different way, either through the appropriation or through 
purchases of books through our sales program.
    Mr. Case. Okay. I guess my conclusion from the answers is 
that if you distinguish between Congress' needs for itself and 
the general public, that the appropriation we are talking about 
today stays with Congress, that is level funded, but in terms 
of your additional funding, your general public usage is going 
up. Is that right?
    Mr. Davis. Yes.
    Mr. Jackson. Yes.
    Mr. Case. Thanks. Because he has got the gavel and he is 
going down.
    Mr. Ryan. I don't even have to hit it.
    Mr. Newhouse.

                            CENSUS CONTRACT

    Mr. Newhouse. Thank you, Mr. Chairman.
    And welcome to all of you, and I appreciate you coming 
here. It is always interesting to learn more about all of the 
different facets of the Federal Government and their 
responsibilities, and the things that we provide for not only 
Congress, but for the general public. So thank you for coming 
and sharing with us.
    I guess--a couple of things, it is a two-edged sword. I 
want to compliment you. In your written testimony, you talk 
about the partnership that you have with a lot of small 
businesses around the country, 10,000 different that you 
contract with to produce a lot of the material that you are 
responsible for. You know, those are small businesses in all of 
our districts, or at least in a lot of them, I guess. So I 
appreciate that very much. I think that speaks probably to the 
efficiency of how you have been managing the GPO, as does some 
of the numbers that you were talking about, Mr. Jackson, I 
can't remember specifically, but your budget's been going down 
due to efficiencies and a lot of different things driving that, 
so kudos to you for that.
    But one of the things that Ms. Herrera Beutler brought up 
was this contract issue for the Census. So I just wanted to, I 
guess, hear a little bit more about that. Sorry to draw 
attention to that, but does that put into jeopardy your clean 
audit, the 23rd one may be at risk because of that? Just give 
me a little more confidence that when you have 10,000 different 
agreements with vendors around the country, how something this 
major could happen.
    Mr. Jackson. Yes. Thank you. No, that does not put in 
jeopardy our audit. In fact, I have asked the IG, our GPO IG, 
to continue auditing or investigating that particular 
procurement. So they are still looking at what went wrong there 
and ways in which it can be improved, and I expect to get that 
report hopefully before I leave.
    We have been working very closely with Census since this 
has--well, all the time, but especially since this occurred. I 
met, during the shutdown, with the principals at Census and 
with the new vendor to ensure that everyone was on the same 
page and everyone was comfortable. They--the new vendor, which 
is RR Donnelley, have been working on this contract. They have 
already made at least one deliverable. And we have every 
confidence, both Census and GPO, that there is not going to be 
any further issues with the Census contract.
    The other piece that you raised in terms of the ways in 
which we will make certain that this doesn't arise again. I 
think the protocols that we are putting in place, the SOPs have 
been developed, the new contract review board directives that 
we are putting in place for all of our contracts, not just on 
the printing side but even on the regular procurement side, we 
are doing this to ensure that we don't have a glitch like that. 
This one happened, but it has not affected the way in which we 
continue to do business and we continue to make certain that 
our contracts are awarded promptly, timely, and efficiently.
    Mr. Newhouse. It has not.
    Mr. Jackson. It has not, no, sir.
    Mr. Newhouse. It should, shouldn't it? There should be 
lessons learned here.
    Mr. Jackson. There are several lessons learned. One is that 
we should never think that a junior person, I will use that 
term, should not have some type of oversight of contracts. Two, 
legal should be involved in looking at awards of contracts 
prior to them being made. Our general counsel's office has 
worked very diligently, both the general counsel at Census, 
Commerce, and GPO, have worked very closely to ensure that this 
current contract works and that there were no glitches as we 
saw in the first one.
    Mr. Newhouse. Okay. I appreciate that. And I suppose a 
clean audit is measuring different performance levels?
    Mr. Jackson. They are, but they did look at it, and they do 
look at the contract vehicles there.
    Mr. Newhouse. Okay. I appreciate that. And thanks.
    Mr. Jackson. We can also make certain that once the IG has 
completed their audit of that procurement, that you guys get a 
copy of that so that you see what their findings were as well.
    Mr. Newhouse. That would be helpful. Appreciate that. And 
again, thank you for coming here. I appreciate the 
enlightenment.
    Mr. Ryan. Great. Thank you. Thank you so much, Mr. Jackson, 
and your team. We have a retirement gift for you, and that is 
we are going to end this committee hearing right now.
    Mr. Jackson. Thank you, Mr. Chairman. Now I can breathe.
    Mr. Ryan. Exactly. Maybe they can take you out to lunch or 
something.
    On behalf of the committee, thank you for your years of 
service. We may not see you, enjoy your retirement. We will be 
in touch. And thank you. We may have a few questions we may 
submit for the record.
    Mr. Jackson. Thank you very much.
    [The following questions were submitted to be answered for 
the record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Thursday, March 7, 2019.

                          LIBRARY OF CONGRESS

                               WITNESSES

CARLA HAYDEN, LIBRARIAN OF CONGRESS
MARY B. MAZANEC, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
KARYN TEMPLE, ACTING REGISTER OF COPYRIGHTS, U.S. COPYRIGHT OFFICE

                   Opening Statement of Chairman Ryan

    Mr. Ryan. All right. We are going to call this hearing to 
order, the House Appropriations Subcommittee on the Legislative 
Branch hearing on the fiscal year 2020 budget request of the 
Library of Congress.
    Welcome.
    The Library is an incredible national and international 
asset. It is the largest library in the world, with more than 
168 million items in its collections. In addition to books, 
there are maps, films, photographs, musical recordings, the 
collected papers of historical figures, repositories of oral 
histories, and more.
    While the Library's buildings are here in Washington, an 
important part of its work is making its collections and 
resources available nationwide and beyond. The Library now has 
numerous collections available in digital form through the 
internet as well as programs for schools and other libraries. 
And its Congress.gov website is a preeminent source of public 
information about legislation in Congress.
    The Library carries out several other very important 
missions. One is the U.S. Copyright Office, performing a 
service vital to creative efforts in literature, music, the 
arts, and science.
    Another is the Congressional Research Service, an 
indispensable source of accurate, neutral, and timely 
information for congressional Members, committees, and staff, 
with much of that information now being made available to the 
general public as well.
    There is also the unique program of the National Library 
Service for the Blind and Physically Handicapped, which 
provides books and periodicals in audio and Braille form to 
almost half a million people throughout Nation.
    The Library's request is for a net appropriation of $747 
million, an increase of $51 million, or 7 percent, above the 
current year. That increase covers things like needed fixes to 
the Library's IT systems, improvements to the legislative 
information systems for Congress and the public, a strategy to 
better exhibit the Library's treasures to visitors, and some 
interesting new technology to make the written word more 
readily accessible to people who are blind. We will take a 
close look at the request and see what can be done.
    I also bumped into former Chairman Yoder this morning, and 
he wanted me to pass along his regards to you. He is doing 
well, and I think he misses being a part of how special this 
committee is.
    So now I would like to introduce our principal witness 
today. She is, of course, Dr. Carla Hayden, the 14th Librarian 
of Congress. Dr. Hayden came to the Library of Congress in 2016 
from the Enoch Pratt Free Library in Baltimore, where she was 
CEO. She has also held a number of other positions in public 
libraries throughout her career, a career which started as a 
children's librarian in Chicago.
    Dr. Hayden is joined at the witness table by Mark Sweeney, 
the Principal Deputy Librarian. I understand a number of other 
senior officers of the Library are here as well and available 
to help answer any questions.
    Did we check if we are violating any fire codes with all 
the staff that has attended?
    But before we hear from Dr. Hayden, I will yield to our 
distinguished ranking member, Ms. Herrera Beutler, for her 
opening remarks.

          Opening Statement of Ranking Member Herrera Beutler

    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    And welcome, Dr. Hayden and Principal Deputy Librarian 
Sweeney. Thanks for coming.
    The Library of Congress, as was mentioned, is a national 
treasure that hosts millions of in-person visitors each year 
and even more visitors on the Library's ever-expanding internet 
presence, which is pretty exciting.
    Its impact can be felt beyond its facilities here in DC, 
and the Library's online resources and educational programs 
reach schools and libraries in my home district of southwest 
Washington, which is almost as far as you can get. I guess 
Hawaii, probably, always gets to claim a little farther. It is 
the repository of our Nation's history, and it is our 
obligation to preserve and expand the collection for future 
generations.
    So I would also like to mention the importance of the 
Native American special collections and how important your role 
in collecting and preserving the history, stories, and songs of 
Native Americans is to Tribes and, really, for all the rest of 
us. Your collaboration with the Smithsonian's National Museum 
of American Indians has made possible significant gains in a 
traditionally under-represented area.
    So, before I conclude my remarks, I would like to extend an 
invitation for you to visit my district. We would love to have 
you out and see the impact of the Library in our region. And I 
look forward to your testimony and learning more about the 
Library of Congress.
    I yield back.
    Mr. Ryan. Dr. Hayden.

                 Opening Statement of Dr. Carla Hayden

    Dr. Hayden. Thank you, Chairman Ryan and Ranking Member 
Herrera Beutler and members of the subcommittee. This is a 
wonderful opportunity to provide testimony in support of the 
Library's fiscal year 2020 budget.
    And in my third year as Librarian, I am very encouraged by 
the advancements we have made in sharing more of the Library's 
extraordinary collections and our staff's expertise with their 
commitment to public service.
    Last year, the Library welcomed nearly 1.9 million in-
person visitors; the Congressional Research Service provided 
custom services to 100 percent of the Senate and House Member 
offices and standing committees; more than 450,000 claims were 
registered by the U.S. Copyright Office and nearly 10 million 
preservation actions were performed on the physical 
collections; over 20.9 million copies of Braille and recorded 
books and magazines were circulated; and the Library responded 
to over 1 million reference requests from Congress, the public, 
and other Federal agencies. And the Library's website, 
including LOC.gov, Congress.gov, Copyright.gov, and the CRS 
site, among others, received 110 million visitors and 503.1 
million page views. Quite a lot.
    So I would like to start by expressing my gratitude to 
Congress for supporting our efforts. And I greatly appreciate 
the support you have given us for the high-priority needs, like 
CRS staffing, restoration of the copyright examiner workforce, 
support for the increased costs of hosting the Legislative 
Branch Financial Management System, and librarians and 
archivists to address a processing backlog in our special 
collections.
    We have also been able to have support for our library's 
collection storage modules, particularly at Fort Meade, as part 
of the Architect of Capitol's budget.
    And, today, discussing the fiscal year 2020 budget, we are 
focusing on the fact that in the past year we have completed 
organizational changes that have streamlined functions and 
support a more user-centered direction. Our strategic plan is 
in effect, and we are going with a user-focused direction in 
all of our units.
    The largest part of the Library that Mr. Sweeney is 
directly involved in has now become the Library Collections and 
Services Group that serves the Law Library, the National 
Library for the Blind and Physically Handicapped, and Library 
Services, the largest group.
    IT centralization, with significant, significant 
congressional support, is in its final phase, with staff and 
funding transfers from CRS, Copyright, to the Office of the 
Chief Information Officer, Mr. Bud Barton.
    The strategic plan that was launched in October had four 
strategic goals: expand access, expand our services, optimize 
our resources, and measure our impact.
    Our first digital strategy, which complemented the 
strategic plan, was recently released and is featured on the 
cover--and we are very proud of this--of American Libraries. 
For the first time in many years, the Library of Congress is on 
the cover for our new digital strategy.
    Mr. Ryan. No picture of you on the cover there?
    Ms. Hayden. No, but our staff members are in here. It is 
really wonderful.
    And so, the fiscal 2020 budget, approximately $803 million, 
represents a 6.8-percent increase over the Library's fiscal 
2019 enacted appropriation. It does include $26 million in 
mandatory pay and price increases.
    And the balance of the increase represents critical program 
investments necessary to fulfill the Library's role and move 
forward. The two top goals in the new strategic plan--expand 
access and enhance services--aim to make these collections, 
these unique collections, and the experts and services 
available to them move forward.
    And so we are very pleased to be able to give what is a 
first look into a major part of our focus, in terms of 
enhancing the visitor experience in our flagship building, the 
Thomas Jefferson Building. We recently provided a first look 
into the visitor experience plan. And we have visuals here 
today. We are very pleased that the appropriation in fiscal 
year 2019 to have a $2 million master plan has allowed us to be 
able to present these concepts:
    One, an enhanced orientation experience going into the 
Thomas Jefferson Building that will include looking at the 
Thomas Jefferson collection and then being able to be inspired, 
as you are in that area, to look up into the Main Reading Room.
    Also, a treasures gallery, where, for the first time, the 
Library will be able to showcase the wonderful collections on a 
rotating basis. And, as was mentioned, I am a former children's 
librarian, and one aspect is the youth center and the 
possibility of inspiring young people to be more hands-on with 
technology.
    The information technology requests continue on the network 
modernization begun in fiscal 2019 by supporting hybrid 
hosting, a wireless network that is more robust, and enhanced 
network capacity.
    We also have funding for Congress.gov, the official website 
for legislative data. And that will support Congress's requests 
for more functionality and responsiveness of that very 
important technology.
    And so our requests in this year advance our strategic 
goals, continue on the modernization efforts, and we are very 
pleased to be able to present specifics about the request 
today.
    I look forward to questions and would be glad to discuss.
    [The prepared statements of Dr. Carla Hayden, Dr. Mary 
Mazanec and Ms. Karyn Temple follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Ryan. Great.
    Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman.

                          SURPLUS BOOK PROGRAM

    There is a lot we could talk about. There were a couple of 
things, the visitor experience alone, I am sure, we could spend 
most of the hearing on. But I would like to ask about a couple 
of programs that aren't as well known that I think they are 
really a way to get the Library, library services, out into the 
hinterlands of the Republic, such as the Surplus Book Program.
    And this is something I wasn't aware of this until this 
last year and had the privilege of delivering a box of surplus 
books to Centralia Christian School in my district. And it was 
so awesome. Books in libraries and schools are the first things 
to go, with regard to budgeting, and those get cut back. And 
you walk into some of those libraries, and you think, ``My, 
there's not a lot here to excite and inform.''
    And I think electronics can be an amazing tool. I use my 
Kindle; I read off that. But the ability to hold a book, to 
look at the pictures, to take the time it takes to read or be 
read to, in terms of attention and processing, you can't trade 
that.
    So I would love--just for the record, for other members 
present, what is the Library doing to further promote the 
program? Maybe explain it a little bit and what is available. 
And how can we make this program better to ensure more schools 
and libraries can benefit? Because you have the books. How do 
we get them out?
    Dr. Hayden. I was very pleased that you mentioned the 
delight of the school that received the materials. Because they 
are brand-new books; they are not used books of any sort. They 
are available through the process of selection for the Library 
of Congress, from deposits from the copyright program.
    And so you have that opportunity to have brand-new books 
that are available for schools, for libraries, and especially 
if there are any extreme circumstances, tornadoes, things that 
destroy a library or materials.
    And so, with the program, we are making sure, for instance, 
that all new Members of Congress and their staff members are 
very aware of the program and that, in our listing of services 
to Congress, we list and highlight the Surplus Books Program.
    I have been able to go to certain States where those 
presentations are made, and it is very heartening. And so we 
want people to know that we are going to try to maintain that 
interaction with, as you say, locations that are more remote.
    And that is one of the things in terms of our strategic 
plan and reaching out and using technology. And so we will be 
doing more with the webcasts of authors that are here, that we 
will be able to--we have tested that out, and we can have 
interaction with the young people in your State, and they can 
interact with a famous author right here.
    Ms. Herrera Beutler. Oh, great.
    Dr. Hayden. We also are doing more to strengthen our 
resources for teachers so they can download curricular 
activities very easily. We have been told that we have to 
remember that all teachers don't have color printers at home, 
they have limited time. So we are really trying to strengthen 
what resources we have electronically that teachers can use, 
librarians can use.

                           TRAVELING EXHIBITS

    And, also, traveling exhibits. As we expand the visitor 
experience in the Thomas Jefferson Building, we are looking at 
a traveling exhibit component and even possibly bringing back 
the 18-wheeler truck----
    Ms. Herrera Beutler. Oh, yes.
    Dr. Hayden [continuing]. Hopefully three, one on each coast 
and one in the middle, to travel to locations and actually 
bring the Library to communities.
    Ms. Herrera Beutler. That is great.
    Dr. Hayden. So outreach has been a major focus, and it 
means a lot.
    Ms. Herrera Beutler. I think that is great.
    Mr. Ryan. Fantastic.
    I know--and we have talked about this, and Chairman Yoder 
and I talked about it again this morning, about the enhancing 
the visitors' experience initiative, which is an initiative I 
have been very interested in and very supportive of.
    And I would note, for my colleagues who are new to the 
subcommittee, we provided an initial $10 million for the 
initiative----
    Dr. Hayden. Yes.
    Mr. Ryan [continuing]. In 2018, $2 million for the 
strategic plan, and the--or the planning and design. And the 
remaining $8 million was fenced until initial design work and 
budget estimates are completed and approved, and we look 
forward to getting that information this summer.

                           VISITOR EXPERIENCE

    We will need to wait for the plans in the budget, but I 
think it is very likely the subcommittee will be providing 
additional funding for the visitors' experience initiative. 
And, needless to say, the timing and amounts will depend on the 
plans and cost estimates and also will have to be balanced with 
other competing high priorities that this committee has to look 
at and within the Library.
    In the meantime, let me invite you to describe some of the 
exciting projects you are envisioning. For example, what sorts 
of things would be displayed in the new exhibit areas? How 
would that differ from current exhibits at the Library? And I 
am anxious to hear about the youth center too and your vision 
for the youth center.
    Dr. Hayden. We are very appreciative of being able to have 
a master plan. We have worked very closely from the very 
beginning with the Architect of the Capitol and also the U.S. 
Capitol Police, because you are bringing more people in in 
different ways, security issues.
    So those two entities but particularly the Architect of the 
Capitol has been involved in selecting a design firm, 
Pure+Applied, that has conducted over 75 interviews with all 
types of stakeholders, particularly Congress, conducted 
research briefs, best practices. We had people coming in from 
all over the world, really, talking about how they display 
their collections.
    And so, in looking at what would be possible in retaining 
the historic and beautiful nature of this building, the 
flagship building, the Thomas Jefferson Building, 1897 
building, it was found that there are four entrances right now 
that people enter the building. The bulk of the people, 60 
percent of that 1.6 million that come into that building are 
coming from the Capitol Visitor Center. That is remarkable. 
That was one of the best things that could have happened to 
that building. And 20 percent of the visitors that are coming 
in total are under the age of 18.
    So we had all of that information. What we found is that 
people were not aware of what the Library of Congress does or 
could be or that it had a Surplus Book Program or Veterans 
History or all the treasures that it had. They didn't know how 
it came to be.
    And so, now, the first concept is to have an orientation 
experience, that there would be two ways into the building 
initially, the Capitol Visitor Center and the carriage 
entrance, the ground entrance. And people would come in 
together, and they would look down a pretty interesting hallway 
that would let people know that famous authors like David 
McCullough and Doris Kearns Goodwin and Alex Haley had used the 
Library of Congress. And we will have quotes for them, coming 
in.
    And they will see at the end--and there is a circular area 
there that is actually right under the Main Reading Room----
    Mr. Ryan. I did not see those pictures up there, and I am 
like, why is she looking out the window? Because the Library--
you are the Librarian of Congress. You should at least know 
where it is, right?
    Dr. Hayden. Well, it is sort of an oculus.
    Mr. Ryan. I got you. Okay.
    Dr. Hayden. We are going to talk about an oculus too, which 
is also round.
    So they are going to look down a hallway, if you can 
imagine it, and they will see a circle that will have the 
reinstalled Thomas Jefferson collection that currently is on 
the second floor in a kind of corner and you really have to be 
motivated to go see it. That is the foundation of the Library.
    And so you will be surrounded by Thomas Jefferson's 
library. And then you will look up into an orientation oculus. 
And I must say, we have been very--we love saying ``oculus.''
    Mr. Ryan. Yeah.
    Ms. Herrera Beutler. Did anybody know what the word meant?
    Dr. Hayden. We looked it up.
    Mr. Ryan. I was going to wait until after the committee 
hearing to look it up, but----
    Dr. Hayden. Right. And it is view. And it is the idea of a 
look in and a look up.
    Because what we found in the research, and we really 
responded to that, is that people--initial thoughts of letting 
people look into that magnificent reading room, we were going 
to see if we could let them step in. But we heard, and the 
feeling was very strong, that that might disturb researchers. 
It really might be too intrusive.
    And so the idea of still giving people an opportunity to 
look up and be inspired, especially young people. Because you 
start at a reader's card at 16, so you can't use that room 
until you are 16. But to look up into the reading room.
    And then you can go to a treasures gallery; I mentioned 
that earlier. The first time that the Library has a true 
treasures gallery that will rotate some of the collections, the 
types of collections. Some things will be there forever. The 
Gutenberg Bible will come--but if you make a return visit, you 
will see different things from the collections.

                    VISITOR EXPERIENCE--YOUTH CENTER

    And then the youth center. And, yes, we have talked about 
that, how do we inspire young people. We are concentrating on 
the ages 7 and up, because that is an age where they are very 
interested in nonfiction and facts. And in that area--that is 
on the carriage level--you will have learning labs and ways for 
young people to interact with our collections in a more 
meaningful way.
    And so we are very excited about what types of things could 
happen in these learning labs. We have an extensive map 
collection, and young people would be able to create their own 
GIS systems using technology.
    We will be using technology quite a bit in each of the 
areas. For instance, in the treasures gallery, there will be a 
tabletop unit, that if you are visiting from Washington State, 
you see the map of the United States, you will push that, and 
the Library's resources about your State will come up.
    You also will be able to take--and Mr. Bud Barton is here, 
so if I get too technologically astray, he will help me with 
that. But you will have a device--if you have a device, you 
will be able to put it there and download some of the materials 
to take with you.
    And the whole idea is to turn those visitors into users, so 
that they know about what the Library has for them. And when 
they return home, they will be very aware.
    So it is very exciting, because the Congress's support of 
the master plan has been critical for us to have the expertise 
and the time to do the research. And so they have also given us 
a comprehensive view of other things in the future that could 
be built onto these efforts as well.
    Mr. Ryan. Yeah. Terrific. Terrific.
    Mr. Newhouse.
    Oh, Mr. Case. I am sorry.
    Mr. Case. Thank you.
    First of all, I am not sure whether to declare a conflict 
here, since I am the proud son of a children's librarian. 
Suzanne Case got a master's in library science from the 
University of Hawaii and went on to a career in children's 
libraries after she had seven kids. So now I get to say she's 
part of the congressional record, so thank you for that.

                   FTE, STAFF RESOURCES AND RETENTION

    Let me just talk about your people a bit, your staff 
resources. How many total in all of the Library of Congress? Or 
if you want to talk FTEs, that is fine.
    Dr. Hayden. FTEs are very good. I mentioned Library 
Services has the bulk of the staffing, and I am just turning to 
the exact numbers. It is 3,301.
    Mr. Case. All services, right?
    Dr. Hayden. All services.
    Mr. Case. Okay.
    Dr. Hayden. That includes Copyright, CRS, National Library 
for the Blind and Physically Handicapped, and Library Services. 
All support----
    Mr. Case. Has that been pretty--I am sorry.
    Dr. Hayden. It has been pretty stable. However, there were 
significant--and Mark Sweeney, a 30-year veteran of the 
Library, can talk about some of the declines in staffing that 
happened, I believe it was in the early 1990s. So I will let 
Mark take over that one.
    Mr. Sweeney. Well, we have been very fortunate in the last 
couple of Congresses to increase the staff expertise in the 
Congressional Research Service--those are both Temporary NTEs 
as well as permanent full-time positions--and reconstituting in 
the Copyright Office the examiners, which are so important to 
clearing our registration backlog.
    And then, within Library Services, this year we will be 
hiring additional staff to work through a backlog of primary 
special collection material.
    But the overall staff level, about 3,400 altogether.
    Mr. Case. And has that been pretty stable for 10 years or 
so?
    Mr. Sweeney. Recently upticked a little bit.
    Mr. Case. Okay.
    Mr. Sweeney. When I first came onboard at the Library of 
Congress 30 years ago, we had almost 5,000 employees. So we are 
considerably smaller. But, of course, technology has enabled us 
to extend our reach, you know, nationally and internationally.
    Mr. Case. What is your retention rate? Pretty high? People 
come and stay?
    Dr. Hayden. Yes.
    Mr. Sweeney. Yes, we average about 200 retirements per 
year.
    Mr. Ryan. Look. Look all around. Look at all these people.
    Mr. Case. I was noticing that.
    Dr. Hayden. And I have to jump in. There is one--the 
average tenure is 25 to 30 years. And we have working staff 
members who have been at the Library 50 years. And so, very 
long tenure.
    And one of our concerns, in particular, with certain areas, 
for instance, the request this year for financial services and 
to backfill retirements in that area is critical, because it is 
changing over.
    Mr. Case. Yeah, that was kind of my next question, was, are 
there pockets where you----
    Dr. Hayden. Yes.

                            STAFF RECRUITING

    Mr. Case [continuing]. Are having difficulty recruiting? Or 
do people just want to work here and they will work here 
regardless?
    I mean, the private sector is pretty tight right now. You 
have some pretty highly specialized areas----
    Dr. Hayden. Yes.
    Mr. Case [continuing]. Where you are really depending on a 
high level of expertise, which is sought after in the private 
sector. Financial services is one; IT is another. Are you able 
to recruit now fairly easily? Or are you having, trouble in 
some areas that you foresee a need for down the road?
    Dr. Hayden. The difficulties or challenges might be more in 
having the positions to recruit people into. We are an 
attractive--and Mr. Barton might want to just--I think he can 
verify this. In terms of the IT component, we are an 
interesting entity to work with for IT specialists and people. 
We have a number--and that digital strategy. A lot of the 
people who were featured in that article are coming into the 
Library because we have interesting challenges. And sometimes 
that helps balance out, and they have more freedom to design 
and work with--so in recruiting in IT, we have been fortunate 
in that.
    The financial services is just starting to show its impact, 
and that is where we have the request this year for being able 
to recruit in that area. That is where--we are really concerned 
about that. We want to maintain our unqualified audit record. 
And with some strategic retirements in the last year, in fact, 
we know that we have to be able to be competitive in----
    Mr. Case. And are you able to be competitive, given that 
this is a government salary as opposed to a private-sector 
salary in these areas?
    Dr. Hayden. I think that we are very aware of the 
competition, and so we present our positions in a very 
interesting way. We are very----
    Mr. Case. You are good at marketing. Is that what you are 
saying?
    Dr. Hayden. We present the opportunities for people, 
because this is the world's largest library. And we talk a lot 
about how different this is. And a certain type of person might 
be interested in that.
    So we are aware that we are competing, but we are trying 
to----
    Mr. Case. Okay. Thank you very much.
    Dr. Hayden [continuing]. Get in there.
    Mr. Ryan. Thank you, Mr. Case.
    Mr. Newhouse, hate to interrupt you, but it is your turn.
    Mr. Newhouse. Thank you, Mr. Chairman.
    Dr. Hayden, welcome. And welcome to all of your folks here 
this morning. You guys are always so gracious to us when we 
come to the Library or ask for assistance, so it is good for us 
to be able to reciprocate the hospitality. So thank you for 
being here.
    And I have to tell you, almost every visitor that comes to 
Washington, D.C., I tell them they have to go to the Library of 
Congress. The Jefferson Building is the most beautiful building 
in the city, as far as I am concerned. So I just wanted to get 
that on the record too, Mr. Case.

            VISITOR EXPERIENCE--QUANTITY OF IN PERSON VISITS

    I would agree with you that all of these things that you 
are planning in the strategic plan are going to be tremendous 
additions to the Library to really open it up to people and 
really explain what is available there.
    I think you said--you keep statistics like baseball does. 
You have all these things, which is great. But I think you said 
1.9 million in-person visits----
    Dr. Hayden. Yes.
    Mr. Newhouse [continuing]. Last year?
    Dr. Hayden. And 1.6 million actually are going to that 
Thomas Jefferson Building.
    Mr. Newhouse. Is that right? Wow.
    Dr. Hayden. That is the bulk of the----
    Mr. Newhouse. Busy place.
    Dr. Hayden [continuing]. In-person visits, are in that 
Jefferson building.
    Mr. Newhouse. That is just tremendous. It really is.
    But coming from the hinterland, like Ms. Herrera Beutler 
mentioned, that leaves 330-some-million people that didn't 
come.
    We talked about this when you came to visit me in my 
office, and I just wanted to give you an opportunity to help to 
expound on some of your plans to bring the Library to the 
country. Because a lot of people aren't going to be able to 
come to Washington, D.C.----
    Dr. Hayden. Right.
    Mr. Newhouse [continuing]. Or if they do, it may be only 
once, and they won't be able to spend the time it really takes 
to see what is available there.
    So I love the idea of your 18-wheelers and----
    Dr. Hayden. Yes. The Library has them.
    Mr. Newhouse [continuing]. That kind of stuff, but there 
are just so many important things available at the Library that 
Americans should be aware of, and we would like to share them 
with as many as people as possible.
    So could you talk about how your strategic plan will 
address that and how we can help?

                STRATEGIC PLAN--EXPANDING ACCESSIBILITY

    Dr. Hayden. One of the main ways, in terms of expanding the 
access and enhancing our services, is to use technology 
effectively. And so making sure that we digitize as many of our 
special collections as possible and make them available online. 
We have the papers of 23 Presidents, going back from George 
Washington to Coolidge. We just digitized the papers of 
Theodore Roosevelt and also Rosa Parks.
    And so we are looking at and prioritizing in the staffing--
and we want to use this opportunity to thank Congress for the 
40 FTEs that we received last year to process these special 
collections and make them available online. That is one of the 
main ways that we can let people have access to the physical 
collections remotely.
    Also, being able to put things like our photography 
collection--we have Dorothea Lange, and we have all of these 
wonderful--and be able to download, as well, visual displays 
that could be put into rec centers or community centers that 
will be similar to what the Smithsonian does with their SITES 
program, their traveling program.

                  COMMUNITY OUTREACH--LIBRARY PROGRAMS

    Our special services Veterans History, we have already made 
quite a few contacts with veterans history agencies or veterans 
affairs agencies. And we are actually visiting States and 
districts to help local communities with oral histories of 
veterans, and we will be expanding that. So we physically go 
out to communities and help and train volunteers with that.
    We mentioned our teaching with primary resources. We have 
grants that we bring teachers in from all over the country and 
then have them go back and be part of that.
    We are networking with the library associations, the State 
libraries of each State. And we are revitalizing the Center for 
the Book that is in each of the States, working with the 
humanities councils to do more outreach in that sense.
    The main thing that we are also doing is to tell more 
people about us, what we do, and that marketing that we 
mentioned, doing more of that and being very strategic about 
that as well.
    So there are all types of cooperative programs and 
services. Our audio-visual and sound recording, we just had a 
program where we are putting up what is called a movie 
screening room of non-copyrighted films that are available 
online as well.
    And we are doing so much to advertise the National Library 
for the Blind and Physically Handicapped. We just had a public 
relations campaign, and we have seen an increase already in the 
number of people who are aware of that service. And there are 
television and radio commercials that talk about NLS----
    Mr. Newhouse. Oh, is that right?
    Dr. Hayden [continuing]. And the intergenerational.
    So any way that we can physically visit as well as that we 
can use technology has been very effective.
    Mr. Newhouse. I think one of my constituents, a teacher 
from West Valley High School, at least from the school 
district, participated in your summer teacher institute----
    Dr. Hayden. Yes.
    Mr. Newhouse [continuing]. Which is--I think that is what 
you referenced in----
    Dr. Hayden. Yes.
    Mr. Newhouse [continuing]. One of your programs, which is a 
great way to allow teachers to know what is available. And you 
are continuing to expand that?
    Dr. Hayden. Yes. And we use private funding for that and 
grant-making for that----
    Mr. Newhouse. Oh.
    Dr. Hayden [continuing]. And that also helps.
    We also have literacy awards that we give to organizations 
throughout the country. And we bring them in, and they are 
awarded for their efforts here in D.C., and they get to visit. 
So being able to fund people to come here, too, and experience 
it has been something that has been very helpful.
    Mr. Newhouse. And I should say, her name was Barbara 
Kipperman, and she learned a lot about how to share what is 
available here. So it is a very worthwhile program.
    Dr. Hayden. Well, getting the word out is one of the 
things. Most people don't even know.
    Mr. Newhouse. I am probably over my time, but----
    Mr. Ryan. Go ahead.

                    LIBRARY CAPITOL CAMPUS BUILDINGS

    Mr. Newhouse. I should know this, but I think I do, the 
only physical presence that we really have of the Library of 
Congress is here in Washington, D.C.? As far as----
    Dr. Hayden. Actually----
    Mr. Newhouse. Or not? Is there more----
    Dr. Hayden [continuing]. No.
    Mr. Newhouse. Okay. Okay.
    Dr. Hayden. And there is physical presence in terms of 
operations, and then there is the public----
    Mr. Newhouse. Well, that is what I mean, the public part.
    Dr. Hayden. So there are three buildings here: Thomas 
Jefferson; the Adams Building, 1938; and then the Madison 
Building that has, for instance, the Manuscript Division and 
Prints and Photographs.
    Mr. Newhouse. Which was very interesting to tour, by the 
way.
    Dr. Hayden. Very interesting. And the music department----
    Mr. Newhouse. In someone's office, if I recall.
    Dr. Hayden. That is something else.
    And then the Adams Building, the science and technology 
collections are there.
    And so those three buildings for the campus.
    The Taylor Street location for the National Library for the 
Blind, we really would like to have it here, closer to the main 
campus.
    Mr. Newhouse. It is in D.C. somewhere?
    Dr. Hayden. It is on Taylor Street. It is a rental 
property, renting for 50 years, in fact. So we really have been 
working to see if we can get that service closer to the main 
campus.
    And then there is the David Packard Center for Motion 
Picture and Audio----
    Mr. Newhouse. Oh, right. Right.
    Dr. Hayden [continuing]. In Culpeper, Virginia. And that is 
a magnificent facility with a movie theater, with a pipe organ, 
and all of that, and they show films. However, it is somewhat 
remote for people. That is why we want to have a presence here 
as well. In terms of the treasures that we have, we want to let 
people know about those.
    So those are the three. And then we have overseas offices, 
but they are more operational, collecting materials. So they 
are not public facilities.
    Mr. Newhouse. And no other public facilities throughout the 
country either?
    Dr. Hayden. No. No.
    Mr. Newhouse. Yeah. Well, thank you very much again for 
being here.
    Dr. Hayden. But the 18-wheelers.
    Mr. Newhouse. Yeah.
    Mr. Ryan. Ms. Clark.
    Ms. Clark. Thank you.
    I now have to recognize my mother, since Congressman Case 
recognized his mother, Judith Clark. She was a school librarian 
and then our town librarian.
    And I remember going with her as she was taking courses at 
Southern New England University for her MLS, which not only 
made me an advocate for libraries but also for childcare for 
our students. While fascinating to her, not a place a 5-year-
old found particularly great.
    But she also, in Connecticut, was one of the first adopters 
of computerized systems in our town. She was very cutting-edge 
for someone who had only used a typewriter for most of her 
life.

                        VETERANS HISTORY PROJECT

    And we have had some issues out of our district office with 
our veterans, who very much want their history to be part of 
the incredible veterans history project that you run. But 
having to submit a hard copy by fax or by DVD that has to be 
done by FedEx because it gets ruined under the Postal Service 
is very cumbersome. And our veterans outreach staffer has had 
veterans say they are just not going to participate, it is too 
hard.
    Does the funding allow you in this budget to create the 
ability to have digital uploads from our veterans?
    Dr. Hayden. As part of our IT modernization, that is one 
area where we have already been able to look at a pilot project 
for using mobile devices. And now we are in the process of 
developing the requirements for how that would work. We have 
heard that quite a bit, in terms of being able to have that 
capacity. So that is one of the projects that we are really 
focusing on.
    And then, also, I mentioned earlier that the staff will go 
out to districts, as well, and might be able to facilitate that 
type of local taping and help with those types of things. So I 
would like to follow up with you on that----
    Ms. Clark. Okay. That would be terrific.
    Dr. Hayden [continuing]. Because I think we could do more 
immediately to help with that.
    But you should know that the prototype was actually a gift-
in-kind from women who were children of veterans and really 
wanted to donate in that way. They were software engineers. So 
it was very helpful for us to be able to have that to know what 
would be required.
    But that is the next step. We have to modernize that.
    Ms. Clark. And do you have the funding within this budget 
to take that step, or would that be----
    Dr. Hayden. Part of the funding would be in terms of what 
the IT modernization plans would be and what we were doing. So 
that is one of the projects that they will be looking at.
    Ms. Clark. Great.
    Now, from my staff here in Washington----
    Dr. Hayden. Ah.

                              CONGRESS.GOV

    Ms. Clark [continuing]. Lots of anxiety about LIS going 
away, because of the ability to get more information than is 
available on Congress.gov--cosponsors, bill text, et cetera--
and really the speed that you are able to get information----
    Dr. Hayden. Yes.
    Ms. Clark [continuing]. From LIS. So if you could tell me a 
little bit--and I am sorry I missed the beginning of this----
    Dr. Hayden. That is all right.
    Ms. Clark [continuing]. If this is repeating your----
    Ms. Herrera Beutler. No, I didn't know that.
    Ms. Clark [continuing]. Repeating your testimony, but there 
is anxiety that the more modern, faster system is being retired 
and the clunkier Congress.gov is being preserved, and how are 
we going to blend the best features.
    Dr. Hayden. Now, we do have a request for that, 
specifically----
    Ms. Clark. All right.
    Dr. Hayden [continuing]. In this year, to speed up the 
improvements to Congress.gov. And Mary Mazanec is here, and Bud 
Barton, to talk about some of the specifics.
    But we will make sure that Congress.gov has enhanced 
functionality as we move forward. And that is the part that we 
are really very aware of, and also the speed in terms of how 
things are authenticated.
    Ms. Clark. Yeah.

                      CONGRESS.GOV--LIS RETIREMENT

    Dr. Hayden. That is where Congress.gov has more 
authentication.
    And the legacy system, LIS, about 20 years old, and so it 
was a very specific system, and now we have merged something 
that was called Thomas that was the public-facing government 
information source into Congress.gov.
    So I hope that people--and we will be doing more to work 
with staff to reassure them that Congress.gov----
    Ms. Clark. I appreciate that.
    Dr. Hayden. And I will have Mary Mazanec come up in just a 
little bit, but on her way up--
    Ms. Clark. Yeah, because it is $3.6 million in this 
budget----
    Dr. Hayden. Right. And that is----
    Ms. Clark [continuing]. But the retirement is looking at 
this summer for LIS?
    Dr. Hayden. Yes. And so, with that, just to reassure you 
that we will be making sure that that functionality and 
increased functionality will be part. So, in terms of the 
request, it is people and, actually, technology----
    Ms. Clark. Great.
    Dr. Hayden [continuing]. For people, in fact.
    And let me introduce Bud Barton, our Chief Information 
Officer, for their technical----
    Mr. Barton. We will also be able to respond to some of your 
technical concerns, but thank you for this question.
    Obviously, we don't want to retire LIS before you, the 
congressional user, is comfortable with Congress.gov.
    And as Dr. Hayden said, LIS is a legacy system. It was 
created over 20 years ago over several years. And it is highly 
customized, driven by the needs of Congress. But it is more and 
more difficult to maintain.
    Congress.gov is actually a newer system, and it leverages 
the advancements in technology to present the information. And 
there are two parts to it; there is the public face of 
Congress.gov and the congressional face.
    CRS works in partnership with the Office of the Chief 
Information Officer--and also Law Library has a piece of this; 
they deal with the public face--to build out Congress.gov. And 
there is a lot of effort to gather input from the congressional 
user so that, as we design and develop Congress.gov, it meets 
your needs.
    CRS also provides support to the congressional user on a 
daily basis. We take in questions; we respond to concerns. We 
are also helping--well, we do provide some of the content. We 
do the bill summaries. We also have hired people to work with 
OCIO to define the requirements and to make sure that they are 
incorporated.
    As Dr. Hayden mentioned on another topic, CRS will be doing 
a lot of outreach. We already have started providing written 
materials, doing trainings, and actually making sure that the 
congressional user is comfortable with the new website.
    Ms. Clark. Great.
    Dr. Hayden. And I think I mentioned that it----
    Mr. Ryan. Do you want to----
    Dr. Hayden. Yeah, Bud. Bernard, Bud Barton, who has----
    Mr. Ryan. Yeah. You are on the record five times. You need 
to come up here and----
    Dr. Hayden. Well, and I just have to say, as he comes up, 
Mr. Barton has led the information technology modernization 
effort of the Library. The GAO reports 27 of the 31 public 
recommendations have been closed and implemented, with the 
remaining 4 at GAO to be reviewed. The progress has been 
substantial. And he has had to help with CRS, Copyright, NLS, 
and Library Services. So I will put that on the record.

                CONGRESS.GOV--CONGRESSIONAL REASSURANCE

    Mr. Barton. Great. Thank you for the opportunity to address 
this question.
    I would like to reinforce that the job of the CIO at the 
Library is to make sure that the Library efficiently and 
effectively uses technology. Our number-one commitment is to 
Congress, and my number-one commitment on the retirement of LIS 
and integrating into Congress.gov is we will not be turning off 
LIS until we have the equivalent functionality in Congress.gov.
    We have worked very closely with many Members' staff on 
both the House and the Senate side to make sure that, as 
concerns are raised, we address them as best we can, realizing 
that a lot of the modernization requirements are not driven by 
the Library but by advances in technology.
    Some of the data sources that we receive the content from 
that goes into Congress.gov--GPO, both the House and the 
Senate--they are modernizing their systems at the same time, 
and LIS, in its current form, is unable to take advantage of 
those new data streams. So we have to do the move in order to 
make sure that we can keep current with the data that is 
available to show to your constituents and to congressional 
Members about what is available for your use.
    So my commitment is we will not be turning off LIS until we 
have equivalent functionality within Congress.gov.
    Where we maybe could use some help is making sure that 
staff is aware that we are doing this effort. We have some 
communications that should be going out to each of the staff 
offices showing, you know, what our desired turnover period is, 
asking for input on any issues.
    As Mary Mazanec mentioned, we are dealing with questions 
every day on, you know, how do we get this particular text 
updated; this isn't showing up in Congress.gov. And a lot of 
that has to do with these changes in how data is being routed 
for publication.
    So we are committed to making sure that Congress has the 
data that they need and committed to making sure that we 
provide the education necessary or training necessary to show 
people, here is the functionality that you are used to in LIS; 
here is how you get to that in Congress.gov.
    So I want to reassure everyone, we are not going to be 
turning off LIS until you have equivalent functionality in 
Congress.gov.
    Mr. Ryan. We have that on the record.
    Ms. Clark. That is great. Thank you so much.
    Mr. Ryan. Let me just say thank you to, I mean, your entire 
staff, Dr. Hayden. So often, we take for granted, as we move 
around and do our thing here and go meeting to meeting to 
meeting, we sometimes forget to say thank you to the people who 
make all of this possible for us and our staffs. So we want to 
just say thank you. Very much appreciated by all of us, as you 
could tell from Ms. Clark's question. You know, something you 
are doing behind the scenes, and nobody really knows who Bud 
is, but now--until now.
    Dr. Hayden. They do now.
    Mr. Ryan. We may start calling every employee behind the 
scenes ``Bud.''
    But we appreciate it. And thank you for all your hard work. 
I am sure it is a big challenge, so thank you.
    Mr. Barton. Thank you.

                       NATIONAL LIBRARY SERVICES

    Mr. Ryan. I have just a couple questions. And I would like 
to actually ask about the National Library Service for the 
Blind and Physically Handicapped. So could we get Karen 
Keninger, Director of the National Library Service, to come up?
    Dr. Hayden. Yes. And we are very pleased to be able to talk 
about also the use of technology in advancing those services.
    Mr. Ryan. Yeah. Yeah.
    Dr. Hayden. The e-reader project, the fact that we are 
looking at moving to a digital platform for delivering talking 
books and that. And so Karen has been working very diligently 
on that.

                          NLS E-READER REQUEST

    Mr. Ryan. Karen, thank you. First, thank you for coming up.
    The budget request is $2.375 million to support purchase of 
Braille e-readers for users of the NLS system. And I understand 
these e-readers are a new-generation technology that can 
greatly improve delivery and reading of books in Braille. Can 
you explain what these new e-readers do and how they would be 
used in your program?
    Ms. Keninger. Certainly.
    The Braille e-reader is a device that allows you to take a 
digital Braille file that is a small ASCII-type file and it 
will convert that file, similar to what you do with a 
computer--like, the screen looks at an ASCII code and it gives 
you an "A." This would look at the ASCII code and give you a 
Braille "A" in pins that--I actually have one right here--that 
pop up and down so that it changes the display.
    Braille is a six-dot system, there are six dots per cell. 
These little pins, they just pop up and down. And they change 
this way. And you can read on them.
    So we have a digital Braille program already, in terms of 
making our Braille available for download from the internet for 
anyone who actually owns a digital device, but a lot of the 
people that we serve aren't able to purchase them and so aren't 
able to take advantage of that.
    The advantages are significant in terms of cost for 
production of hard-copy Braille as well as for the shipping and 
maintenance of the collections and the bulk that the actual 
individual user has to address. You know, a good-sized Braille 
book might be six or eight volumes that take up that much shelf 
space.
    So the advantages of going to a fully digital Braille 
program by purchasing these devices over a number of years will 
allow us, in time, to have a lot more content available and 
also a much more modern way of reading and using Braille.
    Mr. Ryan. How many will this purchase? Do you know?
    Ms. Keninger. That----
    Mr. Ryan. The $2.375 million.
    Ms. Keninger. I'm not 100 percent sure, but I think 
probably about 3,500. We are in the process of negotiating the 
final contract, and I am not quite sure what the price is going 
to be. But I think that is a good estimate.

         NLS BRAILLE & AUDIO READING BY DOWNLOAD (BARD) REQUEST

    Mr. Ryan. Tell them the chairman of the committee is very 
cheap and he better give you a good deal on them, right?
    The budget also requests $5 million for replacing a website 
called BARD with a more modern and usable system. Can you tell 
us what BARD does, why it needs fixing, and what the benefits 
of the upgrade would be?
    Ms. Keninger. Yes. BARD is a legacy system which was 
intended as a download system so that people could download 
both digital Braille and digital talking books. And it has been 
in place for about 10 years. It is not scalable. It can serve 
maybe 50,000 people right now, which is about what it is 
serving, and the need to expand it so that we can serve a lot 
more people is why we need to rebuild it.
    The architecture of it needs to be changed so that it is 
scalable, because we are anticipating that the population that 
we serve is going to increase as we ease access to people with 
other types of disabilities, such as reading disabilities, 
dyslexia, and that sort of thing. And in order to do that, we 
have to be able----
    Mr. Ryan. Cool.
    Ms. Keninger [continuing]. To serve them. And, at this 
point in time, BARD is not sufficient to serve an expanded 
patron base, and that is the primary reason that we need to 
expand it.
    Mr. Ryan. How many people use it now?
    Ms. Keninger. About 50,000.
    Mr. Ryan. And you think it will go to what?
    Ms. Keninger. Oh, a million.
    Mr. Ryan. Oh, wow.
    Ms. Keninger. I mean, that is the capacity that we are 
looking for.
    Mr. Ryan. Yeah. That is significant.
    Ms. Keninger. Because it will be scalable. It is cloud-
based and scalable, so it will be able to go up and down with 
the needs.
    Mr. Ryan. Uh-huh. And is there a marketing plan attached to 
this once you get it cranked up?
    Ms. Keninger. Yes. We are----
    Mr. Ryan. It sounds like it, if you are going to go from 
50,000 to a million.
    Ms. Keninger. Yes, certainly. We will be changing--we are 
anticipating, anyway, that we will be changing as we are 
requesting to change the legislation that is our funding 
legislation and also the certification requirements. And then 
we will market that to the education community and to other 
communities that have people that would be eligible to use the 
systems.
    Mr. Ryan. Uh-huh.
    I think you mentioned it in your testimony, Dr. Hayden, 
about this particular program. How many--was it 20 million that 
you said, people accessing the services for the blind?
    Dr. Hayden. We had so many statistics----
    Mr. Ryan. You had so many numbers in there.
    Dr. Hayden [continuing]. We were very pleased. The 
circulation is about--that was the circulation of the 
materials.
    And about, Karen, 450,000----
    Ms. Keninger. At this point, yes, about 450,000.
    Dr. Hayden [continuing]. People that are subscribing to 
the----

                         NLS--NETWORK OUTREACH

    Mr. Ryan. Let me ask this. How many blind people are there 
in the United States? Do we know?
    Ms. Keninger. Maybe 10 million.
    Mr. Ryan. Ten million?
    Ms. Keninger. That is blind and visually impaired. I think 
the blindness number is maybe 2 million, and the visually 
impaired number--these are hard numbers to get hold of, but the 
estimate is somewhere in that range.
    Mr. Ryan. Uh-huh. And the goal, obviously, is to try to get 
as many engaged as possible.
    Ms. Keninger. Yes.
    Mr. Ryan. And so what are the networks you use to reach 
out? You mentioned the education network. Like, when you are 
reaching out and marketing the BARD program, what are the other 
networks you will interface with to try to connect to that 
population?
    Ms. Keninger. There are disability organizations that serve 
people with dyslexia and other reading disabilities. And we 
will certainly reach out to those organizations as well, those 
networks.
    But the primary network for people, especially people with 
reading disabilities, actually is the education system, because 
that is where the reading disabilities are diagnosed and that 
is where people are aware of this need.
    There are adults with dyslexia, obviously, and, aside from 
the disability organizations, there is not a way to identify 
them readily. But we are working right now with the Gallup 
organization to try to find better ways to identify them and to 
get a better handle on that. We actually have a contract that 
we are working on right now to gather that sort of information.
    And we will also be reaching out just to the general public 
through digital advertising, and right now we are also doing 
television and radio advertising, just reaching out.
    Mr. Ryan. Uh-huh. Great. Well, terrific. Well, thank you. 
This is really exciting.
    Ms. Keninger. Thank you.
    Mr. Ryan. This is the exciting part.
    Dr. Hayden. And another example of the use of technology to 
enhance services that we already have.
    Mr. Ryan. Yeah.
    Ms. Keninger. Exactly.
    Mr. Ryan. If you have any questions about this, just ask 
Bud, okay?
    Ms. Keninger. Bud is onboard with us.
    Mr. Ryan. Okay.
    Dr. Hayden. He is part. And that is the behind the scenes.
    Mr. Ryan. Mr. Newhouse.
    Mr. Newhouse. Just real quickly, Mr. Chairman, if we could 
get a demonstration of the device that Karen had, that would be 
very interesting.
    Mr. Ryan. Yeah.
    Dr. Hayden. We could. We could do that today, actually, if 
we have time afterwards, because it is very----
    Mr. Ryan. Okay. Yeah. That would be great.
    Dr. Hayden. So you have veterans, NLS, government 
information, digitizing collections. Technology is really--that 
infrastructure is really important to us.

                    Chairman Ryan's Closing Remarks

    Mr. Ryan. Yeah. Great.
    Well, thank you to--Ms. Herrera Beutler, any questions?
    Thank you. We appreciate it.
    Dr. Hayden. Oh, thank you.
    Mr. Ryan. We are excited for everything that is happening, 
and I look forward to having further conversations with you.
    Dr. Hayden. Thank you. We appreciate it.
    Mr. Ryan. All right. Thank you, Dr. Hayden. Thank you.
    [The following questions were submitted to be answered for 
the record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                           Tuesday, March 12, 2019.

                     U.S. HOUSE OF REPRESENTATIVES

                               WITNESSES

HON. CHERYL L. JOHNSON, CLERK OF THE HOUSE
HON. PAUL D. IRVING, SERGEANT AT ARMS
HON. PHILIP G. KIKO, CHIEF ADMINISTRATIVE OFFICER

                   Opening Statement of Chairman Ryan

    Mr. Ryan. I call the committee to order.
    Good morning. Today, we gather to discuss the fiscal year 
2020 budget request for the House of Representatives.
    To begin, I would like to welcome the officers and 
officials of the House to our subcommittee hearing.
    Testifying before us are the Honorable Cheryl Johnson, our 
new Clerk of the House; the Honorable Paul Irving, Sergeant at 
Arms; and the Honorable Phil Kiko, Chief Administrative 
Officer.
    Ms. Johnson, welcome back to the House, and congratulations 
on your new assignment.
    Ms. Johnson. Thank you.
    Mr. Ryan. We are very excited to have you.
    Ms. Johnson, you have joined a talented team of officers 
and officials that work hard each day to ensure we have the 
tools we need to legislate. These incredible teams provide 
unmatched support in providing safety, security, 
administrative/technical consulting, and legislative solutions 
to all Members and their staff.
    Congratulations again, and I look forward to working with 
you during this legislative year.
    Before we start with the testimonies, I would like to take 
time to thank all the officers, officials, and their staffs for 
the extraordinary work over the past year and especially during 
the massive transition to the 116th Congress.
    The transition of a Congress affects everyone in the House. 
Each transition brings its own unique challenges, and even more 
so when there is a change in majority. This transition was one 
of the largest, and I applaud each of your teams' efforts in 
making the 116th congressional transition seamless, quick, and 
manageable, even if it maybe didn't seem seamless, quick, and 
manageable to you. Just as long as it looks that way on the 
outside, I guess, is all that matters. So thank you for your 
hard work.
    Now, let's get started with the work of this subcommittee. 
The fiscal year 2020 budget request for the House of 
Representatives is $1.4 billion. This request will allow us 
Members an opportunity to retain and hire the best and 
brightest. The work we do here is important, and it requires a 
certain set of skills to negotiate legislation that will move 
our country forward.
    This request also includes funding that will help us to 
maintain and grow our physical and cybersecurity postures, two 
areas that remain a top priority for this committee. Later this 
morning, we will hear from the Capitol Police.
    Lastly, this request includes funding for the newly 
established Offices of Diversity and Inclusion and 
Whistleblower Ombudsman.
    Overall, this request stands to provide Members and 
committees the resources necessary for us to represent our 
constituents by effecting policy and implementing laws that 
will address our country's critical needs.
    With that in mind, I look forward to each of your 
testimonies today.
    At this time, I will yield to my colleague, Ranking Member 
Jamie Herrera Beutler.

          Opening Statement of Ranking Member Herrera Beutler

    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    Welcome, Cheryl Johnson, the Clerk of the House.
    Ms. Johnson. Thank you.
    Ms. Herrera Beutler. Congratulations on your new position. 
And I appreciate you taking the time--I know we didn't get to 
connect last week, but for reaching out to come in. I 
understand this isn't your first stint in public service. In 
fact, you have served in a number of different roles. But we 
welcome you here in this role.
    And welcome back, Paul Irving, Sergeant at Arms. I didn't 
have the pleasure of connecting with you. Would love to do 
that.
    And, Chief Administrative Officer, Mr. Kiko, nice to see 
you again.
    The fiscal year 2020 budget request for the House agencies 
is $1.356 billion, which is $123 million over the current 
enacted levels. And this is the largest request for the House 
since I got here, actually, in 2011--not 17 years ago.
    I like to give him a hard time.
    Mr. Ryan. Here we go.
    Ms. Herrera Beutler. Because someday someone is going to do 
it to me, right?
    Mr. Ryan. That is true.
    Ms. Herrera Beutler. So what goes around comes around.
    Much of the work each of your offices do on a daily basis 
is obviously behind the scenes, but collectively you are truly 
responsible for keeping this place running, including the IT 
network--which is never sexy, but it is so important--that 
allows us to communicate, and the financial systems that pay 
our bills and meet our payroll, and the voting system that 
helps us authenticate the legislative process. Without the 
services of the House officers, we would not carry out our 
constitutional duties as Members of Congress.
    So, with that, I look forward to hearing from each of you, 
and I yield back the balance of my time.

                     Chairman Outlines Proceedings

    Mr. Ryan. Thank you.
    Without objection, each of your written testimonies will be 
made part of the record. I ask each of you--the Clerk, the 
Sergeant at Arms, and the Chief Administrative Officer--to 
summarize your remarks and highlight your efforts of the past 
year to the committee.
    After opening statements, we will move to the question-and-
answer period. During the questions and answers, we will, for 
this hearing, adhere to the 5-minute rule.
    Ms. Johnson, we will start with you.

                     Testimony of Cheryl L. Johnson

    Ms. Johnson. Good morning, Chairman Ryan, Ranking Member 
Herrera Beutler, and members of the subcommittee. Thank you for 
this opportunity. On behalf of the Office of the Clerk, we 
appreciate your continued support.
    The Clerk's Office is a nonpartisan organization that 
provides the procedural support necessary for the orderly 
conduct of the official business of the House and its Members 
and Committees. Thanks to your support, our office can keep 
House operations running at the highest standards.

                      CLERK PROJECTS AND PROGRAMS

    I will begin with an overview of what we do.
    The Clerk's Office supports the legislative process, from 
introduction to engrossment and presentment. Bill Clerks 
process all introduced bills and resolutions. Tally Clerks 
record all floor votes. And Journal Clerks produce the 
constitutionally mandated Journal of the House of 
Representatives and handle Presidential messages.
    When bills and resolutions pass the House, Enrolling Clerks 
prepare the official text for transmission to the Senate or 
White House. Along with announcing pending business on the 
floor, Reading Clerks convey bills and messages to the Senate 
or White House.
    We are hard at work whenever the House is in session, day 
or night. Our role extends beyond the House floor. We support 
Committees and Members' offices.
    And in January, recognizing the importance of sharing our 
institutional knowledge, we worked with the Parliamentarian's 
Office and the Congressional Staff Academy to hold three 
training sessions for all Committee Clerks. Topics included the 
new Truth-in-Testimony form, which we prepared at the direction 
of this Subcommittee; filing Committee reports; submitting 
remarks to the Congressional Record; and Records Management. 
These sessions will continue during the year.
    Our Office of Official Reporters provides reporting 
services for all Committee markups, hearings, and depositions, 
as well as for many investigative interviews. These services 
remain subject to increased demand as a result of expanded 
deposition authority and oversight needs.
    The Office of House Employment Counsel provides House 
employing offices with legal counsel and training on employment 
matters, including anti-discrimination and anti-harassment 
laws, family and medical leave, fair labor standards, workplace 
safety, and other matters arising under the Congressional 
Accountability Act and related reform measures.
    We also manage Congressional offices that become vacant. We 
work with remaining staff to continue the office operations, 
oversee district office leases, and provide constituent 
services until a successor is elected.
    And as detailed in my written submission, we perform many 
other services.

                 CLERK FISCAL YEAR 2020 BUDGET REQUEST

    For Fiscal Year 2020, we respectfully request $32.8 million 
to carry out our existing and new responsibilities to the 
House.
    Much of what is new in our request would support non-
personnel items, primarily mandatory equipment replacement and 
a modernization of the Legislative Information Management 
System, also known as LIMS.
    LIMS is a critical part of the flow of legislative 
information. In a very real sense, it is what enables the House 
Committees and Members to conduct legislative business and 
allows the public to follow that business. LIMS gathers bill 
information, floor activity, Member and Committee information, 
and executive communications from the House and the Senate; 
then distributes that information to the Government Publishing 
Office, the Library of Congress, Members, Committees, House 
offices, and the public.
    As always, the accuracy and reliability of our data is a 
high priority. We would greatly appreciate your investment in 
this critical project, which I believe strongly would enhance 
the functioning and transparency of the House.
    Mr. Chairman, Ranking Member Herrera Beutler, and 
Subcommittee Members, in my few short weeks, I have gained 
immeasurable respect for the more than 200 employees who make 
up the Office of the Clerk, many of them carrying out duties 
that are required by the Constitution. Together, we support 
this institution that we are privileged to serve.
    Again, I thank you for your support, and I look forward to 
any questions.
    [The prepared statement and biography of the Hon. Cheryl L. 
Johnson follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Ryan. Thank you for your testimony.
    Mr. Irving.

                      Testimony of Paul D. Irving

    Mr. Irving. Good morning, Chairman Ryan, Ranking Member 
Herrera Beutler, and members of the committee. I appreciate the 
opportunity to present the Office of the Sergeant at Arms' 
budget request for fiscal year 2020.
    It is an honor and a privilege to serve this institution, 
and I look forward to working with the committee as the year 
progresses.
    Although I submitted my full testimony for the record, I 
would like to briefly highlight and update the committee on a 
few initiatives that are either in place or in a planned 
implementation phase before I mention my fiscal year 2020 
request.

                 SERGEANT AT ARMS PROJECTS AND PROGRAMS

    The Sergeant at Arms, in conjunction with the Capitol 
Police, has enhanced security services, to include screening 
prior to entry of our buildings, developed an enhanced security 
focus to assist Members in this increased threat environment, 
expanded security services in district offices and district-
based events, and moving the Capitol complex closer to 100-
percent screening by bringing all of the buildings into the 
secure perimeter.
    As I have noted, many Members receive threats and direction 
of interest communications that raise concerns for them, their 
families, and their staff. In light of these threats and 
concerning communications, my office interfaces with Members' 
offices seeking security coordination for off-campus events in 
the Washington, D.C., area, in their districts, or elsewhere 
across the country.
    My office works with the Capitol Police to provide a level 
of protective support that is based on threat intelligence and 
proactive criteria which may form the basis of an enhanced 
level of support. Protective services can range from security 
awareness briefings in the Member's district, to a request to 
local law enforcement to support a public appearance by the 
Member, or additional assistance in the Member's district by 
the Capitol Police.
    With regard to district office security, my office 
continues to build upon the success of our District Office 
Security Program that was launched in the summer of 2017. Since 
its inception, the program has assisted 375 district offices 
with the installation of intrusion-detection security alarms, 
cameras, panic buttons, and coordinated local law enforcement 
support of nearly 450 public events and townhalls across the 
country. We have documented almost 13,000 outreach interactions 
with Member offices.
    Focusing on the Capitol complex here in Washington, D.C., 
we are working toward the implementation of House garage 
security to ensure full screening into the House office 
buildings and in line with the Capitol and Senate office 
buildings.

            SERGEANT AT ARMS FISCAL YEAR 2020 BUDGET REQUEST

    Focusing on my fiscal year 2020 budget request, in addition 
to my request for items required at the start of any new 
Congress, my largest increase is a request for funding for the 
Joint Audible Warning System.
    This is a shared effort with the Capitol Police, Architect 
of the Capitol, and the Senate Sergeant at Arms to replace the 
aging wireless emergency annunciator system introduced as a 
temporary measure following the events of 9/11. The system 
components of these pager-like devices, located in all D.C. 
offices, are beyond their end-of-life dates. Battery components 
are no longer produced, and systems support by the vendor is 
limited.
    Seventeen years after implementation, the funding requested 
will help procure a new, separate, non-cell-tower-based system 
for emergency notifications throughout the House and replace 
the system components, including 2,500-plus devices currently 
in every office, meeting room, hearing room, and work area on 
the House side of the Capitol and House office buildings, to 
ensure that emergency voice notifications are transmitted via 
secure radiofrequency to all offices and meeting spaces 
throughout the campus.
    As I have noted, my additional funding requests are more 
fully contained in my extended testimony, such as an increase 
in FTE to better serve those we support in the House, as well 
as support for the 2020 nominating conventions, replacement of 
GSA-rated safes for Members to store classified and sensitive 
information, and Member and spouse identification pins and 
congressional license plates for the 117th Congress.
    I can assure the committee that my fiscal year 2020 budget 
request has been prepared in the spirit of zero-based budgeting 
without jeopardizing mission-critical services provided to the 
House community.
    Thank you once again for the opportunity to appear before 
the committee. I am so appreciative of the committee's 
unyielding support and partnership as we strive to maintain the 
delicate balance between strong security and free and open 
access to the Capitol complex. And I will be happy to answer 
any questions you may have.
    [The prepared statement and biography of the Hon. Paul D. 
Irving follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Ryan. Thank you, Mr. Irving. We appreciate your 
leadership.
    Last but certainly not least, Mr. Phil Kiko.

                       Testimony of Phil G. Kiko

    Mr. Kiko. Good morning. I want to thank each of you for 
this opportunity to present the CAO's fiscal year 2020 budget 
request.
    The CAO is the largest House-specific organization, with 
over 700 employees who provide a broad spectrum of services. 
Our employees assist offices with purchasing, voucher 
processing, logistics and asset management, technical support, 
payroll and benefits, wellness, childcare, confidential 
employee assistance, and legal representation.

           CHIEF ADMINISTRATIVE OFFICER PROJECTS AND PROGRAMS

    The CAO has recently taken on new service responsibilities, 
such as administering in-person workplace rights education for 
an estimated 16,000 individuals and standing up the new Office 
of Employee Advocacy.
    With the Chair's support and guidance, we have launched a 
House-wide wellness program that provides proven offerings such 
as mindfulness and stress management for our hardworking 
employees. We have also started preparations to conduct a 
comprehensive compensation analysis that will include diversity 
data and better inform House employment decisions.

              CHIEF ADMINISTRATIVE OFFICER STRATEGIC PLAN

    In my written testimony, I go into great detail explaining 
the CAO's implementation of its strategic plan, specifically 
the progress made with respect to our customer, process, 
stewardship, and employee goals. For me, the strategic plan is 
essentially a wellness program for the CAO the services it 
provides, new and old.
    To provide exceptional services, the services themselves 
must be closely examined, reevaluated, and revamped. We needed 
to put a process in place to look inward in order to improve 
the services we provide. Investing in our workforce is critical 
to the CAO's success.
    We still have a ways to go with regards to implementing the 
strategic plan. Some Members and staff have indicated that they 
have experienced improvements, through customer feedback that 
we have received. I certainly hope that people here have seen 
that as well. We are changing the way we approach service 
delivery, adding greater emphasis to customer feedback and 
greater consideration to this unique environment.
    For example, we launched a totally revamped training 
program for House staff through the new Congressional Staff 
Academy. Training offerings include course on appropriations 
law, official committee clerk training, House financial 
systems, and leadership training for Chiefs and District 
Directors.
    We have responded to the overwhelming demand for food 
service improvement. We recently opened a new &pizza and 
regularly host multiple pop-up restaurants around campus. Au 
Bon Pain is opening up at the end of this month, and we have 
two additional branded sites we will open on campus the Tuesday 
after Labor Day.

            HOUSE INFORMATION TECHNOLOGY AND CYBER DEFENSES

    The CAO is modernizing, actively migrating House-wide 
applications to the cloud, expanding internet bandwidth, and 
improving data connections for D.C. and district offices, while 
exploring ways to improve and modernize constituent engagement 
platforms to meet the 21st-Century means of communication.
    Last but not least, there is the paramount responsibility 
of protecting the House against malicious actors constantly 
seeking to gain access to House data. Every month, the CAO 
blocks an estimated 1.6 billion unauthorized scans, probes, and 
connections, including 300 million to 500 million cyber 
attacks, and an average of 12.6 million questionable emails to 
thwart phishing attacks.
    In 2018, our cybersecurity office deployed nearly 615,000 
patches and 3,000 malicious indicators to over 16,000 network-
connected devices. Investments in our IT infrastructure and 
cybersecurity amount for nearly 60 percent of the CAO's budget 
increase.
    Just 2 months ago, in January, we witnessed a mass attack 
against the German Parliament, the second one in the past 2 
years. And with respect to Australia's Parliament this year, 
investigators are looking into a massive, likely state-
sponsored attack. It is the cybersecurity threats that keep me 
awake at night.
    If you haven't already, I encourage each member of the 
Subcommittee to visit the House's Cybersecurity Operations 
Center. I think you would learn a lot. I think it would be very 
beneficial.
    The continued implementation of our strategic plan, the 
hopefully noticeable service improvements and rollout of new 
services, and, of course, information technology and cyber 
defense remain our top priorities.

      CHIEF ADMINISTRATIVE OFFICER FISCAL YEAR 2020 BUDGET REQUEST

    In fact, if you exclude the requested increases associated 
with mandatory initiatives, like Workplace Rights and 
Responsibilities Education, the Office of Employee Advocacy, 
anticipated COLAs and longevities, and critical information 
technology and cyber infrastructure investment, the CAO's 
request for fiscal year 2020 is less than a half-percent over 
the fiscal year 2019 enacted funding level.
    Of course, we realize we are competing with other offices 
and the Committee hasn't received a mark. We would appreciate 
your consideration, and we will move forward with whatever 
amount we get.
    The CAO will continue to strive for perfection. Nothing 
less will do.
    Thank you very much.
    [The prepared statement and biography of the Hon. Phil G. 
Kiko follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Ryan. We will begin the question-and-answer session.
    Ms. Herrera Beutler.

                        WOUNDED WARRIOR PROGRAM

    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    A couple questions, and I might skip around a little bit.
    I will start with you, Mr. Kiko. The Wounded Warrior 
Program.
    Mr. Kiko. Yes.
    Ms. Herrera Beutler. So it is one of the House's, I would 
say, most supported initiatives. In fact, we had a fellow who 
participated in the program last year who has now moved on to 
my staff full-time.
    And I believe, last year, the subcommittee directed you to 
report back on any recommendations to improve the program, and 
I just want to know if there were any improvements or anything 
new that you have discovered.
    Mr. Kiko. We have been very aggressively attempting to 
match up wounded warriors with Member offices. We are at an 
all-time high of 55.
    Ms. Herrera Beutler. We had tried for one, and the first 
time I got one was last year----
    Mr. Kiko. Okay.
    Ms. Herrera Beutler [continuing]. And it has been amazing.
    Mr. Kiko. Good.
    Ms. Herrera Beutler. So I think that is probably a result 
of your aggressiveness.
    Mr. Kiko. There is a process to get wounded warriors, and 
we are aggressively pushing that process internally. And there 
is room for more, so my only suggestion is continue to have 
Members request, and we will comply.

                   LONGWORTH CAFETERIA ACCESSIBILITY

    Ms. Herrera Beutler. Skipping over to a totally different 
subject the Longworth cafeteria.
    Mr. Kiko. Yes.
    Ms. Herrera Beutler. I just wanted to bring this to your 
attention. I had a fellow colleague who mentioned it. And as 
you are thinking about some of these other stations, there is 
at least one place where you can order a sandwich, you go do it 
on a computer, and then you go get in line.
    I wanted to hear what you have to address customers who are 
visually impaired or who are in wheelchairs. Because there is 
no interaction with an employee when you order.
    Mr. Kiko. I think that is a very good point, and we will 
make sure that we will look into that. I know there are a lot 
of disabled individuals that come up here, and I know that with 
regards to people in wheelchairs we have in the cafeterias. But 
I will look into that a little bit more--especially the 
visually impaired.
    Ms. Herrera Beutler. This is where you can only order using 
a computer.
    Mr. Kiko. Right.
    I think it is, when you walk in, you can punch in your 
order.
    Ms. Herrera Beutler. This one was brought to me by one of 
my colleagues, but I have been there when it was the sandwich 
line. It is, like, you have to go order online, and I made the 
mistake of getting in line, and that was a big problem.
    Mr. Kiko. I will check it out. I will follow up, seriously.
    Ms. Herrera Beutler. But, as you start thinking about 
people advocacy groups come here all the time.
    Mr. Kiko. Right.

                        DISTRICT OFFICE SECURITY

    Ms. Herrera Beutler. And then I wanted to quickly, Mr. 
Irving, discuss district office security. I know there are a 
number of programs that you are expanding.
    What do you offer for public events for Members at home, in 
their home districts? What can they avail themselves of? So not 
necessarily just securing the physical location of the district 
office and the mail.
    Mr. Irving. We coordinate very closely with all law 
enforcement coordinators and ask each office, each district 
office, to appoint a law enforcement coordinator to monitor and 
coordinate security in the Member's district. And we do this as 
a force multiplier because we don't have, you know, the Capitol 
Police or staff to go to every district office.
    Ms. Herrera Beutler. Yes.
    Mr. Irving. And we provide every law enforcement 
coordinator with a booklet with information on--we provide 
security awareness briefings. We provide templates on how to 
set up district events.
    And we do ask--if there is assistance required, we will 
actually send people out. But we do usually leverage local law 
enforcement and ask the law enforcement coordinator at the 
district office to work with local law enforcement to set up 
those events without us flying out. But, again, if we need to 
fly out, we will certainly do so to provide assistance.
    Ms. Herrera Beutler. And I assume you have a program for 
outreaching to all the new Members who are unaware of where to 
start on all this?
    Mr. Irving. Yes. We have a very, very active outreach.
    Ms. Herrera Beutler. Good.
    Mr. Irving. And almost every new Member now has a law 
enforcement coordinator.
    Ms. Herrera Beutler. Great.
    Mr. Irving. A lot of communication between our District 
Security Service Center and those new Members.

                        GARGE SECURITY UPGRADES

    Ms. Herrera Beutler. I have just enough time to ask about 
garage security. The security renovation--the renovation wasn't 
a result of your security request. Are you doing the security 
upgrades because the renovation is happening?
    Mr. Irving. They are really happening----
    Ms. Herrera Beutler. I am trying to understand the genesis.
    Mr. Irving. Okay. The genesis was, right after I arrived, I 
wanted to address a vulnerability that had been----
    Ms. Herrera Beutler. Yes. A very big one.
    Mr. Irving [continuing]. Identified was the garages. So I 
strove to implement security in the House garages so that 
everyone in the House office buildings had gone through 
security screening.
    It just so happened that, as I was in discussion with 
leadership and with the Architect of the Capitol on the 
project, they said, we are undergoing--or we will be undergoing 
a garage rehabilitation program in the Rayburn garage.
    And I said, you know what, that is great. Because to add 
security screening vestibules, it would be nice if we actually 
built the vestibules out and the screening centers out a little 
bit to provide and better accommodate the screening equipment--
--
    Ms. Herrera Beutler. Versus retrofit. You are able----
    Mr. Irving. Right.
    Ms. Herrera Beutler [continuing]. To build in what you 
need.
    Mr. Irving. So the timing turned out to be perfect.
    Ms. Herrera Beutler. Okay.
    Mr. Irving. And we are now in the process of working very 
closely with the Architect and with the Capitol Police. For the 
Architect, it is an infrastructure issue of building out and 
adding certain things. For the Capitol Police, it was a 
manpower issue. So----
    Ms. Herrera Beutler. That was my next question.
    Mr. Irving. Well, we have it all worked--since we have been 
working this since 2013-2014 timeframe to build up Capitol 
Police manpower to be able to staff all of the additional----
    Ms. Herrera Beutler. Got it.
    Mr. Irving [continuing]. Screening areas and working with 
the Architect----
    Ms. Herrera Beutler. Got it.
    Mr. Irving [continuing]. So that, as they build out and 
rehabilitate the Rayburn garage, we do both and they fall in 
line.
    And we are on track to implement garage security this year, 
later part of this year.
    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    Mr. Ryan. Great.
    Mr. Ruppersberger.

              HOUSE SERVICES FOR PEOPLE WITH DISABILITIES

    Mr. Ruppersberger. Sure.
    Well, first thing, I think you all do a good job, and we 
know you are going to do a good job. That is easy.
    In my former job, I was a county executive to about 800,000 
people, so I love coming back on this committee and seeing all 
the things you have to do. And I really think, with all the 
missions that you have, you have done a great job. And you are 
responsive; you are dealing with issues. And, plus, you have, 
at least the House side, 435 Members that are always looking at 
you and having issues.
    I want to bring up an issue that we had in our office, 
only--and we have resolved it now, but I want to bring it up so 
we can make sure that it doesn't happen again and we can set a 
system.
    I have a new staffer who has a rare disease, and so we 
worked to address her disability issue to provide parking and 
other accommodations. This was pretty challenging. When we 
asked for help, we got a lot of pushback.
    And the pushback on parking, you know, they were asking all 
sorts of inappropriate questions. You know, they were not 
very--they were not service-friendly. We got bounced around to 
different contacts on a continued basis. And, eventually, we 
were able finally to resolve it, but it took a long time. And 
it was pretty frustrating for her, it was embarrassing for her.
    And what I would think is that maybe we could have a little 
bit of training or a point person, We have more people that 
have disabilities. We need to really have a point person who 
can get involved and not have to go through all the issues.
    Look, parking is a tough area to manage. Everybody wants 
parking; they come in and out. But when you have a legitimate 
issue--and if you need doctors' reports, that is fine. Then we 
will get them and whatever.
    But I think we should develop a point person to make sure 
that we could work this through and find out a way. It took a 
long while and a lot of anxiety, and, you know, it was really 
not the best service we could offer.
    So I am just throwing that out, and any comments about it?
    Mr. Kiko. I do believe that responsibilities for a disabled 
person is diffuse. Somebody has this part, somebody has that 
part, somebody has that part. I do think that somebody in the 
House of Representatives, whether it is in the CAO or somewhere 
else, should be able to figure it out and pass on the person 
and then to make sure there is followup, to make sure whatever 
issues there are with the Member's office should be followed up 
on.
    Mr. Ruppersberger. Yes.
    Mr. Kiko. I am supportive of this.
    Mr. Ruppersberger. Well, I just think we need a contact 
person that has a little bit of training to deal with that.
    Mr. Kiko. Yes.
    Mr. Ruppersberger. That is all. And we have resolved the 
issues, but it took a while.
    Mr. Kiko. Right.

                       HOUSE CYBERSECURITY STATUS

    Mr. Ruppersberger. Now, let's get back to the area of 
cybersecurity. It is probably, other than nuclear weapons, the 
most serious issue.
    You said what keeps you up at night? Cybersecurity?
    Mr. Kiko. Yes.
    Mr. Ruppersberger. Yeah. How about spicy Mexican food? Does 
that----
    Mr. Kiko. Sir, it depends how old it is.
    Mr. Ruppersberger. We have a dot-gov that, in my opinion--
and I do a lot in the area. I represent NSA, and I was on 
Intelligence.
    Mr. Kiko. Right.
    Mr. Ruppersberger. Our dot-gov still has a lot of issues 
that we have to deal with.
    Are we starting to coordinate our dot-gov a lot better than 
we were, say, a year or two ago? Can you explain where we are 
on our cybersecurity issues?
    Mr. Kiko. Well, I think that----
    Mr. Ruppersberger. I know that is a broad question.
    Mr. Kiko. All I would say is that in the last 2 to 3 years 
there has been a heavy emphasis on upgrading our cybersecurity 
capabilities. And it is always this conflict between security 
and Members wanting to use devices and those kinds of thing 
however they want to use them.
    So we have been gradually making that better. And, 
internally, are doing a lot of things to clear out a path.

                       CYBERSECURITY COORDINATION

    Mr. Ruppersberger. What I am saying, you have all these 
different areas and departments and whatever, and you have one 
person in charge who might be more technically advanced than 
someone else. Are we starting to coordinate that, the whole 
dot-gov? And are we getting advice from other agencies, NSA?
    Homeland Security, as an example, has a tremendous mission.
    Mr. Kiko. No,
    Mr. Ruppersberger. That is what I am talking about. Where 
are we? Because we were really in bad shape years ago. Now, 
have we started to improve? What are we doing about that? Do we 
have a contact person who is going to be coordinating it who 
has the expertise?
    And where are we getting our people, too, who have the 
expertise? Because everybody wants to hire them now too.
    Mr. Kiko. Well, I know that Paul will have some comments on 
that too. But we have periodic meetings with people from NSA, 
the DOD, the Department of Homeland Security. They are very 
involved in, even on our public networks, looking at things and 
making us aware of intelligence.
    The House of Representatives participates in Cyber Guard, 
which is a red/blue exercise where you are being attacked----
    Mr. Ruppersberger. Yeah.
    Mr. Kiko. We have participated in that.
    We actually have relationships with foreign legislatures 
like Great Britain, Australia, New Zealand and European 
countries on cyber issues.
    And we share a lot of information with the Sergeant at 
Arms, and they share information with us.

                     HOUSE CYBERSECURITY MANAGEMENT

    Mr. Ruppersberger. I am looking at it from the management 
perspective. Who is the contact? Who is in charge of this?
    Mr. Kiko. We have a CISO. We have a Chief Information 
Security Office. Catherine Szpindor is here, and she is the 
head of it.
    Mr. Ruppersberger. Great.
    Mr. Kiko. And that is what it is. And it is fairly 
rigorous.
    Mr. Ruppersberger. And there are a lot of challenges there, 
and----
    Mr. Kiko. There are.
    Mr. Ruppersberger [continuing]. It is changing all the 
time, there is no question.
    Do you have anything to say, Paul?
    Mr. Irving. I was just going to echo, I think that Phil's 
team does a great job. They work very closely with law 
enforcement, with FBI, Secret Service, DHS, and others that are 
sort of the cutting edge of a lot of the cyber issues.
    So I will just echo that I think his team does a great job. 
And I leverage my law enforcement contacts, as well, to assist. 
But I think they are doing about as good a job as they can 
based on the incoming threats.
    Mr. Ruppersberger. I am getting the hook.
    Mr. Ryan. The gentleman's time has expired.
    The gentleman from Hawaii, Mr. Case.

                 HOUSE CYBERSECURITY STATUS (CONTINUED)

    Mr. Case. First of all, I echo all the comments to all 
three of you to thank you for your service. I have told you in 
my office, the quieter you are, the better the job is, the more 
likely we are to underappreciate you. So this subcommittee is 
one place where we get to say that very directly, so thank you 
so much for all the work.
    You know, I would like to follow up on my colleague's 
questions about cybersecurity, because, that was a lot of zeros 
in terms of the number of attacks and kind of, like, along the 
lines of a Federal budget, which is starting to be real big, 
stuff. I actually had to look it up and see what was beyond a 
trillion, and it is quadrillion. I forgot that, but, you know, 
we are getting into that range.
    You have a huge problem. I assume it is still accelerating 
very rapidly. I mean, is the trend still upwards in terms of 
the number of attacks? You know, this is across the board, but 
I assume it is true with us as well, right?
    Mr. Kiko. It is the number of attacks, and it is also the 
sophistication of the attacks. People now have algorithms, you 
know. And it is not just the number, but it is the intensity, 
which is part of the number, but it is also how sophisticated 
the attacks are. And many of the attacks are from nation-
states.
    Mr. Case. Well, that is my next question, because you can 
say that without qualification, that you believe some of those 
attacks are nation-state----
    Mr. Kiko. Yes.
    Mr. Case [continuing]. Sponsored or -directed or actual 
nation-state attacks?
    Mr. Kiko. Yes.
    Mr. Case. Okay. And those, obviously, are coordinated with 
the rest of our government, right?
    Mr. Kiko. Yeah, we do that. And part of our defense 
mechanisms is just trying to figure out if they are from 
nation-states or from hacktivists or whatever. But we are on 
that, yes.
    And we coordinate, like I was just saying, with a lot of 
government agencies that help us to identify things too, in 
advance. We don't want to be 2 weeks, 3 weeks late with 
something happening. We want to have real-time information.

             CYBERSECURITY BUDGET REQUEST AND OUTYEAR PLANS

    Mr. Case. Now, knowing that this is obviously an incredibly 
serious issue, as we saw with Australia, and knowing that they 
are accelerating, knowing that the sophistication is 
increasing, a very direct question is: Do you think you have 
the adequate funding to maximize the protections that we need? 
What is behind your specific funding request in this 
department, in this area?
    Mr. Kiko. Well, we are requesting $11 million for HIR, 
House Information Resources. Most of that is related to 
cybersecurity. A specific amount, $2.9 million, is for the 
specific Office of Cybersecurity to increase contractors, and 
those kinds of things, so we have the most up-to-date people 
and resources.
    And then, also, the other part of our request, while it is 
for House-wide kinds of issues, it is to move into the cloud. 
If we move into the cloud, then that is a lot more secure than 
not moving into the cloud. And you can also have a lot more 
security enhancements go right away to Members. Because a lot 
of times we see malware and then we have to do a patch on 
somebody's computer. And you want to have that done real-time.
    So we believe that the request that we have is adequate, 
but I am not going to say we couldn't use more. But I think we 
are just not throwing money at it. Part of the issue is how we 
use computers and software and hardware and devices on campus 
as well.
    Mr. Case. Is your funding request based on--I assume it is 
based on some kind of a master plan for how to fully protect 
the Legislative Branch from cyber attacks?
    Mr. Kiko. Yes.
    Mr. Case. And so you have a plan, and you have very 
specific priorities in that plan. And those priorities are 
priced out. And are all of those priorities priced out in your 
budget?
    Mr. Kiko. Well, in our plan--and it is not a plan just for 
this year, but for the next 3 or 4 years. So we do have a plan, 
and I don't know if it is totally priced out yet because the 
threat changes. But we do have a plan, correct.
    Mr. Case. As you understand it today, looking out into the 
future, this appropriation request reflects your plan 
priorities?
    Mr. Kiko. That is correct.
    Mr. Case. Okay. So you haven't somehow censored what you 
are asking for based on an expectation or anything else. I 
mean, this is what you think we need to get the job done.
    Mr. Kiko. Right. And I had lengthy internal meetings on 
this, and this is what people recommended to me. And I accepted 
those recommendations. These are the professionals in this area 
and this is what they thought they needed, so this is why the 
request was put forward.
    I didn't say, no, I only want this kind of increase or that 
kind of increase. I said, tell me what you need.

                     CYBERSECURITY IN OTHER NATIONS

    Mr. Case. Yes. Thank you.
    So I think you said you are in touch with other 
parliaments, et cetera, across the world. So, in the case of 
Australia, which seems to be about the most egregious, direct, 
good example of what can happen, are there lessons learned 
there and incorporated into our plan?
    Mr. Kiko. Well, they are still trying to assess it. So we 
have visited Australia and we are in touch with them, but we 
don't know what the lessoned learned are yet. Because I just 
checked on this, and this only happened, like, 6 weeks ago, so 
they are trying to figure out what happened and how they are 
going to fix it. And we are still in touch with them on it.
    Mr. Case. Okay.
    Mr. Kiko. I do know last year that there was an incident in 
Great Britain where there was a hack attack. And the fact that 
they told us the day before that this is happening, we were 
able to then stop the similar kind of attack that would have 
happened against the House of Representatives.
    Mr. Case. Okay. Thank you.
    Mr. Ryan. Thanks.
    Just to follow that line of questioning, do we know who was 
trying to do this in Great Britain and Australia?
    Mr. Kiko. Well, I think in Great Britain----
    Mr. Ryan. Was it state-sponsored?
    Mr. Kiko. I don't--I am not sure. I don't think it was 
state-sponsored.
    Is that----
    Ms. Szpindor. I think it was, but I don't think that it has 
been divulged that much, as to who it is. We have ideas, and we 
have had some private conversations with them, but----
    Mr. Kiko. But it is not----
    Ms. Szpindor. Public.
    Mr. Kiko [continuing]. Clear.
    Mr. Ryan. Uh-huh.
    Mr. Kiko. I think they--you know, Australia has a pretty 
good idea that it was state-sponsored, but----

                 HOUSE CYBERSECURITY STATUS (CONTINUED)

    Mr. Ryan. Can you repeat those numbers in your testimony 
about how often this is happening to the House?
    Mr. Kiko. Let's see here.
    I would just--because there is so much interest in cyber, 
why don't we just pass this out too? I am sure you have seen 
many of these, but this is something we shared at New Member 
orientation.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
                 HOUSE CYBERSECURITY STATUS (CONTINUED)

    Mr. Kiko. Let me get these numbers. It is 300 million to 
500 million cyber attacks each month.
    And then we have 1.6 billion unauthorized scans, probes, 
and connections. So if you are a sophisticated cyber person 
that is trying to figure out what to do, you first probe, then 
you scan, and then you try to connect. And so it is a very 
structured kind of way in which to get in. Sometimes it is 
brute force, you know, you just go after it with brute force, 
but sometimes it is a lot more sophisticated.
    And then we stopped 12.6 million questionable emails. That 
is the phishing attempts. That is still the most popular way to 
get in a network, is through phishing. People answer in an 
email. But now it is even getting more sophisticated because 
they copy an email and then they send it, and you are not even 
sure if it is correct or not.
    And we are actually working--because in the Members' 
offices, there are scheduling people and press people. We are 
trying to have software that we could develop that is more 
sophisticated against phishing. We are trying to figure out 
ways to more comply with the needs of the Members' offices 
rather than just stopping. You know, you can't see that. We are 
trying to figure out ways to do that.
    Mr. Ryan. Uh-huh.
    Mr. Kiko. Does that make sense?
    Mr. Ryan. Yeah. No, that makes sense.
    One of the things--I just read an article the other day 
about the Chinese--we don't want to get into a bunch of 
classified stuff here, but--having the ability to, I guess, 
access our networks here. And some of the technology we are 
using--not we, the House, but in the United States--using some 
of their technology that may open the door for them.
    One of the questions I have is with these, the ability for 
someone to turn on our microphones, turn on our cameras, listen 
to conversations. Is that something--because, obviously, a lot 
of this runs through your office as well. Is that something 
that you are exploring, on technologies that could help through 
hardware to protect Members' privacy and some of the, you know, 
discussions that we may be having?
    Mr. Kiko. Yeah, we are. We are trying to--I mean, you are 
thinking about it as an insider kind of threat because of how 
stuff is used?
    Mr. Ryan. Yeah. Just the ability for some nefarious actor 
to hack into our speakers on our phones, our cameras on our 
phones.
    Mr. Kiko. Well, that is sort of the next wave, what they 
are looking at now. The cyber threat now is emerging into 
mobile devices. We also, even up here in the House, we are 
trying to close off ports in committee hearing rooms so people 
can't plug in the network when somebody is not here.
    But we do have it. It is the future, what you are talking 
about. And, of course, we are looking at that, and that is part 
of our plan. We are trying to have a more secure mobile network 
up here. We are working on that as we speak.
    Mr. Ryan. Okay. I appreciate it.
    You know, thank you for your leadership on this. I can't 
imagine dealing with this day-in and day-out. Because we leave 
this hearing and we try to help you as much as we can and then 
we go about our business, and you and your team are dealing 
with this day-in and day-out. So we appreciate it. So thank you 
for your----

                  CYBERSECURITY STAFFING AND TRAINING

    Mr. Kiko. I just wanted to also say, partially in response 
to Congressman Ruppersberger's question, we do try to hire the 
brightest and the best, whether it is contractors or we have 
people that used to work in the intelligence community, you 
know. And that is what we try to do.
    And we have a lot of people that actually want to work here 
in the House. They want to protect the House, because they have 
this sense of duty. And so that is what we are trying to do. I 
don't think we have had a problem in hiring these kind of 
people.
    And we are constantly trying to stay up to speed, I mean, 
not be 5 years old in training and everything else. So that is 
what I would say.

               LEGISLATIVE INFORMATION MANAGEMENT SYSTEM

    Mr. Ryan. Yeah. I appreciate it.
    One last question before we go to the final round. I want 
to ask Ms. Johnson, for your fiscal year 2020 request, it 
includes $3 million for Phase 3 of the modernization, which we 
talked about the other day in my office, for the LIMS system. 
This is obviously important, critical for legislative 
operations. It is my understanding the system is about 30 years 
old and requires redevelopment to be reliable and strong.
    Can you discuss the goals of Phase 3? And what is planned 
to be accomplished in Phase 4 and then Phase 5?
    Ms. Johnson. Phase 3 would make the system more nimble. 
LIMS is a repository that is used by both the House and the 
Senate, and Phase 3 would give us every aspect of a bill, from 
enrollment to engrossment, and also help with the reporting of 
the Committee reports, the floor reports, Senate action, as 
well as executive action. And, as I testified, Phase 3 would 
cost about $3.1 million for FY2020 and FY2021.
    Mr. Ryan. And then how about the projected costs for Phase 
4 and 5? Do you have an idea?
    Ms. Johnson. The continuation of Phase 3 as well as Phases 
4 and 5 would be another $3.4 million. The five phases should 
be completed in 2024. The $3.1 million would be for fiscal 
years 2020 and 2021. We would not ask for more money until 
fiscal year 2022. And then Phase 5 would begin in fiscal year 
2023 and be completed in fiscal year 2024.
    Mr. Ryan. So it would be $3 million for 4 and 5.
    Ms. Johnson. $3.4 million for the continuation of Phases 3 
plus three for 4 and 5. Correct.
    Mr. Ryan. Four and 5. Okay.
    Ms. Johnson. LIMS will cost a total of about $7 million.
    Mr. Ryan. Okay.
    Ms. Johnson. We have already received roughly a half 
million for Phases 1 and 2. We are asking for $3.1 million this 
year, fiscal year 2020, and another $3.4 million in 2022, for a 
total of $7 million.
    Mr. Ryan. Okay. Great. Thank you.
    We are going to do a little second round, a lightning round 
with 3-minute time limits.
    So, Ms. Herrera Beutler, you good?
    Mr. Ruppersberger, do you have any followup questions?

                 HOUSE CYBERSECURITY STATUS (CONTINUED)

    Mr. Ruppersberger. I just want to ask more on the cyber.
    It is a massive problem, as we know. Just as an example, 
China, who probably is the most aggressive with spies and also 
with what they do in cyber, our Commerce Department estimated 
that China last year stole from American companies, academia, 
whatever they wanted, over $600 billion--not million, billion. 
That is a lot. And, you know, it is something we are going to 
have to deal with.
    And, you know, Russia is as sophisticated as we are, and 
they want to know what we are thinking and what we are saying 
and all of that.
    So, it is an issue that I think we have to keep talking 
about. You understand it. You have expertise.
    I am surprised you really have kept people, because I know, 
even, like, at NSA, a lot of our millennials are leaving to go 
with higher-paid jobs. And, you know, you have a lot of the key 
people there in the mid-60s. So, you know, that is an issue 
that we are going to have to really keep focusing on, as far as 
the employees and the training and that type of thing.
    My suggestion, and what you are saying, just keep working 
what--your networking in law enforcement is really important to 
keep dealing with this. Because other than nuclear weapons, 
probably, you know, the most serious thing we are dealing with 
is cyber attacks. And we have only have one destructive attack 
in this country, and that is Sony. But once that gets started, 
it could really be a disaster.
    So, you know, I hope--and our committee will stand behind 
you in whatever you need to do, as long as you are doing it 
right----
    Mr. Kiko. Right.
    Mr. Ruppersberger [continuing]. In the cyber field.
    Mr. Kiko. Right.
    Mr. Ruppersberger. That is all I have.

                       Chairman's Closing Remarks

    Mr. Ryan. Thank you.
    Just as a wrap, Mr. Kiko, I am looking at all of the cyber 
attacks, and I am thinking of the House wellness program as a 
great antidote to, really, some of the pressure and stress. And 
I want to just take a second to thank you for your leadership 
and your team that you have developed.
    I think my goal in this committee is really for the House, 
the Congress to be on the cutting edge, as much as we can, on 
how we handle ourselves, how we conduct our business, our 
levels of efficiency, how we treat our employees.
    And talking about being able to retain top talent and 
staff, we have to compete with a lot of these tech companies 
that are embedding wellness programs within the charters of 
their organization as a component to being able to compete and 
think creatively and not be living in a completely high-stress 
environment.
    So I want to say thank you to you and your team. You have 
put together an amazing operation already in a very, very short 
period of time with a very, very small budget. And I think it 
is critically important, so I wanted to just take a minute to 
thank you and your team for that.
    Mr. Irving, thank you. We rely on you a great deal behind 
the scenes. Although, once or twice a year, you are very famous 
and in front of 50 million people. You are the most famous guy 
that nobody knows, you know? But all the travel that Members 
do, we know you and your team are behind the scenes there. So 
we want to say thank you to you for everything you do and think 
about when we are not thinking about it.
    And, Ms. Johnson, we are excited to work with you as we 
move forward here. We know you have a big job. And, as I said 
the other day, we want to come down and take a look at the 
operation. And we feel really lucky to have you, and 
congratulations, and we will just----
    Mr. Ruppersberger. And you have a good background.
    Mr. Ryan [continuing]. Keep moving on.
    Ms. Johnson. Thank you.
    Mr. Ryan. It is great.
    So this committee is adjourned. Thank you.
    [Further prepared statements for the record follow:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
  
    

                                           Tuesday, March 12, 2019.

                      UNITED STATES CAPITOL POLICE

                                WITNESS

MATTHEW VERDEROSA, CHIEF, UNITED STATES CAPITOL POLICE

                   Opening Statement of Chairman Ryan

    Mr. Ryan. I call the hearing to order for the United States 
Capitol Police.
    Thank you, Chief, Assistant Chief Steven Sund, Chief 
Administrative Officer Mr. Richard Braddock, General Counsel 
Gretchen DeMar, members of the Capitol Police executive team, 
for joining us today to discuss the United States Capitol 
Police fiscal year 2020 budget request.
    The Capitol Police is an essential agency of the 
legislative branch. Chief, your team is charged with keeping 
Congress, its Members, employees, visitors, and facilities, 
both here and within our districts, safe and protected from 
harm's way.
    The men and women of the Capitol Police put their lives on 
the line each day to ensure Congress is able to operate 
efficiently. You do your job so that we can do our jobs in a 
safe, secure, but open environment.
    Thank you, Chief, and all the officers and civilians of the 
Capitol Police that work tirelessly to ensure the safety and 
security of the Capitol complex.
    The Capitol Police budget request for fiscal year 2020 is 
$463 million, a 1.5 percent or $7 million increase over the 
fiscal year 2019 enacted total. We appreciate your efforts to 
develop a request with a plan to maintain operational 
effectiveness while also considering the fiscal constraints 
that we often face within the Federal Government.
    Providing adequate resources to keep our Capitol complex 
physically safe remains this committee's top priority.
    That being said, thank you and the department again for 
your service. I look forward to your testimony today.
    Earlier today we heard from the House officers, including 
two, the SAA and the CAO, which you have partnered with on a 
few important initiatives that I hope you will mention.
    And with that, I would like to yield to my colleague from 
the great State of Washington, Ranking Member Jaime Herrera 
Beutler.

          Opening Statement of Ranking Member Herrera Beutler

    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    And thank you, Chief. Welcome.
    I would like to take a moment to thank all of the officers 
and recognize that you represent your team. You talked about 
the guys and the gals in the field. We are so grateful to you 
all for your service, truly. Your presence allows the visiting 
public to come and experience their Capitol. And this really is 
their Capitol. They have a right to be here, to see it.
    As we talked about, this place attracts a lot of people who 
may or may not have, mental health challenges and that may or 
may not present a threat. That is a very real day-to-day 
situation for you all and for your officers.
    And I think sometimes we take it for granted. I certainly 
think the visiting public probably takes it for granted, except 
for when they stop to ask for directions, which guys are always 
good about giving. But we just are very grateful for you and 
for what you do and for what you stand for.
    I know that you are asked to continually expand your role, 
from securing the O'Neill House Office Building to garage 
security, which we discussed previously, to more screeners, to 
additional dignitary protection, and the list just goes on.
    So we appreciate your leadership and your efforts in trying 
to meet these additional responsibilities, as always under 
fiscal responsibility, and at the same time making sure the 
day-to-day operations of the department are not in any way 
compromised but are not just adequate, but do a successful and 
superb job.
    So we look forward to your testimony today.
    And with that, I yield back.
    Mr. Ryan. Thank you.

                    Opening Statement of Ms. Granger

    Ms. Granger, would you have some----
    Ms. Granger. I will just be very, very brief. Thank you 
both for putting this hearing together.
    And Ms. Herrera Beutler said it beautifully, we all depend 
on you. I have been here nearly 22 years, and it is always the 
same, you are always there. You are helpful to all the 
visitors, and that is really important to them, and to us and 
to our staff. You do it in a very professional way, but just go 
kind of the extra mile always.
    So thank you very much for being here, and please tell all 
your people that that is how we feel.
    Thank you.
    Mr. Ryan. Thank you.

                Testimony of Chief Matthew R. Verderosa

    The floor is yours, sir.
    Chief Verderosa. Thank you.
    Good morning, Mr. Chairman, Ranking Member Herrera Beutler, 
Ranking Member Granger, and members of the subcommittee. Thank 
you for the opportunity to present the department's budget 
request for fiscal year 2020. Our collaboration with the 
subcommittee and the Capitol Police Board has been key in our 
success in achieving our mission.
    I greatly appreciate the support that you all have given 
the Department and for your inherent understanding of our 
multifaceted mission to keep Congress and the Capitol complex 
safe and secure.
    I am joined here today by my chief of operations, Assistant 
Chief Steve Sund, to my right; and the Chief Administrative 
Officer, Richard Braddock, to my left; my General Counsel, 
Gretchen DeMar; as well as members of my executive management 
team. I am also joined by Inspector General Michael Bolton; 
USCP Fraternal Order of Police Chairman Gus Papathanasiou, who 
is truly a partner with us on many of our initiatives.
    Overall, our mission is clear: to maintain the level of 
protection necessary to balance access and security so that 
Congress can fulfill its constitutional responsibilities. Over 
the past year, our officers have screened over 11.2 million 
individuals at building entrances and interior checkpoints. We 
manage an ever-increasing number of permitted demonstrations, 
which are approved for specific outdoor demonstration areas.
    We secured and supported two lying-in-state ceremonies and 
a lying-in-honor ceremony. And we managed responses to numerous 
instances of prohibited civil disobediences occurring across 
the Capitol complex. In addition, we investigated numerous 
credible threats against Members of Congress.
    Last October, our Hazardous Devices team safely contained a 
pipe bomb at the congressional mail facility, 1 of 16 that were 
sent to elected officials and public figures across the 
country. The suspect was linked to several of the devices by 
evidence obtained from the package sent to Capitol Hill. Our 
work contributed to the identification of a suspect, which 
assisted the FBI in apprehending him within days.
    As law enforcement officers, we do not know what we may 
face each day. We train and prepare so that we can respond to 
any threat because the lives depend on it. Our daily reality is 
that the Capitol complex remains an attractive target to 
foreign and domestic terrorists. Each and every day we assess 
all the potential risks and adjust our strategies to address 
the various threats.
    The Department continues to stay focused on ensuring that 
we stay current on the latest issues facing law enforcement, 
including new and emerging threats. We are working to align 
these serious security realities with our strategic priorities 
within the available resources.
    Therefore, we have developed our fiscal year 2020 budget 
request of $463.3 million, which is a 1.5 percent increase over 
last year's enacted levels, with a focus on continuing to equip 
and prepare our workforce to be agile and responsive to the 
operations of Congress and to keep the Capitol Complex safe.
    Our request includes base funding for 2,072 sworn and 442 
civilian positions. The additional sworn personnel will be 
utilized to enhance the Department's ability to detect, impede, 
and address persistent threats that continue to increase and 
evolve.
    We are also requesting one civilian position for the Office 
of Inspector General to conduct additional work related to 
cyber infrastructure and financial audits. In addition, our 
request includes funding for protective travel, the hiring and 
training of new sworn personnel, new management systems and 
technology upgrades, and required supplies and equipment.
    This funding will also address increases in operating costs 
due to the required protective services and travel needed to 
secure the 2020 National Democratic and Republican Conventions, 
as well as support the pre-planning and preparation for the 
2021 Presidential inaugural ceremony.
    Mr. Chairman, the type of policing that our officers engage 
in is not typical of most police departments. Our officers 
interact with thousands of people each day and do it in a 
highly visible environment, and they balance this public 
interaction with the need to be prepared at all times to 
respond to potential threats and other emergency situations.
    We understand that working for Congress requires both 
maintaining an impeccable work ethic and accountability. In 
this regard, I want to assure the subcommittee that my team and 
I will continue to work closely with you and your staffs to 
ensure that information about the Department and its operations 
is provided in a timely and consistent manner.
    I am honored to lead an organization that takes such pride 
in our mission and great responsibilities that we bear. Mission 
focus is key to our ability to be successful, to serve and 
protect, and to ensure our employees go home safely every day.
    Again, thank you sincerely for your support of our 
department and our workforce as we carry out this important 
mission. And I thank you for the opportunity to discuss the 
2020 budget, and I would be pleased to answer any questions you 
may have.
    [The prepared statement and biography of Matthew R. 
Verderosa follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Ryan. Great. Thank you, Chief. We do appreciate all the 
time and effort you provide. So we are very thankful.

                     GARAGE SECURITY AND SCREENING

    Mr. Ryan. Do you have any questions?
    Ms. Granger. I just have one. There is a vulnerability that 
I know you are familiar with and that is the garages. I noticed 
the garages and staff can come in without really being properly 
screened into those garages. I know it has to be an enormous 
headache. But is there a plan? Or I know you are doing some 
upgrading to the garages. Give me some assurance of what is 
going on.
    Chief Verderosa. Absolutely, ma'am.
    This vulnerability has been known for many, many years. 
Under the leadership of the Capitol Police Board, we have 
designed a plan to mitigate those vulnerabilities, and in 
conjunction with the Architect's renovation of Rayburn and 
Cannon, we should have full security on board and running by 
the end of the fiscal year at the latest.
    We have already started garage security in the underground 
garages, the Ford Building, and the O'Neill Building garages. 
The two pieces that are left are Rayburn and Cannon, and we 
have plans to implement that security. Part of the multi-year 
security initiatives, over the last 3 years for the Capitol 
Police Board has been to acquire and train those personnel to 
staff that requirement.
    Ms. Granger. Give me a little more information, because are 
they going to be screened as they come in or you will have 
security in the garages? That is very different.
    Chief Verderosa. What will happen is that the vehicles 
entering the checkpoint will be cursorily screened. Once the 
driver of the vehicle parks their car they will be fully 
screened at the lobby before entering the building, which will 
match the screening you see at any access point. We have a 
formula for screening. It is an x-ray machine and magnetometer 
trace detection system. Before individuals can move beyond the 
lobby they will have to submit to screening.
    Ms. Granger. I recently took a trip to our southern border 
having to do with the border security, and in one of the points 
of entrance they had technology that they went through very 
quickly with the cars. They were expecting 32,000 cars a day. 
So it was something that was really good, but least intrusive.
    Our staffs are so good and they work very hard, and so to 
slow them down and all that, I hope that some of that 
technology is considered, because it really was something that 
they allowed all those cars to go through, but the screening 
that was done was very professional.
    Chief Verderosa. I appreciate that.
    And I think you will find, and we experienced this with the 
HUGs, the House underground garages, that we anticipated long 
lines and a lot of congestion. But what we found was that 
people typically come in in a staggered fashion and they don't 
all come in at once. Now, granted the heaviest period of time 
is generally 8:30 a.m. to 9:30 a.m.
    We staff, as you may know, at the corner of the Rayburn 
Building at Washington and C Streets, facilitating vehicles 
coming in. We engage in rush hour activities, which helps 
facilitate the speed at which we do that first cursory check of 
the trunk and the vehicle and the ID check.
    Once they get to the garage, it is sort of a filtering 
process where it staggers. We don't generally see a large 
backup, though there are days where you will see a backup on 
the freeway based on other issues, traffic and the load. But we 
adjust our staffing levels, particularly during rush hour, to 
help facilitate that.
    Ms. Granger. Thank you.
    Mr. Ryan. Mr. Ruppersberger, the gentleman from Maryland.

                            HIRING CRITERIA

    Mr. Ruppersberger. I just have a question. It is rare, and 
I have been here for a while, that you get so much praise in 
these hearings. So if you got it, take it.
    Chief Verderosa. I appreciate that. I am well aware. I will 
take what I can get.
    Mr. Ruppersberger. Especially police, there are always 
issues every day.
    From an information point of view, what are your 
requirements to be hired? Do you have to have a 2-year degree, 
a high school degree, or college degree?
    Chief Verderosa. The Capitol Police Board hiring standards 
were recently updated, so now you either need to have prior 
military, prior Federal law enforcement, or 60 credit hours to 
be qualified to go through the process.
    Mr. Ruppersberger. Okay.
    Where is your office, over by The Monocle?
    Chief Verderosa. Yes, 119 D Street. A large portion of our 
department is also in the Fairchild Building, 499 South Capitol 
Street. We divide the responsibilities and locations.

                     USCP VEHICLES AND K-9 PATROLS

    Mr. Ruppersberger. All right. And how many vehicles do you 
have?
    Chief Verderosa. We have about 200 marked and unmarked 
vehicles for patrol. We have about 56 K-9 vehicles alone just 
so we can properly care for our K-9 partners. And the rest 
are----
    Mr. Ruppersberger. Sixty-nine K-9?
    Chief Verderosa. Fifty-nine--56, I am sorry.
    We have a vast ability. The K-9s are a force multiplier. 
Last year I think we did over 200,000 searches with the dogs, 
whether it is a fixed post or whether it is for a head of state 
arrival where we are securing a room or an area.
    We also have 14 person-borne dogs, which also are out and 
about in the population looking for people, looking for 
suspicious things on people. They breathe the air that people 
leave behind as they walk by, and we are actively seeking to 
find the bad guy out in the public.
    Mr. Ruppersberger. Has it happened before with----
    Chief Verderosa. We have identified issues with 
individuals. To the extent that we found someone who may be 
wearing a vest with some type of device, that has not happened.

                    UNIFORMED STAFFING IN BUILDINGS

    Mr. Ruppersberger. Okay. And on a regular day like today, 
how many uniformed do you have in House, Senate, and Capitol?
    Chief Verderosa. It varies. We have got about 150 officers 
assigned to the House Division alone during day shift. We work 
``X'' number, about 120 fixed posts, which includes officers on 
post and break personnel.
    The Capitol, on any given day we may have approximately 400 
to 450 officers working in the Capitol for over three shifts. 
But this encompasses 24/7 operations, so there are doors that 
are open 24/7, which includes coverage for the House and Senate 
Chamber, the officers that screen at the CVC, the officers that 
are walking patrol in the Capitol that handle the lines. We 
also handle the committees. We also handle all those various 
types of things.
    The lion's share of the work occurs on day shift from 3 to 
11. We also have a midnight team that is here overnight. We 
also have patrol officers that are out patrolling the streets. 
We put a various number of----
    Mr. Ruppersberger. In what parameter?
    Chief Verderosa. On Capitol Grounds. On the general 
jurisdiction of Capitol Grounds proper we are the primary law 
enforcement department.
    In the extended jurisdiction of the city where we have 
jurisdiction to traverse a few blocks off the Grounds, we will 
do that if there is a violent crime in progress or as part of 
our routine patrol, because we know where Members reside. We 
know where we also have----

                 WORKING WITH LAW ENFORCEMENT AGENCIES

    Mr. Ruppersberger. And do you support other law enforcement 
agencies when they need help?
    Chief Verderosa. If they ask for assistance, we will 
support the agency within reason, absolutely. We have a very 
good relationship with the Metropolitan Police Department. We 
work very closely because we are inside the first police 
district of the Metropolitan Police Department. We monitor 
their radios. They monitor ours. We also work very closely with 
the United States Park Police, our neighbors across 3rd Street.
    A lot of the issues that come up overlap. We will have a 
suspect who is wanted for something downtown who traverses 
Capitol Grounds. We monitor those lookouts.
    We will enforce a lot of traffic in terms of flow around 
the Capitol. And the primary reason for that is there are a lot 
of vehicle-type threats. We spend a lot of time and effort in 
securing the streets from vehicular trucks and buses. You will 
see our officers at all of the main four checkpoints around the 
Capitol.
    It is really a team partnership in the District. We handle 
our responsibility, the Metropolitan Police handles theirs, the 
Park Police handles theirs, the Secret Service handles theirs. 
We work very closely on a number of issues, including threat 
cases. A lot of times we will have a threat that emanates from 
a suspect we have or they have that involves threatening a 
Member of Congress.
    Mr. Ruppersberger. Now, do you have enough resources to do 
the job from your perspective, equipment, resources, cars, 
vehicles, ammunition, all of that?
    Chief Verderosa. We do. I believe that we do. We do work a 
significant amount of overtime, which I think is a fairly 
regular occurrence. It is a balance between working with the 
overtime and then with the opposite side of do we hire enough 
people to maintain the regular workload on top of new mission. 
There is a balance. We also have to consider the infrastructure 
and our ability to train, house, and equip personnel.
    I think we are at a balance right now. I think in future 
years you are going to see the Capitol Police asking to reduce 
that difference as soon as we complete our current requirements 
for the new initiatives.

                         SWORN STARTING SALARY

    Mr. Ruppersberger. And what is your starting salary?
    Chief Verderosa. It is about $60,000.
    Mr. Ruppersberger. And in 5 years what would your salary 
be?
    Chief Verderosa. I can get you that number. It is generally 
about 68, I believe. You get regular increases based on your 
tenure. As soon as you are out of the academy you get a raise 
and then every----
    [Clerk's note.--Chief Verderosa responded for the record:]

    On the officer's 5-year anniversary she/he would become a 
Grade 3 Step 6 ($76,181 on the 2018 pay scale). The only 
exceptions would be if the officer fell behind their class 
during training or was promoted to the rank of Sergeant within 
the last 2 of the 5 years.

                           OFFICER ATTRITION

    Mr. Ruppersberger. The final question, do you have a lot--
because you are well trained, you have a lot of people, I am 
sure other departments are always trying to pick your people--
--
    Chief Verderosa. They are.
    Mr. Ruppersberger [continuing]. On a regular basis.
    Chief Verderosa. They are.
    Mr. Ruppersberger. What do you do? Shoot them?
    Chief Verderosa. No. You know, it is one of those things. 
Congress has been very generous in terms of starting pay, pay 
and benefits. I like to think that the working conditions and 
the leadership retains people. I think money gets them in the 
door, benefits get them in the door. I think the history, the 
things that we see and do, really keep a lot of people.
    We don't have a huge attrition problem. We lose about 60 to 
80 people a year to retirements. Some people go to other 
agencies. We regularly fill for those requirements. Right now 
we are filling on top of that to complete the garage security 
initiative. We have already put the portal scanners up around 
the Chambers, which is one of the other initiatives.
    And then the final initiative outside of the O'Neill 
staffing was to have pre-screeners at every door and have 
overwatch increased at each access point so that we really are 
secure at the places we need to be secure in the office 
buildings.
    Mr. Ruppersberger. Okay. Thanks.

                  MEMBER PROTECTION IN HOME DISTRICTS

    Chief Verderosa. Thank you, sir.
    Mr. Ryan. Mr. Newhouse.
    Mr. Newhouse. Thank you, Mr. Chairman.
    Well, welcome, Chief Verderosa and all your team.
    Chief Verderosa. Thank you, sir.
    Mr. Newhouse. And just let me echo the comments that have 
been made. I appreciate everything you do to keep us safe 
around here. It is a level of comfort that I think we tend to 
take for granted that you really don't have to worry about 
things when we are on the Capitol campus because of your 
diligence. So thank you for that.
    One of my questions has to do with the level of comfort, I 
guess, that I, my colleagues, and our staffs can be sure of 
back home in our districts. And I just wanted to ask you about 
how you coordinate with our local law enforcement agencies to 
provide that, as close to that same level of comfort that we 
feel here in Washington, D.C.
    Chief Verderosa. Sure. It is a great question.
    We do have pretty extensive outreach. We work through both 
the House and Senate Sergeants at Arms for the respective 
Chambers in terms of how we coordinate activities. Obviously, 
there is the quality of life every day, your district and your 
State offices, where your staff come to work.
    So a couple of things that we can do, that we work through 
the Sergeant at Arms to do for your offices, we can do security 
assessments of your facilities. We can do security assessments 
and security awareness training for your staff. We can do that 
either in person or we can do it through teleconferencing with 
your D.C. staff. We are glad to do that.
    We also can provide you with some training in terms of 
active shooter response.
    One of the things that we do do in our Investigations 
Division is--and Mr. Irving probably spoke a little bit about 
it at his hearing as it is something we talk about regularly--
is coordination with your staff. We ask the staff to appoint 
someone as the law enforcement coordinator for the office as a 
collateral duty.
    Our Investigations Division, at the request of your 
offices, will do a law enforcement coordination for any of your 
public events. If you have an event, if you provide us with the 
schedule and the venue, we will do a workup. We will look at it 
both through open sources and through classified information to 
see if there is any type of threat assigned or assessed. If you 
have any particular individuals that you know of who could be 
disruptive, we will certainly look at that as well.
    And then we coordinate in terms of with the local law 
enforcement to provide coverage, should you desire coverage, 
and that could be either through the local city police, the 
sheriff's office, State police.
    If we develop the assessment for a particular event, and we 
find that it really is at a very high or moderate level, we may 
even assign Dignitary Protection agents to that based on what 
we find. We coordinate that through the Sergeant at Arms.
    We have worked with some Member offices. We did about 460 
to 470 coordinations last year in 2018. It is both out of State 
in your home district, and it is also for events that occur in 
the National Capital Region as well.
    Last year we did between 95 to 100 coordination events here 
in the National Capital Region for events that Members have, 
and this year we are well on our way to surpass that number 
based on a lot of issues, the timing, the baseball games coming 
up, we provide security for those, practices as well, and the 
softball game as well.
    We coordinate very closely through the Sergeant at Arms, 
and there are a lot of things that we offer Member offices to 
try to alleviate some of those concerns.
    Mr. Newhouse. I have certainly found that our local law 
enforcement agencies and State patrol sheriff's departments 
have been--I can't say enough about how cooperative they have 
been in working with you and providing assistance. Is that 
common around the country?
    Chief Verderosa. It is very common for us. We find that 
most agencies that we reach out to are perfectly willing to. 
They just need to know the information. They really want to be 
responsive. They see it as one of their duties and 
responsibilities. And we have gotten tremendous support. We 
were doing assessments prior to the shooting incident, but it 
really came to fruition after the June incident in 2017 where 
there became a greater awareness and more Members were taking 
advantage of that. And we encourage that.
    We do community outreach within the buildings and stop by 
your offices to try to just let people know what services we do 
have that we can provide. Certainly, we can make the rounds and 
make sure that everyone is aware of what we do so that you are 
better informed and you can have more access to the things that 
we offer.
    Mr. Newhouse. You said something about 460 events that you 
have done assessments for in the last year?
    Chief Verderosa. That is right.
    Mr. Newhouse. So is that--because there is 435 just of us. 
Does that happen at our request or are you----
    Chief Verderosa. Typically it is Member requests. In our 
routine review of events and issues that are taking place, if 
we find an event that is going to happen, if we see that there 
is a demonstration that is going to impact your office, we will 
reach out to your staff.
    Mr. Newhouse. So you are being proactive about that?
    Chief Verderosa. Unsolicited, yes. We proactively do it.
    Most of the arranged Member security events at off-campus 
events come through as a partnership between your staff and 
through the Sergeant at Arms and the Capitol Police. There are 
some Members that take great advantage of those services, and 
there are others that have yet to take advantage of that, and 
we are always striving to reach out to those Members.

                    AVERAGE SWORN LENGTH OF SERVICE

    Mr. Newhouse. Okay. We need to get the word out.
    Mr. Ruppersberger asked a record number of questions in a 
short time, but one thing that he almost got to, I was going to 
ask you, it is a unique service, the Capitol Police, and I 
would think--you mentioned a lot of the different things that 
attract and keep people here. But what is the average length of 
service of a member of your force?
    Chief Verderosa. Well, we have quite a few retirees. You 
know, it is interesting, we have had some officers that have 
been on the same shift for 30 years.
    Mr. Newhouse. Really?
    Chief Verderosa. They just love what they do.
    Mr. Newhouse. It shows, too.
    Chief Verderosa. Well, they like the people. I mean, this 
is a job where you really have to enjoy dealing with people. We 
deal with, between 10 million and 15 million people a year. 
Those are just the ones who come in the building, and there are 
millions more who just traverse the grounds.
    And I think it takes a very unique sort of personality to 
really enjoy that. I have been here for 32\1/2\ years or so and 
I love the change that we afford troops. If you want to 
transfer to another shift, you can do that. If you want to take 
a promotional exam, you can do that. If you want to find a 
specialized assignment, and are qualified, you take advantage 
of that.
    Sometimes you find someone and they really hit their stride 
when they get to a niche that they really enjoy. One of our 
most popular positions is the K-9 handler, and it is hard to 
get those folks out of those jobs. They love the job. They love 
the partnership with the dog. They love what they do. If it is 
something you love so much, it is really not work. I think, if 
you were to talk to any group of officers in our department, 
they are probably the happiest ones that we have, the K-9 
officers.
    Mr. Newhouse. Just one other quick thought, too, Mr. 
Chairman.
    If you ever surplus any of your cool motorcycles, let us 
know.
    Chief Verderosa. Okay. I will. Mr. Braddock, please note 
that.
    I appreciate the kind words, and I will certainly pass 
those on to the troops.

                  WELLNESS PROGRAM AND FLETC TRAINING

    Mr. Newhouse. Thanks for being here.
    Chief Verderosa. Yes, sir.
    Mr. Ryan. Thanks, Mr. Newhouse.
    We met last week and we talked a little bit about generally 
the House wellness program, and we just talked about it with 
Mr. Kiko, and that is up and running. And we talked about that 
in the context of the Capitol Police.
    And I know in that conversation you talked a little bit 
about your relationship in collaboration with the Federal Law 
Enforcement Training Center. If you could just talk to a us a 
little bit about what that relationship looks like and some of 
the----
    Chief Verderosa. Sure.
    Mr. Ryan [continuing]. Get into some of the details as to 
what that training looks like.
    Chief Verderosa. Absolutely.
    In terms of the wellness program, we do partner with Mr. 
Kiko's staff and the wellness director. As a matter of fact, we 
met with him yesterday. Mr. Braddock did.
    Mr. Ryan. Good.
    Chief Verderosa. In terms of the mindfulness and our 
emotional and physical health and our financial well-being of 
our employees, as we discussed, the goal for us, for me 
personally, is to make sure that when our officers are on post 
that they are focused on the mission as opposed to things that 
will distract them, whether that is a problem at home or 
whether that is a health issue or whether that is something 
that is troubling them within the workforce.
    We want to resolve that issue and take care of the 
emotional, the financial, and all of those support things 
through our staff with the CAO's office. I don't want people to 
be worried about their health insurance. I want them focused.
    We spend a lot of time and effort to develop those 
programs. One of the things that we do, and Mr. Braddock was 
instrumental in helping us, is we have redesigned how we look 
at new recruits and applicants. We do a much more in-depth 
analysis of where they are, their maturity level, the things 
they bring to the table to be qualified to be an officer of the 
Capitol Police. Part of that is through our psychological 
examination and the wellness part of it and the mindfulness.
    In terms of the Federal Law Enforcement Training Center, 
Mr. Braddock, can you elaborate a little bit?
    Mr. Braddock. Yes, sir.
    The Federal Law Enforcement Training Center's leadership 
division is working on a wellness and resiliency program that 
they want to introduce. Our vision is much broader in terms of 
what we are looking to do. There are a lot of things they are 
working on, but there is also a tremendous resource in the 
House Wellness Center, and we are looking to do an inventory of 
all of that and see what else our workforce needs and build on 
that.
    So our idea is to have both a focus on the individual, and 
a focus on the supervisor, so the supervisor can take care of 
themself and be a resource to the individual, and then 
holistically as the agency what are we doing to help folks.
    As the chief said, there are four main areas we are looking 
at. We are starting with our new recruits. We are looking at 
emotional intelligence and critical thinking. As I mentioned to 
you when we met, we have started to train our recruits in that 
area to help give them extra tools to be able to take on this 
mission and balance that with their work and their home life.
    So there are a lot of initiatives that will be taken on. I 
was very happy with our meeting yesterday, because there are, 
as you had mentioned, there are some tremendous resources that 
the House Wellness Center is doing. We are going to be 
introducing a number of those to our workforce.
    Mr. Ryan. Great.
    Chief Verderosa. In terms of the Federal Law Enforcement 
Training Center curriculum, they are looking to design a 
curriculum that sort of mirrors the kind of thing that we are 
doing in terms of how we treat our new employees when we bring 
them on board. That has yet to be really fleshed out. It is a 
fairly recent inquiry from FLETC. So as that develops, we will 
be sure to keep you up to date on what we are doing, 
absolutely.
    Mr. Ryan. Okay. That is great. That is great. I think the 
more collaborations we could build----
    Mr. Braddock. Yes, sir.
    Mr. Ryan [continuing]. Context of the House, Federal, other 
Federal training that is happening, I think this is the future. 
I mean, we are looking at across the board with first 
responders. We see it in Ohio with the opiate epidemic and the 
level of exhaustion for all the way into the emergency room 
workers to the coroner.
    Chief Verderosa. Right.
    Mr. Ryan. I mean, it is just system-wide exhaustion. And to 
the extent we can give people the tools they need to be able to 
deal with that the best they possibly can, I think, is our 
responsibility here.

        NATIONAL CONVENTIONS AND LAW ENFORCEMENT COLLABORATIONS

    I have got one last question with regard to 2020 and the 
conventions. We know that there is a lot of Secret Service, and 
there is a lot of other law enforcement personnel that is 
involved in that. How do you balance your relationship with 
those other entities? And is it necessary for you to deploy and 
dispatch? I mean, there are obviously a lot of Members there, 
but there is also a lot of other security.
    Chief Verderosa. Sure.
    Mr. Ryan. So could you talk a little bit about that?
    Chief Verderosa. Sure. And one final thought on the 
wellness. You know, as I read up on it, and you talk about 
clarity in critical response, one of the things we want to do 
with our troops--and I think we have--I have never worried 
about our operational response to critical incidents. I find 
that we train people in incident command. We train people to 
have clarity in thought.
    But I think one of the things that--some of the techniques 
that we can leverage are slowing the game down for people who 
are responding, to focus in on key decision-making. Because at 
the end of the day, some of the decisions we make are split 
second. Some of them are more calculated if you have time, but 
we are not always given that time.
    That is the challenge when we are making split-second 
decisions. So the more clarity of thought that you have and the 
more that we can instill that resource in people to have the 
ability to do it, I think we are way ahead of the game.
    Mr. Ryan. Well, it is a teachable skill.
    Chief Verderosa. Right.
    Mr. Ryan. And I think we think, well, some people are Tom 
Brady and can slow the game down and some can't.
    Chief Verderosa. Right.
    Mr. Ryan. But it is a teachable skill that you can learn, 
same with the emotional intelligence where the most cutting-
edge education programs in the country right now, first thing 
they do is focus on social and emotional skills, because it 
gets your brain tuned up and then you are ready to learn. If 
you don't have that, you are overreacting, you are escalating 
situations, as opposed to deescalating.
    Chief Verderosa. Right.
    Mr. Ryan. So I can't think of a more important field for 
that skill set to be implemented in this in 2019 than in law 
enforcement.
    Chief Verderosa. Oh, absolutely. I agree 100 percent. And 
to the extent that you can focus, make good, coherent, smart 
decisions. And you always hear about tunnel vision. You want to 
fight tunnel vision. You want to take the information that you 
have and make the most educated decisions based on rapidly 
advancing information that is coming in.
    Mr. Ryan. Yeah.
    Chief Verderosa. And it is truly, I agree with you, it is a 
teachable art, it is a skill, and the best leaders have it. 
They display it. And I think that is the goal that we are 
striving for.
    In terms of the conventions, I realize that we have a 
fairly large footprint in terms of the conventions. We look at 
it from the perspective that it is half the Congress going to 
one place. Our ability to reconstitute the Members that are off 
campus at the convention and be able to relocate those Members 
if necessary, to provide enough security where there are 
obviously a lot of things that occur both within the perimeter 
and outside the perimeter of these national conventions.
    They are National Special Security Events. We are on the 
planning committees, the subcommittees. We are truly a partner 
with the Secret Service who have overall responsibility.
    Our focus is mainly about providing security at these 
venues, whether it is inside the perimeter or outside, whether 
it is at a hotel or whether it is at an on-site event, to 
provide the level of security that you would be required to 
have where any group of Members are together.
    And we do that here on a smaller scale in the National 
Capital Region. We do that at your outside events. This is just 
on a much greater magnitude.
    We bring to bear our assets that we have here, whether it 
is a suspicious package, the ability to detect and mitigate, 
whether it is our SWAT team or our K-9 force multiplier, 
whether we have K-9 to sweep an area where we are going to have 
large Members of Congress, where it may not be inside that 
perimeter that is provided by the Secret Service.
    Mr. Ryan. Right. Gotcha.
    Chief Verderosa. We work very closely. And we scrutinize 
those numbers very carefully, and they really are to a point--
we want to have enough people to engage in the protective 
operations necessary without jeopardizing security in another 
venue, whether it is here at home, because obviously we have 
the icon here and the Capitol Grounds to secure.
    But I think we work very closely with the Sergeants at Arms 
to make sure that we have the appropriate number. We have all 
of those assets we need to be able to move Members safely and 
to provide the level of protection, whether inside or outside 
the perimeter, because no one is focusing on the Congress like 
we are. And we don't want to rely on others to do that.
    And, frankly, it is everyone who, if you look at Cleveland 
and you look at the other convention----
    Mr. Ryan. Philly.
    Chief Verderosa [continuing]. In Philly, I think you will 
find that they both had particular types of issues. And the 
local law enforcement deal a lot--most of the time outside the 
perimeter, demonstration activity, and all that kind of thing.
    So our goal is to provide a safe environment for you to 
operate, and because of the collective we want to be able to 
reconstitute if we have to.
    Mr. Ryan. Right. Right.
    Chief Verderosa. And it comes with that, it sometimes comes 
with a footprint.
    Mr. Ryan. Yeah. Gotcha.
    Well, thank you. We appreciate it, Chief, and your team. 
Thanks for everything. We look forward to staying in touch with 
regard to the training component. And maybe I will get out 
there and check it out for myself.
    Chief Verderosa. That would be great. That would be great. 
And we will work with your staff on that.
    Mr. Ryan. Okay. Terrific.
    Well, thank you.
    Chief Verderosa. Thank you. It has been an honor.
    Mr. Ryan. This hearing is adjourned.
    [Questions submitted for the record follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    

                                            Tuesday, April 2, 2019.

                              MEMBERS' DAY

    Mr. Ryan. I am going to call this legislative branch 
hearing for members and public witnesses to order.
    I am pleased to welcome the Members of Congress and outside 
public witnesses to our hearing this afternoon. It is very 
important that the subcommittee hear the concerns of our fellow 
legislators and members of the public before we begin to work 
on marking up our fiscal year 2020 subcommittee bill.
    It is great to see some familiar faces on our witness list. 
We hope you are pleased with the progress we were able to make 
last year on the issues you raised in the past. We realize that 
we have more work to do. We will look forward to hearing your 
suggestions, and we will do our best to incorporate them into 
the bill. I need to warn you, however, that we will be 
wrestling with our other subcommittees for any new funding we 
can get to finance these needs.
    Before we start with our members' testimony, I would also 
like to ask our ranking member, Ms. Herrera Beutler, if she 
would like to make any opening remarks.
    Ms. Herrera Beutler. I am good, Mr. Chairman.
    Mr. Ryan. All right. Very good.
    So let's get started with our first witness, the esteemed 
member from California, chairman of the Veterans Committee, Mr. 
Takano.
                              ----------                              

                                            Tuesday, April 2, 2019.

                                WITNESS

HON. MARK TAKANO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Takano. Thank you, Mr. Chairman, Ranking Member Herrera 
Beutler, and members of the committee. Thank you for the 
opportunity to testify today.
    I am here to express my support for restoring funding to 
the Office of Technology Assessment, often referred to by the 
acronym OTA. The foundation for good policy is accurate and 
objective analysis. And for more than two decades, the OTA set 
that foundation by providing relevant, unbiased technical and 
scientific assessments for Members of Congress and staff.
    But in 1995, the Office of Technology Assessment was 
defunded, stripping Congress of a valuable resource. Congress 
has an important role to play in making sure that the benefits 
of advances in science and technology are distributed equally 
throughout our society and that the potential harms are 
mitigated. In order to do this, we need to strengthen our 
capacity to understand emerging technology and its social and 
policy implications.
    Congress needs access to unbiased technological expertise 
to weigh the pros and cons of policy questions surrounding 
cybersecurity, artificial intelligence, quantum computing, and 
so many other matters.
    In the ecosystem of legislative support organizations, OTA 
plays a unique role. No other entity has the capacity or 
expertise to provide in-depth and forward-looking analysis of 
complex technical issues informed by an understanding of how 
Congress works.
    Last year, in response to the growing demand for technical 
expertise in Congress, the Government Accountability Office 
received funding to establish a new Science, Technology 
Assessment and Analytics team, otherwise known as STAA. This 
expanded capacity at GAO is an important step, but it really is 
not sufficient.
    A restored OTA would complement GAO, as well as CRS, by 
combining deep technical expertise and robust forward-looking 
reports with the ability to be responsive to immediate 
questions and the needs of members and staff. Let me underscore 
that. Responsive to the immediate needs--immediate questions 
and the needs of members and staff.
    These needs will inevitably continue to arise as Congress 
responds to rapid changes in technology. As we continue to seek 
innovative and new ways to modernize Congress, OTA would be an 
important means through which we can ensure Congress has the 
tools it needs to respond to the unique challenges of our time. 
This is an important strategic investment in our institution's 
capacity to create technology policy that protects our 
constituents while encouraging innovation.
    I urge you to support this request to restore funding to 
the Office of Technology Assessment. And I yield back the 
balance of my time.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Mr. Ryan. Thank you, Mr. Takano.
    How much did you ask for last----
    Mr. Takano. Last year we submitted a letter asking for $2.5 
million, just to get the office started. We ultimately think 
that it is going to take up to $35 million to fully staff out 
the office to give it a comparable capacity. But it doesn't 
have to all come at once. It could be--you could ramp it up 
over time.
    But I think--and we are going to need to build credibility 
and confidence, in this office, a nonpartisan, disinterested 
group of analysts that give Congress advice. So we need time to 
build it up.
    Mr. Ryan. Give us just an example of, I am a member, I have 
got an issue, what would the top two issues be that I would 
need to make this call and ask for----
    Mr. Takano. Well--okay. So I think a lot of members are 
saying, well, we funded the GAO. Why isn't that enough? Well, 
have you ever gotten a GAO report done, I mean, in your 
experience? I mean, you know it is a process, right? And then 
GAO is really set up to be an independent accounting--they 
originally were an accountability office, an accounting office. 
And they are kind of like the government CPAs to do stuff. They 
come and look whether an agency is doing well.
    But to get a GAO study, there is a lot of hoops you have to 
jump through. You have to get a bipartisan letter and hopefully 
significant Members of Congress to sign on the letter. And then 
GAO makes--they do whatever they want.
    We need something more immediate, more accessible. And I 
will give you an example. The San Bernardino shootings, you 
might remember those San Bernardino shootings, they happened 
really close to my district. One of the perpetrators actually 
went to my high school, many years after I did, but he was one 
of the shooters.
    The FBI got ahold of the iPhones. The Federal magistrate 
judge was ordering those iPhones to be unlocked. They wanted an 
Apple engineer to unlock those phones. Apple was saying, no, we 
don't want to do this, for a variety of reasons. But this was 
never resolved. It got kicked down the road.
    But the policy decision for Congress was are we going to 
make technology firms unlock the phones or produce backdoor 
entries at the behest of the FBI. I mean, it is not going to be 
what our policy is. You see the privacy concerns, the civil 
liberties issues. Is this even possible? Could Apple devise a 
phone that, technically, couldn't be backdoored.
    Well, my thing is we have--as Members of Congress, we have 
an interest in figuring out what the truth is. Do we believe 
the FBI? Do we believe Apple? But we don't have an independent 
group of people that we can go to fairly immediately.
    Mr. Ryan. How about within CRS?
    Mr. Takano. That is a good question. Well, my thing is 
would you combine, say, the Congressional Budget Office into 
the CRS? I mean, they kind of both--I mean, the CRS I think of 
as a very specific agency. If I need----
    Mr. Ryan. They give legislative----
    Mr. Takano. If I need a briefing on Syria and the latest 
update, I go to CRS and say, what are the options here?
    I believe that technology assessment and understanding 
scientific issues requires--it is its own discipline. It is its 
own arena, and it needs to have its own staff director and 
ethos and its own authority. It is like we go to CBO when we 
want the Affordable Care Act scored, right? And I think we need 
the similar sort of authority for technology issues. I mean, 
people that can lay out a variety of policy options based on 
what--another example is blockchain technology.
    Mr. Ryan. Right.
    Mr. Takano. Right? How many of us really understand 
blockchain technology? I know that $500 million was lost in 
Japan. I mean, do we know the extent--I mean, and blockchain 
technology--people are coming to me with proposals to do 
blockchain technology for voting systems. What do we know about 
blockchain technology? Who do we trust?
    Mr. Ryan. Yeah. No, I think you bring up some really good 
points. That is the difference between your district and my 
district. In my district, they are saying let's go back to 
paper ballots. In your district, they are saying how do we do 
blockchain technology?
    Mr. Takano. As you know, my district is probably more like 
yours. Like, don't make it so that only a few experts 
understand it. We want everybody to understand. I mean, I am 
just saying that--I just cite that as an example that 
blockchain technology----
    Mr. Ryan. No, I hear you.
    Mr. Takano [continuing]. Is not relegated to financial 
services.
    Mr. Ryan. I got you.
    Mr. Takano. But Congress needs to understand it.
    Mr. Ryan. Ms. Herrera Beutler, do you have any questions?
    Ms. Herrera Beutler. Other than what is blockchain 
technology, but we don't have time for that.
    Mr. Ryan. We are going to do a whole hearing on that one.
    Mr. Takano, thank you. We appreciate your time.
    Mr. Takano. Well, thank you.
    Mr. Ryan. Thank you so much.
    Congressman Casten from the great State of Illinois, the 
floor is yours.
                              ----------                              

                                            Tuesday, April 2, 2019.

                                WITNESS

HON. SEAN CASTEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Casten. Thank you very much.
    Thank you, Chairman Ryan. Thank you, Ranking Member Herrera 
Beutler. Nice to meet you both. And I want to thank Mr. Takano 
for his leadership on this one. This has been near and dear to 
me for a long time, and I am pretty sure I am the only freshman 
Member of Congress who made a campaign pledge to restore the 
OTA.
    Mr. Ryan. Well, that is convincing.
    Mr. Casten. I am sure it drove my election. And that is a 
true story.
    This one is sort of oddly personal to me, that when I--
somebody asked me once, how do you become a politician? I said, 
well, first you get a degree in chemical engineering. That is 
the path that I took. In 1998, I got out of grad school, had a 
master's in chemical engineering. And I went to work at Arthur 
D. Little as a technology consultant, and was working in the 
energy practice. We did projects for the U.S. Government. We 
did projects for the Dutch government. We did projects for 
utility consortiums. But in all cases, trying to develop and 
advance various alternative energy technologies or to evaluate 
existing ones.
    In the course of my 2 years there, I did various 
comparative analysis of emerging battery technologies. I 
evaluated cost and emissions of a whole chain of alternative 
fuel technologies. BP was a client. I am looking at if they 
went beyond petroleum, what were the options to do. I was 
advising government--State governments on changes in codes and 
standards if we were going to get to a hydrogen infrastructure. 
And I tried unsuccessfully to convince U.S. car manufacturers 
that electric cars were really fun for acceleration and they 
should market on that rather than their limited range. Twenty 
years later, some of them have come through on that.
    You know, as a young kid just out of grad school working on 
that, you know, my job more often than not, we were all looking 
at what was the existing state of literature and figuring it 
out. And I increasingly relied on OTA reports that were really, 
really good and gave us a really good sense of what is this 
unbiased sense of what is out there so that we can at least 
have a level playing field. And at one point it came to my 
attention that I am sitting there, this is 1998, and I keep 
seeing that there are no current reports. And I asked my boss, 
you know, what is this OTA and how do I get more current 
reports?
    And my boss sort of laughed. He said, Gingrich killed it. 
He said it is bad for policy, but it is good for us because it 
means we get to sell more consulting assignments doing things 
that the taxpayer used to pay for and now they have to hire us 
to do them, but it is confidential, and we do them, and we just 
get paid for it.
    And we sort of joked about it. But it sort of stuck in my 
head of here we were now going forward trying to figure out 
what happens.
    And, you know, so OTA was, what, enacted in 1972? I think 
their mission was to provide early indications of the probable 
beneficial and adverse impacts of the applications of 
technology to develop other coordinated information which may 
assist the Congress. I think they did a pretty good job of 
that, and I can speak from experience.
    A good friend of mine whom I worked with at the time who 
now works for Cummins, and I said, what are you working on? He 
said, we are looking at developments in hydrogen and fuel cell 
technology. And he went through what he was working on. And I 
said, this is the same stuff we were doing 20 years ago.
    But the collective knowledge has fallen short, because now 
the knowledge is done in these pockets that don't get shared. 
And there were things that we knew and objective questions that 
could be asked that are now no longer part of the collective 
wisdom, if you will. And I would submit to you that that has 
had the practical impact of making us dumber as a Nation. It 
has caused a lot of people to duplicate effort that they 
shouldn't otherwise duplicate. And there is really nothing else 
that--there is no agency that does that.
    You know, I look now as a freshman member who--I got a 
degree in chemical engineering. I am not an expert in 
everything, but I claim some expertise in energy issues.
    And so I said, all right. Well, can CRS fill this gap? They 
really don't. You know, CRS will opine of what other people 
have said, and this is the nature of it. But CRS isn't really 
set up to say, what are the thermodynamic constraints of a 
hydrogen infrastructure? Has biomass gasification technology 
advanced--does it continue to advance or is it basically stuck 
where it was and can't go any farther? What are the limitations 
to getting away from fossil fuels in the airline industry?
    Those are objective questions, but CRS isn't set up to 
answer them very well, and they don't really have the tools to 
do that, and OTA did, and we relied on that.
    Mr. Ryan. You obviously know this better than we do. So CRS 
is a group of experts. We go to them, and they--we have a 
certain question, and they send it to the experts in CRS, 
wherever they are, whatever their expertise is in.
    So what--like, from an on-the-ground standpoint--so there 
aren't experts at CRS that can handle this, is what you guys 
are saying?
    Mr. Casten. So the sense I have from CRS in areas that I 
understand--so there is a whole series--you know, the issues 
Mr. Takano was talking about, I can only extrapolate into 
there. But CRS is exceptional at saying this is what the energy 
information administration says about issue X. This is what 
public information is out there.
    They really don't have the horsepower, the skills, or the 
resources to do more sort of synthesis, if you will. As a 
direct example of that, they were briefing all of us freshmen, 
and they put this chart up that said, going forward, over the 
next 50 years, here is what the mix of fossil and renewable 
energy is going to be on the grid. And a lot of my colleagues 
got pretty angry at that presentation because it basically said 
that, over 50 years, there is going to be no meaningful 
increase.
    I looked at that coming from the world that I live in, and 
I said, you guys, your analysis is dead wrong, because you are 
using a chart from EIA that I have used before that measures 
fossil resources based on the input fuel to fossil fuel plants 
and measures renewable resources based on the electricity 
output of those plants. So you are showing a model that 
implicitly understates the acceleration of renewable energy, 
because you take 1 kilowatt hour from a solar plant as being 
one unit of sun when, in fact, there was a lot of units of sun 
that went into that. You take 1 kilowatt hour from a coal plant 
and ignore it and say I wonder how much coal went in.
    And it is apples and oranges comparison. I don't think they 
totally understood the point, and I don't say that as a 
criticism of them. But their job is to say, well, this is how 
EIA reports the data. I am saying, yeah, but I want an engineer 
who goes in and says this is what I understand. Because if you 
are going to advise Members of Congress about saying what is 
the EIA saying about the changing energy mix in our future, you 
would like that to be based on a consistent set of units, 
right?
    And I just use that as a narrow example, but they are 
essentially reporters. They're not doing analysis.
    Mr. Ryan. Got you.
    Ms. Herrera Beutler.
    Ms. Herrera Beutler. So what you are talking about are 
things that you studied and learned and acquired over your 
experience both through specific study and then working in a 
company where the expertise that was called. So you developed 
expertise here.
    The one thing I guess I would question is we are not 
known--the Federal Government is not known for being the 
quickest, you said pockets that don't share information that 
should. You were referencing, I assume, the private sector at 
that point. That is one of the biggest criticisms people have 
over us. It is one of the challenges on appropriations. I am on 
Labor H, and we met with NIH today talking about the different 
institutes and how that cross pollinization has to take place 
so that information is being shared.
    And I wonder that--you will have an answer, would it be 
better to write legislation to evoke this and incentivize this 
from people who are in the field who are experts who move 
quickly or is it better to have it in-house?
    I just feel like we generally have challenges. People get 
siloed, and we are not known for being quick. We are not known 
for being the most technologically advanced, and we are 
certainly not known for being the most customer friendly.
    So what you are talking about is cutting edge stuff that is 
information that we need. Are we the best place to incubate 
that and grow that or is there a way that we can craft 
legislation to get it from more wherever the experts are? Does 
that make sense?
    Mr. Casten. So I guess what I would submit to you is what 
OTA provided and what I really valued from OTA was not their 
speed. What I valued was their objectivity. And it is very hard 
to get information from the private sector that is objective. 
So, for example, if I am sitting there saying, I am, you know, 
back in my job 20 years ago, and I am trying to tell a client 
who wants to get into the battery space what are the range of 
battery chemistries, what is the practical limitations on any 
of them, which ones are going to be best for this application 
or that application, your sort of standard technology 
consultant stuff, I could get that information from OTA that 
would say very specifically, for nickel metal hydride, this is 
what is the pros and cons. For lithium ion, this is the pros 
and cons. For this new flow battery technology----
    Ms. Herrera Beutler. If we have that depth and breadth.
    Mr. Casten. And they did. And they did, was my experience.
    If, on the other hand, I go to get that from the private 
sector--anybody who has got money tied up in one of those 
technologies is going to give you a less-than-complete view of 
their competitive technologies, right?
    Ms. Herrera Beutler. Well, they are not always honest. I 
have found that if you can ask the question, look, I get you 
want to sell me something or push me in a direction, but, you 
know, some of that is just the marketplace.
    I guess my question is, do you really think we can--you 
said it was--20 years ago you were in this role?
    Mr. Casten. Yeah.
    Ms. Herrera Beutler. And you were getting good information 
from OTA?
    Mr. Casten. Yes.
    Ms. Herrera Beutler. I guess I just don't know how soon we 
can ramp up that kind of expertise to make it worth it.
    Mr. Casten. Well, I guess what I would submit is that the 
people who do that analysis, they all exist. I mean, it was--my 
job was to sort of fill the gap that was there. In another 
world, maybe I would have worked for OTA. But there are people 
who know how to do that. And the challenge is that, in the 
absence of that, you have--the cost is massive because of the 
inefficiencies for people reinventing the wheel.
    I think there are a whole lot of technologies that we are 
focusing on--we as Congress are making decisions to invest in 
research programs where I could look back to things I did 20 
years ago and I can say I know that is a dead end. I know it is 
a dead end for practical thermodynamic reasons. And I may have 
the experience there to say that. And maybe I can be a forceful 
advocate. But the list of things I don't know is much larger 
than the list of things I know, right?
    Ms. Herrera Beutler. No. I get it. I think the goal is the 
pursuit of the information. How do we get there, the most 
efficient, effective way. I guess my challenge is, assuming 
that we are going to be able to produce the most efficient, 
effective way, generally what we do--even with NIH. We are not 
the ones creating, we are providing the money, and they are 
going where the science leads. It is not necessarily that we 
have a repository that we are building in--you know what I 
mean?
    Mr. Casten. Well, I think the closer analogy is CBO than 
NIH, because OTA at its best was not trying----
    Ms. Herrera Beutler. That is not a good one for me----
    Mr. Casten. But, OTA at its best, and I think with its 
mission, was not tasked with advancing the science or doing 
fundamental research. They were tasked with providing an 
objective analysis of what was out there. And so in the same 
way that CBO, per its mission and at its best, is saying, you 
know, you wouldn't ask Members of Congress to argue about the 
cost a bill. We get an analysis----
    Ms. Herrera Beutler. The irony is--that is exactly the 
point, is we are having--I have challenges with CBO not even 
providing information. So they are nonpartisan, right, supposed 
to be straight down the middle, and they are not even always 
able to do that. So I guess that is what I would submit to you 
to consider is it is not a perfect solution, maybe it is the 
best.
    Mr. Casten. Well, nothing is perfect, but I would----
    Ms. Herrera Beutler. What I understand is that is the best.
    Mr. Casten. Well, nothing is going to be perfect. But I 
would submit to you that we are vastly more effective as an 
institution when we at least have a nonpartisan group giving 
us--
    Ms. Herrera Beutler. I think we need it.
    Mr. Casten [continuing]. A number, and in the same way that 
if we are sitting there and saying, to take the issue I started 
with, what are the thermodynamic limitations of a hydrogen 
economy. That is an objective question. Those of us on the 
Science Committee argue about the thermodynamics, because those 
laws are kind of fixed. Like, let's focus on the laws we can 
change, not the ones we can't.
    Ms. Herrera Beutler. I just joined the Science Committee. 
We are going to talk about it. Great.
    Mr. Casten. Welcome aboard.
    But what OTA gave us, again, in my experience, is, was an 
objective set of truths. And we could say, okay, these things 
are true. Now we may have creative ideas about how to deal with 
that truth, but let's not start with arguing about them----
    Ms. Herrera Beutler. No. I get it. I get the idea. I have 
seen it work not quite as perfectly as that, unfortunately. But 
I see the need.
    Thank you.
    Mr. Casten. Thank you.
    Mr. Ryan. Thank you. Very insightful.
    I don't know if you heard, but when I gave the opening 
remark, obviously, we are struggling to get some money for this 
subcommittee, so it is going to be a battle royale for all 
these different interest groups. But this is very interesting 
and enlightening, so thanks. I appreciate it
    Mr. Casten. Yeah. And I hope this was a small enough 
dollar. It is hopefully an easy one to do.
    Mr. Ryan. Got it. Thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    Mr. Ryan. We are in recess, subject to the call of the 
chair.
    [Recess.]
    Mr. Ryan. All right. We are reconvening.
    And, Ms. Eshoo, you have the floor.
                              ----------                              

                                            Tuesday, April 2, 2019.

                                WITNESS

HON. ANNA G. ESHOO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Ms. Eshoo. Thank you, Chairman Ryan. I am delighted to be 
here in this lovely room that I didn't know exists. Yet another 
hideaway. I want to thank you for allowing me to testify.
    I am here today to request that the subcommittee support 
$250,000 in fiscal year 2020. And it is an appropriation for 
the Chief Administrative Officer to administer the 
Congressional App Challenge, which is an officially sanctioned 
competition of the House of Representatives.
    This is a fairly new program that was established in 2014. 
And it was designed and established, I was there at the 
beginning of it, which I am very proud of, to inspire high 
school students to be drawn to the areas of STEM, science, 
technology, engineering, and math.
    And so the design of the program was to bring them forward, 
challenge them, challenge all the high school students in our 
districts, to design an app. And they have.
    In my district, the winner this last year did an app on a 
smarter insulin pump, an app that assists diabetics with 
maintaining blood glucose levels. In your district, you had a 
team of four NIHF STEM high school students that developed an 
app allowing the students to anonymously report school safety 
problems.
    So these are just two examples, but they are excellent.
    Last year, 5,000 students and teams of students 
participated in the app challenge. So in just a handful of 
years, this has really grown. They participated across the 
country, 220 congressional districts across 47 States and the 
territories. And the students come from every type of community 
and region, whether it is rural, urban, suburban, all of those 
communities.
    What is important for me to set down today is that the 
success and the growth of the Congressional App Challenge is 
outstripping the capacity to administer it.
    The Internet Education Foundation which is a nonprofit here 
in Washington, D.C., they provide the materials, the support, 
the staffing, and the databases so that members' offices can 
host the contest for their constituents. And the Foundation 
works closely with the Committee on House Administration to 
execute the CAC every year.
    Now, we are running very short in our country on the talent 
that we need to produce for not only the jobs of today but the 
jobs of tomorrow. China has 4.7 million recent STEM graduates. 
Our country, the United States, has 568,000. Now, China 
obviously is more populous, but we have fewer recent STEM 
graduates on a population-adjusted basis. So we are really--we 
are lagging behind.
    Five of the 10 fastest growing occupations in America are 
STEM jobs, including software developers. And the App Challenge 
is creating a pipeline of skilled workers for the jobs of 
tomorrow. So I just want to abbreviate--leave out some points. 
You will have my written testimony.
    I think it is important for the committee to know that 
appropriated funding of the CAC will not be perpetual. I think 
that is important for you to know. Because the App Challenge is 
an officially sanctioned competition that has to be sanctioned 
by House Administration Committee every Congress.
    It is possible that, maybe in a decade, that apps will be 
an outdated form factor. So I am not here to make sure that we 
are on automatic pilot forever. But I think the program speaks 
volumes about itself and how it has grown, how effective it is, 
the potential for the future with these students. And that 
$250,000 will go a very long way in funding for the CAO to 
administer the Congressional App Challenge in fiscal year 2020. 
We want to make sure that the program continues.
    It has been a joy for me to be a part of the effort. And 
you have participated in your district. 220 districts, that is 
pretty good in a handful of years, I think.
    So thank you for your attention to this. I don't know if 
you have any questions. But I want to acknowledge the 
Foundation whose representative is here today, because they 
have done an outstanding job of assisting.
    Members' offices can't start from scratch. It is really too 
much work for them. But with the assistance of the Foundation, 
they are able to get this up, running in the district. And 
after you have done it once, it becomes an annual event. The 
newspapers pay attention to it, the local media. And these 
young people are made king, queen for a day, a week, a month, a 
year. It is very exciting for them to have the recognition that 
it is an approved congressional competition in our country.
    So thank you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Ryan. Thank you.
    This is a great program. I love it. Our kids love it. And 
the idea, you know, northeast Ohio, northern California, it is 
football, it is sports. That is the competition. And for us to 
inject competition into these kind of things I think is really 
essential. I love the program.
    Do you have anything to say, Mr. Newhouse?
    Mr. Newhouse. I will just add my two cents in support of 
the program as well. We do it every year. And I think it is 
certainly a great investment for all the reasons that you 
stated.
    Ms. Eshoo. Well, thank you for participating.
    Mr. Newhouse. Oh, absolutely. I couldn't not participate 
now.
    Ms. Eshoo. Well, I think it has been made to attract itself 
that way to members, that it is something that people 
absolutely want to be engaged in.
    Mr. Newhouse. So I probably missed this, and I apologize 
for that, but you are asking that we provide $250,000?
    Ms. Eshoo. $250,000.
    Mr. Newhouse. What level of funding are we at now?
    Ms. Eshoo. We are at zero. At zero.
    Mr. Newhouse. It is zero. Okay.
    Ms. Eshoo. And the reason that we are requesting it is, 
going back to my comments, that the success and the growth of 
the program is really outstripping the capacity to administer 
it. And the Foundation does a great deal of work, but more is 
needed because it has grown. And I think that this is like a 
rounding off point in our national budget.
    Mr. Ryan. Very rounded.
    Ms. Eshoo. But these dollars dance. These dollars dance. 
They are really an investment in our collective future.
    Thank you. Thank you for your wonderful comments about it.
    Mr. Ryan. Thank you, Congresswoman. You are always on the 
cutting edge.
    Ms. Eshoo. All right. Well, off we go.
    Thank you, everyone. Thank you to all the staff. Thank you 
to the Foundation.
    Mr. Ryan. We are going to adjourn the first, and we are 
going to call to order the public witness hearing. And we are 
going to take about a 5-minute recess, and then we will be back 
with the public witnesses.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                            Tuesday, April 2, 2019.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              


  BUDGET REQUESTS OF THE GOVERNMENT PUBLISHING OFFICE AND LIBRARY OF 
                                CONGRESS

                                WITNESS

FEMI CADMUS
    Mr. Ryan. We are reconvening the hearing. We are going to 
start with our first witness, the president of the American 
Association of Law Libraries. The witness is Femi Cadmus. Thank 
you so much for coming. The floor is yours. Zach Graves is on 
deck. Daniel Schuman in the hole.
    Ms. Cadmus. Good afternoon, Chairman Ryan. I am Femi 
Cadmus, president of the American Association of Law Libraries.
    I am honored to have the opportunity today to testify about 
the essential role of the Government Publishing Office, the 
GPO, and the Library of Congress in supporting a strong 
democracy.
    The American Association of Law Libraries is the only 
national association dedicated to the legal information 
profession and its professionals. AALL members who serve in our 
communities rely on the GPO, the Library of Congress, and the 
Law Library of Congress for access to and preservation of 
official trustworthy government information. Adequate funding 
for these agencies ensures access to information, which 
supports access to justice and preserves the rule of law.
    I will start with funding for the GPO. The American 
Association of Law Libraries urges full funding for GPO's 
public information programs account that supports the Federal 
Depository Library Program, FDLP. The requested funding level 
of $31.3 million will allow GPO to provide additional support 
for locating and processing Federal information for inclusion 
in the FDLP and the Cataloging and Indexing Program.
    GPO administers the FDLP by providing Federal Government 
information products in multiple formats to more than 1,100 
participating libraries across the country and in your 
districts. Approximately 200 law libraries participate in the 
FDLP, including my very own institution, Duke University School 
of Law, J. Michael Goodson Law Library.
    The J. Michael Goodson Law Library is open to the public 
and celebrated its 40th year as a selective depository library 
in 2018. AALL also supports full funding for the congressional 
publishing appropriation and revolving fund so that the GPO may 
continue to publish legislative information and support the 
development of govinfo.gov to add new collections and improve 
accessibility.
    Next I would like to discuss funding for the Library of 
Congress. AALL is grateful to the subcommittee for its approval 
of recent requests from the library for its physical and 
technology needs. AALL naturally has a special interest in the 
Law Library of Congress. The law library is a treasured 
institution with an unparalleled collection of legal material. 
AALL supports the law library's $18 million request for fiscal 
year 2020 so that it may complete projects, including archiving 
global legal research reports and continuing and expanding its 
digitization efforts.
    The American Association of Law Libraries also urges 
continued investment in the development of Congress.gov. We 
commend the Library of Congress for updating its information 
technology operations and meeting nearly all of the 
recommendations of the Government Accountability Office's 2015 
report on the Library's information technology.
    We also express appreciation for recent modernization 
efforts in the Copyright Office. The Copyright Office has been 
working in close coordination with the Library of Congress' 
Office of the Chief Information Officer. We welcomed Dr. 
Hayden's recent appointment of Karyn A. Temple as the new 
Registrar of Copyrights, and we are confident the office's 
modernization will continue under her able leadership.
    In conclusion, I want to thank you once again for the 
opportunity to testify before the subcommittee. The American 
Association of Law Libraries urges you to approve as close to 
full funding as possible for the GPO and the Library of 
Congress.
    Thank you, and I welcome any questions that you might have.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Mr. Ryan. Thank you so much. We appreciate the testimony. 
This is obviously a very important function for Congress and 
the government, so we appreciate you coming up and giving your 
voice and your testimony.
    Thank you for being here.
    Ms. Cadmus. Thank you.
                              ----------                              

                                            Tuesday, April 2, 2019.

GAO'S NEW STAA TEAM, HOW THIS RELATES TO THE DEBATE OVER REVIVING OTA, 
        AND WHAT WILL BE NEEDED TO MAKE GAO'S PROGRAM SUCCESSFUL

                                WITNESS

ZACH GRAVES, HEAD OF POLICY, LINCOLN NETWORK
    Mr. Ryan. Zach Graves, head of policy from the Lincoln 
Network.
    Mr. Graves. Chairman, it is good to be back here. I came 
before you last year to also talk about this issue of building 
science and technology expertise in the Congress. And we have 
just had two members come and talk about it. I am hoping to 
pick it up from a little bit of a different angle.
    Picking off from where we started in the fiscal year 2019 
bill, which had two important provisions to, one, create a 
study that is executed by the National Academy of Public 
Administration, which is still in progress and set to be out in 
October, and the other was the elevation of the GAO's STAA 
office, which Chairman Takano mentioned.
    And I know there is still some debate within the Congress 
about which of these offices is best suited to take up the role 
of building greater science and technology expertise in 
Congress and doing technology assessment work in particular.
    Rather than try and answer that question, I want to talk 
about some history around the GAO's office and some features 
that I think would be important to build in it should the 
Congress decide to pursue that as the primary vehicle.
    In particular, I think it is notable that, while there has 
been a lot of talk of reviving the OTA recently, that this is 
not a new idea or recent phenomenon. There have been efforts to 
re-create OTA ever since they defunded it. In fact, in 1995, 
the year it was defunded, there was an effort that was 
successful in the House and came very close to passing in the 
Senate to move its functions under CRS. And for a number of 
years afterwards, there were also efforts to bring back the 
OTA, either directly since its authorizing statute remains in 
effect, or through various hybrid models.
    And the GAO Technology Assessment Program goes back to 2001 
when they decided to allocate $500,000 in dedicated funding for 
a pilot. It did a first study on biometrics for border security 
since security was a very big concern in that year. And this 
was favorably received in an external evaluation which said 
that GAO did a very good job on its inaugural assessment. But 
the report also raised concerns that the program would face 
significant challenges to build its own unique culture and 
scale its capabilities to match the functionality of the OTA.
    Nonetheless, this pilot was seen as successful. They 
expanded its funding to $1 million, and it produced a couple of 
reports each year for the next couple of years. Importantly, 
there was an effort that came after that in 2004 when 
Congressman Rush Holt, who is now the head of the American 
Association for the Advancement of Science (AAAS), the science 
advocacy group, had a bipartisan bill to formally elevate the 
GAO pilot program into an office that would have been called 
the Center for Scientific and Technical Assessment, or CSTA. 
This was a program notably in GAO that would have borrowed a 
lot of the structural features of the OTA, including its 
bipartisan bicameral technology assessment board, which 
following up on Ranking Member Herrera Beutler's point earlier, 
I think this is an important feature since it gave the Congress 
broader buy-in to what OCA was doing and strong bipartisan 
oversight so its activities couldn't be politicized or in one 
direction or the other.
    Importantly, although we are going back nearly two decades 
talking about this bill that didn't go anywhere, it is 
important to note it involves a lot of the same issues that we 
are talking about today. It was a proposal that received a lot 
of vetting and review by the GAO then-Comptroller General David 
M. Walker. It was favorably received by members of civil 
society and academia. They sent it out to review it. And while 
the effort didn't move forward, I think this was largely 
because of the very hefty budget requirements that it had.
    Now, in the years that followed, GAO essentially kept 
running it as a pilot program until it was elevated in last 
year's appropriations bill. And as you know, this created the 
STAA.
    Now, I think there has been also a lot of criticisms of the 
GAO program from people who want to revive the OTA saying that 
it lacks the robustness and quality of OTA reports. And it also 
hasn't produced nearly as many of them as the OTA did on an 
annual basis. And I think while there is a fair criticism here, 
it is worth remembering that the GAO program was at a fraction 
of the OTA's budget and had relatively little structural 
autonomy until its recent elevation.
    Now, the primary challenge I think that has kept either OTA 
or GAO's Technology Assessment Program from advancing has been 
a lack of funding, and I think that problem has been largely 
addressed thanks to the efforts of Comptroller General Gene 
Dodaro and the efforts of this committee. Nonetheless, there 
are a number of structural features it needs to consider that 
were considered by this last effort in 2004 that Congressman 
Holt considered. I outlined some of in these in my testimony. 
And I would be happy to follow up and discuss them with you.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Ryan. Great. Thank you, Mr. Graves. I appreciate you 
coming. It doesn't often happen you get two members and some 
outside witnesses on a particular issue. It shows how important 
it is. And we are going to give it a lot of consideration. So 
thank you for being here.
    Mr. Graves. Thank you.
    Mr. Ryan. I appreciate it.
                              ----------                              

                                            Tuesday, April 2, 2019.

 INFORMATION TECHNOLOGY, TRANSPARENCY, AND LEGISLATIVE CAPACITY IN THE 
                           LEGISLATIVE BRANCH

                                WITNESS

DANIEL SCHUMAN, POLICY DIRECTOR, DEMAND PROGRESS & DEMAND PROGRESS 
    ACTION
    Mr. Ryan. The next witness is Daniel Schuman, policy 
director, Demand Progress and Demand Progress Action. And on 
deck is Samantha Feinstein.
    Mr. Schuman. Hi. It is good to be back.
    Mr. Ryan. The floor is yours.
    Mr. Schuman. Thank you, sir.
    Thank you for the opportunity to speak with you again. What 
you did last year was a home run. And I think that is a 
testament to all the folks that are here. I mean, civil society 
is--we are pleased with what you did. I mean, there has just 
been a tremendous amount of progress.
    So I want to talk about two issues. One concerns the 
Legislative Branch Bulk Data Task Force, which this committee 
created in 2013. I know that you guys hate hearing bad news. So 
here is some good news, which is that this task force has been 
resounding success in making legislative data more available to 
everyone and, most importantly and the sort of difficult task, 
is change the culture inside Congress. The task force has 
successfully fostered collaboration across many of the support 
offices and agencies that previously had been siloed. And, of 
course, since I am here, it is not just good news; there is 
always an ask. And the ask is, since it has been so successful, 
we suggest that you expand its scope and mission a little bit 
from the bulk data task force to the congressional data task 
force.
    The idea here is that an expanded mission would allow it to 
look at how data is handled throughout the legislative branch, 
and this could help Congress better manage its crushing 
workload. And as a piece of that--so Congress recently passed 
legislation, the OPEN Gov Data Act, that creates chief officers 
throughout all the Federal agencies. And we think that it might 
be time for Congress to have one too.
    So our suggestion is a legislative branch chief data 
officer that would help support the mission of the task force 
and would look at access to information questions generally.
    Our second request concerns the Library of Congress. We 
recommend creating an advisory committee that focuses on how 
the Library publishes legislative information. There is no 
doubt that the Library of Congress plays an important role as a 
legislative information source. Not everyone can travel to 
Capitol Hill to see what is going. So, of course, we must bring 
Congress to Ohio. And to Washington State. And all around the 
country.
    But, unfortunately, the Library, at least in our 
experience, has not made innovating around access a legislative 
information a priority. I think this is a real missed 
opportunity. We believe the Library should be leading the 
charge here. We know there are good people at the Library. They 
are trying to support the Library's mission. I mean, librarians 
are all about access to information. It is not surprising that 
this would be something that they would care about.
    We want them to be empowered. Dr. Hayden, when she was here 
a couple weeks ago, testified about her commitment to 
increasing access to the Congress' Library. I think that is 
great, but it does require a change in how the Library does 
business.
    Fortunately, there is a well-worn model for agencies to 
help transform their culture. And at its heart is improved 
communication with stakeholders inside and out. Many 
legislative and executive branch agencies routinely meet with 
external stakeholders. There is more than a Federal advisory 
committee, so this isn't exactly a new thing.
    Inside the legislative branch, we have seen this work. We 
were just talking about the bulk data task force. That is an 
example of where internal and external conversations are 
effective. There is the Advisory Committee on the Records of 
Congress. That exists between the House and the Senate. There 
is a Federal Depository Library Council in the executive 
branch. There is the FOIA Advisory Committee. And the Archivist 
himself meets regularly with civil society.
    But when the Library participates in the Bulk Data Task 
Force, its engagement is often limited, reflecting both its 
internal silos and, at least for some folks, reluctance to 
speak.
    So, to our knowledge, the Library of Congress does not 
regularly convene a wide range of tech-savvy stakeholders on 
its role as a source of legislative information. We think that 
should change. We believe that it is important to build a 
bridge between the Library and civil society on innovation, 
around access to information. This information, after all, 
belongs to and belongs with the American people, wherever they 
might be.
    We believe that creating an advisory committee would be a 
first good step. And included in this should be representatives 
from inside the Library, as well as functional units, as well 
as civil society. This is not just our recommendation. The 
Lincoln Network, who just testified previously, GovTrack, 
Sunlight Foundation, R Street Institute, POPVOX, PBC, Action, 
and Quorum and many others have endorsed this recommendation.
    I am so pleased to be back here. Thank you again for the 
opportunity to testify, and I am happy, and looking forward to 
our conversation.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Ryan. Well, we appreciate it.
    And, again, you were here last year, I believe with one or 
two others.
    Mr. Schuman. Yes.
    Mr. Ryan. And I know Chairman Yoder and I had a lot of 
conversations after your testimony. And we did what we did and 
tried to follow through the best we can. So I just want to say 
thank you. A lot of people think that these public hearings 
don't matter and that we are not listening, but we are, at 
least we are in this committee; I can assure you that.
    And you being back here is important. I don't really know 
how tough the budget will be. We just know it is going to be 
tough. And this is a priority for the committee in a lot of 
different ways. But it is competing with a lot of other 
priorities too. So thank you for being here.
    Mr. Schuman. Can I add just one quick thing?
    Mr. Ryan. Sure.
    Mr. Schuman. There was a letter signed by 38 civil society 
organization and 10 former Members of Congress on the 302(b) 
allocation question. And it is something that we will continue 
to pursue because we think the work of this committee is 
incredibly important. We think the legislative branch should be 
appropriately funded.
    Mr. Ryan. I appreciate that. Thank you.
    We are trying to offset our power with the power of the 
executive, and sometimes it gets really hard.
    Mr. Schuman. So thank you so much.
    Mr. Ryan. I appreciate your time.
                              ----------                              

                                            Tuesday, April 2, 2019.

   HOUSE OFFICE OF THE WHISTLEBLOWER OMBUDSMAN--2020 APPROPRIATIONS 
                                REQUEST


                                WITNESS

SAMANTHA FEINSTEIN, SENIOR LEGAL AND INTERNATIONAL ANALYST, GOVERNMENT 
    ACCOUNTABILITY PROJECT
    Mr. Ryan. All right. Next up, senior legal and 
international analyst, Government Accountability Project, 
Samantha Feinstein.
    Ms. Feinstein. Chairman Ryan, it is the nice to be back. 
Thanks for having me. I am part of the Team Transparency, so I 
guess I am the next batter up, Team Transparency.
    Last year, I testified before this committee about the need 
to establish an office to assist Congress in working with 
whistleblowers in a secure way. And we appreciate all of the 
tremendous work that you guys have done since then to raise the 
profile of the importance of the need to protect congressional 
communications with whistleblowers.
    Since we last met, your committee directed the Government 
Accountability Office to do a study on congressional 
communications with whistleblowers. I believe that will be made 
publicly available soon.
    Also since then, in the 116th Congress, the House 
established an Office of the Whistleblower Ombudsman. So I am 
here today to request for fiscal year 2020 $1 million to allow 
the House Office of the Whistleblower Ombudsman to hit the 
ground running and have the support that it needs. The 
ombudsman will be in charge of developing best practices for 
communicating with whistleblowers and processing their intakes 
when they contact your offices. And it will also be responsible 
for training congressional offices in how to protect 
whistleblowers and their confidentiality.
    The funding would allow the office to support their staff 
and expenses, develop and maintain a website, develop training 
materials, develop materials on how to process whistleblower 
intakes to their offices. And it would also allow them to 
consult with subject-matter experts to help improve the quality 
of their office services. We also request that you ask that 
some of this funding be dedicated to exploring technological 
developments as far as making sure that when whistleblowers 
contact any office or committee, that that communication is 
secure technologically.
    And so we would like some of that funding to go towards 
exploring that mechanism so that whistleblowers can trust that 
their information will be safely handled.
    As you know, whistleblowers are a vital lifeline to 
information from Congress. They are witnesses firsthand of 
waste, fraud, abuse, mismanagement, illegality, and other 
corrupt nonsense. And no one else is going to tell you, so we 
have got to protect communications with whistleblowers.
    In recent years, under the False Claims Act, whistleblowers 
have helped the government recover $3 billion to $5 billion a 
year. So we think that it is really important to have a 
robust----
    Mr. Ryan. Federal Government?
    Ms. Feinstein. Federal Government.
    Mr. Ryan. Wow. That is real money even around here. Just 
think what we could do in this committee with that extra money.
    Ms. Feinstein. Well, so I think that Congress would receive 
more disclosures if there were more protections for 
whistleblowers. And this is just the first step in that.
    And so we think that whistleblowers right now unfortunately 
risk a lot when they come to Congress. They risk their careers. 
They risk their personal life. It can really destroy their 
career to come forward and get caught. And the level of 
intensity of retaliation against whistleblowers can be directly 
tied to the threat that their employer perceives them. So, if 
they go public, it can be really risky business for them. We 
don't want that to happen. And we think that this office will 
really give whistleblowers the confidence that they need to 
know that their communication is being handled responsibly.
    So I also just wanted to mention that this request has been 
put forth in consultation with the House Whistleblower 
Protection Caucus and has received bipartisan support. You have 
received a letter from Representatives Speier, Meadows, and 
Rice in support of this budget.
    So we thank you for your thoughtful consideration. And I 
look forward to working with you to strengthen this vital 
lifeline of communications to Congress.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Ryan. Thank you. We appreciate the testimony. We have 
seen over the last year or two how really important in this 
kind of environment this is--and not just in the legislative 
branch. I think when you talk about reforming government it is 
so important to provide these kind of protections for people 
who are really on the inside and really know how things work. 
Sometimes when we have quick hearings, whether it is in this 
committee or other committees, it is so hard to fully grasp the 
intricacies of the bureaucracy. But somebody living in that 
space for a while has the answers and can really help us. And I 
think we are at a point where we do need to, on both sides of 
the aisle, figure out how we reform this beast called the 
United States Federal Government. This is obviously very 
important. So thank you for taking the time to come and spend 
time with us this morning.
    Ms. Feinstein. Thank you for having me.
    Mr. Ryan. Thank you.
                              ----------                              

                                            Tuesday, April 2, 2019.

    NEED FOR IMPROVED ACCESS TO THE WORK OF THE LEGISLATIVE BRANCH 
                           INSPECTORS GENERAL


                                WITNESS

REBECCA JONES, POLICY COUNSEL, PROJECT ON GOVERNMENT OVERSIGHT
    Mr. Ryan. Next up is policy counsel for the Project on 
Government Oversight, Rebecca Jones.
    Ms. Jones. Good afternoon. I am also here as part of Team 
Transparency, a card-carrying member. So thank you for the 
opportunity to testify on approving access to the work of 
inspectors general for the legislative branch.
    Public access to the work of IGs is a critical facet of 
government transparency. And publication of this work results 
in both more accountability and more effective oversight.
    I am here to request that the subcommittee adopt report 
language that requires the inspectors general of the House of 
Representatives and the U.S. Capitol Police to publish their 
reports online.
    Before I begin, I would like to quickly express our support 
for the House Office of the Whistleblower Ombudsman and to echo 
the testimony of Samantha Feinstein.
    Founded in 1981, the Project on Government Oversight works 
to strengthen the effectiveness and accountability of the 
Federal Government through independent fact-based investigation 
and analysis. We feel that the funding and publicizing the 
independent work of IGs is paramount to achieving these goals.
    Inspectors General conduct independent investigations, 
audits, and inspections into waste, fraud, and abuse, and 
provide recommendations to improve Federal programs. As a 
result of this work, IGs claim an average return on investment 
of approximately $17 for every dollar invested. In accordance 
with the Inspector General Act, most do this while also keeping 
Congress and the public apprised of their work and the problems 
they uncover.
    Under the Inspector General Act, as amended, most IGs are 
required to publish on their website any audit, inspection, or 
evaluation report they create within 3 days. By publishing 
these reports, IGs keep the public, including groups like POGO, 
informed of government waste, fraud, and abuse. This allows the 
public to call out wasteful or illegal practices and to 
increase pressure for swift change. In effect, publication 
greatly increases the influence of IG's work.
    But not all IGs are subject to these reporting 
requirements. Two such IGs are those of the House of 
Representatives and the Capitol Police. While these watchdogs 
provide independent oversight of the operations of both 
entities, they do not make the reports, findings, or 
recommendations readily available to the public. In fact, 
hardly any of their reports are available on their websites 
and, therefore, are not easily accessible, even to some 
congressional staff.
    To rectify this lack of transparency, we ask that the 
subcommittee adopt report language requiring these IGs to 
follow the Inspector General Act's 3-day rule for posting 
reports publicly on their own website and on the Federal 
Government-wide website, oversight.gov.
    Managed by the Council of Inspectors General on Integrity 
and Efficiency, oversight.gov hosts reports from the vast 
majority of Federal inspectors general, including four of the 
legislative branch IGs, in a centralized and searchable 
database.
    POGO recognizes, of course, that due to classification or 
privacy concerns, not all IG reports can be fully released to 
the public. However, several executive branch IGs and other 
oversight institutions have found ways to restrict access to 
sensitive reports without keeping the public in the dark about 
their report's existence.
    For example, the Government Accountability Office, the 
Department of Justice, and the Department of Defense inspectors 
general currently provide basic information, such as report 
title or report number, in cases where some or all of the 
reports' content must remain nonpublic. While this is not yet 
an IG-wide practice, if the Department of Defense, which 
produces a large number of classified reports, and the 
Department of Justice, which reports on law enforcement 
matters, can provide this level of transparency, arguably any 
IG should be able to. The House and Capitol Police IGs are no 
exception.
    The work of inspectors general should not be done in 
secret. It is critical that lawmakers and the public have 
access to IG reports in order to correct wasteful or abusive 
practices. Further, because the legislative branch staff do not 
benefit from the whistleblower protection that the executive 
branch staff do and because the House of Representatives and 
the Capitol Police are not subject to FOIA requests, these IGs 
are the public's only option to measure the accountability of 
these legislative branch entities.
    POGO, therefore, asks that the subcommittee consider 
including report language requiring these IGs to publish past 
and future reports. We have prepared suggested written report 
language to accomplish these goals, which is attached to my 
testimony.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Ryan. And, again, thank you. We are lucky to have so 
many people testifying today talking about these kind of 
things, about transparency and all the rest, especially when it 
comes to these reports. So we will continue the conversation 
with you. This is important to us.
    Ms. Herrera Beutler. Can I ask a question?
    Mr. Ryan. Sure can.
    Ms. Herrera Beutler. So you are specifically honing in on 
Capitol Police and leg branch IGs.
    Ms. Feinstein. The Capitol Police and the House IGs.
    Ms. Herrera Beutler. And the House.
    Okay. I can kind of see how into gets murky, right, because 
they can talk about, you know, FOIA stuff.
    How does the Capitol Police fit under there? Is it just 
something that has not been done, or are they claiming some 
sort of a privilege?
    Ms. Jones. So not----
    Ms. Herrera Beutler. Do you understand? The question is a 
little fuzzy?
    Ms. Jones. Why wouldn't they post their reports online?
    I can't really say. I think that it may have something to 
do with the fact that it is law enforcement. But, again, 
because the DOJ posts their reports online, even if they are 
classified, they will post at least a number or a title or 
something----
    Ms. Herrera Beutler. That something occurred.
    Ms. Jones. Right. So, even if congressional staff 5 years 
down the line want to look into these issues, they have no idea 
that the reports even exist.
    So we think it would be a relatively small ask for Capitol 
Police IGs to----
    Ms. Herrera Beutler. Can I ask one more question? The "we," 
the transparency team, are you all with different 
organizations?
    Ms. Jones. We are. We are just saying transparency team to 
be fun.
    Mr. Ryan. They are branding themselves.
    Ms. Jones. We are somewhat branding ourselves, but I know 
at----
    Ms. Herrera Beutler. They look millennial.
    Ms. Jones. I will take it.
    I know that several of our organizations are very 
supportive of publicizing the work of IGs. And I know Demand 
Progress has worked, at least for the House IGs, have reported 
on their lack of publication.
    Ms. Herrera Beutler. Perfect. Thank you. I appreciate that.
    Mr. Ryan. You know, I just want to add thanks generally to 
all of you because you mentioned millennials. And I mean, it is 
important to--it is important to have beliefs and come and 
engage the government and make the change. And as we said to 
someone who testified here a little before you, we actually 
implemented it. I mean, that is how this is supposed to work. 
We are all engaged in this endeavor in trying to create a more 
perfect union. And sometimes it is in really small rooms 
somewhere in the Capitol with nice views, that it actually 
happens.
    So we appreciate what you are doing.
    Ms. Jones. We are so appreciative of the opportunity.
    Thanks.
    Mr. Ryan. Thank you, Ms. Jones.
                              ----------                              

                                            Tuesday, April 2, 2019.

LEGISLATIVE BRANCH APPROPRIATIONS FOR THE CONGRESSIONAL APP CHALLENGE, 
       AN OFFICIALLY SANCTIONED COMPETITION OF THE U.S. HOUSE OF 
                            REPRESENTATIVES


                                WITNESS

JOSEPH ALESSI, PROJECT DIRECTOR, CONGRESSIONAL APP CHALLENGE
    Mr. Ryan. Next up, program director from the Congressional 
App Challenge, Joseph Alessi.
    Mr. Alessi. Alessi. That is right.
    Mr. Ryan. Is that Italian?
    Mr. Alessi. Yes. Sicilian.
    Mr. Ryan. Request granted immediately.
    The floor is yours.
    Mr. Alessi. Thank you. Chairman Ryan, Ranking Member 
Herrera Beutler, thank you for allowing me to testify today.
    I am the program director of the Congressional App 
Challenge, which you did hear a bit about earlier. So I will 
try to avoid being redundant.
    But we are an officially sanctioned competition of the 
House of Representatives. We are a coding competition for 
middle and high school students that aims to create a domestic 
pipeline of STEM talent in every district and in every corner 
of the United States.
    In 4 short years, this program of the House of 
Representatives has grown exponentially. Student registrations 
and functioning apps have tripled since 2015. Congressional App 
Challenges were held in more than half of the congressional 
districts in the United States last year. Both of you 
participate in Congressional App Challenge. And your winning 
apps from this year are actually a great example of the 
diversity of the content that this contest brings about. 
    Chairman Ryan, your students coded an app called the 
Anonymous Security Center, where students can anonymously 
report security threats to school administrators.
    And, Ranking Member Herrera Beutler----
    Ms. Herrera Beutler. Ours is about fish.
    Mr. Alessi. Yeah. Yours was fish.
    Ms. Herrera Beutler. I am from the Northwest.
    Mr. Alessi. The Fundamentals of Fish Care.
    Ms. Herrera Beutler. They die--those pets die all the time. 
The kids become----
    Mr. Alessi. Yeah.
    And so obviously those are vastly different apps. But that 
is the beauty of the competition.
    The students aren't bound by guidelines about what they can 
code or where they can code or what the subject matter needs to 
be. It doesn't stifle the creative instincts, and so it allows 
a passion for STEM, for computer science, for coding to 
flourish in these students.
    As I mentioned, we are creating a diverse pipeline of 
computer science talent. A full one-third of the Congressional 
App Challenge was held in districts last year where they have 
sizeable rural populations. So those are either districts that 
qualify as pure rural or rural-suburban. Nearly 90 percent of 
States hosted at least one app challenge in 2018. And, again, 
Silicon Valley's best diversity metrics----
    Ms. Herrera Beutler. We always--the girls always win.
    Mr. Alessi. Against their best diversity metrics, 
participants in the Congressional App Challenge are four times 
as likely to identify as black, three times as likely to 
identify as Latino, twice as likely to identify as female. And 
3.3 percent of our participants last year identified as Native 
American or Native Alaskan. And Silicon Valley's numbers are 
low to the point that, last we checked, they were unable to 
measure them.
    And that really hammers on the point of how diverse of a 
competition this is, both geographically, across the lines of 
race, across every category that you can imagine.
    It is also worth mentioning that 44 percent of our 
participants from last year's competition described themselves 
as beginners. So this is a bridge for students to learn more 
about computer science and coding and potentially explore a 
career path in the future. It is an opportunity to inspire 
those students, not just highlight those who already have an 
interest in the subject matter.
    We are an inflection point both as a Nation and as a 
program. I am not going to belabor the need for computer 
science and STEM talent in the United States. I think 
Congresswoman Eshoo did a great job of that earlier.
    But I will mention, as she mentioned, the growth of this 
program has outstripped our ability at IEF, the foundation that 
administers it, to administer it. Serious investment in both 
program infrastructure and outreach are needed to help this 
program reach its full potential. Only a small investment is 
needed. We are a full-time office of only two people, and we 
currently rely on self-sourced private sector funding for 100 
percent of our funds to make this contest possible.
    I like to imagine what would be possible at this time with 
critical support from this committee and from the House of 
Representatives to own a program that is a program of the House 
of Representatives. We are just scratching the surface of this 
program's potential.
    So, you know, to sum things up, I just want to say this 
program really does--it deserves more than free solutions like 
spreadsheets and Google forms daisy-chained together by a small 
team of professional staff and interns. We have already seen 
some of the talent that has come out of the Congressional App 
Challenge, and I would like to imagine what we can uncover with 
additional resources.
    And thank you both for your time. I am happy to take any 
questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Ryan. Great. Thank you. Phenomenal. We love this. 
Obviously, we have some challenges as far as trying to fund all 
of these great programs. But this is something we are all, I 
think, in love with. And if you could share those exact 
statistics with us again, I want to make sure----
    Ms. Herrera Beutler. It would be helpful.
    Mr. Ryan [continuing]. Commit those to memory.
    Mr. Alessi. Absolutely. I would be happy to do that.
    Mr. Ryan. Thank you.
    Mr. Alessi. Thank you very much.
                              ----------                              

                                            Tuesday, April 2, 2019.

  NEED FOR CONGRESSIONAL INTERVENTION TO ENSURE THE ABILITY OF GAO TO 
        AUDIT AND INVESTIGATE INTELLIGENCE COMMUNITY COMPONENTS


                                WITNESS

KEL McCLANAHAN, EXECUTIVE DIRECTOR, NATIONAL SECURITY COUNSELORS, 
    NATIONAL SECURITY LAW
    Mr. Ryan. Okay. Next is Kel McClanahan--speaking of 
Italian, Kel McClanahan is our next--I am half Irish too, 
though, so we are good. Executive Director, National Security 
Counselors.
    Mr. McClanahan, you have the floor.
    Mr. McClanahan. Thank you, Ranking Member and Chairman, for 
inviting me here.
    I am here to talk about what should be a relatively 
noncontroversial idea, the idea that the Government 
Accountability Office, GAO, has the ability to investigate all 
agencies of the Federal Government. This is something that 
should be the case but, unfortunately, is not. There is a large 
portion of the Federal Government, the intelligence community, 
that regularly refuses to cooperate. And this has gone back 
decades that I won't go into. It is in my written testimony.
    The gist of it is, in 2001, they came and testified that 
they discontinued such work on an investigation they had been 
asked to do because the CIA was not providing them with 
sufficient access to information to perform their mission. This 
was 2001. They had to make a conscious decision not to further 
pursue the issue and, in fact, commented that, when they had 
managed to get information, it was only through subterfuge 
saying that they requested threat assessments so that the CIA, 
quote, does not perceive our audits as oversight of its 
activities, unquote.
    And fast-forward to 2008. You have a fight again where they 
say: We foresee no major change in limits in our access without 
substantial support from Congress, the requester of the vast 
majority of our work.
    Well, the reason for this goes back to a 1988 Office of 
Legal Counsel opinion that says that intelligence is the 
executive discharge of its constitutional foreign policy 
responsibilities, not its statutory responsibilities, and, 
therefore, it is not, quote, a program or activity the 
government carries out under existing law, unquote, which is 
how they explained removing it from GAO jurisdiction.
    So this has been tried to be fixed many times in the past, 
most recently in 2010 when the fiscal year 2010 Intelligence 
Authorization Act actually added in the House version language 
that said that the Director of National Intelligence shall 
cooperate with GAO and shall direct intelligence agencies to do 
so.
    OMB threatened to veto it citing the OLC opinion. And 
Comptroller General Gene Dodaro wrote a detailed memo refuting 
this analysis and saying that it has greatly impeded GAO's work 
for the Intelligence Committees and also jeopardizes some of 
GAO's work for other committees of jurisdiction, including 
Armed Services, Appropriations, Judiciary, and Foreign 
Relations, among others.
    But Congress decided to give the executive another chance. 
And they included a provision in the final bill that directed 
the DNI to formulate a policy about this. And the DNI created 
Intelligence Community Directive 114, which said that 
intelligence agency shall only cooperate with GAO on matters 
that don't fall within the purview of the congressional 
intelligence oversight committees, which means that GAO can 
only investigate things that the Intelligence Committees can't, 
which is basically nothing, so we are back to where we started.
    Well, this is a problem for a few reasons. Number one, it 
is a logistical problem. In 2009, there were 199 staffers at 
GAO with top secret clearances and 96 with sensitive 
compartmented information clearances. In 2018, there were 35 
Senate Intelligence Committee staffers and 37 House 
Intelligence Committee staffers. There are more people at GAO 
with SCI clearances than the entire staff of HPSCI and SSCI put 
together.
    And this isn't just us. Mr. Dodaro has come and testified 
about this many times. I testified with Chairman Ryan and then-
Chairman Yoder last year. And after my testimony, Chairman 
Yoder asked Mr. Dodaro about this and asked if they needed 
additional support from Congress, a direction for the 
intelligence agencies, and he said yes.
    And then this year, Chairman Ryan, thank you very much, you 
asked Mr. Dodaro again, has this improved? And he said that the 
IC has gotten a little bit better when an Intel Committee is 
involved but that they have more difficulties when the request 
comes from non-Intelligence Committees. And that is an 
understatement.
    In fact, in the last 5 years, an intelligence agency has 
refused to give information to GAO in two cases and given it 
only after what Mr. Dodaro called excessive delays in 13 cases. 
And those cases were both mandates and requests from committee 
chairs from both Intelligence Committees, the Homeland Security 
Government Affairs Committee of the Senate, the Homeland 
Security Committee of the House, both Judiciary Committees, 
both Appropriations Committees, the Foreign Relations Committee 
in the Senate, and the House Foreign Affairs Committee. So 
basically any committee that could conceivably have any degree 
of jurisdiction over the intelligence community is being 
rebuffed.
    And the bottom line--These artificial restrictions on GAO's 
authority are causing Congress to expend more financial and 
manpower resources to accomplish less oversight. So, in effect, 
I am not asking you for money. I am asking you to do something 
through report language or statutory language that will save 
you money that you could then spend on all of these other 
worthy programs that people are asking you for money for.
    And, with that, I am happy to answer any questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Ryan. Kel, we appreciate your testimony here and all 
your good work. Thank you so much. And on behalf of everyone 
else here that may get the money from your savings, they thank 
you as well. But we appreciate you sticking to this. It is 
really important, so thank you so much.
                              ----------                              

                                            Tuesday, April 2, 2019.

    STRENGTHENING INTELLIGENCE OVERSIGHT THROUGH PROVIDING ADEQUATE 
CLEARANCES AND DESIGNEES TO PERSONAL OFFICE STAFF FOR KEY CONGRESSIONAL 
                               COMMITTEES


                                WITNESS

MANDY SMITHBERGER, DIRECTOR, CENTER FOR DEFENSE INFORMATION AT THE 
    PROJECT ON GOVERNMENT OVERSIGHT
    Mr. Ryan. Next up Mandy Smithberger, director of 
information at the Project on Government Oversight. And on deck 
is Gabe Cazares. All right. Where are you from?
    Ms. Smithberger. Columbus.
    Mr. Ryan. All right. Very good.
    Ms. Smithberger. Thank you so much, Chairman Ryan and 
Ranking Member Herrera Beutler, for allowing me to testify 
today on behalf of the Project on Government Oversight and 
Demand Progress on strengthening Congress' capacity to conduct 
oversight on matters of national security.
    We respectfully urge your committee to provide adequate 
resources so that personal office staff for members of the 
House Permanent Select Committee on Intelligence, the House 
Appropriations Defense Subcommittee, and the House Armed 
Services Committee can receive the clearances necessary to 
properly oversee intelligence and other national security 
agencies.
    Without personal office congressional staff with TS/SCI 
clearances for Members on those committees, many of the Members 
are overseeing the executive blindfolded. In addition, we are 
urging the committee to require a public-facing report 
detailing the cost of providing these clearances to one staff 
member for every Member of the House.
    Before I worked for the House, I was in the intelligence 
community, and I appreciate how important it is to properly 
protect sensitive national security information. I also know 
that Congress needs more resources to perform its 
constitutional oversight duties. We signed that letter that 
Daniel was talking about on allocations.
    The reform that we are talking about here particularly for 
House Intelligence is already implemented in the Senate 
Intelligence Committee. It is overdue to be adopted in the 
House. Both the chair and the ranking member of the House 
Intelligence Committee have expressed concerns about inadequate 
resources. And the chair of the committee has said that he 
finds the idea of designees appealing.
    As this committee is well aware, the legislative branch 
receives approximately 0.4 percent of the discretionary Federal 
budget to oversee the entire Federal Government.
    For comparison, the intelligence community requested about 
$86 billion this year, or 18 times that amount. So you guys are 
outgunned. And the more resources that you can have to make 
sure that you are preventing waste, fraud, and abuse I think 
the better and safer we are all going to be.
    While we believe that every committee is underresourced, 
that problem is particularly acute for the House Intelligence 
Committee because we can't count on the press, civil society, 
or other stakeholders to fill in the gaps to help Congress 
uncover waste, fraud, and abuse.
    History has shown that while Congress has curtailed its own 
access to national security information, the number of 
executive branch employees and contractors accessing this 
information has exploded. The most recent public data showed 
about 1.2 million people had TS clearances, and about half of 
those were contractors.
    While we don't know the full scope of how many legislative 
branch staffers have this information, we would urge Congress 
to track and publicly disclose that information. Even if our 
proposed reform was adopted, the number of cleared staff is 
unlikely to increase the total number significantly.
    The costs are also likely to be minimal. The three 
committees we are identifying here have fewer than a hundred 
members. It is our understanding the cost for providing staff 
with TS/SCI clearances is largely borne by the CIA, and the 
cost of investigating and adjudicating those clearances is 
around $5,000 for someone who has never held one.
    We do anticipate that there would be some funding needed 
for the legislative branch to maintain records of nondisclosure 
agreements, to store classified documents, and track 
individuals granted clearance. We urge the committee to 
increase funds for the Sergeant at Arms accordingly.
    But since most of the personal office staff with the 
relevant committees likely already have TS clearances, 
providing additional access should not be overly burdensome.
    It is of paramount importance, though, to make sure that 
increased access is handled responsibly. And so we would also 
urge the committee to have increased counterintelligence 
training, akin to what we see in the executive branch, and to 
include in that training the reminder that congressional staff 
have the same duties to protect the sensitive information.
    As I describe in my written testimony, former members of 
the committee from both sides of the aisle have described how 
difficult it can be to target questions for agencies that are 
naturally secretive. The answer to this problem is to ensure 
that each member of these key committees has someone who will 
primarily reflect their interest and their specificities and 
act as a confidential sounding board. Empowering personal 
office staff who will function as designees or shared staff is 
the obvious and economic solution.
    Most importantly, implementing a designee system can 
increase the effectiveness of these committees. Former Senator 
Saxby Chambliss, who served both on the House Intelligence 
Committee and was the vice chair of the Senate committee, said 
that the designee system increased bipartisan collaboration and 
made the committee more effective because they could take on 
more policy portfolio issues. Overall, providing designees or 
shared staff to the Members of the House would increase both 
the capacity and I think the credibility of these committees.
    As you mentioned earlier, years of executive overreach by 
both Democratic and Republican administrations have 
unconstitutionally diminished Congress' role. We are really 
excited about this committee making sure that you guys get the 
respect and resources that you need. Congress must reassert 
itself as a coequal branch, and that has to start with 
providing sufficient support to Members to perform their 
constitutional oversight duties.
    Thank you, and I look forward to your questions.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Ryan. Thank you so much. I sit on Defense 
Appropriations Subcommittee as well, and----
    Ms. Smithberger. And thank you for your work on----
    Mr. Ryan. Yeah. So there is a perfect example of what 
happens in the Department of Defense. And it goes back to the 
whistleblower testimony that we had. And now your testimony, 
obviously, critically important because--well, for obvious 
reasons. I think you were very clear about it.
    So thank you for bringing this to our attention.
    Ms. Smithberger. Thank you so much for having me
                              ----------                              

                                            Tuesday, April 2, 2019.

LEGISLATIVE BRANCH APPROPRIATIONS FOR THE NATIONAL LIBRARY SERVICE FOR 
                  THE BLIND AND PHYSICALLY HANDICAPPED


                                WITNESS

GABE CAZARES, DIRECTOR, NATIONAL FEDERATION OF THE BLIND
    Mr. Ryan. The next witness, director for the National 
Federation of the Blind, Gabe Cazares. Is that right?
    Mr. Cazares. Yes.
    Thank you for having me. I am your disability community 
millennial.
    Mr. Ryan. All right. There you go.
    Mr. Cazares. My name is Gabe Cazares. I am the manager of 
Government Affairs of the National Federation of the Blind. And 
I appreciate this opportunity to propose two appropriations be 
made to the National Library Service for the Blind and 
Physically Handicapped, NLS. In order to fund their program to 
distribute refreshable braille displays, or e-readers, to their 
patrons and to enhance the capacity of the Braille and Audio 
Reading Download, BARD, service.
    The NLS is the primary provider of reading material for 
over 800,000 Americans who are blind or have other physical 
disabilities that make it impossible for them to read print. An 
appropriation of $2.375 million over a 5-year period to NLS for 
the e-reader program will save money and lead to the 
proliferation of critically needed braille materials for blind 
Americans.
    Currently, there are hardcopy offerings, but new low-cost 
displays, or e-readers, similar to the one I am actively using 
at this moment to read my testimony, can produce electronic 
braille, saving money, saving paper, and providing a small 
device where formerly multiple and large volumes were required 
for just one book.
    Moreover, a 2016 GAO report titled ``Library Services for 
Those with Disabilities'' indicated that the cost of embossing, 
housing, and shipping hardcopy braille volumes was $17 million 
annually. That same GAO report estimates that the refreshable 
braille e-reader program and electronically distributed books 
will incur an annual cost of $7 million. That is an annual 
savings of $10 million over the current system.
    In an effort to enhance and expand the availability of 
braille and audio formats, the NLS launched the Braille and 
Audio Download service, or BARD. BARD allows patrons to 
download materials from the NLS catalog onto a compatible book 
player, such as the NLS digital talking book player, onto their 
personal computers or onto the BARD mobile application 
available for Android and IOS devices.
    According to NLS, 45,484 patrons are currently subscribed 
to the BARD service, which holds 108,450 books in its 
collection. Both numbers are expected to increase. However, the 
existing infrastructure that supports the BARD service is at 
capacity. In order to fully harness the potential of the BARD 
service, both hardware and software upgrades are necessary. An 
appropriation of $5 million over a 3-year period to NLS will 
allow NLS to make the necessary upgrades that will enable the 
BARD service to keep up with increasing patron demand. An 
upgraded BARD service will also allow for seamless interaction 
between the service and the NLS e-reader program.
    On behalf of the 50,000 members of the National Federation 
of the Blind, I strongly urge you to support these two 
appropriation requests and thank you for your consideration, 
and I am happy to answer any questions you may have.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Ryan. Okay. And thank you so much for your testimony.
    I am going to ask you to do something a little out of the 
ordinary. Can you explain to us how that works? I know we have 
done this offline, but I think it is an important technology, 
and it is important for people to see how this works.
    Mr. Cazares. Sure. So this is a machine that operates with 
electronic pens. And as I am panning back and forth through the 
document that I was just reading, I can read a line of braille 
at a time. And every time I pan to the next line, the pins 
reform into the new cell----
    Mr. Ryan. So you hit those two little gray things on the 
side there----
    Mr. Cazares. Yes.
    Mr. Ryan. And you hit those when you are done reading the 
line, and it pops up the next line.
    Mr. Cazares. That is right.
    Mr. Ryan. Basically.
    Mr. Cazares. And the memory is stored in an SD card back 
here. And I can just plug this into the computer, put in my 
file, swap out files. And this is how the system works.
    Mr. Ryan. You are very fluent in it.
    Mr. Cazares. Thanks.
    Mr. Ryan. That is excellent.
    Well, thank you for your testimony. Chairman Yoder last 
year and I discussed, this very important aspect of what 
happens at the Library of Congress, the National Library 
Service, and for our country. So we appreciate you coming up to 
the Hill and testifying and trying to make a difference here. 
So we appreciate all your good work.
    Mr. Cazares. Thank you. Thank you for your time.
    Mr. Ryan. All right. Thank you.
    All right. That is it. Thank you, everyone, for being here 
and accessing and advocating to your government.
    This hearing is adjourned.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
   
   
</pre></body></html>
